<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



   


 
              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2018

    __________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                              _________

                         SUBCOMMITTEE ON DEFENSE

                      KAY GRANGER, Texas, Chairwoman

  HAROLD ROGERS, Kentucky               PETER J. VISCLOSKY, Indiana
  KEN CALVERT, California               BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                    TIM RYAN, Ohio
  STEVE WOMACK, Arkansas                C. A. DUTCH RUPPERSBERGER, Maryland
  ROBERT B. ADERHOLT, Alabama           MARCY KAPTUR, Ohio
  JOHN R. CARTER, Texas                 HENRY CUELLAR, Texas
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  MARTHA ROBY, Alabama
   

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.


        Jennifer Miller, Walter Hearne, Brooke Boyer, B G Wright,
      Adrienne Ramsay, Allison Deters, Megan Milam, Cornell Teague,
              Collin Lee, Matthew Bower, and Sherry L. Young
                            Subcommittee Staff

                                ________
                                
                                                                   Page
  Testimony of Members of Congress..............................      1                                                 

                                    
  United States Pacific Command.................................    189  
                                                             
                                       
  U.S. Central Command..........................................    257
  
                                                    
  U.S. European Command.........................................    281
                                        
                                                         
 National Guard Bureau / Reserve Componets .....................    319
                                        
 
 Department of Defense..........................................    451
                                                         

 Public Witness Statements.....................................     529                            
  
                                                              

                                        
 
                                  ------                                

 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                       

                                   

                               ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  28-272                   WASHINGTON : 2018

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\          NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama          MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                   PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho            JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas          ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                DAVID E. PRICE, North Carolina
  KEN CALVERT, California              LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                   SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida           BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania        BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                  TIM RYAN, Ohio
  KEVIN YODER, Kansas                  C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas               DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska           HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida            CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee    MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington    DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                 MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California         GRACE MENG, New York
  ANDY HARRIS, Maryland                MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                 KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada               PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

 
                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2018

                              ----------                              

                                           Thursday, March 9, 2017.

                    TESTIMONY OF MEMBERS OF CONGRESS

                 Opening Statement of Chairman Granger

    Ms. Granger. The Subcommittee on Defense will come to 
order.
    Good morning. The subcommittee will hold an open hearing 
during which Members of the House of Representatives will have 
the input and the opportunity to provide the subcommittee their 
input on how to address the challenges and needs facing our 
military.
    At no other time in history have we as a Nation faced such 
serious, complex, and growing threats to our national security. 
As Members of the Congress, it is our constitutional 
responsibility to provide for our Nation's defense. We must 
ensure that the brave men and women who protect us have the 
tools, training, and equipment they need.
    Mr. Visclosky, the committee's ranking member, and I are 
here today to hear your thoughts and ideas about how we can 
make sure the Department has what it needs to meet the 
challenges. Your input today will be of great benefit to the 
committee as we draft the fiscal year 2018 defense 
appropriation bill.
    At this time, I would like to recognize Mr. Visclosky, the 
ranking member, for any opening comments he would like to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. I thank the chairwoman.
    First of all, I want to thank the chair for holding this 
hearing. I do think it is vitally important at the outset, 
given the fact that we are going to have a supplemental due 
shortly, as well as a fiscal year 2018 budget submission in May 
to hear from our colleagues in advance. I also look forward to 
the hearing. I also appreciate the fact that I believe this is 
now the first hearing that I will share with the chairwoman and 
wish her luck in this endeavor and look forward to hearing from 
our witnesses throughout the day.
    Thank you very much.
    Ms. Granger. Thank you.
    Out of respect for members' time, we will strictly adhere 
to the 5-minute clock. The timer in front of me, this one right 
here, will change from green to yellow when you have 1 minute 
remaining to conclude your statement. Your full written 
statement will be made a part of the record.
    The gentlelady from Guam is recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. MADELEINE Z. BORDALLO, A DELEGATE FROM THE TERRITORY OF GUAM

                 Summary Statement of Delegate Bordallo

    Ms. Bordallo. Thank you very much, Chairman Granger, and 
Ranking Member Visclosky, and the members of the Defense 
Appropriations Subcommittee. And thank you for allowing me the 
time to address you this morning.
    I do very much appreciate the work that this subcommittee 
made in developing the fiscal year 2017 appropriations bill. 
And I believe it makes many good investments in the defense of 
our country. And I thank the subcommittee for their support of 
some critical programs.
    Though it is difficult to make requests without a budget 
before us, I would like to take a few minutes to outline a few 
critical capabilities which I hope to see supported as the 
appropriations process for fiscal year 2018 moves forward.
    In particular, I would first like to note my appreciation 
for your inclusion of $9.5 million in fiscal year 2017 
appropriations bill for the reestablishment of drydocking 
capabilities in the western Pacific. This critical funding, 
which is a tiny fraction of the Navy ship repair account, will 
enable our forward deployed forces in the region and reduce our 
reliance on foreign ship repair. This is particularly important 
in a contested environment with the potential for limited 
access, so I very much appreciate the committee's support in 
appropriating at the authorized level for fiscal year 2017.
    Now moving forward, I do hope to continue to work together 
to ensure that the Navy is adequately resourced to operate and 
maintain their fleet in the western Pacific, especially given 
that 60 percent of the fleet is to be operating in the Pacific; 
60 percent. And the threat in our region, Madam Chairman and 
Ranking Member, is very, very real, and it grows more so every 
day. Funding this capability is essential to having a viable, 
forward deployed fleet.
    The second item I would like to raise is my support for 
full funding of the B-21 Raider program. This next-generation 
bomber will replace a sorely aging fleet that has provided us 
with long-range strike capabilities for generations. With an 
ability to strike anywhere in the world, it is the most 
versatile leg of the nuclear triad, and also provides a tested 
and proven conventional strike capability.
    Moving forward, especially at this stage of the acquisition 
program, it will be important to ensure adequate funding in 
order to avoid unnecessary and costly delays. On Guam, we 
recently saw the deployment to the Pacific of all three 
existing bomber airframes for the first time in history, and 
the continuous bomber presence at Anderson Air Force Base is a 
linchpin for America power projection in the region.
    And finally, Madam Chairman, I also want to briefly touch 
on the Readiness and Environmental Protection Integration 
program. I have appreciated very much this committee's long-
standing support to find resources to address the unfunded 
requirements of this program. The REPI program helps to stop 
encroachment at the U.S. military installations and training 
ranges across the country. There is a long and a growing list 
of projects that need funding, so I would ask the subcommittee 
to continue to address the unfunded requirements to address 
this backlog.
    And again, Madam Chairman and Ranking Member, and other 
members, I thank you again for your time and your support. I 
truly appreciate it and the consideration of my testimony here 
today. And I yield back.
    [The written statement of Delegate Bordallo follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Ms. Granger. Thank you for your testimony today and your 
continuing support. I enjoyed our visit there. Thank you very 
much.
    Next, the subcommittee welcomes the gentleman from 
Pennsylvania. Welcome, and you are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. GLENN THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

               Summary Statement of Congressman Thompson

    Mr. Thompson. Thank you, Chairwoman Granger, Ranking Member 
Visclosky. I want to take a couple seconds. I just had the 
opportunity to spend some time with the gentlelady from Guam 
and our Natural Resource chairman in Guam. I certainly want to 
support her request. It is very evident being there how that it 
really is the tip of the spear for us in terms of our defense. 
And good morning and thank you for the opportunity to share my 
priorities for fiscal year 2018 defense appropriations.
    As the father of an Army staff sergeant who has received 
the Purple Heart during combat in Operation Iraqi Freedom and a 
strong supporter of our Nation's defense programs, I appreciate 
the subcommittee's willingness to receive testimony from 
incoming members. This truly is a privilege and an honor to be 
before you this morning. I recognize the challenges placed 
before the subcommittee and I appreciate your ongoing 
commitment to our soldiers, sailors, airmen, marines, Coast 
Guardsmen, and Reserve forces.
    For the first time in years, we have an opportunity to 
ensure that our military does not face a continued drawdown in 
force strength. This begins with ensuring that our military 
continues to have the tools and equipment to get the job done. 
And for this reason, I will be respectfully requesting funding 
for the C-130 in-flight propeller balancing system to be 
increased by $18 million from fiscal year 2017 levels. The 
system will improve fuel efficiency, increase readiness and 
mission availability, and reduce maintenance costs for our 
Nation's C-130 fleet.
    I also respectfully request full funding of the Columbia-
class submarine program. As the Ohio-class submarines begin to 
retire in 2031, it is imperative that we fund their replacement 
to maintain a presence in the world. Supporting our troops when 
they return home from the front lines is just as important as 
providing them the tools that they need to defend our Nation.
    As a former healthcare professional with nearly 3 decades 
of experience, I would like to advocate for expanding 
telemedicine access for veterans and out Active Duty military. 
In light of recent technology advances, evolving telemedicine 
programs and the authority given to the Department of Defense 
by Congress in support of telemedicine, I respectfully request 
strong financial support for both the medical information 
technology development program and the medical technology 
development program within DOD defense health programs for 
fiscal year 2018.
    It is undeniable that those within the Department of 
Defense have demonstrated their willingness to improve the 
lives of the military members and civilians alike. Medical 
research conducted within the Department has led to lifesaving 
breakthroughs and the development of effective treatments for 
numerous conditions. In order for the Department to build on 
previous discoveries and maintain momentum in medical research 
fields, it is imperative that we provide adequate funding for 
vital research programs. These include the multiple sclerosis 
research program, the ALS research program, the breast cancer 
research program, the ovarian research program and the Peer 
Reviewed Orthopaedic Research Program. There is no doubt that 
making critical investments in medical research at the Federal 
level will improve the well-being of our Nation as a whole.
    Now, while we work to assist our servicemen and -women who 
are here with us, we must keep in mind the more than 80,000 
American citizens who served in the Vietnam war, the Korean 
war, and World War II who are still missing in action, 
according to the Department of Defense. For those who made the 
ultimate sacrifice, their families and loved ones deserve no 
less than our greatest efforts for their recovery. To continue 
attempts to recover our fallen heros overseas, diligent work 
planning and sufficient funding is necessary. To provide 
grieving families the opportunity for closure, I respectfully 
request that the subcommittee supports robust funding for the 
Defense POW/MIA office in the fiscal year 2018.
    In tandem with providing adequate support services to all 
our servicemen and -women, we must also recognize the value of 
encouraging innovation in the U.S. defense industrial base. The 
manufacturing technology program, also known as ManTech, is 
intended to improve the productivity and responsiveness of the 
U.S. defense industrial base by funding the development 
optimization and transition of providing manufacturing 
technologies to key Naval suppliers. And specifically my 
district, the Pennsylvania State University's Applied Research 
Laboratory manages two ManTech centers of excellence: The 
Institute of Manufacturing and Sustainment Technologies and the 
Electro-Optics Center. The work accomplished by these 
partnerships includes basic and applied research and technology 
demonstrations and facilitation of technology 
commercialization. I respectfully encourage the committee to 
look favorably at this request.
    And finally, I would like to register my support for a 
diverse energy mix in the American military installations 
abroad, including energy domestically sourced. If there are 
viable, cost effective ways to utilize American energy on our 
bases abroad, I fully recommend that we pursue those avenues. 
And specifically, I recommend the United States implement 
strategies to consider that all energy needs acquired by the 
Kaiserslautern Military Community in the Federal Republic of 
Germany be sourced domestically within the United States.
    Really again, once again, it is a privilege and honor to be 
before you this morning, and thank you for your leadership that 
you are providing.
    [The written statement of Congressman Thompson follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Ms. Granger. Thank you very much.
    Mr. Visclosky.
    Mr. Visclosky. Madam Chair, I appreciate the gentleman 
raising the issue of the industrial base, particularly ManTech. 
You are not the only member that has certainly brought it to 
the committee's attention, but appreciate your concern. I also 
appreciate the fact that we have been joined by four of our 
colleagues during your testimony. It was compelling. Thank you 
very much.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from Oklahoma. Welcome. You are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. JIM BRIDENSTINE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA

              Summary Statement of Congressman Bridenstine

    Mr. Bridenstine. Thank you, Madam Chair, and thank you 
ranking member. I have five specific requests that I will get 
right into.
    First, I would request that this subcommittee appropriate 
$10 million for Air Force weather service or weather system 
follow-on RDT&E funds to fund the commercial weather data pilot 
program. Congress formerly established this program in the 
fiscal year 2017 NDAA. The Appropriations Committee provided $5 
million for the program in the fiscal year 2017 defense 
appropriations bill we just passed yesterday. So thank you for 
that.
    The reason we need, in my estimation, a commercial purchase 
of data for weather for the Department of Defense is threefold. 
Number one, it distributes the architecture. Currently, we have 
massive satellites that could be an easy target for the enemies 
of the United States. If we start purchasing commercial data, 
it very quickly distributes the architecture. In other words, 
there are more satellites that complicate the targeting 
solution for the enemy.
    I am not suggesting that we need to cannibalize any of our 
existing architecture at all. In fact, the program did continue 
to go forward, but we need to augment that with additional 
commercial data simply to distribute the architecture and 
complicate the targeting solution and lower the orbit for the 
enemies of the United States. That is number one.
    Number two, it also spreads the cost across the private 
sector. These constellations are launching not because they 
want to serve the Department of Defense; they are launching 
because they are serving the agricultural industry, the 
transportation industry, the entertainment industry, the 
shipping industry. And so what we ought to do as a government 
is be one of many customers of this private commercial weather 
data and feed our numerical weather models.
    Finally, when we do this, we get more data, better data, in 
some cases, more resilient data and, certainly, more rapid 
refresh of the data, which all improves the weather models for 
the warfighters in theaters. So I think it is important that we 
fund $10 million in Air Force weather service or weather system 
follow-on RDT&E money.
    Second, this subcommittee should appropriate at least $50 
million in Air Force wide band global SATCOM RDT&E for the Air 
Force satellite communications pilot program. The fiscal year 
2015 NDAA created this pilot program to fund demonstrations of 
commercial SATCOM services which offer order of magnitude 
increases in capability. The Defense Authorization and 
Appropriations Committee have strongly supported this program. 
This Appropriations Committee included $10 million for it 
within the fiscal year 2017 bill.
    The reason this is important, as a warfighter we have 
bifurcated architectures. We lease commercial SATCOM 
capabilities from the private sector at the same time that we 
are building our own government owned and operated systems. 
Government systems use X-band, Ka-band upper. Commercial 
systems use C-band, Ka-band lower, as well as Ku-band. The 
challenge here is they don't work together. We need a single 
integrated system. We have an analysis of alternatives that is 
currently being prioritized right now by the Department of 
Defense to bring these architectures together. And we need 
order of magnitude, generational leaps, and capability that 
commercial can bring to the table.
    That brings me to my third request, which is protected 
tactical service. In this bifurcated environment that we live 
in, commercial SATCOM is not as resilient as it otherwise could 
be. It brings a tremendous amount of capability in throughput 
and data, hundreds of gigabits per second of throughput, but it 
is not protected. It is not frequency hopping for antijam 
capabilities. In many cases, it is not encrypted. So what we 
have to do to bring the architectures together is fund the 
protected tactical service so we get the wave forms and the 
modems necessary for commercial operators to be able to provide 
the warfighters some level of protection. So sticking with 
this, we need to fund the protected tactical service.
    Fourth, this subcommittee should support the President's 
likely budget request--I say likely because it is not 
guaranteed--for enterprise ground services. We need to make 
sure that our systems are not bifurcated. So when you think of 
communications, GPS, missile warning and weather, these ground 
systems are not able to receive and transmit each other's data. 
What this means is that everything is stovepiped and it 
prevents us from being able to create a single integrated 
operating picture for the combatant commanders in theater. So 
we need to fund the enterprise ground services program that I 
hope will be in the President's budget request.
    Finally, this subcommittee should appropriate at least $30 
million in Air Force RDT&E money for the space test program to 
fund responsive launch operational demonstrations and missions. 
The Appropriations Committee included $15 million in the fiscal 
year 2017 appropriations for this purpose. The reason this is 
important, constellations are growing, electronics are getting 
smaller, we are seeing a whole lot more activity being launched 
into low Earth orbit. We are talking about launch manifest 
growing exponentially and these launches are going overseas. 
The Department of Defense is now dependent on commercial 
satellites, commercial capabilities, and these are growing 
rapidly. And our launches now are going overseas because we 
don't have the infrastructure here. So that would be my final 
request.
    [The written statement of Congressman Bridenstine follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Ms. Granger. Thank you very much. Thank you for your 
information.
    Each person has 5 minutes to speak. At the 4-minute time, 
your yellow light will come on, that gives you one more minute. 
However, we have your written testimony. So if you are not able 
to testify and finish that in 5 minutes, we have it written 
here.
    Mr. Visclosky, did you have something?
    Next, the subcommittee welcomes the gentleman from 
Pennsylvania. You are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. BRIAN K. FITZPATRICK, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF PENNSYLVANIA

              Summary Statement of Congressman Fitzpatrick

    Mr. Fitzpatrick. Good morning. I would like to start by 
thanking Chairwoman Granger, Ranking Member Visclosky, and 
members of the subcommittee for holding this hearing. And I am 
here today on behalf of Pennsylvania's Eighth Congressional 
District in their support for Department of Defense funds be 
allocated to a comprehensive health study and remediation 
effort of public and private wells contaminated by 
perflourinated compounds, namely PFOA and PFOS.
    Nearly 70,000 Pennsylvanians may have been exposed to 
levels of PFOA and PFOS exceeding the lifetime health advisory 
level set by the EPA. These chemicals have been reported in 
public and private drinking wells at and around the former 
Naval Air Warfare Center in Warminster and former Naval Air 
Station Joint Reserve Base in Horsham, as well as the Horsham 
Air Guard Station. These contaminants have also been found in 
communities surrounding over 600 military installations 
nationwide. PFOA has heavily impacted communities such as 
Hoosick Falls, New York, as well.
    PFOS, PFOA, and other emerging contaminants are unregulated 
compounds being sampled for the first time in public water 
systems. The EPA uses unregulated contaminant monitoring rule 
to collect data for contaminates suspected to be present in 
drinking water. In the summer of 2014, as a result of the EPA 
effort to test for emerging contaminants, concentrations of 
PFOS and PFOA were found to exceed the EPA's provisional health 
advisory levels of 400 parts per trillion in several onsite 
monitoring wells. The U.S. Navy and Air National Guard, in 
conjunction with the EPA, expanded groundwater sampling in my 
district to include private wells and public offsite wells. In 
May of 2016, the EPA released a lifetime health advisory of 70 
parts per trillion on the chemicals. Since then, 22 public 
wells and over 140 private wells have been shut down due to 
high levels of PFOS and PFOAs.
    The military does not dispute its responsibility for the 
well contamination in Horsham, Warrington, and Warminster. And 
it is suspected that high levels of PFOS and PFOA originated 
from firefighting foams used in the Naval and Air National 
Guard bases in the 1970s. The Navy has spent at least $19 
million and the Air National Guard has spent at least $8.3 
million in remediation efforts, which includes the installation 
of granular activated carbon filtration systems in public 
wells, bottled water for residents with private wells, pump 
connection to public water systems, and paying for replacement 
water from neighboring public water systems. That said, the 
Department of Defense should work with Centers for Disease 
Control and the Pennsylvania Department of Health to conduct a 
comprehensive study related to the long-term health impacts of 
both PFOA and PFOS. My constituents have a right to safe, clean 
drinking water and they deserve to know if PFOS and PFOA have 
compromised their long-term health.
    I urge you to include funding for the Department of Defense 
to conduct long-term health study on the impacts of these two 
chemicals, PFOS and PFOA. These studies will aid the Federal 
Government, in conjunction with State and local agencies, to 
reverse the contamination and protect the health and welfare of 
residents. Additionally, I urge the committee to appropriate 
funding that allows the Department of Defense to fund cleanup 
and remediation of PFOS and PFOA.
    While the U.S. Navy and Air National Guard have worked in 
conjunction with affected municipalities in supplying clean 
drinking water to residents, the decision for public water 
suppliers to purchase uncontaminated water from the surrounding 
communities resulted in the water customer bearing the cost.
    Again, I would like to thank you for your time and 
consideration. A low cost, common-sense study will go a long 
way in providing Americans critical information about the 
impact that these unregulated chemicals may have on our health, 
and we look forward to working with you and this committee in 
accomplishing that goal. And I thank you for your time.
    [The written statement of Congressman Fitzpatrick follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. Granger. Thank you very much. And thank you for your 
testimony.
    We have two others that signed up for this time who are not 
here right now, they haven't come in yet. So we will give a few 
minutes to see about that.
    Are there any questions on this testimony?
    Thank you very much.
    The gentleman from Texas, welcome. We will take you now, 
Roger Williams.
    I recognize the gentleman from Texas. Welcome. You are 
recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. ROGER WILLIAMS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS

               Summary Statement of Congressman Williams

    Mr. Williams. Thank you, Madam Chairman, and Ranking Member 
Visclosky, members of the subcommittee. I thank you for 
allowing me to testify before you today about some of my 
priorities for the fiscal year 2018 Department of Defense 
appropriations bill.
    But first, Madam Chair, I would like to congratulate you on 
the chairmanship of this prestigious subcommittee. I think the 
funding of our Nation's military and national security could 
not be in better hands or more capable hands, and I am proud to 
call you my friend. So congratulations.
    The single most important duty for Congress is to provide 
for our national defense. Our troops deserve to have the 
resources they need to be the very best in the world and to 
protect our country and our way of life. As a Member of 
Congress whose district includes Fort Hood, I know that the 
great place is the gold standard for the Army, the Department 
of Defense, and our Nation's overall national security posture.
    It is my hope that this subcommittee will aggressively fund 
our military personnel and pay to cover the base requirements, 
as well as overseas contingency operations and global war on 
terror requirements. I oppose any troop reductions and fully 
support an additional pay raise also for our troops.
    I want to express my support for the F-35. As the only 
fifth generation aircraft in production, I would urge the 
subcommittee to support an investment in F-35 production 
tooling to ensure that the program can support full rate 
production of 80 F-35As, 36 F-35Bs and 30 F-35Cs in 2021.
    In order to help address the critical need to maintain air 
superiority and support a ramp up to full rate production, I 
urge the committee to support a production ramp of 60 F-35As, 
24 F-35Bs and 12 F-35Cs in fiscal year 2018. This production 
ramp would continue to restore the previously planned F-35 
procurement to address readiness of the fleet and ensure as 
more aircraft become operational that the correct spares are 
available. And I encourage an investment of spares that would 
support $272 million to improve spares performance and another 
$562 million for additional spares procurement in the fiscal 
year 2018 budget.
    Readiness investment in spares is required to ensure that 
we can keep these fifth generation aircraft flying. The program 
supports more than 1,400 suppliers, more than 45,000 direct 
jobs, and another 125,000 indirect jobs in the United States.
    Mr. Williams. I also support the third multiyear 
procurement for the F-22 Osprey. It is my hope that the 
committee consider the $1.25 billion already saved by the first 
two multiyear procurements over year-to-year procurement 
pricing.
    Identified requirements for additional aircraft by all of 
the services should be incorporated into this multiyear 
procurement plan to the maximum extent possible so that 
aircraft's unit cost is the lowest possible. Not only does this 
contribute to further savings for the U.S. taxpayer, but also 
makes the aircraft more affordable to our foreign partners that 
is helping sustain our critically important aerospace 
industrial base and U.S. jobs.
    Madam Chair, our country is facing unprecedented threats 
here at home and abroad from radical Islamic terrorists, 
Russia, North Korea, and China, to name a few. As you make the 
difficult funding decisions for fiscal year 2018 Department of 
Defense appropriations bill, it is my hope that you ensure we 
have the strongest and most effective military to keep our 
country safe.
    Thank you again for allowing me to testify before you. May 
God bless you, may God bless the United States of America and 
our military. Thank you.
    [The written statement of Congressman Williams follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                                           Thursday, March 9, 2017.

                                WITNESS

HON. JOE WILSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    CAROLINA

                Summary Statement of Congressman Wilson

    Mr. Wilson. Fellow Members of Congress, what an honor to be 
here. This is a pleasant surprise, Madam Chair, for you to be 
here and equally to see what a stellar bipartisan membership 
you have. So I am just very honored to be in everyone's 
presence today.
    I am grateful for the opportunity to meet with you. First, 
I would like to thank Chairwoman Kay Granger for her leadership 
as chairwoman of the House Appropriations Subcommittee on 
Defense. As we face limited resources, I am especially grateful 
to the chairwoman, ranking member, members of the subcommittee 
for advocating on behalf of our national security.
    I am speaking today as both a Member of Congress from South 
Carolina's Second Congressional District and also as chairman 
of the House Armed Services Subcommittee on Readiness. The 
Second Congressional District is home to Fort Jackson, the 
largest initial entry training facility of the U.S. Army. Fort 
Jackson expertly trains tens of thousands of soldiers each 
year, approximately 53 percent of the Army's basic combat 
training load and 56 percent of women entering the Army.
    The base also trains thousands of soldiers in their 
adjutant general, finance, postal, and chaplain schools. 
Additionally, Fort Jackson supports thousands of Active Duty 
military, civilian employees, military family members, and 
veteran services. And I know personally as a former member of 
the Guard I trained at Fort Jackson. I have three sons in the 
Army Guard who have trained at Fort Jackson. And so it is a 
facility that I know firsthand how important it is.
    There is no question that the Second Congressional District 
is possibly impacted by servicemembers stationed at Fort 
Jackson, just as there is no question we uphold our reputation 
as a strong military friendly community. I encourage you to 
continue your support of the unique missions at Fort Jackson 
and across South Carolina.
    As chairman of the House Armed Services Subcommittee on 
Readiness, I am grateful for the opportunity to ensure our 
soldiers, sailors, and airmen and marines have the training, 
equipment, and resources they need to complete their mission. 
That means, hopefully, appropriating the Thornberry-McCain 
proposal of $640 billion to defense spending so we can begin 
the much needed resourcing of our troops.
    As chairman of Readiness, I have heard testimony from each 
branch outlining the negative impacts of sequestration and the 
material effect it has had on each branch. We currently have 
the smallest Air Force since it was created in 1947, the 
smallest Navy since 1917, and the smallest Army since before 
World War II. Yet today, we are facing growing threats or 
capabilities from Iran, North Korea, China, Russia, and Islamic 
terrorists. The facts are clear, for too long we have asked our 
military to do too much with too few resources, forcing 
difficult decisions and delaying critical maintenance 
priorities. This is not sustainable and directly limits our 
military's ability in current and future conflicts.
    I appreciate the President's promotion of additional 
personnel. I respectfully urge the chairwoman and committee to 
support a level of funding that will adequately provide for our 
military and national defense. Threats around the world are 
increasing, sadly, as our military funding has degraded through 
the harmful policy of defense sequestration. We must change 
course to promote peace through strength.
    The first priority of the Federal Government is to do and 
provide for common defense, to do for us what we cannot do for 
ourselves. The government I urge, therefore, support for the 
Armed Services Committee Chairman Mack Thornberry and also 
Senate Chairman John McCain's call for the defense budget of 
$640 billion for fiscal year 2018.
    I would like to thank everyone here for your attention and 
your service on behalf of the American people. I have actually 
seen it firsthand visiting with our personnel in Jordan with 
Congressman Cuellar. And I know what extraordinary people there 
are here. So thank you for your service.
    [The written statement of Congressman Wilson follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    The subcommittee welcomes the gentlewoman from Arizona. You 
are recognized for 5 minutes. The lights in front of us will 
show, when it goes from green to yellow, that means you have 1 
more minute.
    Ms.McSally. Great. Thank you.
    Ms.Granger. Thank you so much.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. MARTHA McSALLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA

               Summary Statement of Congresswoman McSally

    Ms. McSally. Thank you Chairman Granger and Ranking Member 
Visclosky and members of the committee. Thanks for inviting me 
here today.
    I would like to open by asking for your continued support 
for the A-10 Warthog. I was an A-10 pilot and I commanded the 
354th Fighter Squadron at Davis-Monthan Air Force Base in 
Tucson, Arizona. I have flown 325 combat missions myself in the 
A-10. I can tell you firsthand when the American troops are on 
the ground, under fire, on the move, often in very complex 
circumstances, the sound of the A-10 overhead is a sound of 
them being able to live to fight for another day and get home 
to their families. It is a very important asset for our troops, 
and we have got to keep it flying until we have a proven tested 
replacement for it. And I appreciate this committee's support 
in the past and in the bill that we passed yesterday for this 
critical asset.
    Only the A-10 has the lethality, the loiter time, the 
survivability to provide closer support and combat search and 
rescue. It is another important mission that often gets 
overlooked. If a pilot has been shot down or we have somebody 
isolated, it is the A-10 that shows up to provide locating the 
individual, communicating, protecting them, running the entire 
search and rescue operation, to include escorting the 
helicopters in to pick them up. And that often gets overlooked 
to the closer support mission. There is no other asset in our 
inventory in any of the services that provide this capability, 
which is a strategic capability to keep our covenant that we 
are going to bring our troops home if they are ever shot down 
in harm's way.
    So again, we have got to keep this asset flying. We have 
already put the equivalent of four A-10 squadrons in the 
boneyard over the last several years. We are down to only nine 
remaining, which is four Active Duty and five in the Guard and 
Reserves. And these squadrons are smaller than the ones we have 
had before. The squadron I commanded had 24 A-10s. The current 
squadrons, most of them have 18. So we just have a smaller 
capability, and we are really at the floor with 283 airplanes 
in the inventory and we believe that that is where it needs to 
stay.
    Right now, we have got the A-10s. The squadron I commanded 
is over in Turkey and is kicking butt in the fight against 
ISIS. They are going to be exceeding all records from the 
history of that squadron in weapons employment in that critical 
counterterrorism fight. They are in South Korea providing 
critical anti-armor capability, right there south of the DMZ. 
They were deployed for the European Reassurance Initiative last 
year. Again, first time since we have had the A-10, and we have 
no A-10s in the European theater. So now, they are deploying 
back to work with our allies in the face of Russian aggression. 
And last year, they were also deployed to the Philippines. So 
that's four different unique theaters. And again, with only 4, 
8, 10 Active Duty squadrons left that are operational, and we 
really are at the absolute minimum capability and we would like 
to keep it there.
    The fiscal year 2017--fiscal year 2016 and fiscal year 2017 
NDAA and DOD appropriations keeps a minimum of 283 A-10s 
flying, which includes 171 operational. That then adds training 
and test requirements and, again, this is really a minimum 
capability.
    In the fiscal year 2017 NDAA, we also require a side-by-
side comparative test between the A-10 and the F-35. In close 
air support and combat search and rescue, and say we can't 
retire one more A-10 until we are done with that and we get a 
full report to Congress. Now, let me say I am a strong advocate 
of F-35, I love the F-35. We need a fifth generation fighter 
with that capability. As an airman, I understand what it is 
going to bring to air superiority. But I believe we need both 
of these capabilities, this high end F-35, fifth generation 
fighter, plus the ability of an attack airplane like the A-10, 
and we shouldn't have to choose between the two.
    So the support that we have gotten from this committee in 
the past includes also a very critical requirement for 
upgrading the wings of the A-10. In order to keep it flying, we 
have got to rebuild some of the wings structurally so they can 
keep flying well into the 2030s, which the Air Force has 
finally agreed that they want to keep it flying into the 2030s. 
Only 173 of the 283 have had their wings rebuilt. So there is 
110 left in the fleet that haven't been rewinged. And if we do 
nothing, they are going to start being grounded in static 
displays. So we have got to get that going again.
    Now, the bill we passed last night has $20 million in it to 
plant the seed for us to continue with this rewinging. We had 
$100 million in the original bill, it was $20 million 
yesterday, but I think that is a good start to show, hey, we 
are serious about keeping this asset flying and so we have got 
to continue to invest in that. And I appreciate this 
committee's support so that we can rewing the remainder of the 
110.
    I know I am running out of time, but I would also like to 
share my support for the Tomahawk, the AMRAAM, the SM-3 
missiles. These missiles are developed in my district at 
Raytheon. They are critical for our homeland defense. Tomahawk 
is often the first missiles we fire into combat zones. And when 
I was running counterterrorism operations in Africa, often it 
was our weapon of choice to be able to--when Intel came 
together for us to be able to take out the bad guys. So 
continued funding for those critical missile programs is 
something I would really appreciate.
    Also important for our troops and all our services is the 
electronic warfare. The electronic proving grounds is at Fort 
Huachuca--and I know I am running out of time--so please 
continue your support for EW and also remotely piloted 
aircraft. So thanks for the opportunity to testify before you 
today and for all the work you do. And thanks for hearing my 
considerations.
    [The written statement of Congresswoman McSally follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
    Ms. Granger. Thank you so much. Thank you for your service, 
first of all. Thank you for the good job you are doing here in 
Congress. And we have your written testimony also for the 
record as we move through the bill. Thank you.
    Next, the subcommittee welcomes the gentleman from 
Pennsylvania. Welcome. You are recognized for 5 minutes. 
Appreciate your being here.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. PATRICK MEEHAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

                Summary Statement of Congressman Meehan

    Mr. Meehan. Thank you, Chairwoman Granger and Ranking 
Member Visclosky. That is a tough act to follow, as you all 
know that. We have great respect for my colleague and her 
service. And I thank you for the work that you are doing on 
this committee along with your colleagues.
    I came before the subcommittee to discuss two particular 
rotocraft programs that are critical to our warfighters and to 
maintaining the strength of the American defense industrial 
base. The V-22 Osprey is the expeditionary platform of choice 
for the Marine Corps and continues to be a workhorse for our 
Air Force Special Operations Command.
    The V-22's one-of-a-kind capability allows for mission 
flexibility and enable our warfighters to operate safely in the 
most austere and dangerous environments. I am pleased the Navy 
will join the ranks of V-22 operators as it begins procurement 
of CMV-22s this year for its carrier on board delivery mission.
    It has come to my attention that the fiscal year 2018 
budget will request a third multiyear procurement contracting 
authority. And as you well know, these longer contracts allow 
for stable--proven programs like the V-22 to promote supplier 
and manufacturing efficiency and take advantage of economies of 
scale and encourage investment and cost saving initiatives.
    The previous 2 multiyear contracts with the V-22 program 
saved taxpayers over $1 billion. And while protecting taxpayer 
dollars, these contracts have also ensured that our warfighters 
have the resources necessary to carry--to protect our Nation's 
interests. It is for these reasons why I encourage the Air 
Force to take advantage of the multiyear procurement contract 
to procure additional CV-22s for its long-range personnel 
recovery mission. The Air Force leadership has suggested that 
CV-22s make sense for the mission because of the superior range 
in speed, and adding them to the multiyear contract will save 
taxpayers tens of millions of dollars.
    The budget should also reflect the development efforts to 
create a common configuration for the diverse MV-22 models. The 
fiscal year 2018 program will improve fleet readiness and 
insert technology as M-22s upgrade from block B configuration 
to a block C configuration.
    And as the subcommittee considers the totality of the V-22 
Osprey program, I would ask that you support the multiyear 
procurement and common configuration effort and encourage the 
Air Force to add CV-22s in its multiyear procurement contract.
    I would also like to discuss the Army's CH-47 Chinook and 
the U.S. Special Operations Command MH-47 variant. Both the CH-
47 and the MH-47 aircraft continue to perform well in combat 
theaters. They fly over three times the normal peacetime 
operating tempo, while maintaining readiness rates that are 
above the Army standard. And fiscal year 2017 is the last year 
of the current 5-year procurement contract for the Chinook, 
which has saved U.S. Taxpayers another nearly $1 billion. And 
due to budget constraints, only 22 aircraft were requested in 
the President's fiscal year 2017 budget. This is five fewer 
aircraft than were called for in the multiyear. And while I am 
grateful for the subcommittee generously adding five Chinooks 
to restore cuts in the fiscal year 2017 budget, unfortunately 
they are not in the fiscal year 2017 appropriations bill that 
was filed on March 2nd. And I would respectfully request the 
subcommittee consider adding them in 2018.
    And while we do no have the President's 2018 defense budget 
yet, it is anticipated that we will request 13 aircraft: Nine 
CH-47s for the Army and four MH-47s for SOCOM. The Army's 
invested funding in a block II modernization plan to improve 
capability and increase commonality between variants.
    As the committee considers the Chinook program, I encourage 
you to support the budget request for the procurement of the 
additional 13 aircraft as well as block H modernization 
efforts. These two priorities, the V-22 Osprey and the CH-47 
Chinook will help the warfighter as well as workers that supply 
the manpower, parts, and expertise to build such capable 
aircraft. I will support a fiscal year 2018 budget that 
reflects the importance to our Armed Forces that these 
priorities can provide.
    I thank you very much again for the opportunity to testify.
    [The written statement of Congressman Meehan follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Ms. Granger. Thank you, Congressman. Thank you very much 
for your testimony. We have written as well as what you said 
today.
    Next, the subcommittee welcomes the gentleman from 
California. Welcome. You are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. JIMMY PANETTA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                Summary Statement of Congressman Panetta

    Mr. Panetta. Thank you very much, Chairman Granger, Ranking 
Member Visclosky. Good morning. I hope I don't disappoint you 
this morning. I am not actually talking about hardware, 
military hardware, but I am talking about something that I feel 
is just as important, and that is the education of our military 
members.
    I represent the central coast of California. You may know 
it for its beautiful environment or its bountiful agriculture, 
but also it actually has a booming defense presence as well. 
Although for most of the 20th century, that area was known for 
Fort Ord and its fighting 7th Infantry. But now, rather than 
being known for training, how to drive a tank or fly a plane or 
shoot a gun, which we still do at Fort Hunter Liggett and Camp 
Roberts there, but we are known for our military training and 
how to speak a foreign language, cyber warfare, fly a drone, 
and to be leaders in the 21st century of warfare.
    We are known for our military institutions, like the Navy 
postgraduate school, which I will here on out refer to as NPS, 
and the Defense Language Institute, which I will also refer to 
from now on as DLI in my comments. These are part of 13 Defense 
equities that are located in my district. And it is an industry 
that leads to an employment of over 15,000 people and generates 
more than $1.3 billion for the local economy.
    So today, that is why I am here, to respectfully ask all of 
you to include report language to ensure that any new BRAC 
round captures the intellectual capacity of installations in my 
district, like NPS and DOI.
    Previously, my predecessor, Congressman Sam Farr, made 
these same types of requests that are consistent with 
Representative Adam Smith's bill H.R. 753. That is a bill that 
is cosponsored by Ranking Member Visclosky. In that bill, I 
would like to highlight section 6, which defines military value 
criteria as ``the ability to support educational requirements 
that enhance the success of members of the Armed Forces in 
their military career fields and the impact on operational 
readiness of the total force of the Department, including the 
impact on joint warfighting, training, and readiness.''
    As you know, the COBRA models give weight to bases that 
have traditional military assets, like runaways and hangars. 
But there is not any established criteria on how to quantify 
intellectual capacity. Today, the 21st century military force 
must focus on DOD educational institutions because it is that 
type of education and training that I believe are integral to 
our Nation's security and our Nation's military readiness.
    The Navy postgraduate school is a prime example of that 
type of education to prepare our future leaders. It has a 
foreign affairs graduate school, it provides training in cyber 
warfare and how to fly drones and about satellites as well. It 
is clear that when those students graduate, they are prepared 
to lead in the future of warfare.
    Another critical part of the NPS education is the center 
for civil missile relations. That is a place where the focus is 
on relationships with other nations, including enhancing 
democratic civil-military relations, supporting defense reform, 
and teaching institution building, peace building operations, 
and how to combat terrorism. I have no doubt that an investment 
in the NPS and similar types of institutions is a prime 
investment, not only in our military, but in our civil military 
relations around the world.
    Having served with the Special Forces unit in Afghanistan 
as a Naval intelligence officer, I know how important advanced 
education and foreign language training is to doing our duties 
and carrying out our mission. Students at the Defense Language 
Institute, DLI, are not only taught how to be proficient in a 
number of languages, but the school teaches them to understand 
the cultural and regional nuances of a duty assignment.
    Two weeks ago, I had the fortunate opportunity to visit DLI 
and was given my first command briefing. But I have to say that 
the highlight of that visit was the time I spent in a classroom 
with six students in their Farsi language class. And it was 
unbelievable that in the short period of time that these six 
students, who they did not look Middle Eastern, they were from 
Ohio and Florida and California, but what was amazing to see is 
how comfortable they were in speaking that language. It was 
unbelievable, and it actually gave me a lot of hope. And I hope 
it gives you hope in our military personnel and their ability 
to carry out their mission.
    Now, on a separate topic, I know how difficult military 
service can be, not only to a servicemember but on his family. 
As I said, I served in Afghanistan, but I was a reservist who 
was mobilized and deployed for a yearlong assignment, and it is 
nothing compared to the soldiers, sailors, marines, and airmen 
that I saw and met who were on multiple deployments and 
separated from their family multiple times for multiple months 
at a time. That is why I will be submitting to you bill 
language that expands the pool of qualified marriage and family 
therapists in order to increase access to mental health 
providers for our Active Duty military personnel.
    As you know, a great deal of education and training goes 
into getting our servicemembers ready to serve and deploy 
anywhere in the world. Based on education and training that 
takes place at installations like the NPS and the DLI, I am 
confident, and you should be confident, that investments not 
only in our military hardware and training but in the education 
of our military members can only make us more prepared and 
ultimately more safe.
    Thank you, and I look forward to working with you as we 
develop the fiscal year 2018 defense appropriations bill.
    [The written statement of Congressman Panetta follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Ms. Granger. Thank you so much. Thanks for testifying today 
and thank you for your service. It is very helpful that we have 
so many who have served, and so they can speak from experience 
about what is needed now. Thank you very much.
    Mr. Panetta. Understood, ma'am. Thank you.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from Rhode Island. Welcome. You are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. JAMES R. LANGEVIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND

               Summary Statement of Congressman Langevin

    Mr. Langevin. Thank you, Chairwoman Granger and Ranking 
Member Visclosky and members for the committee, for providing 
me this opportunity to testify before you on matters of 
importance and priority to Rhode Island and the Nation as a 
whole. I serve as a senior member of the House Armed Services 
Committee, so I wish to bring several matters before you today 
as you formulate the fiscal year 2018 defense appropriation 
bill.
    First, one of my highest priorities is ensuring robust 
funding for several programs under the Defense health program, 
specifically Spinal Cord Injury Research Program, or SCIRP as 
it is known. SCIRP was established by Congress under the 
Congressionally Directed Medical Research Program to advance 
research innovative technologies to regenerate and repair 
damaged spinal cords, as well as improve rehabilitative 
therapies. Studies have identified a marked increase in the 
rate of combat related spine trauma among casualties in 
Afghanistan and Iraq, and the incidents of spinal injuries 
among combat casualties in the global war on terrorism are 
among the highest in American military medical history.
    Research into spinal cord injury treatment is producing a 
wealth of discoveries that are making the repair and 
regeneration of nerves in the spinal cord in particular a 
potentially not only likely but attainable goal. Major 
improvements in emergency and acute care have improved overall 
survival rates. However, the devastating nature of these 
injuries imparts substantial disability, borne by wounded 
servicemembers, their families, and the American healthcare 
system.
    Remarkable advancements in treatment are now ripe for 
further development, including clinical trials, but these next 
steps will only be achieved if we continue our support for the 
program through robust funding and larger individual research 
grant awards.
    Second, we must ensure, on another topic, that we continue 
to support vital submarine programs at the highest levels 
possible, particularly the Virginia class, Virginia payload 
module, moored training ship, and Columbia class programs, all 
of which maintain our dominance in the undersea domain and 
provide the day-to-day nuclear deterrent as part of the triad.
    As you know, the Columbia class SSBN program is the Navy's 
highest acquisition priority and is being designed by our 
Nation's best and brightest to have a longer service life, 
better operational availability, and better survivability than 
its predecessors, all at a reasonable cost and with the most 
advanced capabilities available.
    The need is urgent, members of the committee. The current 
Ohio class force will begin retirement in 2027 and must be 
replaced. The Columbia class program is out of margin in its 
timeline, and we must continue to support this program at the 
highest levels possible lest we fall behind schedule and suffer 
cost overruns.
    For this reason, it is vital the committee support advanced 
procurement funds for these programs to support acquisition of 
long lead time material and advance manufacturing efforts so 
that we can maintain the on-time deliveries of our submarines 
to support our Navy's operational needs and minimize the 
projected shortfalls of fast attack submarines starting in the 
mid-2020s.
    Third, I urge your support for the rapid development, 
prototyping, and fielding of new and advanced technologies. New 
tools are being deployed at record speed, on a larger scale, 
and with a cost-effectiveness that will exploit our enduring 
advantages over our competitors. We never want to send our 
warfighters into a fair fight, and it is these advanced 
technologies that make sure that our warfighters continue to be 
effective and save.
    Technologies such as directed energy, hypersonics, 
electronic warfare, and autonomous systems are truly game-
changing tools for our arsenal. And these technologies are at 
the forefront of the third offset strategy. Too often, capable 
improvement directed energy weapon systems languish in 
perpetual research and development. As these systems reach 
their maturity and risk mitigation techniques are applied, we 
must provide our military with tactical and strategic 
advantages wherever and whenever possible.
    Finally, as we have seen over the past decade, cyber 
intrusions into American networks and systems have become more 
prevalent and more deleterious than ever before. I have been 
encouraged by the Department of Defense's efforts to develop a 
unified cybersecurity strategy and solidify cyberspace doctrine 
in order to protect our Nation against the many threats that we 
face today. The Department is well positioned to capitalize on 
these activities, thanks to the recent elevation of U.S. Cyber 
Command to its own combatant command as well as its Cyber 
Mission Force development. Great strides have been made to 
strengthen their persistent training environment for our 
service branches so that they have more opportunities to put 
fingers to keyboard in realistic conflict scenarios, but we 
must continue to fund this effort.
    While joint exercises such as cyber guard and cyber flag 
are critical in training our cyber warriors, we must ensure 
there are more opportunities to train for the missions yet to 
come. These investments deserve our continued support and we 
must work tirelessly to ensure that the Department of Defense 
resourced appropriately to defend against adversarial threats.
    So let me close by saying, I want to thank you very much 
for receiving my testimony and taking my request into 
consideration for fiscal year 2018 defense appropriations bill. 
These investments are critical in providing for our collective 
national security and I encourage their inclusion.
    [The written statement of Congressman Langevin follows:
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. Thank you for being with us and thank you for 
your words. We have a written copy of your testimony. Thank 
you.
    Ms. Hanabusa.
    Next, the subcommittee welcomes the gentlelady from Hawaii. 
Welcome. You are recognized for 5 minutes. It will show on this 
light green meaning speak. When it goes to yellow it means you 
have got one more minute. Glad to have you here. Thank you.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. COLLEEN HANABUSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    HAWAII

              Summary Statement of Congresswoman Hanabusa

    Ms. Hanabusa. Thank you very much.
    Chairwoman Granger--I don't see our ranking member--and 
distinguished members of the subcommittee, thank you for this 
opportunity to testify before you today. I assume that my 
written testimony will be part of the record and for your 
consideration.
    As you know, I am the Congresswoman for the Congressional 
District 1 from the State of Hawaii, which means all the 
services are located in my district. It is an amazing 
situation, 17 miles will have everything in one place.
    One of the interesting things that has happened since the 
releasing of our statement is the fact that the President has 
now said that he is calling for an increase of $54 billion, 
albeit unspecified at this time, in defense spending. Everyone 
agrees, especially those of us in Hawaii, that the increase is 
needed; however, the question is how.
    One of the most critical points for myself is that the 
pivot to Asia Pacific continues to remain foremost and a 
concern of all of us and one that we would put our money where 
our mouth is. There is no question whether people are willing 
to say it openly or not, Russia, China, North Korea are major 
concerns and they are all in the Asia Pacific.
    One of, I believe, our commitments in terms of the FSA, 
which the Department of the Navy has conducted, is the fact 
that we are in the need of building a fleet. However, one of 
the things that we all tend to forget is that in building the 
fleet, we must have people who can maintain it. So it is 
paramount for us to look at the health, welfare of our public 
shipyards. I don't think there is any question that the public 
shipyards and our employees there, we must covet them and we 
must always have them ready so that we don't have the ups and 
downs that we face with the budgetary constraints. They are the 
backbone for all of us so we must remain committed to them.
    We know that the plan is that 60 percent of our maritime 
force will be in Asia Pacific. I have said it constantly: Asia 
Pacific is an air and seapower. I think that, with all due 
respect for those on the East Coast, you don't quite understand 
how large the Pacific is. The AOR of the PACOM is 55 percent of 
the Earth's surface. You have the three greatest economies of 
the world, and almost 50 percent of the population is in that 
area of the world. That is why we must remain focused on the 
Asia Pacific pivot.
    We must keep healthy the PACOM headquarters, which is 
located also in my district. And we ask that consideration be 
given for the USARPAC 4-star command, because it is a great 
statement for our allies in the region that we in fact are 
committed to that. USARPAC is U.S. Army Pacific.
    We must also be very receptive and able to respond to our 
allies' issues. One of the most successful and coveted roles 
that we play in Asia Pacific is in the area of HADR, and we 
must also continue to remain committed to do that. That is 
where we are welcome in all regions of the Pacific.
    We also have to, basically, stay very true to our 
environmental remediation and protection. You may be aware of 
this, but one of the things that we face in Hawaii is that we 
have had the fuel tanks, which have kept the Pacific since 
World War II, we have had leaks. Luckily, so far, it hasn't 
been into our water system, which as you can imagine is 
islands. They must be protected. But we ask continued support 
in ensuring that the remediation will continue.
    It is so important that we remain committed to this region. 
The threats that our country will face will come from this 
region as well. So we ask that you give serious consideration 
and with more details in our written submittal that the Asia 
Pacific remain our primary concern and also, also that we 
continue with the pivot to that region, because when you look 
at the statistics is where the economies are, where the people 
are, and where our threats are, it is in the Asia-Pacific 
region.
    Thank you very much. I stand for any questions, and Mr. 
Ranking Member, nice to see you.
    [The written statement of Congresswoman Hanabusa follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. Thank you very much. Mr. Visclosky has a 
question.
    Mr. Visclosky. Thank you very much. I do appreciate your 
testimony. And often, we rightly are focused on those in 
military uniform, but I do appreciate you bringing up the 
contribution that DOD civilian employees play as well. Thank 
you so much.
    Ms. Granger. Thank you.
    Ms. Hanabusa. Madam Chair, any other questions for me?
    Ms. Granger. No questions. Thank you very much.
    Ms. Hanabusa. Thank you very much.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from New York. You will have 5 minutes. The lights in front of 
me will show green to speak. When it turns to yellow, it means 
you have got 1 minute left. Thank you, and welcome for 5 
minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2016.

                                WITNESS

HON. THOMAS R. SUOZZI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

                Summary Statement of Congressman Suozzi

    Mr. Suozzi. Thank you so much. It is the first time I have 
done this. I am excited to be here.
    Good morning, Chairwoman Granger and Ranking Member 
Visclosky and the members of the subcommittee. Thank you for 
this opportunity and the time to request funding to help 
facilitate the cleanup of the Bethpage Plume, a significant 
contamination of our drinking water that was discovered over 40 
years ago but has not been properly contained or treated.
    The U.S. Navy and Northrop Grumman are the responsible 
parties, and we are asking them to do their part to help clean 
up this plume, which is the result of their activities. It is 
currently in my district, but it is moving, the plume is moving 
south into our colleague Peter King's district. We need to take 
immediate action because Long Island relies on a sole source 
aquifer for our drinking water. Put simply, this is the only 
source of drinking water for our constituents.
    Prior to World War II and in the postwar era, Bethpage was 
the military and defense industry hub of Long Island. Long 
Island has produced the aircraft that helped carry the Allies 
to victory during World War II and developed the technology 
that ushered in the jet era, and they helped to win the war and 
put a man on the moon.
    The Navy, Northrop Grumman, and the people of Long Island 
are proud of this legacy, but this is also a legacy of 
pollution. My constituents are concerned that those who have 
profited the most, as well as their own government, are failing 
to properly mitigate and clean up the environmental impacts of 
manufacturing, modern aviation, and aerospace technology.
    I represent the Third Congressional District of New York, 
which stretches from northeastern Queens, along Long Island's 
North Shore, and throughout Nassau County into Suffolk County. 
I am a lifelong resident of the district, and along with my 
family and friends and neighbors, we have waited for a long 
time for the responsible parties to step up and assume 
responsibility and truly address the issue.
    Instead, we have received studies, reports, and remedial 
efforts while responsibility is litigated and liability is 
shielded. Meanwhile, the plume spreads, now covering an area 2 
miles wide and 3 miles long, and as mentioned earlier, it is 
travelling south to the neighborhoods and towns on Long 
Island's South Shore, where Peter King represents.
    The Defense Subcommittee on Appropriations may seem like an 
odd place to speak about environmental issues, but the funding 
to help clean up the plume is subject to the annual 
appropriations of the Defense Environmental Restoration Account 
of the Navy. Congressional funding is currently insufficient to 
address the Bethpage Plume, let alone thousands of sites and 
hundreds of locations scattered across the country that are the 
Navy's responsibility to lead the cleanup efforts.
    Representatives from the Navy have told me it would take an 
estimated $4 billion to clean up every site, but Congress 
continually authorizes and appropriates only pennies on the 
dollar. Furthermore, the Navy cannot prioritize the sites and 
must spread funding across sites and locations.
    On its face this may seem like a good idea, but this 
approach forces the Navy to engage in remedial efforts instead 
of comprehensively addressing projects with high cleanup costs. 
Engaging in these smaller efforts without addressing the issue, 
as occurs in Bethpage, will cost the taxpayers more in the long 
run because it fails to address the underlying issue.
    We have a responsibility from the Federal Government to our 
local water authorities to work with all stakeholders to ensure 
clean drinking water and where appropriate hold those 
accountable for contaminating the water supply. Nowhere is this 
truer than when contaminants in the water stem from government-
related activity.
    In this case, the U.S. Navy and Northrop Grumman are the 
responsible parties. The Navy must have the necessary funding 
to lead the cleanup efforts, and we must hold Northrop Grumman 
accountable and require them to fully contribute their share.
    And I request that the committee fully appropriate 
authorized amounts and look forward to working with you and 
other colleagues to address this and similar issues with 
necessary and appropriate funding measures.
    Thank you so much. I really do appreciate it. I can't 
believe you have to do all these different hearings. It is 
really amazing. So thank you so much for the good work.
    [The written statement of Congressman Suozzi follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Ms. Granger. Thank you so much. Mr. Visclosky has some 
comments to make.
    Mr. Visclosky. Just a comment. Representing Gary, Indiana, 
East Chicago, Indiana, and other industrial areas, we suffer 
from the same problem of a 100-, 120-year industrial legacy. It 
is not odd that you brought this problem up. We have not done a 
good enough job as a Nation, and certainly I look forward to 
working with you. Thank you very much for your testimony.
    Mr. Suozzi. Thank you so much for that comment. I 
appreciate that help. Thank you.
    Mr. Granger. Thank you.
    Mr. Suozzi. Thank you so much, Madam Chairman.
    Thank you, other members of the committee.
    Thank you so much, Ms. Roby.
    Mr. Carter, thank you so much.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from Florida. Welcome. You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. MATT GAETZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

                 Summary Statement of Congressman Gaetz

    Mr. Gaetz. Thank you, Madam Chair and Ranking Member 
Visclosky. I bring you good tidings from the Budget Committee, 
and I thank you for loaning the incredible talents of Mr. 
Womack to us on occasion. I want to thank you for providing me 
and other Members of the House with the opportunity to testify 
to the subcommittee on issues we believe to be critical to our 
Nation's security.
    I am referring to the U.S. Special Operations Command's 
basic research into warfighter performance and resilience in 
extreme environments. I feel strongly that to enable the 
continued supremacy of U.S. Special Forces in the 21st century, 
our warriors need to be the most physically fit, optimally 
performing, and resilient to extreme environments of any force 
ever assembled.
    SOCOM has repeatedly recognized these requirements through 
programmatic documentation and broad agency announcements for 
research areas of interest. But an extremely austere budget 
environment has prevented full funding of these critical 
requirements. When viewed across the Future Years Defense Plan, 
the SOF Technology Development PE has been underfunded over the 
past 3 years by an average of more than $6 million per year.
    In its 2017 President's budget request to Congress, Special 
Operations Command estimated needing $34.5 million in fiscal 
year 2018 for SOF Technology Development. That is almost $10 
million less than was programmed in fiscal year 2016. According 
to the 2017 budget request, this project provides an investment 
strategy for SOCOM to link technology opportunities with 
capability deficiencies and objectives in technology that 
thrust into areas including human performance around endurance.
    Proposed research areas in support of those SOCOM 
requirements include sustaining optimal human performance in 
austere training and operational environments, identifying 
meaningful interactions between pharmaceutical and nutritional 
supplements, and establishing heart rate variability for 
potential measuring of psychological and physical readiness and 
stress. Also, researching and applying methods to accurately 
measure nutritional status, and finally, developing 
technologies that enhance physiological performance, including 
greater mental acuity, increased strength and endurance, and 
tolerance to extreme environments.
    This research is of particular interest to me beyond its 
impact on warfighting capability and doing what is right for 
national security. As you know, I have several military 
communities within my district that will benefit directly from 
this research. I also feel strongly that the health benefits of 
this research in my district, it is a large retired military 
community, and to the American civilian population at large, 
will ultimately be very significant.
    Additional funding is urgently needed in fiscal year 2018 
for competitively bid research to augment Special Operations 
Forces' training and performance. As you begin work on fiscal 
year 2018 defense appropriations, I respectfully request that 
your committee appropriate $39 million for the Special 
Operations Forces Technology Development line, a generic 
program increase of $4.5 million for competitively bid research 
to develop and transition technologies that provide asymmetric 
training and performance advantage to our most elite special 
operators.
    This funding will guarantee the development of important 
technologies and research capabilities to address the existing 
SOCOM requirements. Let me reiterate, if appropriated by 
Congress, this additional funding will be competitively awarded 
and address requirements currently established by the 
Department of Defense.
    I commend you, Madam Chair, for having this hearing, and I 
urge you and the subcommittee to look closely at this issue as 
you develop the Defense Appropriations bill for the upcoming 
year. Thank you so much for your time, and I appreciate the 
opportunity to address your subcommittee.
    [The written statement of Congressman Gaetz follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    Ms. Granger. Thank you for your testimony. We appreciate 
your taking the time to do this.
    Mr. Gaetz. Thank you, Madam Chair.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from Missouri. Welcome. You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. WM. LACY CLAY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI

                 Summary Statement of Congressman Clay

    Mr. Clay. Thank you, Madam Chair and Ranking Member 
Visclosky, as well as the other members of the committee. It is 
an honor to be with you today offering support for the men and 
women in our Armed Forces. This is the third year in a row that 
I have testified, and I appreciate the opportunity to let my 
voice and that of my constituents be heard. Even without the 
benefit of the fiscal year 2018 budget yet, it is important to 
let you know our priorities.
    Last year I testified in front of the subcommittee about 
the Navy's tactical aviation shortfall and supported the chief 
of naval operations' call for more strike fighters to fill that 
requirement. This subcommittee responded by adding both F/A-
18E/F Super Hornets and F-35Cs in its markup. Since then it has 
become well known that the Navy and Marine Corps are facing 
readiness challenges to more than half of its aviation fleet. 
Significant delays in maintenance and sustainment of legacy 
aircraft have created a readiness crisis. On top of that, 
higher than expected utilization rates of the Super Hornets has 
only exacerbated the strike fighter shortfall. This trend needs 
to be reversed quickly.
    The near-term solution to this challenge is twofold. First, 
procure additional F/A18-E/F Super Hornets with upgraded 
capabilities to meet the threats we face in the 2020s and 
beyond. The Block III Super Hornet will complement the F-35C by 
bringing enhanced networking capability, extended range, and 
increased number of weapons into battle. I believe that the 
Navy's budget will show an investment in these modernized 
aircraft and how they can support carrier operations for 
decades to come.
    Second, the Navy should invest in sustainment of the 
existing fleet of Super Hornets, a plan that the service has 
worked on but will finally implement in the upcoming budget. 
Extending the life and capabilities of these older aircraft, 
paired with new Super Hornets, will immediately help fill the 
strike fighter gap.
    After several years of congressional support, I expect the 
Navy to take action to budget for these solutions. Congress has 
provided a life preserver to the Navy, but it is time for the 
Navy to step up.
    St. Louis, my home town, is one of the Nation's premier 
homes for tactical aviation, an area of expertise that I know 
the chairwoman knows a great deal about in her own district. I 
am proud that my district is the home of the Super Hornet, and 
the men and women that work on the aircraft are proud for what 
they do for the warfighter. Their efforts are in service to the 
Navy and to their country. They also understand the critical 
role that Congress plays in ensuring that the Navy has the most 
capable and cost-effective fleet of aircraft.
    I hope that the fiscal year 2018 budget submission includes 
the procurement of at least 24 new Super Hornets and that the 
subcommittee can support them in your markup. The strike 
fighter shortfall is a serious issue that can and should be 
addressed, and I look forward to working with you throughout 
the year, and I have been a strong vote yes for the work that 
this subcommittee has done each year.
    Thank you for offering me this opportunity to discuss our 
security priorities.
    [The written statement of Congressman Clay follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. Thank you so much for appearing and, for the 
third time, reminding us of what we need to do with our 
military and our equipment. Thank you very much.
    Mr. Clay. Thanks Madam Chair.
    Ms. Granger. Next, the subcommittee welcomes the 
gentlewoman from New Mexico. Welcome. You are recognized for 5 
minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. MICHELLE LUJAN GRISHAM, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF NEW MEXICO

            Summary Statement of Congresswoman Lujan Grisham

    Ms. Lujan Grisham. Good morning, Chairwoman Granger and 
Ranking Member Visclosky and of course members of the 
subcommittee. I am also delighted to be here and appreciate the 
opportunity to speak with you today about the Army's AN/PDR-75A 
Personal Dosimeter Radiac Set. These measure and collect 
radiation exposure data in order to reduce health risks for the 
brave men and women who put themselves in harm's way.
    This program is critical to the security, safety, and well-
being of American servicemembers who are exposed to radioactive 
weapons systems, devices, and materials on a daily basis. It 
also ensures that we are prepared for a broad range of 
contingencies that could expose our soldiers to potentially 
high levels of radiation, including the use of a dirty bomb. 
Without accurate data, we have no way of assessing and reducing 
radiation exposure health risks, including acute radiation 
sickness and cancer.
    The new Radiac set replaces old, obsolete systems being 
used by the Army since the 1960s. The outdated systems cannot 
measure the range of dose presented by current scenarios or 
provide a legal dose of record capability, or, frankly, what is 
occurring over the lifetime of exposures.
    The new system meets the Department of Defense standards 
and includes a personal dosimeter, which resembles a 
wristwatch, that a soldier wears and a small, 5-pound reader 
that provides a legal record of radiation exposure for each 
soldier. Now, this recorded information is kept as part of the 
soldier's medical record and provides the soldier with a 
comprehensive record of radiation exposure over his or her 
entire career.
    And while not part of my remarks, radiation exposure also 
causes a change in DNA which actually gets passed on to future 
generations. It is critical that we provide our men and women 
with not only the information related to these exposures, but 
the opportunity to mitigate those and deal with issues for 
their entire families.
    This detail is extremely helpful to both the soldier and 
the Department of Veterans Affairs once the soldier seeks 
medical care upon leaving the service because cancer risks, of 
course, increase as one's total lifetime dose increases. Recent 
news reports have highlighted current problems facing soldiers 
and veterans seeking treatment at the VA whose radiation 
exposure was not recorded or tracked.
    Unfortunately, this spans across exposures at Pacific 
island nuclear test sites in the 1950s, in Desert Shield and 
Desert Storm, around the Fukushima nuclear disaster, and via 
depleted uranium use in current operations. These examples 
demonstrate that the need and application for these Radiac sets 
is wide ranging, and the AN/PDR-75A device removes any doubt 
and provides a legal record of all exposure during a soldier's 
career of service to our Nation.
    Now, the Army began purchasing new Radiac sets in 2012 with 
procurement dollars, but due largely to budgetary constraints, 
decided to pause production and fielding until 2020. Prudently, 
the Army Reserve and Army National Guard use National Guard and 
Reserve equipment account funds to field Radiac sets to 100 
percent of their soldiers and are 100 percent mission ready. 
The bad news: Unfortunately, that is not the case with the 
active Army, which has since placed the shortfall of Radiac 
sets on its unfunded requirement list and remains only 50 
percent mission ready.
    The current active Army shortfall stands at 2,323 Radiac 
sets, which of course places these soldiers at risk. The active 
Army needs an estimated 26 million over the next 2 years to 
complete fielding the newest, most capable systems to our 
Nation's soldiers.
    One further point of consideration, Madam Chairwoman, the 
Army-proposed pause in production will have a profound negative 
impact on the industrial base for this central piece of 
equipment. Shutting down and then restarting the production 
lines increases future production costs and, of course, 
jeopardizes the development of the state-of-the-art technology 
and leads to the loss of a highly skilled and proficient 
workforce.
    We can't wait, quite frankly, until 2020 to resume 
production of these items. Funding and fielding the items in 
fiscal year 2018 improves Army readiness, stabilizes the 
industrial base, and most importantly, protects the safety and 
welfare of our Nation's soldiers.
    I thank the committee for inviting me to appear today and 
of course for your consideration of providing support and 
funding for this vital Army program in fiscal year 2018 and 
beyond. Thank you very much.
    [The written statement of Congresswoman Lujan Grisham 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. Thank you so much for being with us, and thank 
you for your remarks.
    Ms. Lujan Grisham. Thank you.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from California. Welcome. You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                Summary Statement of Congressman Hunter

    Mr. Hunter. Good morning, Chairwoman Granger, Ranking 
Member Visclosky, members of the subcommittee. I am here before 
you to talk about one thing first and a couple of other things 
that are near and dear to my heart.
    The first one is the Army has got four divisions of Gray 
Eagles. Gray Eagles is the MQ-9 Reaper. That is what the Army 
calls it. They call it Gray Eagle instead of the MQ-9 Reaper, 
which is the armed predator that can carry 500-pound bombs, 
Hellfires, and do ISR. They are 3 airplanes short per four 
divisions, for a total of 12 planes short.
    The shortfall in division-level intelligence, surveillance, 
and reconnaissance assets impacts the training and the 
readiness of both the deploying unit, as well as the units that 
are forced to surrender aircraft to fill the resourcing 
shortfall. So what you have is you have units that aren't going 
to be deploying borrowing planes from the units that just got 
back. So the units that just got back can't even train up on 
their planes because they don't have them because they had to 
give them to the guys that are going overseas.
    So what I am requesting right now in the fiscal year 2018 
Department of Defense Appropriations Act is an acquisition of 
12, and, again, 12 is 3 airplanes per division for the four 
divisions in the Army that do this. It is $195 million in the 
Aircraft Procurement, Army appropriation account so that all 
Army companies have their full allowance of Gray Eagle systems 
and related ground support equipment.
    That is the first thing. And I think this is one of those 
things that I think, when it comes to Predators, whether it is 
the Navy, Army, Marine Corps, they always want more, but in 
this case, they are not at what they are supposed to have in 
the first place. So they are not asking for extra. They just 
want to be at their full complement.
    Number two, things that I would just like to say that 
aren't specific things that I am requesting that you take a 
look at, somebody smart said if you control the ocean, you 
control the world. And nowadays if you control space, you 
control the ocean. I think we need to look at you, the 
Appropriations Committee--and, by the way, it is interesting 
coming here as opposed to talking to each of you begging for 
things as us authorizers do on the Armed Services Committee.
    Two things. The Coast Guard-Navy matrix needs to be fixed. 
I know Coast Guard isn't Navy, but the fact that we have so few 
Navy ships, and you have Coast Guard now doing Navy things 
because the Coast Guard is a U.S. military service with dual 
roles, I think that is really important for the Nation. I think 
if you look at, like, the top three things we should do as a 
Nation defense-wise, Navy and Coast Guard are one of those 
things.
    The second thing are out-of-the-box ways to look at missile 
defense--out-of-the-box ways. We have THAAD. We have all these 
different intercept things. We are able to shoot down multiple 
projectiles coming in from space that we have to track. The 
time to hit missiles is when they are taking off, nuclear 
missiles. You are going to have North Korea, the Iranians now.
    Nuclear ICBMs will become ubiquitous, I think, in 25 or 30 
years, and short-range a lot sooner than that. The time to hit 
them is when they are slow, when there are big plumes of fire 
and they are taking off to go into space, that is when you do 
that.
    There are ways to do this that are not billion-dollar 
programs, line item by the Army or the Air Force. There are 
out-of-the-box ways to do it. And I would beg of you to look at 
these different ways that we can shoot down our enemies' 
missiles as they launch when it is the easiest time to hit 
them, because, again, they are going slow, they are taking off, 
and it is not that hard to hit one and blow it up when they are 
taking off.
    With that, thank you for all that you do, and I look 
forward to having a more robust defense budget this year. Thank 
you all.
    [The written statement of Congressman Hunter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you for coming. Thank you for your 
words. We appreciate it very much.
    Next, the subcommittee welcomes the gentleman from Ohio. 
Welcome. You are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. STEVE STIVERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO

                Summary Statement of Congressman Stivers

    Mr. Stivers. Good morning, Chairwoman Granger and Ranking 
Member Visclosky and all the members of the subcommittee. I am 
here to testify today about the Technology Transition Program, 
that during fiscal year 2018 the Air Force has requested $497.7 
million.
    And only $87.4 million of that, 18 percent, is set aside 
for technologies other than advanced engine development; $410 
million is exclusively ramped off, 82 percent, roped off for 
engine development. That is an insufficient amount for all the 
other things that need to happen. It will cause some critical 
Air Force technology development needs.
    And in addition, there are now opportunities for the Air 
Force to partner with State universities, national 
laboratories, medium and small businesses, to identify novel 
technologies and concepts on 100 percent cost-shared basis, 
which could leverage dollars better. And the Air Force's 2018 
budget estimate does not allow for the service to take 
advantage of these opportunities. And I think that we should 
change that and allow that to happen.
    I strongly urge the subcommittee to provide a program 
increase of $15 million for fiscal year 2018 for the Technology 
Transition Program when it marks up the Defense Appropriations 
Act of 2018 and specifically allow cost-match technology 
transition to be fully competitively awarded by the Air Force, 
so it would be on a competitive basis.
    I think this will fund a diverse portfolio of capabilities 
to enable multiple combinations of air-to-space to cyberspace 
operations in all environments, even in highly contested as 
well as permissive environments. It will ensure that new 
concepts and capabilities to counter increasing technology and 
proliferation of anti-access and area denial threats, and to 
include multidomain approaches and systems that can be rapidly 
modified when adversaries adapt their defenses. It will also 
ensure tailored forward presence from small, resilient bases, 
and it will algorithm as opposed to hardware-based human-
computer interface systems that will work with humans to 
provide predictive analysis and assist in rapid multidomain 
courses of action. It will allow big data analytics and testing 
that will help improve our Nation's defense and allow the Air 
Force to see the entire operating picture.
    I thank you for the opportunity, and I hope you will 
consider increasing the TTP by $15 million, which is a mere 3 
percent, and ensuring specific language that allows cost-
matched technology transition to be fully awarded competitively 
by the Air Force. Thank you very much.
    [The written statement of Congressman Stivers follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you for being here, and thank you for 
your remarks. I just returned from a short trip to California 
looking at some of those exact issues. Thank you.
    Next, the subcommittee welcomes the gentleman from Alabama. 
Welcome. You are recognized for 5 minutes. The lights in front 
of you show when you can start. When it hits yellow, it means 
you have got 1 minute. Thank you so much.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. BRADLEY BYRNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ALABAMA

                 Summary Statement of Congressman Byrne

    Mr. Byrne. Thank you, Chairwoman Granger, Ranking Member 
Visclosky, and distinguished members of this committee. It is 
my pleasure to appear before this committee once again to 
testify on two issues important to our national security: the 
Littoral Combat Ship and the Expeditionary Fast Transport, or 
EPF, which was formerly known as the Joint High Speed Vessel.
    I would be remiss if I did not begin by thanking the 
committee for its support for three LCS's in the 2017 Defense 
Appropriations bill that passed the House yesterday. Continuing 
to fund three LCS's in fiscal year 2018 is important to the 
Navy, the program, the industrial base, and American taxpayers.
    Because of concentrated efforts by the Navy and the 
shipyards, construction deficiencies have been identified and 
implemented, reducing each ship by almost a half million man-
hours. This, as I am sure the committee knows, equates to a 
significant cost savings of somewhere between 15 and 20 
percent. The shipyards in Marinette, Wisconsin, and Mobile, 
Alabama, have been extremely clear, these savings can only be 
achieved by continuing a hot production line and maintaining a 
skilled workforce.
    The Trump administration is faced with overcoming some 
significant hurts. Decisions were made in the past 
administration which puts the future of our Naval fleet at 
risk. For example, the Navy has been and continues to be 
steadfast that their requirement for small surface combatants 
is still 52 ships. Despite the Navy leadership's articulation 
of this need, former Secretary of Defense Ash Carter attempted 
to decrease the number of LCS's from 52 total ships down to 40 
and required down select to a single shipyard in fiscal year 
2019.
    The Navy's Force Structure Analysis, which was completed 
just this last year, articulates the need for a 355-ship Navy 
and maintains the requirement for 52 Littoral Combat Ships. The 
only means to produce the desired number of small surface 
combatants is to continue building at least three LCS's per 
year.
    The Navy is advancing strategic concepts to maintain of sea 
lanes by using distributed lethality. The USS Coronado is 
currently outfitted with an antiship missile defense system and 
an over-the-horizon missile system. These added capabilities, 
combined with the speed of the LCS, enables the Navy at low 
cost to reshape the Russian and Chinese calculus of our forces 
in places such as the South China Sea.
    I was fortunate to attend the 2016 Rim of the Pacific 
Exercise, which is the world's largest naval exercise, with 
participants from over 25 nations, including the Chinese. The 
USS Coronado conducted exercises at RIMPAC that demonstrated to 
the world the capabilities of the LCS, and I can tell you for a 
fact our adversaries were present and were closely watching the 
capabilities of that ship.
    Following RIMPAC, the Coronado replaced the USS Fort Worth 
on a rotational deployment to Singapore. I visited Singapore 
just 2 weeks ago and met with the admiral that employs these 
ships, and he stressed to me that the requests from our partner 
nations to work with the LCS are in higher demand than we have 
ships available. He indicated to me that he needs more LCS's in 
theater as soon as possible.
    Next, I would like to share my support for the 
Expeditionary Fast Transport, commonly known as the EPF. The 
EPF is a shallow-draft, high-speed catamaran, which is a small 
amphibious vessel used for intra-theater support of personnel, 
equipment, and supplies.
    I have talked to combatant commanders, the Marine Corps, 
and the Military Sealift Command about the EPF, and each has 
stressed its important and unique capabilities. These ships are 
making an impact around the world. They have operated in PACOM 
for humanitarian assistance and disaster relief, SOUTHCOM for 
counterdrug missions, and EUCOM for antipiracy missions.
    As we meet, the USNS Trenton is forward deployed to Naval 
Forces Europe-Africa Command's area of operation, performing 
intelligence, surveillance, and reconnaissance missions. The 
EPF is currently in serial production with a stable and highly 
trained workforce. We are benefitting from the efficiencies 
gained through the construction of the initial eight vessels.
    At roughly $225 million per ship, the EPF is a fraction of 
what other shipbuilding programs cost. In order to ensure the 
capability to build these ships and maintain such an affordable 
price, we need to keep the production line open and meet the 
stated requirements of a total of 18 vessels. Unfortunately, 
without further procurement in fiscal year 2018, this line will 
close.
    Thank you very much for your time today. I appreciate the 
opportunity to share my thoughts on these two valuable ships 
and the state of shipbuilding with the subcommittee. I am happy 
to answer any questions.
    [The written statement of Congressman Byrne follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. I have no questions, but I share your 
appreciation for Littoral Combat Ships. I am the sponsor of the 
USS Fort Worth and watched that competition. There is more to 
go with that. So thank you for your testimony.
    Mr. Byrne. Thank you. Good to be with you.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from California. Welcome. You are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                 Summary Statement of Congressman Cook

    Mr. Cook. Good morning, Madam Chair, Ranking Member 
Visclosky, members of the Defense Subcommittee. Thank you for 
the opportunity to appear before you this morning to testify on 
an issue important to our national security.
    Many, many years ago I was a platoon commander. I was the 
most dangerous weapon in the world, a second lieutenant with a 
map and a compass and a radio man who followed behind me, you 
know, usually trying to keep me out of trouble.
    Today's warfighter tracks his mission enemy using radio and 
digital communications on multiple platforms. We expect them to 
bear this burden, the weight of the equipment, while still 
becoming a faster, more agile, and more lethal fighting force 
than ever before. We owe these combat leaders and their troops 
a simpler system to make the best use of all this information 
that they are receiving.
    The Army Geospatial Center is the office responsible for 
the development of the system that I am talking about. They 
create standards shared by all Army platforms to provide a 
single operating picture for the commander. By combining 
multiple intelligence sources on one device, a commander can 
spend more time making combat decisions and less time sorting 
through data and trying to figure out what to do when there are 
mortars, machine gun fire, everything going on at once.
    An additional $4 million is needed in fiscal year 2018 to 
finish development efforts and get the software to the troops. 
These funds would provide necessary hardware, software, 
personnel to ensure the technology is combat ready. This 
program can be found under Army's Technical Information 
Activities in R-1, Romeo-1, line 155.
    The modern battlefield can change quickly, and our troops 
need access to the most accurate, up-to-date information to 
make informed tactical decisions. It is essential that our 
intelligence provide a clear, concise picture to the commander 
and the warfighter.
    Our troops have always been leaders in battlefield 
management, but we cannot assume that this will always be the 
case. This program will enhance our troops' ability to locate, 
close with, and destroy the enemy. Timely access to accurate 
information will help our commanders to bring our troops home 
safely.
    If somebody that existed in the world of Jurassic Park 
where the systems we had were crude, to say the least, and 
which was 1967, 1968, the times have changed, but the basic 
mission is the same: carry out what we are supposed to do and 
make sure that we take care of the troops once again and bring 
them all back home alive.
    Thank you, Madam Chairwoman.
    [The written statement of Congressman Cook follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Granger. Thank you for appearing, and thank you for 
your remarks. We appreciate it very much.
    Mr. Cook. Thank you.
    Ms. Granger. Next, the subcommittee welcomes the gentlelady 
from American Samoa. Welcome. You are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. AUMUA AMATA COLEMAN RADEWAGEN, A DELEGATE IN CONGRESS FROM THE 
    TERRITORY OF AMERICAN SAMOA

                Summary Statement of Delegate Radewagen

    Mrs. Radewagen. Talofa, taeoa manuia. Good morning, 
Chairman Granger and Ranking Member Visclosky. Thank you for 
allowing me to testify before you today. I come to support 
additional funds for the National Guard and Reserve Equipment 
Appropriation, NGREA, so that the Reserve can purchase Modular 
Small Arms Ranges, MSARs.
    American Samoa is the only U.S. Soil in the Southern 
Hemisphere, lying approximately 2,500 miles south of Hawaii. We 
may be far from the mainland, but we love the United States, as 
demonstrated by the rate our sons and daughters enlist in the 
military, the highest in the United States, a fact that we are 
proud of. The U.S. Army Reserve website states: ``The Army 
recruiting station in Pago Pago is ranked number one in 
recruitment out of the 885 Army recruiting stations and centers 
under the U.S. Army Recruiting Command.''
    American Samoa has been and continues to be an important 
strategic location for the United States for 117 years now, 
providing the only U.S. deep seaport in that part of the world, 
and is home to a U.S. Army Reserve unit.
    Currently stationed in American Samoa, we have two infantry 
companies of 200-plus soldiers that belong to the 100th 
Battalion of the 442nd Infantry, the most decorated unit of its 
size in the entire Army. They are warriors, knowledgeable 
professionals, tactically and technically proficient soldiers, 
and they are great role models for our community. Even our late 
member, my predecessor, Representative Eni Faleomavaega, served 
with this unit in Vietnam and as a reservist.
    Most families back home have many members that are serving 
or have served in the Army Reserve in the Pacific, and many 
community leaders are current or former members as well. These 
soldiers have and will continue to be called upon to perform 
dangerous missions in remote locations around the globe, and we 
want to provide the best possible training and equipment to 
ensure that they return home safely to their families and 
community.
    I am here today as their voice in Congress to solicit your 
support in making sure our soldiers are provided the best 
equipment and training tools to allow them to be trained and 
ready to deploy into harm's way when called upon to protect our 
way of life.
    The Army Reserve Command is asking us in Congress for 
funding for a containerized small arms range for their units. 
To this end, both General Brown, commanding general for the 
U.S. Army Pacific, and Brigadier General Curda, commanding 
general, 9th Mission Support Command, have called on Congress 
for additional funds to purchase Modular Small Arms Ranges for 
Reserve units.
    The Modular Small Arms Range is a containerized facility 
and not an open or outdoor live fire range. There is no live 
fire range on American Samoa because Army safety standards for 
live fire ranges prohibit the construction of an open air live 
fire range. This is largely due to our islands' terrain and 
population density. It is next to impossible to conduct live 
fire and ensure public safety on an open air range. The closest 
small arms range is in Hawaii, 2,500 miles away.
    As it stands, in order for our Army Reserve units to be 
combat ready, they must fly to Hawaii, 5 hours away, to train 
and qualify on their individually assigned weapons. The cost to 
send 200-plus soldiers to Hawaii and the logistics to support 
them is upwards of $1.2 million annually. Modular Small Arms 
Range will save the Army and our taxpayers millions of dollars 
in the future while allowing our soldiers to be trained at 
home.
    As you know, marksmanship is a perishable skill, and our 
soldiers' lives and the lives of their fellow soldiers depend 
on their ability to properly engage a target. Simple functions 
such as changing a magazine or sighting in a target can become 
monumental when the stress and frustration of combat is added. 
Live fire training and consistent weapons training ensure that 
the soldier has the muscle memory to perform these critical 
functions when under stressful combat situations.
    Ensuring that our soldiers are ready to fight is one of my 
top priorities, and I urge you to consider this request for a 
Modular Small Arms Range for our Army Reserve units.
    Thank you for your time. Fa'afetai tele lava. I yield back 
the balance of my time.
    [The written statement of Delegate Radewagen follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. Thank you so much for being with us, and thank 
you for your remarks.
    Next, the subcommittee welcomes the gentleman from 
California. Welcome. You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. TED LIEU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                 Summary Statement of Congressman Lieu

    Mr. Lieu. Thank you, Chairwoman Granger and Ranking Member 
Visclosky, as well as the members of the subcommittee and your 
staff, for the hard work you do to help protect America.
    I served on Active Duty, and I fully support giving our 
armed services the resources they need to execute their 
missions. But as this subcommittee knows, the Navy has had a 
strike fighter shortfall for a number of years. And, in fact, 
it was this subcommittee that led on this issue for the last 2 
years.
    You have generously funded additional tactical aviation, 
both F-18 Super Hornets and F-35s, that address one of the 
Navy's biggest challenges. However, the magnitude of the Navy's 
shortfall is so large that single-year solutions are not the 
ultimate answer, instead requiring ongoing, long-term 
procurement and modernization of the current fleet. I am 
hopeful that the fiscal year 2018 budget request will 
demonstrate our sustained commitment to addressing this 
shortfall.
    The Super Hornet is the Navy's workhorse for its aircraft 
carriers throughout the world. However, even though it has been 
operational since the early 2000s, the aircraft was originally 
designed with the foresight to upgrade its capabilities to meet 
emerging requirements and threats.
    The fiscal year 2018 budget should support the introduction 
of the Block III Super Hornet to the fleet. The Block III Super 
Hornet will be based on the same air frame as the current Block 
II aircraft that is the Navy's most lethal strike fighter. But 
the new features of Block III will make it relevant well into 
the 2040s. Those capabilities include increased range, 
networking capability with other Navy aircraft, longer-range 
sensors that identify the enemy from farther away, new 
cockpits, and improved stealth.
    Block III Super Hornets offer cost-effective ways to 
complement the F-35, EA-18G, and E-2D as they operate together 
in the air wing.
    As you may know, California's 33rd District is a critical 
hub for aerospace design, engineering, and manufacturing. I 
work in both military and civilian capacities with Los Angeles 
Air Force Base, which is surrounded by a unique and incredible 
array of institutions and companies focused on space and 
aerospace ranging from the federally funded research and 
development center, the Aerospace Corporation, to world-class 
universities.
    Nearby the base, some of the largest components of the 
Super Hornet are built by the hardworking men and women of the 
district, including the fuselage and components of the radars. 
The continuation of Super Hornet production is not only vital 
for the warfighter, but it sustains manufacturing for a proud 
and incredibly skilled American workforce.
    I understand you have a number of interests to consider as 
you review the fiscal year 2018 budget. I believe, however, 
that the Super Hornet is vital to addressing the Navy's strike 
fighter shortfall.
    Thank you very much for your past support and for the work 
that you are doing for the men and women in uniform. I 
appreciate you letting me testify.
    [The written statement of Congressman Lieu follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Granger. Thank you for your service, and thank you for 
your remarks here today. Your experience is very helpful.
    Mr. Lieu. Thank you.
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from Oregon. Welcome. You are recognized for 5 minutes.
                              ----------                              --
--------

                                            Thursday, March 9, 2017

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

              Summary Statement of Congressman Blumenauer

    Mr. Blumenauer. Thank you, Madam Chair, Mr. Visclosky, 
members of the committee. I appreciate the opportunity to spend 
a couple moments with you this morning.
    You folks have one of the most difficult tasks in Congress. 
We have talked about it before. Other people can conjure things 
up and be aspirational, but you folks have to allocate the 
dollars.
    And there is a seemingly inexhaustible reservoir of 
opportunities to deal with our military. We struggle to 
maintain entitlement benefits for military personnel. We need 
to invest in safety improvements, command and control 
structure. There is a danger of hollowing out conventional 
forces.
    And against all these requirements, there are some things 
that loom large that I hope the committee can help. First and 
foremost, I think it is past time to take a hard look at the 
trillion-dollar commitment that is made for enhancing our 
nuclear commitment over the next several decades. It will 
inevitably crowd out other Air Force and Navy conventional 
priorities for instance. You can't wish this away.
    We have an administration that is seeking to prioritize the 
fight against the Islamic State and terrorism, and this 
trillion dollars is not going to help us at all.
    We have an administration that is looking to reset 
relationships, evidently, with Russia. Well, here is an 
opportunity to maintain our philosophy in terms of trying to 
reduce and scale down nuclear weapons.
    The New START treaty level of 1,550 weapons is far in 
excess of what our experts say we need for deterrence, at least 
one-third more, according to the 2013 President's military 
advisers. And this isn't theoretical. I mean, these are 
expensive, and they commit us to long-term expenses.
    And, unfortunately, we have a terrible record of tracking 
what the actual cost is as opposed to estimates. Last month, 
the CBO released its latest report projecting the cost of our 
nuclear forces for the next 10 years. The cost estimate for the 
next decade is $400 billion, which is 15 percent higher than 
the previous year's estimate.
    My hope is that the committee, given your responsibilities, 
can help us push for looking at some alternatives, scaling some 
things down, having new weapon systems, the new nuclear-armed 
cruise missile, the B61, the weapons in design and production 
that are going to push those estimates even further in the 
future.
    I think it is past time to evaluate the need to replace our 
land-based missiles. Thanks to New START we are down to 440, 
but the replacement project for Minuteman III ICBMs is as much 
as $100 billion. Do we really need that scale for the triad? It 
goes with the bombers. It goes with the nuclear-armed 
submarines.
    And I think that there is an opportunity for us to actually 
deal with the communities where they are located. And I know 
there is a pushback for people who have those facilities, and 
they don't want to lose economic activity. But we could 
allocate a significant amount of the savings back to those 
communities. They would be better off. There would be more 
jobs, there would be more economic activity, and there would be 
long-term savings for the country, and we would be safer.
    I hope that you give us an opportunity to know what we are 
getting into. The committee is uniquely positioned to at least 
insist that there be real cost estimates. You deserve no less 
as you are making these difficult allocation problems because 
they are going to haunt the people who are in your position in 
2 years and in 4 years if we don't do a good job of knowing 
what we are getting into.
    Again, I know you have got a difficult task. There are many 
things we all want to do for our military, for our veterans, 
and we are trying to deal with budget deficits and long-term 
activities. But I hope looking carefully at these items will 
give us all the tools we need as Members of Congress, and 
especially you on this committee, to know what we are getting 
into and to be able to meet those commitments in the long-term.
    I really appreciate your courtesy. I appreciate what you 
are doing, listening to some of us with our ideas about how to 
do the job, and wish you the best in being able to balance 
those going forward.
    [The written statement of Congressman Blumenauer follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you. Mr. Visclosky.
    Mr. Visclosky. Thank you very much.
    I believe your testimony really evidences why I want to 
thank the Chairwoman again for holding this hearing. You talked 
about our difficult task. You had a very difficult night, and 
you still saw fit to show up today. Given your commitment, I 
appreciate it.
    The area you talk about is very difficult, and I am very 
concerned about the impact kinetic weapons, speed of some of 
our weapons, and other issues have on that nuclear enterprise. 
I also have emphasized to the administration that because there 
is a change, this is a perfect opportunity to assess the triad 
because too often both parties have been very reflexive that, 
no, we need three. And maybe we do. But we ought to have a 
serious examination about that issue, I would absolutely agree 
with you.
    The final thing I would point out is on the cost of this 
endeavor, and, unfortunately, our difficult task is there are 
other bulges coming up here on the budget with other systems, 
is Mr. Smith, who is ranking on Armed Services, and I sent a 
letter to the Congressional Budget Office this week asking for 
them to do a study and examination of what the 30-year cost is 
going to be.
    I am very proud that this subcommittee in report language 
for our bill 417, and the conference report was passed by the 
House yesterday, asked DOD for a similar assessment as far as 
what the costs were going forward.
    So you do raise a very significant and important issue as 
far as policy, but also the cost impact for the subcommittee to 
consider. I appreciate it very much.
    Thank you, Madam Chair.
    Mr. Blumenauer. Thank you.
    Ms. Granger. Thank you very much.
    Mr. Blumenauer. You are the only thing that could get me 
going this morning.
    Ms. Granger. We have one more witness, Mr. Franks, and he 
is on his way here.
    This concludes the morning portion of the subcommittee's 
Member Hearing Day. We appreciate our--well, sorry. We had some 
misinformation, and we are really glad to see you standing up.
    Mr. Franks. Madam Chair, will you forgive me?
    Ms. Granger. Next, the subcommittee welcomes the gentleman 
from Arizona. Welcome. You are recognized for 5 minutes. And 
this light will show green, which means you can start. When it 
goes to yellow, it means you have got 1 more minute. And we are 
anxious to hear what you have got to say.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. TRENT FRANKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA

                Summary Statement of Congressman Franks

    Mr. Franks. Well, thank you. And I apologize, Madam Chair, 
for the lateness. They had to drag me out of a classified 
briefing. So I am sorry.
    Ms. Granger. Thank you.
    Mr. Franks. But I would first like to thank you, Chairwoman 
Granger and Ranking Member Visclosky, for the opportunity to 
add my voice to those of the many others concerned about the 
crisis facing our military.
    Madam Chairwoman, you are no doubt aware that our guardian 
class has consistently set before us the devastation that 
sequestration has wrought upon our military and the doubt it 
has cast upon our ability to defeat existing and emerging 
threats, let alone deter them.
    For my part, I am here to try to alert you today to the 
dangerous state of our Nation's missile defense capabilities 
and what the Obama years have done to our ability to deter and 
defeat the deadliest weapons known to mankind.
    North Korea has evolved from an eccentric regional problem 
with a nuclear weapons issue into an extremely dangerous 
nuclear threat to America. They are very close to mastering the 
physics required to range the entire continental United States, 
and they are able to threaten our forces in the Pacific. And 
just yesterday, the Strategic Forces Subcommittee held a 
briefing which laid bare the nuclear and ballistic missile 
capabilities of the Kim dynasty.
    I cannot discuss, of course, the details of what we learned 
in this open forum, but the growing threat posed by North Korea 
is shocking, and I urge you, Madam Chairwoman, to bring the 
Missile Defense Agency and the CIA to brief you and the members 
of this committee on the nature of this growing threat.
    Furthermore, President Obama's policies placed Iran, the 
world's largest financier and enabler of terrorism, on track to 
legally build a nuclear weapons capability within the confines 
of the JCPOA. Unlike the Soviet threat, nuclear jihad cannot be 
deterred by the fear of retaliation. It is an existential 
threat to the peace and security of the entire human family.
    While the Obama administration debated whether or not we 
should develop and maintain missile defense against such 
threats, our near-peer adversaries, who never had such qualms, 
were working tirelessly to exploit weaknesses in our missile 
defense architecture.
    Under President Obama, the MDA's budget was cut drastically 
below the Bush administration's planned $9 billion-plus budget, 
even as China and Russia were rapidly developing and testing 
high-flying, high-speed maneuvering weapons, including 
hypersonic glide vehicles, Madam Chairwoman.
    These weapons present an entirely new capability we must 
counter, as they are specifically designed to exploit the gaps 
and the seams in our existing missile defense architecture, 
thus defeating the systems we currently have in place. These 
new weapons are capable of travelling more than a mile per 
second and fly at flat or nonballistic trajectories to prevent 
our missile defense systems from tracking them. The threat has 
outpaced us, and we must invest the appropriate resources to 
defend against the new threats or lose our ability to deter 
potential adversaries.
    There are a number of specific measures which Congress must 
pursue if we are able to remain capable of defeating, let alone 
deterring, our near-peer adversaries. To this end, I urge the 
committee to support the development and deployment of a 
multimission space sensor layer. This capability is a massive 
force multiplier for our entire missile defense architecture 
and is absolutely essential to allow us to accurately identify 
and target the newest and most advanced missile threats.
    In recent years, directed-energy technology has matured to 
such a degree that were this committee able to invest in some 
of the most promising directed-energy programs, especially 
boost-phase defense, we would see some game-changing capability 
developed in the next few years.
    Thus, directed-energy programs will allow us to complete 
what the Reagan administration began and allow the United 
States to leapfrog the missile defense threat.
    I hope this committee will continue to fund the RKV and 
also provide resources requested by the MDA for the MOKV, which 
will ensure our midcourse defense is capable of meeting the 
most advanced nuclear threat.
    And finally, I would urge the members of the committee to 
not cut the MDA budget item Special Programs--MDA Technology. 
This program is critical to our homeland defense. But given the 
nature of the program, I cannot get into greater specifics in 
an open forum. I would encourage all of you to receive a brief 
from the Missile Defense Agency on the program before any 
decision is made to cut funding below the requested amount.
    The threats to our homeland and our deployed forces from 
irrational regimes armed with nuclear weapons are real and 
growing, and we must respond by investing the resources in our 
missile defense architecture to ensure we are capable of 
mitigating these threats.
    In order to revitalize our military to build a missile 
defense architecture capable of meeting identified emerging 
threats, we require a budget top line of $640 billion.
    Madam Chair, I am out of time, so may history judge that 
this Congress was one that did all that it could to protect the 
innocent in our own generation and to further ensure that 
American generations yet unborn will continue to walk in the 
sunlight of freedom. Thank you, and God bless you.
    [The written statement of Congressman Franks follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. Thank you, Mr. Franks, and thank you for your 
continuing concern. You have been there since you came to 
Congress, and we take it very seriously.
    Mr. Franks. Thank you, Madam Chair.
    Thank you all.
    Ms. Granger. This concludes the morning portion of the 
subcommittee's Members Hearing Day. We appreciate our 
colleagues' testimony here today. The subcommittee will 
reconvene at 1 o'clock today to complete the hearing. The 
subcommittee stands in recess until 1 o'clock.
    [Recess.]

                           Afternoon Session

    Mr. Calvert [presiding]. The subcommittee will come to 
order.
    The subcommittee is continuing in open hearing, allowing 
Members of the House to provide the subcommittee with their 
input on how to address the challenges and needs facing our 
military.
    This morning--or this afternoon, we were fortunate to hear 
from 2 dozen colleagues we listened to this morning, and we 
look forward to hearing from more of our colleagues now.
    At this time, I would like to recognize Mr. Visclosky, the 
ranking member, for any comments he would like to make.
    Mr. Visclosky. Thank you for holding the hearing. I 
appreciate hearing from our colleagues, and want their input 
before we start down with the supplemental in fiscal year 2018. 
So again, I appreciate very much you calling this to order.
    Mr. Calvert. Thank you. And out of respect for members' 
time, we will strictly adhere to the 5-minute clock. The timer 
in front of you will change from green to yellow when you have 
1 minute remaining to conclude your statement. Your full 
written statement will be made part of the record.
    And at this time, we welcome the gentleman from Louisiana, 
Mike Johnson, for your testimony. You are recognized.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. MIKE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA

                Summary Statement of Congressman Johnson

    Mr. Johnson. Thank you, Mr. Chairman and Ranking Member 
Visclosky and members of the committee. I appreciate you giving 
me the opportunity today to provide input for the fiscal year 
2018 defense appropriations.
    I am excited to advocate today about maintaining a 
strategic edge in reinforcing our national defense needs within 
the Defense appropriations budget, and I will speak fast.
    I have the high honor of representing the Fourth 
Congressional District of Louisiana, which we are proud to say 
is home of Fort Polk and the Barksdale Air Force Base, two 
major military installations. As I am sure you know, Fort Polk 
is home to the Joint Readiness Training Center and Barksdale is 
home to our Global Strike Command. These are two vital 
installations to our Nation and our national security interests 
around the world.
    I am extremely pleased that President Trump has promised to 
ensure our brave men and women in uniform have all the 
resources they need to accomplish their mission. As we begin to 
rebuild our military strength, I will work vigorously to 
protect these missions and ensure our national security is 
fully maintained, as I know you will as well.
    The role of nuclear weapons continues to play an integral 
role in the strategies of Russia, North Korea, Pakistan, India, 
and China. In fact, according to many reports, these countries 
are increasing their reliance on and modernizing their 
capabilities: Land, air, and sea-based nuclear forces. At the 
same time, it is clear that Iran has not given up its nuclear 
ambitions, to say the least.
    Furthermore, there is open evidence that Russia's doctrine 
contemplates the use of nuclear weapons to gain advantage in 
crisis. Consequently, the need for a strong, capable U.S. 
nuclear umbrella is growing. But over the course of only 4 
years, from 2010 to 2014, the military budget was cut 21 
percent. This happened despite the fact that the world was 
growing more dangerous and the stage was set for a number of 
Russian and Chinese aggressions against neighbors and the U.S. 
through cyber attacks, information warfare, and kinetic 
actions.
    Due to today's time constraints, I will focus primarily on 
two areas that I think are in desperate need of attention 
within the fiscal year 2018 Defense appropriations budget: Our 
U.S. Air Force and our Army components.
    First, the nuclear enterprise. I would like to offer my 
support for the President's stated plan to prioritize our 
nuclear enterprise through modernizing our deterrent 
capabilities in the upcoming Defense budget. Thankfully, 
despite ideological differences, Congress has taken a clear 
stand on expressing support to the long-term commitment of 
Barksdale Air Force Base, which is home to the U.S. Global 
Strike Command, and responsible for the majority of the nuclear 
triad and enterprise.
    I want to highlight the important and good work being 
carried out by the Air Force. This includes the decision to 
elevate Global Strike Command to a 4-star command, an effort 
that has already begun to demonstrate important rewards. 
Unfortunately, I was discouraged to see that some recent 
budgets fell short of fully addressing items for specific Air 
Force needs related to improvements at Global Strike Command. 
That is why I asked it in the budget before us today, the 
committee strongly consider working to fund advancements 
absolutely necessary to upgrade and maintain the technological 
edge over America's adversaries.
    A few areas in critical need of funding are upgrading 
nuclear communications facilities, addressing the challenges of 
a B-52 reengine, and the future of the B-21, among others. 
Specifically, today, I would like to highlight three important 
areas related to ensuring our nuclear enterprise receives the 
necessary attention in the upcoming budget. Moving forward, I 
look forward to working with you, the committee and its 
members, to address these items.
    Number one, ongoing challenges with our Nation's aging 
fleets, including a B-52 reengine. Earlier this year, debate 
over whether to replace the TF33 engine reignited, pardon the 
pun there, after a B-52 from Minot Air Force Base lost an 
engine during training. Former Air Force Secretary Deborah Lee 
James characterized the mishap as, quote, ``a catastrophic 
engine failure,'' unquote, and it was. The challenges in 
maintaining the aging weapons and a robust nuclear enterprise 
infrastructure is the second thing, and the needs related to 
developing critical weapon storage and maintenance facility 
areas.
    There are ongoing much needed upgrades to our nuclear 
command, control, and communications, the NC3, something I am 
thankful the Air Force has begun working on and which I know 
this committee has engaged in as well.
    And lastly, improving to fund a robust set of capabilities 
and options. As you know, the top requirement for nuclear 
forces is to maintain a survivable and ready nuclear force that 
is capable of deterring our enemy, and if necessary, surviving 
a surprise attack. Given today's foreign climate, the need to 
keep a close watch on this is as important as ever in order to 
assure our allies and maintain our own defense against hostile 
nations.
    Members of this committee are well aware of the activity 
Global Strike Command overseas in its involvement in a wide 
array of strategic deterrence, global strike, and combat 
support in a direct fashion. The Bomber Command, eighth Air 
Force, is in charge of our aging fleet, and Missile Command, 
20th Air Force, is in charge of the U.S. intercontinental 
ballistic missiles, ICBMs, which are critical to our deterrence 
and global strategy. As Secretary of Defense James Mattis 
recently stated when speaking about maintaining a safe and 
secure nuclear deterrent, quote, ``We must ensure a war that 
can never be won will never be fought,'' unquote.
    In the event that maintaining a capable and robust nuclear 
option would not suffice enough to justify attention, these 
assets also play a major role in our ongoing fight as the 
terrorist states continue to grow and expand beyond the threats 
to Iraq, Syria, Yemen, and Nigeria. Global Strike Command has 
played an important role in our national security strategy to 
address new and emerging kinds of threats.
    Mr. Calvert. The gentleman will timely conclude your 
remarks.
    Mr. Johnson. Am I out of time? Well, I will submit the 
written remarks to the record, as you mentioned. And a lot of 
that is about Fort Polk Army Base and our needs there, the 
Joint Readiness Training Center and their ongoing growth and 
opportunity.
    [The written statement of Congressman Johnson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Calvert. Without objection, your full remarks will be 
entered into the record. And we have a copy of those remarks 
and we will be looking at that. I certainly appreciate your 
testimony here.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Calvert. Next, Claudia Tenney from New York.
    Good afternoon.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. CLAUDIA TENNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK

               Summary Statement of Congresswoman Tenney

    Ms. Tenney. Thank you Mr. Calvert, Ranking Member 
Visclosky, and other members of the Defense Appropriations 
Subcommittee. I thank you for providing me with this important 
opportunity to testify.
    As the mother of an Active Duty marine officer and a Member 
of Congress representing New York's 22nd Congressional 
District, I take my constitutional responsibility to provide 
for our common defense very seriously. I thank you for your 
support, for your ongoing support of our servicemen and -women, 
and I am deeply appreciative of your steadfast commitment to a 
strong and robust national defense.
    As this subcommittee begins consideration of the fiscal 
year 2018 Department of Defense appropriations bill, it is my 
distinct honor to testify in support of the Air Force Research 
Laboratory Information Directorate in Rome, New York, also 
known as Rome Lab. Rome Lab has for decades stood at the 
forefront of advanced cyber research and development projects 
within the Air Force. Today, Rome Lab leads a wide range of 
critical missions that are vital to deploying a 21st century 
force. Ensuring that our military has the tools and resources 
to dominate in cyberspace is among Rome Lab's chief missions.
    On today's high-tech battlefields, our country's 
superiority in cyberspace is critical. Rome Lab provides full 
spectrum support for cyberspace operations, equipping our 
operators with the agility to disrupt and deny cyber attacks 
and the resiliency to fight through and recover from 
intrusions.
    Rome Lab is also leading the fight to maintain command and 
control superiority both to the battlefield and in cyberspace. 
Rome Lab continues to push the boundaries in developing 
sophisticated technologies that effectively integrate resilient 
and robust commanding control systems. The advancements made by 
Rome Lab have provided our military with greater situational 
awareness through improved unified planning systems and 
enhanced mission focus autonomy. Ensuring secure and effective 
communications and reliable connectivity are also vital 
components of Rome Lab's mission.
    In battle stations that are increasingly congested, Rome 
Lab provides the warfighter with mobile and secure 
communications. On the ground, Rome Lab facilitates the 
deployment of technologies that allow our servicemen and -women 
to securely share information. In the air, Rome Lab has 
pioneered technologies to provide mission responsive battle 
space communication abilities across multiple domains.
    Perhaps most impressive is Rome Lab's ability to adapt to 
emerging challenges. For example, in the arena of unmanned 
aerial systems, UAS, Rome Lab is poised for significant 
contributions. As this committee knows, the threat posed by the 
proliferation of UAS is growing and varied. There are countless 
examples of small UAS posing serious threats to our servicemen 
and -women in Iraq, with ISIS increasingly relying on these 
relatively inexpensive tools. With expertise in cyberspace, 
command and control, communications and connectivity, and with 
the continued support of this subcommittee, Rome Lab will lead 
the charge to find innovative ways of detecting, identifying, 
and disabling potentially hostile UASs.
    Rome Lab's advancements extend well beyond the Air Force. 
In fiscal year 2015, Rome Lab leveraged more than $1 billion in 
funding from its non-Air Force defense partners. This 
additional funding has helped Rome Lab serve the critical and 
otherwise unmet research needs of the Department of Defense. 
Ultimately, the stronger Rome Lab's foundation is, the stronger 
our national defense will be.
    This subcommittee has recognized the vital importance of 
Rome Lab providing increased funding over the last several 
fiscal years. In the fiscal year 2017 bill passed just this 
week, the House provided Rome Lab $5 million more in funding 
than was requested by the President, which marked a 4 percent 
increase over fiscal year 2016. This work, supported by the 
funding, is vital to maintaining Rome Lab's dynamic set of 
research and development capabilities. I strongly encourage 
this subcommittee to maintain the funding or to increase it 
accordingly to reflect new and evolving missions.
    I would again like to express my appreciation for the 
opportunity to provide my testimony this afternoon. I look 
forward to working with you and other members of this 
subcommittee to ensure that our Nation's military remains ready 
to confront the challenges of the 21st century. Thank you so 
much. I appreciate it.
    [The written statement of Congresswoman Tenney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Any questions?
    Mr. Visclosky. No.
    Mr. Calvert. Seeing none, thank you again, appreciate it.
    Next, Mr. Trent Kelly.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. TRENT KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSISSIPPI

                 Summary Statement of Congressman Kelly

    Mr. Kelly. Thank you, Mr. Chairman, and thank you, Ranking 
Member Visclosky.
    I have served in the Mississippi National Guard for 31 
years. I mobilized in 1990. I have twice deployed, once 
commanding over 670 troops in Iraq, and I represent the First 
District of Mississippi, which also was home of Columbus Air 
Force Base, which trains one half of the Air Force pilots. I am 
not someone who needs to be convinced that national defense 
should be a priority or that the significant work you have 
before you in deciding how to fund the military is important. I 
believe in that already.
    As a member of the House Armed Services Committee and also 
as a serving colonel in the Mississippi Army National Guard, I 
know firsthand from listening to our military leaders and our 
national security experts regarding the threats we are facing 
around the globe at how well equipped we are to address them. 
And I am greatly concerned about the readiness crisis facing 
our Armed Services across the board.
    General Daniel Allyn, the Vice Chief of Staff of the Army, 
testified this month--or last month, regarding this issue 
stating that the Army can no longer afford the most modern 
equipment, and we risk falling behind our near-peers in 
critical capabilities, and we risk losing overmatch in every 
domain. General Allyn is not alone in this assessment. General 
Stephen Wilson, Vice Chief of Staff of the Air Force, testified 
that, ``Today we find ourselves less than 50 percent ready 
across the Air Force and we have pockets that are below that.'' 
Readiness of our military must be addressed. My priority 
reflects the importance of rebuilding our Armed Forces to 
ensure that we can defend ourselves.
    I think it is important to note by portraying and having 
strength in our military, it preserves peace and prevents wars, 
which is much more costly to fight a war than it is to preserve 
peace.
    We need to make sure that we are manned, equipped, and 
trained at the proper levels. I truly believe that the 
President's $603 billion mark is not enough. I truly believe 
that number should be 640 and not 603, which is really a modest 
increase when you add in OCO. From last year's spending, it is 
only a 3 percent increase. And I think to do it right and to 
make sure we do that, we need to be at 640.
    At all times, but especially under the current conditions, 
the contributions of the National Guard cannot be overlooked. 
The guardsmen that I have served with, both in peacetime and in 
wartime, are dedicated, capable, trained, and professionals. I 
will put their experience and their skill levels up against 
anybody in the world.
    I urge the committee to ensure that they have the same 
equipment and the same training opportunities, CTC rotations, 
the combat training center rotations, to train as one Army. 
Those men and women need to look and smell exactly like their 
Active Duty counterparts, especially when we are talking about 
our heavy brigade combat teams or we are talking about our 
fighter pilots and the equipment that they use in both the 
Guard and Reserves and on the active components.
    Additionally, those serving in the National Guard bring 
experience from a wide range of backgrounds, occupations, skill 
sets that are invaluable contributions to our current military 
readiness. As you consider the funding and policies for this 
year's Defense appropriations bill, I encourage you not to 
overlook the vital impact we have as the Guard being an 
operational reserve and making sure that they are trained, 
equipped, and manned to meet those obligations that this Nation 
requires of them.
    I am committed to working with you as you ensure our 
military is the strongest fighting force in the world. And I 
look forward to working with you to continue to support our 
Armed Forces. Through our strength in the military we preserve 
the peace. And we cannot afford to be at war because we did not 
have the capable military force to deter all foreign forces 
which would do that.
    I thank you, Mr. Chairman, and thank you, Ranking Member, 
and any questions you have.
    [The written statement of Congressman Kelly follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Calvert. I thank the gentleman for his testimony. We 
are going to have a supplemental here pretty soon and we will 
be reviewing that. Most of that is going to go toward readiness 
and getting the military back up to par here pretty quickly. We 
look forward to your support on that supplemental. And we are 
going to need everybody to support----
    Mr. Kelly. You can count on it.
    Mr. Calvert. And we certainly thank you for your service.
    Any questions, Mr. Visclosky.
    Mr. Visclosky. No.
    Mr. Kelly. Thank you.
    Mr. Calvert. Thank you.
    Mr. Knight, Steve Knight from the great State of 
California.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. STEVE KNIGHT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                Summary Statement of Congressman Knight

    Mr. Knight. Thank you, Mr. Chairman.
    I come to you from the 25th Congressional District in 
California where we have built, tested, thought of, and drawn 
the last bombers of the generation, the B-1s, the B-2s, and the 
B-21s that are coming up.
    To say that our bomber fleet is old is an understatement to 
mammoth proportions. We have pilots today flying tail numbers 
that their grandfathers flew from B-52s. We have B-1s that were 
built back in the early 1980s, and we are projecting to fly 
them for another 30 years. So I am here to speak about the 
importance of Air Force's new long-range strike bomber, the B-
21 Raider.
    The ability to project power anywhere in the world is a 
cornerstone of our national security strategy. For decades, our 
militaries enjoyed this advantage. However, as potential 
adversaries rapidly improve their military forces, we must 
modernize our military technology to maintain our strength.
    Most of our current fleet of long-range strike bombers are 
over 50 years old and cannot penetrate advanced defenses. About 
18 of our bombers can penetrate into the maintained airspace 
that we need them to get into. Unfortunately, we only have 18 
of those that are flying.
    Thankfully, work is underway to build a new bomber. The Air 
Force's B-21 Raider will be the world's most advanced, long-
range strike bomber when it fields in the mid-2020s. It also 
offers noteworthy cost-effective advantages over older fighter 
aircraft and bomber aircraft. It carries larger payloads, 
requires fewer aircraft, and puts fewer men and women in harm's 
way to accomplish the mission.
    As Chief of Staff of the Air Force, General Goldfein 
expressed the need for the B-21 when he stated, ``In the short 
term, we prefer to have more penetrating long-range capacity to 
ensure persistent air operations in long-range scenarios. For 
this reason, the B-21 is an operational imperative, and we must 
ensure it remains an affordable program in order to augment and 
eventually replace our legacy bomber fleet.''
    I could not agree with the general's comments, and it is 
apparent that many of my colleagues here in the House feel the 
same way.
    As you might recall, last year, a bipartisan group of 28 
members wrote to this committee to voice support of the B-21 
program and encouraged the committee to provide sufficient 
funding to keep the program on track so it is ready when we 
need it. It is also in my opinion for Congress to keep this on 
budget on time, because that is the only way that the American 
people are going to see that programs work, they come to 
fruition, we get them to the pilots faster, and there to the 
warfighter in a much better manner.
    I am encouraged by the committee's support for modernizing 
our nuclear deterrence capability, including the B-21. As you 
well know, we must ensure our military is never in a fair 
fight, and the B-21 will do that by enabling our military 
leaders to strike anywhere at any time.
    I thank you very much for your time, and I will take any 
questions.
    [The written statement of Congressman Knight follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony. We are looking 
forward to that new bomber being built in the great State of 
California, so keep doing the good work.
    Any questions?
    Mr. Visclosky. No questions.
    Mr. Calvert. Okay.
    Mr. Knight. Thank you very much.
    Mr. Calvert. Thank you.
    Next, Mr. McGovern.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS

               Summary Statement of Congressman McGovern

    Mr. McGovern. Thank you very much, Mr. Chairman and Mr. 
Ranking Member. And thank you for your patience in listening to 
all us members. It is like the Rules Committee. So I also want 
to thank you for giving me the opportunity to testify in 
support of funding a competitive grant program for nonprofits 
that trains service dogs for our veterans.
    Specifically, I ask the committee to support a minimum of 
$5 million for the Wounded Warriors service dog grant program. 
Obviously, if it could be more, I would be thrilled because the 
need out there is so great.
    In addition, I request that the committee insert language 
addressing the benefits of K9 therapy for treatment of PTSD and 
TBI symptoms. And I will include this language with my official 
statement.
    I also want to express my gratitude to the subcommittee for 
their assistance in securing funding for the program in fiscal 
year 2015 and fiscal year 2016. Already we have seen so many 
incredible success stories in which these dogs have helped 
veterans suffering from post-traumatic stress or physical 
limitations to reintegrate into the social framework of their 
families and communities and often reduce their reliance on 
prescription drugs.
    Continuing to fund this program at at least $5 million a 
year would allow awardees to continue this all important work. 
That being said, even with this grant program, many nonprofits 
continue to have waiting lists of veterans in need of service 
dogs. And given that fiscal year 2018 will likely see an 
increase in defense spending, my hope is that this subcommittee 
will consider appropriating more than $5 million to grow this 
already successful program.
    Mr. Chair, with so many of our veterans returning from war, 
bearing both physical and emotional scars, we must ensure that 
they have access to treatments that work. Service dogs have 
been shown to have a positive effect on the treatment of PTSD 
and TBI symptoms, and it is not a coincidence that we have seen 
a significant growth in the demand for these service dogs as 
more of our veterans are returning home in need of this 
assistance.
    Last Congress, I had the opportunity to visit the National 
Education for Assistance Dog Services, or NEADS, located in 
Princeton, Massachusetts. I heard amazing stories about how 
service dogs are helping to treat veterans with physical 
disabilities, as well as those suffering from post-traumatic 
stress. This nonprofit organization has connected many 
deserving veterans with service dogs over the past few years 
with incredible results. Like other similar nonprofits, NEADS 
customizes the training of each dog to serve its future owner. 
Depending on the owner's needs, these dogs can be trained to 
retrieve medicine from a refrigerator, turn the lights on and 
scan an empty house before the owner enters, guard an owner's 
back in a public setting, and even wake up an owner from a 
nightmare.
    In the last few years, NEADS, like many other nonprofits 
providing this crucial service, have struggled to meet these 
growing levels of demand. Many nonprofits that train dogs for 
use by veterans are underfunded. The cost of training a service 
dog varies, but estimates range between $15,000 to $60,000 per 
dog, and training can take up to 2 years. Too often, a 
veteran's need for a service dog goes unmet due to financial 
constraints. This competitive grant awarded only to 
organizations that meet the standards of either the 
International Guide Dog Federation or Assistance Dogs 
International will allow nonprofits to help more veterans.
    Congress first directed the VA to research the effect of 
service dogs on veterans with PTSD in 2010. This study was 
suspended in 2012. In 2015, the VA launched a new version of 
the study that will conclude in 2018. Meanwhile, the demand 
amongst veterans for service dogs continues to grow as research 
conducted by private institutions such as Perdue University 
increasingly demonstrates that service dogs can help treat 
symptoms of PTSD. In addition to these studies, I guarantee 
that if you sit down with a veteran who has received a service 
dog for PTSD, it will be perfectly clear how helpful these dogs 
are.
    So, Mr. Chair, with so many of our veterans coming home 
from war suffering from post-traumatic stress disorder and 
other physical disabilities, it is critical that we offer them 
multiple treatment options. And while the VA continues its 
exhaustive research on the topic, we have wounded veterans who 
attribute their recoveries to service dogs and other veterans 
for whom a service dog could be key. So rather than relegating 
these veterans to a waiting list, let's continue to support 
these highly technical nonprofits so that they can continue to 
do what they do best: Help our veterans.
    So I ask this committee and my colleagues on both sides of 
the aisle to fund this competitive grant program. And with 
that, I appreciate your time.
    [The written statement of Congressman McGovern follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Calvert. I thank you for your testimony.
    Mr. Visclosky.
    Mr. Visclosky. Mr. McGovern, I appreciate you testifying on 
behalf of those who have been injured in defense of this 
country, but also want to thank you very much for your 
continued advocacy asking that Congress be involved as far as a 
new authorization for the use of military force.
    I appreciated your comments in the Rules Committee on 
Tuesday. I know you are joined by colleagues such as Mr. Cole 
and others. I understand you addressed the issue again 
yesterday on the floor, as well as Ms. Lee, and certainly hope, 
particularly with the new administration, that we come together 
and we have a role to play here as well as the change rule. So 
I appreciate your advocacy very much.
    Mr. McGovern. Well, I appreciate your comments. Thank you.
    Mr. Calvert. Thank you. Thank you for your testimony.
    Mrs. Hartzler, you are now recognized.
    Mrs. Hartzler. Thank you.
    Mr. Calvert. Good afternoon.
    Mrs. Hartzler. Good afternoon. I found a new room in the 
Capitol.
    Mr. Calvert. You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. VICKY HARTZLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI

              Summary Statement of Congresswoman Hartzler

    Mrs. Hartzler. Thank you so much.
    I appreciate the opportunity to visit with you as a member 
of the House Armed Services Committee and to share with you 
some priorities that I believe is very, very vital as we move 
forward in this year's budget.
    Recent reports have indicated that the Trump administration 
intends to submit a budget with a defense top line of $603 
billion for fiscal year 2018. While I applaud the President's 
intention to increase our military funding with a, quote, $54 
billion increase, this assertion does not tell the whole story.
    The $603 billion number is actually only an increase from 
the sequestration limits that have wreaked havoc on our 
military for the past 7 years. It is only a 3 percent increase 
from President Obama's administration proposal in the Future 
Years Defense Program, or FYDP, and $58 billion less than 
Secretary Gates' budget, which is what is really, really 
needed. And this chart shows that, that the Trump proposal of 
$603 billion is the orange star there. And you see that the 
Gates' budget, which was the last time that we really had a 
budget aligned with our defense objectives, shows that we 
should be getting far more at this point.
    So our military today is facing a severe crisis. We expect 
our men and women in uniform and the equipment they deploy to 
be able to decisively win a current conflict and posture our 
forces so another enemy doesn't even think they can challenge 
the United States if they tried. Yet this ability is in 
jeopardy.
    According to the Vice Chief of Staff of the Air Force, and 
this is shocking, less than 50 percent of the Air Forces's fire 
and bomber force are able to fight and decisively win a highly 
contested fight against a near-peer such as Russia or China. In 
fact, an engine literally fell off of a B-52 bomber while 
training in North Dakota recently.
    According to the Vice Chief of Staff of the Army, of the 58 
brigade combat teams that our Nation depends on to deploy 
overseas and to defend our freedoms we comfortably enjoy here, 
only three could be called upon to fight tonight, three out of 
58.
    Based on current readiness levels, the Army can only 
accomplish defense requirements at a high military risk. As 
General Allyn stated in his testimony last month before the 
Armed Services Committee, if we continue down this path, quote, 
``the end result is excessive casualties, both to innocent 
civilians and to our forces,'' end quote. We cannot allow this 
to happen.
    According to the Vice Chief of Naval operations, two-
thirds, 67 percent, of our Navy strike fighters, the planes 
that are launching entirety of the Navy's attacks against ISIS, 
cannot fly. Sixty-seven percent of the Naval aircraft cannot 
fly. And sadly, in 2015, the Marine Corps aviation deaths hit a 
5-year high as aircraft failed or pilots lacked adequate 
training hours. This is unacceptable.
    Regardless of your budgetary priorities, I call on each of 
you to recognize that it is our responsibility in Congress to 
provide support for our men and women in uniform while they 
selflessly serve our Nation. House Armed Services Chairman 
Thornberry and Senate Armed Services Committee Chairman McCain 
have both laid out what the Department of Defense needs to 
begin buying back the readiness that has left our force hollow. 
Our military needs $640 billion to begin the restoration of its 
forces that the American people expect and need in today's 
world, not $603 billion.
    If we do not meet the budget of $640 billion for the 
Department of Defense, we will be shortchanging our military in 
capabilities they need to fulfill their mission. We will impose 
too great of risk in air dominance, Naval presence, ship 
recovery, facilities maintenance, ground forces, medical 
readiness, nuclear deterrent requirements, national security 
space defense, ballistic missile defense, and cyber 
capabilities. Each of these requirements is crucial to our 
national security, and we would not be able to have those met 
without it.
    Our men and women in the military must stand ready and 
actively fight a resurgent Russia, an emergent China, an 
unstable North Korea, an unpredictable Iran, and widespread 
violent extremism. The demand for our forces has never been so 
high and our readiness has never been so low.
    It is within our power to reverse this. I ask you to work 
with me and others in the Armed Services Committee to give our 
servicemen and -women the resources they need to build our 
military and to keep our Nation safe.
    Thank you.
    [The written statement of Congresswoman Hartzler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Calvert. Thank you. Thank you for testifying. As you 
know, we are going to have a supplemental coming here pretty 
soon to address some of those readiness issues, and we look 
forward to your support with that. And obviously, we have some 
great needs for our United States military. So we appreciate 
your testimony.
    Next, Mr. Wenstrup.
    Mr. Wenstrup. Thank you, Mr. Chairman.
    Mr. Calvert. Good to see you. You are recognized for 5 
minutes.
                              ----------                              --
--------

                                            Thursday March 9, 2017.

                                WITNESS

HON. BRAD WENSTRUP, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO

               Summary Statement of Congressman Wenstrup

    Mr. Wenstrup. I appear before you today in strong support 
of a robust defense budget for fiscal year 2018. It is an honor 
to testify before this committee, and my colleagues and I in 
the Armed Services Committee look forward to continuing our 
partnership with you to support and equip the men and women of 
our Armed Forces.
    In recent years, the U.S. military has faced years of 
devastating cuts, leaving us with the smallest Army since 
before World War II, a Navy fleet among the smallest since 
World War I, and an Air Force whose top general has said it may 
not be able to control the skies in a future conflict.
    President Trump has repeatedly expressed his support for 
rebuilding our military, and I also applaud his commitment to 
cutting waste and eliminating unnecessary spending. However, I 
am concerned that the 2018 defense budget previewed by the 
White House, even with the intent of cuts from within, it is 
not sufficient to fully resource the bold agenda to rebuild our 
military both in capabilities and deterrents that the President 
has set for this administration.
    I would like to highlight three particular areas that 
demonstrate the impossible tradeoffs being forced on our 
military, tradeoffs that we can avoid by properly resourcing 
our national defense. Recently, the largest deployment of U.S. 
Troops arrived in Europe since the end of the Cold War. They 
are on a mission to reassure our European allies and deter 
further Russian aggression on the continent. However, over the 
past few years, Russia has made major investments in 
modernizing its equipment and tactics.
    In response, the U.S. Army in Europe declared an urgent 
operational need for defensive and offensive upgrades to its 
Stryker vehicles. While the single Stryker Brigade Combat Team 
deployed to Europe is receiving these upgrades, limited 
resources will prevent the Army from quickly upgrading the rest 
of our Stryker BCTs. In fact, the production rate is at risk of 
falling as low as one brigade every 3 years, a lethargic pace 
for critical upgrades to an essential combat capability.
    If we want our forces in Europe to serve as an effective 
deterrent to Russian aggression, we must fully fund the Stryker 
upgrades necessary to ensure that we pose a credible threat to 
our adversary forces.
    Another challenge for our military is maintaining the 
golden hour standard for trauma care in future conflicts. The 
golden hour refers to the fact that wounded servicemembers have 
over a 90 percent survival rate when they reach role 2 medical 
care within the first hour of being injured. This standard has 
been a major contributor to the United States suffering far 
fewer combat related deaths in the wars of the last 15 years 
than in any previous conflicts. However, maintaining the golden 
hour when we do not have uncontested control of the air and sea 
domains, as would be the case in a potential conflict with 
Russia or China, requires developing a new set of battlefield 
capabilities. We shouldn't accept a lower standard of care and 
a higher fatality rate for our troops just because the fights 
of the future may pose new challenges. Instead, we must fully 
fund capabilities to maintain the golden hour in both today's 
conflicts and those of the future.
    The final priority I would like to discuss is growing our 
Army. In 2016, the Army reached the lowest level of Active Duty 
troops since 1940. The 2017 National Defense Authorization Act 
prevented even further cuts, but the Army is still too small to 
meet our national security requirements.
    Quantity has a quality of its own and we will need more 
troops if we are to simultaneously destroy ISIS, support the 
Afghan Government against the Taliban, serve as an effective 
deterrent to Russian and Chinese aggression, and be prepared to 
respond to unexpected contingencies across the globe or even at 
home. Rebuilding the Army's end strength is a complex, decades 
long process, but we must begin making this long-term 
investment today in order to realize the goal of an Army 
prepared for the conflicts of the current decade as well as the 
threats of tomorrow.
    Just as with any Federal agency, the Department of Defense 
has to prioritize, make strategic choices, cut waste and 
inefficiency, and operate within budgetary realities. But 
resourcing these urgent needs of our Armed Forces is not 
optional. A failure to do so will result in a continued 
readiness crisis, weakened national security, and ultimately, 
the loss of American lives.
    However, the good news is that we do not have to force 
these impossible choices on our military. A defense budget that 
is in line with the House Armed Services Committee's proposal 
will fulfill our constitutional obligation to provide President 
Trump and Secretary Mattis with the force they need to deter 
threats and keep our Nation secure. Most importantly, it will 
ensure our men and women in uniform have the resources, 
training, and equipment they need to keep us safe and come home 
safe themselves.
    With that, I yield back.
    [The written statement of Congressman Wenstrup follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Calvert. Thank you. Thank you for your testimony, and 
thank you for your service. We certainly appreciate that.
    Any additional questions?
    Mr. Visclosky. No.
    Mr. Calvert. Next, Mr. Cartwright of Pennsylvania. Welcome. 
You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. MATT CARTWRIGHT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

              Summary Statement of Congressman Cartwright

    Mr. Cartwright. Thank you, Chairman Calvert, and Ranking 
Member Visclosky. It is an honor for me to join you both on the 
House Appropriations Committee, and I thank you for allowing 
this testimony today.
    The United States military is the greatest military in the 
world, and it can only stay that way if we provide our ongoing 
support. I want to specifically address a few defense spending 
matters of the utmost importance. These issues affect both my 
constituents and the security of the whole country.
    Robust military manufacturing is necessary for the 
sustained strength of our Armed Forces. I am proud to say that 
Tobyhanna Army Depot in my district has contributed admirably 
to that effort. This facility has been able to efficiently 
compete with their private sector competitors for many years. 
For this quality of manufacturing support the U.S. military to 
continue, we must provide consistent and sustain funding.
    Every job at the Tobyhanna Army Depot, the Army's only 
command, control, communications, computers, intelligence, 
surveillance, and reconnoissance depot generates 2\1/2\ jobs in 
the larger local community. And what these men and women do at 
Tobyhanna is that they refurbish used electronic equipment. It 
is a great way to save money in our defense. This Depot 
provides our troops with state-of-the-art technology, delivers 
a healthy return on investment to the taxpayer, and serves as a 
vital hub of commerce in the community.
    As such, I urge continued funding to support the operations 
and maintenance budget of depots, which are an essential 
component of our national security.
    Additionally, I want to reiterate the opposition I 
expressed last Congress to any implementation of new A-76 
studies by the Department of Defense. The A-76 process uses 
faulty, antiquated methodology to determine whether Federal 
civilian jobs should be outsourced, a matter we simply cannot 
simply approach so haphazardly. Both the GAO and the Inspector 
General of the Department of Defense concluded the process 
could not demonstrate any savings for the taxpayer.
    And so using an arbitrary 12 percent overhead factor cost 
for Federal employees versus contractors, the A-76 process is 
simply not anchored in the facts. And we have to work with the 
facts. We have to act sensibly with taxpayer dollars by basing 
our decisions on the facts. A-76 has faced bipartisan 
opposition and has been subject to congressional moratoriums 
since 2010, and I urge the committee to ensure that it stays 
that way.
    I would also like to stress the importance of several 
programs that affect the general dynamics Scranton operation 
plant located in my district. Specifically, I hope that funding 
can be maintained for two artillery ammunition programs. First, 
the Navy 5/54 ammunition, which is fired from cruiser and 
destroyer types of combatant ships. Second, the 155 millimeter 
M795, which is state-of-the-art, multipurpose, high 
fragmentation, high explosive projectile fired from 155 
millimeter howitzers.
    Lastly, I want to express my support for the sustained 
funding for two larger programs that impact the general dynamic 
Scranton operation plant as well. First, the Abrams tank 
improvement program, which applies modifications to the 
currently deployed Abrams family of vehicles. The second 
program involves upgrades to the Stryker vehicle, which 
improved the protective hull of the vehicle, ensuring that our 
troops remain as safe as possible when carrying out their 
missions.
    All of these programs improve the capabilities of our Armed 
Forces, function as a worthwhile investment for the general 
American taxpayer, and play a major economic role in the 
community surrounding the plant. So for these reasons I do urge 
the committee's continued support.
    Thank you again, Chairman Calvert, for having this meeting 
and allowing me the opportunity to speak at it.
    [The written statement of Congressman Cartwright follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Calvert. I thank the gentleman for his testimony.
    Any questions?
    No questions. Have a nice day. Thank you so much for your 
excellent testimony.
    Next, Mrs. Wagner.
    Good afternoon.
    Mrs. Wagner. Good afternoon, Chairman.
    Mr. Calvert. You are recognized for 5 minutes.
                              ----------                              --
--------

                                           Thursday, March 9, 2017.

                                WITNESS

HON. ANN WAGNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI

               Summary Statement of Congresswoman Wagner

    Mrs. Wagner. I thank you, Mr. Chairman, ranking member. 
Thank you for the opportunity to share my support for a matter 
important to the United States Navy and our national security.
    Ensuring the success of our missions and the safety of our 
troops is close to my heart, not only as a Member of Congress, 
but also as a mother. My son, a West Point graduate, is an Army 
ranger currently serving as an Active Duty captain in the 3rd 
Infantry Division at Fort Stewart.
    As I testify before you today, the USSCarl Vinson is on 
deployment in the Western Pacific with three squadrons of F/A-
18 Super Hornets, ensuring our Nation's security and providing 
the needed presence and deterrence that only United States 
aircraft carrier and its embarked air wing can.
    These Super Hornets have seen their share of combat 
operations over the past 10 years conducting strikes in the 
fight against ISIS and providing air support to our troops on 
the ground in Afghanistan. We have heard from past year's 
testimonies by the Chief of Naval Operations that this 
unrelentingly high operational tempo of F/A-18s on the carrier 
decks and the delays in maintenance and sustainment of legacy 
fighter aircraft have resulted in a significant shortfall in 
tactical aircraft needed to remain mission capable.
    I appreciate the response by this committee in its fiscal 
year 2017 markup to address this shortfall with new F/A-18s and 
F-35Cs. However, this readiness challenge is far from solved. 
And I support the Navy's call for additional Super Hornets and 
for a robust sustainment plan to keep Super Hornets flying into 
the 2040s as a needed fix to this shortfall.
    The men and women building the F/A-18s in Missouri's Second 
Congressional District are ready to deliver the solution. My 
constituents are patriotic and dedicated heros who work hard to 
develop amazing systems that make American leadership and 
global missions possible. They continue to advance the 
capabilities of this aircraft to combat future threats, 
developing a Block III Super Hornet that will compliment the F-
35's capabilities in the air wing of the future. They have also 
prepared a comprehensive Super Hornet service life modification 
plan to address the readiness of the strike fighter fleet.
    I hope that this committee will continue to support my 
fiscal year 2018 request from the Navy for additional Super 
Hornets, as well as investments to Super Hornet readiness in 
your markup. The men and the women of the Navy have answered 
our call, and I look forward to working with you this year to 
be sure that the men and women of Missouri can help answer 
theirs.
    I thank you for the opportunity to do so, and I appreciate 
your time today, Mr. Chairman.
    [The written statement of Congresswoman Wagner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

    Mr. Calvert. Thank you for the gentlelady's testimony.
    Mr. Visclosky.
    Mr. Visclosky. I appreciate the gentlelady's testimony as 
well. And I do not want to be insensitive, but I realize that 
there are three purple ties and white shirts. What did I miss 
today?
    Mrs. Wagner. I don't know.
    Mr. Visclosky. Is this just an incredible coincidence? I 
have been sitting here all morning.
    Mrs. Wagner. I wore red yesterday for International Women's 
Day apparently.
    Mr. Visclosky. I have been sitting here all morning and I 
am thinking, did I miss----
    Mrs. Wagner. I am not aware, but I have told my scheduler 
that it is important you let me know what the color of the day 
is----
    Mr. Visclosky. I will simply remember this for our markup.
    Mrs. Wagner [continuing]. For our nation, internationally, 
nationally, and in Congress.
    I thank the gentleman for his question.
    Mr. Calvert. Thank you very much for your testimony.
    Mrs. Wagner. My pleasure. Thank you so much.
    Mr. Calvert. Next, is Mr. Davidson.
    Mr. Davidson. Thank you, Mr. Chairman.
    Mr. Calvert. Good afternoon, and you are recognized for 5 
minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. WARREN DAVIDSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO

               Summary Statement of Congressman Davidson

    Mr. Davidson. Thank you. It is an honor to come before your 
subcommittee. Thanks for the work you are doing to help get our 
Defense Department on a path to a stronger capability.
    And I just recognize that there are so many priorities 
competing for scarce dollars. And all these things have a big 
implication. As a former Army ranger, I was blessed to serve 
with some of those who serve near the tip of the spear in our 
country in earlier days. But all these macro decisions are made 
up of many small things.
    And so I wanted to come before you and highlight one such 
small detail that could escape notice, and it is a small $5 
million program. And as you consider the fiscal year 2018 DOD 
Appropriations Act, I am asking the subcommittee to provide a 
generic increase of $5 million in the Air Force base procured 
equipment for the purchase of civil engineering construction, 
surveying, and mapping equipment. This will upgrade the 
surveying equipment throughout the Air Force's engineering 
units.
    These units perform rapid response and often critical 
construction, surveying, and mapping in garrison or in deployed 
theaters of operation. They provide the needed support and 
heavy damage repair of beddown weapon systems and bare-base, 
high-threat environments. However, existing Air Force civil 
engineering equipment is over 15 years old, much of which was 
discontinued over 7 years ago. Those maintenance costs are 
prohibitive and some equipment in the Air Force is no longer 
being maintained. This has adversely affected the civil 
engineers' readiness and ability to conduct critical missions 
and imposed additional maintenance requirements on aircraft 
because of maintenance capability being degraded.
    I am hopeful that the committee will make sure that our 
engineers have the support they need to provide the reliable 
runways and facilities from meeting the mission and supporting 
the other investments we make in modernized aircraft.
    Thank you again for this opportunity to testify before the 
committee. Thanks for the work you are doing. And on behalf of 
the airmen at Wright-Patterson Air Force Base, Springfield Air 
National Guard Base, thanks for the support you lend them.
    [The written statement of Congressman Davidson follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Calvert. Thank you. And thank you for your service. And 
you have a great base there at Wright-Pat. It is the oldest air 
base in the United States, I believe.
    Mr. Davidson. It is.
    Mr. Calvert. Is this your 100th anniversary this year?
    Mr. Davidson. It is the 100th anniversary this year.
    Mr. Calvert. That is right. Because March Air Force Base is 
on the West Coast and we have ours next year or the year after, 
so pretty close.
    Mr. Davidson. Very good.
    Mr. Calvert. Thank you for your testimony.
    Mr. Davidson. Thank you.
    Mr. Calvert. Any other questions?
    Next is Mr. Gallagher.
    Welcome, and you are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.

                                WITNESS

HON. MIKE GALLAGHER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN

               Summary Statement of Congressman Gallagher

    Mr. Gallagher. Thank you, Mr. Chairman and distinguished 
colleagues.
    As a Marine Corps veteran and a member of the House Armed 
Services Seapower and Projection Forces Subcommittee, I look 
forward to working with you to fulfill our first and foremost 
responsibility of keeping the country safe. To do that, we need 
to be able to project power throughout the world, which in turn 
depends in large part on our willingness here in Congress to 
provide and maintain a robust naval fleet as duty dictates 
according to Article I, section 8, clause 13 of the 
Constitution. Thanks to mindless defense sequestration, 
however, we have been derelict in that duty. And as a result, 
the Navy is the smallest it has been in 99 years, currently 
satisfying only 40 percent of the demand from regional 
commanders.
    But we now have an opportunity to turn all of that around. 
We now have an opportunity to answer the Navy's own call for a 
355 ship fleet. In support of this effort, it is my honor as a 
Member of Congress to represent the highly skilled American 
workers who build the Freedom class littoral combat ship at 
Fincantieri Marinette Marine in the Eighth District of the 
great State of Wisconsin.
    Every day, 2,200 workers pass through the shipyard's gates. 
They don their hardhats and they go to work building American 
warships that allow the Navy to conduct critical missions such 
as antisubmarine warfare, mine countermeasures, ISR, and 
surface warfare. The construction of these ships in turn 
provides much needed local high-skill, high-paid jobs for the 
shipyard and over 200 contributing subcomponent producers.
    Continuing down the path of sequester or even embarking on 
a decades long development of a new small surface combatant 
would result in the loss of some of the most highly skilled 
workers in the world. Reconstituting this workforce would be 
tremendously difficult if not impossible. It would also do 
enormous damage to our naval capabilities.
    My point here, Mr. Chairman, is not simply parochial. It is 
simply this: When we talk about big words, like our defense 
industrial base, this is exactly what we are talking about. 
Behind such buzz words lie real people, patriotic Americans who 
take pride in working hard and giving our warfighters what they 
need to keep us safe. Our shipbuilding program thus lies at the 
intersection of our national security and our economic 
security.
    With that in mind, Mr. Chairman, I thank you, and I applaud 
the committee for the inclusion of three LCSs in your fiscal 
year 2017 defense appropriations bill. And I ask you to 
continue your efforts to return to or plus up the Navy's 52 
ship program of record in your fiscal year 2018 budget 
submission. This will be pivotal as the Navy transitions its 
small service combatant from LCS to a multimission frigate. The 
Navy's small surface combatant task force concluded that 
building a frigate on a modified LCS hull offers the best path 
to affordably deliver distributed lethality to the fleet in a 
reasonable timeframe.
    At a broader level, Mr. Chairman, I respectfully remind the 
committee that the 52-ship requirement represents the bare 
minimum needed to meet naval requirements for projection of 
force. This 52-ship requirement was validated by the Chief of 
Naval Operations several months ago in his force structure 
assessment. The acting Secretary of the Navy, Sean Stackley, 
has testified that the previous plan to truncate the program to 
40 ships was and is a result solely of budgetary decisions, in 
other words not strategic demands based on what the Navy 
actually needs.
    This previous construct recklessly held the defense of our 
Nation hostage to domestic political demands. This previous 
construct offered us a false choice between posture and 
presence. And so I would submit that we must reject this false 
and dangerous choice and provide the Navy with what it needs to 
get the job done and put this country back on a path to peace 
through strength.
    And so on behalf of the dedicated workers in northeast 
Wisconsin, I thank you for your support. Today, those workers 
will walk through the gate of Marinette to build some of the 
best in our Navy, constantly improving their craft every single 
day to deliver a better product for less money, to give our 
warfighters what they need to keep us safe. They are doing 
their jobs and so we in Congress must do ours.
    Thank you, Mr. Chairman.
    [The written statement of Congressman Gallagher follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Calvert. And thank you for your testimony. You are 
absolutely right, the number of ships that we have today is 
totally inadequate and we need to rebuild our United States 
Navy. And I believe that we are going to be on the path to do 
that at this point.
    So, Mr. Visclosky.
    Mr. Visclosky. Chairman, just briefly.
    Welcome to the United States Congress. Is Eagle River in 
your district or the seventh district?
    Mr. Gallagher. Seventh.
    Mr. Visclosky. Seventh district. My mother was born and 
raised there. Sorry about that.
    Mr. Gallagher. Are you a Packers fan, sir?
    Mr. Visclosky. I am sorry?
    Mr. Gallagher. Are you a Packers fan, sir?
    Mr. Visclosky. I have to tell you that she ended up moving 
to Lake County, Indiana, and I grew up with the Bears. But 
actually, the--this is another story, we are on the record. I 
will talk to you later.
    Mr. Gallagher. Packers football is part of our national 
security as well.
    Mr. Visclosky. Good luck to you.
    Mr. Gallagher. Thank you, sir.
    Mr. Calvert. We are going to wait a minute. We are waiting 
on Mr. Webster. I think he is coming in here.
    Mr. Webster. Am I next or last?
    Mr. Calvert. You are next and last. So we appreciate your 
coming in, and you are recognized for 5 minutes.
                              ----------                              

                                           Thursday, March 9, 2017.
HON. DANIEL WEBSTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

                Summary Statement of Congressman Webster

    Mr. Webster. Fantastic. Thank you for letting me be here 
today. I appreciate the opportunity. Thank you for having these 
listening sessions. They are good for the peons like me. We 
really appreciate it.
    I have two requests. One of them is for the Civil Air 
Patrol, for them to be the auxiliary of the United States Air 
Force. I would request that they would get $43.1 million. That 
would be a $3.1 million increase over current funding. That 
would be for upgrades that they are going to have to do based 
on the FAA. All U.S.-based aircraft have to have avionics 
improvements. They are going to have to do the same. They don't 
have the money to do that.
    It is about half of that request. A couple other things 
dealing with cybersecurity and communication equipment, which 
also is a requirement they are going to have to do, would be 
included in that request.
    And my second would be the Navy has had in the Defense 
Review, they initially recommended in 2010 that a carrier be 
based in Mayport, in Jacksonville. That has not changed. The 
Navy secretary, chief of naval operations have repeatedly asked 
for that to take place. At present, our Nation only has one 
carrier based in the Eastern Seaboard, at Norfolk. And I would 
say I would be speaking for the entire Florida delegation to 
say we would like to see that take place.
    Both of those requests would be for fiscal year 2018.
    That is it.
    [The written statement of Congressman Webster follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    Mr. Calvert. Well, you are carrying on the tradition of 
Ander Crenshaw, who was always asking for a carrier to be based 
in Florida. So we will certainly take that into consideration, 
and we appreciate your testimony. And being a former pilot, I 
understand the importance of the Civil Patrol. So it is a great 
request.
    Mr. Webster. That is my only two requests.
    Mr. Calvert. Any questions?
    Thank you for your testimony.
    This concludes the subcommittee's Members' Day hearing. We 
appreciate our colleagues' testimony here today. The 
subcommittee stands adjourned.
    [Written testimony from Congressman Arrington submitted for 
the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, March 28, 2017.

                     UNITED STATES CENTRAL COMMAND

                                WITNESS

GENERAL JAMES VOTEL, COMMANDER, U.S. CENTRAL COMMAND

                 Opening Statement of Chairman Granger

    Ms. Granger. The Subcommittee on Defense will come to 
order. This morning the subcommittee will hold a hearing on the 
posture of the United States Central Command. First, I want to 
recognize the ranking member, Mr. Visclosky, for a motion.
    Mr. Visclosky. Madam Chairwoman, pursuant to the provisions 
of clause D of section 4 of the rules of the committee, I move 
that today's markup be held in executive session because of the 
classification of the material to be discussed.
    Ms. Granger. So ordered. Thank you, Mr. Visclosky.
    Our witness this morning is General Joseph Votel, commander 
of United States Central Command. We appreciate so much your 
being with us, what you do, the importance of what you do in a 
very dangerous world and a very dangerous part. So, General, 
welcome back to the subcommittee, and thank you.
    We understand Central Command is a complex and volatile 
area of responsibility that is filled with instability and 
turmoil. Right now, our forces are fighting pure evil in the 
form of ISIS in Iraq and Syria; As if that isn't hard enough, 
they have to deal with Russia and Iran transferring with the 
fight. However, the war in Iraq and Syria is only one of the 
challenges. Afghanistan faces a resurgent Taliban, the conflict 
in Yemen is escalating, Egypt is engaged in fighting ISIS 
affiliates in the Sinai, and Al Qaeda continues to persist. 
General, given the challenges your command faces, we must 
ensure you do not lack the support you need to accomplish your 
mission.
    As we watch events unfold, we are concerned by Russian and 
Iranian efforts to spread their influence throughout the 
region. Additionally, we are equally troubled by the continued 
presence of violent extremism from ISIS, Al Qaeda, and the 
Taliban.
    Our adversaries only understand one thing, and that is 
strength. They must know the United States will stand with our 
allies and respond decisively to their aggression.
    As chairwoman of the subcommittee, I believe our decisions 
should be guided by experts in uniform like you. There are 
limited resources and significant needs. We should not make 
decisions in a vacuum. We will rely on your best military 
advice.
    We look forward to your testimony and your insight, but 
first, I would like to call on the ranking member, my friend, 
Pete Visclosky, for his comments.
    Mr. Visclosky. Madam Chair, thank you very much. I simply 
want to thank you for holding the hearing, General, for your 
service, and look forward to the testimony and the questions of 
my colleagues. Thank you so much.
    Ms. Granger. General, please proceed with your testimony. 
Your full written testimony will be placed in the record. Feel 
free to summarize your oral statements so we can leave enough 
time to get to everyone's questions. Thank you.

                   SUMMARY STATEMENT OF GENERAL VOTEL

    General Votel. Thank you. Chairwoman Granger, Ranking 
Member Visclosky, distinguished members of the subcommittee, 
good morning, and thank you for the opportunity to appear here 
today to discuss the current posture and state of readiness of 
the United States Central Command. I come before you today on 
behalf of the outstanding men and women of the command, 
military, civilians, and contractors, along with our coalition 
partners, representing nearly 60 nations. Our people are the 
very best in the world at what they do, and I could not be more 
proud of them and their families. Without question, they are 
the strength of the Central Command team.
    [The written statement of General Votel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Clerk's note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                         Wednesday, March 29, 2017.

                     UNITED STATES EUROPEAN COMMAND

                                WITNESS

GENERAL CURTIS M. SCAPARROTTI, COMMANDER, UNITED STATES EUROPEAN 
    COMMAND

                 Opening Statement of Chairman Granger

    Ms. Granger. The Subcommittee on Defense will come to 
order.
    This morning, the subcommittee will hold a hearing on the 
posture of the United States European Command.
    First, I want to recognize the ranking member, Mr. 
Visclosky, for a motion.
    Mr. Visclosky. Madam Chair, pursuant to the provisions to 
clause D of section 4 of the rules of the committee, I move 
that today's markup be held in executive session because of the 
classification of the material to be discussed.
    Ms. Granger. So ordered. And thank you, Mr. Visclosky.
    Our witness this morning is General Mike Scaparrotti, 
Commander of the United States European Command, NATO, and the 
Supreme Allied Commander, Europe.
    General, welcome back to this subcommittee, and thank you 
for your service and your attention, and thank you for being 
here with us.
    Threats from Russia and terrorists have interrupted decades 
of peace for EUCOM, NATO, and our allies. To complicate 
matters, a major refugee crisis is overwhelming many European 
countries, and ISIS is using this crisis to smuggle its own 
operatives into Europe.
    General, given the challenges your command faces, we remain 
concerned you lack the support you need to accomplish your 
mission. The subcommittee has provided EUCOM with additional 
resources through the European Reassurance Initiative; however, 
we are concerned that it is not nearly enough, when you take 
into account the funding is significantly less than the 
resources Russia has dedicated to Crimea and Ukraine alone.
    Bullies often understand one thing, and that is strength. 
Putin must know the United States will stand with our European 
allies and respond decisively to their resurgent aggression.
    As chairwoman of the subcommittee, I believe our decisions 
should be guided by experts in uniform, like you. There are 
limited resources and significant needs. We should not make 
decisions in a vacuum and will rely on your best military 
advice. We look forward to your testimony and your insight.
    But, first, I would like to call on the ranking member, my 
friend, Pete Visclosky, for his comments.
    Mr. Visclosky. I thank the chairwoman for holding a 
hearing, and I look forward to the gentleman's testimony.
    Ms. Granger. I needed a little situational awareness. I 
apologize.
    Mr. Visclosky. I do too.
    Ms. Granger. General, please proceed with your testimony. 
Your full written testimony will be placed in the record, and 
please feel free to summarize your oral statement so we can 
leave enough time to get to everyone's questions.
    [The written statement General Scaparrotti follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    [Clerk's note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                         Wednesday, April 26, 2017.

                     UNITED STATES PACIFIC COMMAND

                                WITNESS

ADMIRAL HARRY B. HARRIS, JR., COMMANDER, UNITED STATES PACIFIC COMMAND

                 Opening Statement of Chairman Granger

    Ms. Granger. The Subcommittee on Defense will come to 
order.
    Today the subcommittee will hold a hearing on the posture 
of the United States Pacific Command. First I want to recognize 
the ranking member, Mr. Visclosky, for a motion.
    Mr. Visclosky. I move that those portions of the hearing 
today which involve classified material be held under executive 
session because of the classification of the material to be 
discussed.
    Ms. Granger. So ordered. Thank you, Mr. Visclosky.
    Our witness this morning is Admiral Harry Harris, Commander 
of the United States Pacific Command. Admiral, welcome back to 
the subcommittee, and thank you for your service. Sorry you had 
to wait on us. We had a couple of votes.
    An increasingly provocative North Korea, rising tensions in 
the peninsula, and China's military expansion in the South 
China Sea continue to threaten stability in the region and 
remind us of the challenges you face. To complicate matters, 
the PACOM area of responsibility encompasses nearly half the 
Earth's surface. The 36 nations comprising the Asia Pacific 
region are home to more than 50 percent of the world's 
population and several of the world's largest militaries.
    Admiral, this subcommittee is committed to providing you 
with the resources you need to enhance stability in the Asia 
Pacific region, promote cooperation and peace, deter 
aggression, and if necessary, fight to win.
    As Chairwoman of the subcommittee, I believe our decisions 
should be guided by experts in uniform like you. There are 
limited resources and significant needs. We should not make 
decisions in a vacuum, and we will rely on your best military 
advice. We look forward to your testimony and your insight.
    First I would like to call on the ranking member, my 
friend, Mr. Visclosky, for his comments.
    Mr. Visclosky. I just want to thank the Chairwoman for 
holding the hearing today; Admiral, your service. I know it is 
a long day for you. And look forward to hearing from you.
    Thank you very much.
    Admiral Harris. Thank you, sir.
    Ms. Granger. Admiral, please proceed with your testimony. 
The full written testimony will be placed in the record. Feel 
free to summarize your oral statement so we can leave enough 
time to get to everyone's questions if you do decide to do 
that.
    Admiral, thank you for your testimony, and I will call on 
you now.
    Admiral Harris. Yes, ma'am. Thank you, Chairwoman and 
Representative Visclosky and distinguished members. It is an 
honor for me to appear again in front of this committee.
    [The written statement of Admiral Harris follows:]
    [GRAPHIC] [TIFF OMITTED] T8272B.086
    
    [GRAPHIC] [TIFF OMITTED] T8272B.087
    
    [GRAPHIC] [TIFF OMITTED] T8272B.088
    
    [GRAPHIC] [TIFF OMITTED] T8272B.089
    
    [GRAPHIC] [TIFF OMITTED] T8272B.090
    
    [GRAPHIC] [TIFF OMITTED] T8272B.091
    
    [GRAPHIC] [TIFF OMITTED] T8272B.092
    
    [GRAPHIC] [TIFF OMITTED] T8272B.093
    
    [GRAPHIC] [TIFF OMITTED] T8272B.094
    
    [GRAPHIC] [TIFF OMITTED] T8272B.095
    
    [GRAPHIC] [TIFF OMITTED] T8272B.096
    
    [GRAPHIC] [TIFF OMITTED] T8272B.097
    
    [GRAPHIC] [TIFF OMITTED] T8272B.098
    
    [GRAPHIC] [TIFF OMITTED] T8272B.099
    
    [GRAPHIC] [TIFF OMITTED] T8272B.100
    
    [GRAPHIC] [TIFF OMITTED] T8272B.101
    
    [GRAPHIC] [TIFF OMITTED] T8272B.102
    
    [GRAPHIC] [TIFF OMITTED] T8272B.103
    
    [GRAPHIC] [TIFF OMITTED] T8272B.104
    
    [GRAPHIC] [TIFF OMITTED] T8272B.105
    
    [GRAPHIC] [TIFF OMITTED] T8272B.106
    
    [GRAPHIC] [TIFF OMITTED] T8272B.107
    
    [GRAPHIC] [TIFF OMITTED] T8272B.108
    
    [GRAPHIC] [TIFF OMITTED] T8272B.109
    
    [GRAPHIC] [TIFF OMITTED] T8272B.110
    
    [GRAPHIC] [TIFF OMITTED] T8272B.111
    
    [GRAPHIC] [TIFF OMITTED] T8272B.112
    
    [GRAPHIC] [TIFF OMITTED] T8272B.113
    
    [GRAPHIC] [TIFF OMITTED] T8272B.114
    
    [GRAPHIC] [TIFF OMITTED] T8272B.115
    
    [GRAPHIC] [TIFF OMITTED] T8272B.116
    
    [GRAPHIC] [TIFF OMITTED] T8272B.117
    
    [GRAPHIC] [TIFF OMITTED] T8272B.118
    
    [GRAPHIC] [TIFF OMITTED] T8272B.119
    
    [GRAPHIC] [TIFF OMITTED] T8272B.120
    
    [Clerk's note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                           Wednesday, May 24, 2017.

               NATIONAL GUARD BUREAU / RESERVE COMPONENTS

                                WITNESS

GENERAL JOSEPH L. LENGYEL, CHIEF, NATIONAL GUARD BUREAU

             Opening Statement of Chairman Granger--Panel 1

    Ms. Granger. The Subcommittee on Defense will come to 
order. This morning, the subcommittee will hold a hearing on 
the posture of the National Guard and Reserve Components. This 
will be a two-panel hearing. Panel 1 recognizes the Chief of 
the National Guard Bureau. Panel 2 will recognize the Reserve 
Component Chiefs from the Army, Navy, Marine, and Air Force 
Reserves. I would encourage all members to stay for both 
panels.
    Our witness for panel 1 is General Joe Lengyel, Chief of 
the National Guard Bureau. We are pleased to welcome General 
Lengyel, a four-star sitting member of the Joint Chiefs of 
Staff.
    Welcome, and welcome to the subcommittee hearing, your 
first time to testify as Chief. As Chief of the Guard Bureau, 
General Lengyel will address all joint Army and Air National 
Guard questions.
    General, we have known each other for a long time, and as 
Chairman, I value your knowledge and your experience in leading 
the National Guard. Given the challenges our Nation faces, we 
want to ensure that you have the resources and support to 
accomplish your mission. This subcommittee has provided the 
Guard with additional resources to the National Guard and 
Reserve Equipment Account, an appropriation which has never 
been included in a President's budget request, additional 
funding for counterdrug operations, HMMWVs, helicopters, fixed-
wing aircraft, and more.
    However, we are concerned this is not nearly enough when 
you take into account the funding is significantly less than 
the vast resources available to the Active Components. Our 
country stands for strength, and citizen soldiers are the 
background and the foundation of that strength. There are 
limited resources and significant needs. We should not make 
decisions in a vacuum. We will rely on your best military 
advice to guide these funding decisions. We look forward to 
your testimony and your insight. But, first, I would like to 
call on the ranking member, my friend, Pete Visclosky, for his 
comments.
    Mr. Visclosky. Well, I simply want to thank the Chairwoman 
for holding the hearing today and, General, for your service 
and your testimony. I look forward to it. Thank you very much.
    Ms. Granger. General, please proceed with your testimony. A 
full written testimony will be placed in the record. Please 
feel free to summarize your oral statement so we can leave 
enough time to get to everyone's questions.

                  Summary Statement of General Lengyel

    General Lengyel. Thank you, Chairwoman. Thank you very 
much.
    I think I say that to you and to Ranking Member Visclosky 
and distinguished members of the subcommittee, it is a pleasure 
for me to be here today, and I look forward to talking to you 
about the men and women of not only the Army National Guard but 
also the Air National Guard.
    In summary, the National Guard focuses on three things. It 
focuses on our warfighting mission, the homeland mission, and 
building partnerships. And thanks to the support from this 
committee, I can tell you that the National Guard that I have 
the honor to represent here today is the most ready it has ever 
been, I think, or the most capable National Guard it has ever 
been in our 380-year history.
    As I talk to you today, we have 18,000 men and women 
deployed in every combatant command around the globe. In 
addition to that, I have 4,000--you have 4,000 of your men and 
women working for homeland defense and Homeland Security 
missions here today. And we have made and continue to develop 
robust partnerships with not only our international partners 
through the State Partnership Program, which is about to go to 
79 partnerships when we formalize the relationship with 
Malaysia here in the near term--thanks to you and the funding 
that this committee has provided, that State Partnership 
Program has taken on a strategic impact that I think maybe, 
when we developed it, we didn't see that it was becoming.
    This committee provides the resources for us through NGREA, 
as you mentioned in your remarks, to maintain a force that is 
first ready for the war fight but used as a dual-nature force, 
as it is our job as the National Guard to be ready to provide 
those forces here in the homeland when the Governors and the 
States need us to do that. And never have we been more ready to 
do that, whether it is fires or floods or winter snowstorms or 
terrorists, such as bombs blown up in Boston, the National 
Guard is there, and we are trained, and we are ready because of 
the resources that this committee has chosen to give it.
    The relationship with our parent services, the Active Duty 
Air Force and the Active Duty Army, I have to tell you, has 
never been better. My relationship with General Milley and 
General Goldfein, who I understand testified yesterday, have 
committed to a Total Force that includes an operational use of 
the Reserve Component. And if I have one ask of this committee 
today, it is to maintain the Reserve Component, and, in my 
case, the National Guard, as an operational force. We have been 
driven to that because of the demands placed on our Department 
of Defense and the global nature of the threat.
    The services have had to rely more on the use of the Army 
National Guard and the Air National Guard than ever before, and 
because of that, they are willing to invest in us, invest in 
our leaders, invest in our training, and because of the 
resources this committee gives us, we have the equipment, the 
people, and the training to go there. Can we use more? Can we 
get better? Yes, we can. But I report to you today, and I thank 
this committee today for the opportunity to testify, and I look 
forward to your questions.
    [The written statement of General Lengyel follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

                             SEQUESTRATION

    Ms. Granger. Thank you so much. I want to make our members 
aware that we will be using a timer for each member and that 
you have 5 minutes, including questions and responses, for the 
witness. A yellow light on your timer will appear when you have 
1 minute remaining. If time permits, we will have a second 
round of questions.
    I am going to ask a question to begin. General Lengyel, 
full-spectrum readiness training has been suppressed over the 
past 15 years due to combat operations in Iraq and Afghanistan. 
In recent years, sequestration further squeezed the readiness 
dollars needed to resume such training. Could you describe the 
impact this has on military readiness now and in future years, 
and how does the fiscal year 2018 request begin to address 
those concerns?
    General Lengyel. Yes, ma'am. I think you address the 
problem that the service Chiefs have talked about in terms of 
the ability to maintain full-spectrum readiness for their 
force, mostly because of the demand on that force and the 
limited funding to sustain things like flying hour programs, 
complex training scenario programs. But we are beginning to dig 
out of that and rebuild readiness inside the services and 
inside the National Guard.
    The Army National Guard and the Air National Guard have 
been used in an operational sense, which has allowed the 
services in some cases to maintain or rebuild their readiness.
    Sequestration clearly is going to limit every aspect, would 
limit every aspect of our ability to do that, should it come in 
the future. And I would tell you that predictable and 
dependable funding is probably the single most important factor 
that we in the National Guard need so that we can plan to 
recruit our people, so that we can plan to train our people, 
and so that we can maintain our equipment and recapitalize our 
equipment through the services as we normally do. So I think 
that clearly readiness is funding-related, and this budget 
begins to build some of that back, but it is going to take a 
long time before all of the things, the recapitalization and 
modernization of the force, are fully complete.
    Ms. Granger. Thank you.
    Mr. Visclosky.
    Mr. Visclosky. I will pass. Thank you.
    Ms. Granger. Ms. McCollum.

                      FAMILY ASSISTANCE SPECIALIST

    Ms. McCollum of Minnesota. Thank you. Good morning. I am 
going to touch on something, and then I have a question. So I 
am glad you are here today, in part because we are going to 
learn a lot more on how we can be a proactive partner in making 
sure that the Guard remains the successful part of our military 
force that it is.
    But I also want to take this opportunity to reinstate some 
concerns that I have with you about the family assistance 
specialists. It is still causing a lot of concern among my 
Guard members, family members, constituents which include the 
businesses that employ these Guard members and many, many other 
people in Minnesota and, I know, other States as well.
    As we talked about in my office, these specialists provide 
critical benefits and assistance. And in Minnesota alone, there 
were 1,700 cases handled by these folks. I understand there has 
been a new contract issued, but, folks, when someone's hourly 
wage increase for a job that they are doing is cut from $21 to 
11--to $14 an hour, it sends a message to the people who had 
been previously doing this job: You can work for less money, or 
your work is not valued.
    So we are going to be watching to see what happens with 
county veterans service offices in Minnesota's caseloads, what 
happens in our congressional office with caseloads now that the 
expertise isn't there. So I know you are going to be monitoring 
this, too, and change is always an option, and we need to maybe 
work with a new vendor or figure something out if this is a 
problem. Maybe it won't be, but we are a little alarmed.

                      ARMORED BRIGADE COMBAT TEAMS

    What I would like to focus on is the five National Guard 
armored brigade combat teams. Currently, the operating tempo 
has been drastically increased so the number of training days 
for National Guard soldiers went from 60 to 90. That is an 
extra month, right, on average. So we know this increase in 
training days is important. But along with what we have 
happening with mobilization, deployments, it is putting more 
and more of a burden on the quality of life for soldiers, their 
units, and their families. So I am concerned and the Minnesota 
National Guard is concerned about long-term retention in these 
brigades. I know we want to make sure that we have a great 
readiness posture so everybody is able to perform their job 
successfully and come home safely.
    But can you tell me how you are going to be monitoring and 
some of the concerns that you might have with going from 39 to 
60 days on average?
    General Lengyel. Well, yes, ma'am. I can tell you that we 
are aware of this issue, and that is one of the things as the 
Chief of the National Guard Bureau that I track closely, is I 
worry about the business model of the National Guard, which 
means our soldiers and airmen have a civilian life and a 
military life. And if I lose support from the soldier or airman 
to support both of those lives, if he is forced to make a 
choice or she is forced to make a choice, then I know which one 
they will pick, and most likely I will lose that soldier or 
that airman.
    So what we are trying to do, as you are aware is, yes, it 
is true that the armored brigade combat teams will require more 
training to be ready should the United States Army need them to 
fight in any of the various scenarios where they will be.
    I will tell you that some of this transformation has 
already happened in terms of the Army force generation model 
previously has been for several years now a graduated increase 
in the training requirements as the brigade progresses through 
its training cycle just before it is available to be deployed, 
and that is not new.
    What is new is that the United States Army has decided to 
increase the training available to the brigade combat teams. We 
are going to go from two combat training center rotations a 
year to four combat training centers a year. In my estimation, 
that is a good thing in that it is going to make this 
operational Army National Guard more valuable to the country, 
more valuable to the Army, and more ready so it can be ready 
quicker should it go out the door.
    To your point about how are we going to monitor them, well, 
I think that this is a leadership issue. This is something 
where we have to watch the people, personal engagement on my 
part, on the adjutant general's part, on the commander's part, 
with making sure that the schedules that we give these soldiers 
are predictable, that we let the employers know that you can 
count on these soldiers, and that these increased training 
times actually result in a deployment for the soldiers at the 
end. Otherwise, they won't be seen as a reason why--why should 
an employer endure the extended time away from their jobs if, 
at the end of that training period, they don't use them? So, as 
we are going through this now, the plan is for the Army to use 
these forces and deploy them.
    This is the first cycle of this, and some people have 
decided that they have to change. They can't support it, and 
they will change MOSes and go someplace else. I lived this in 
the Air National Guard myself as a guardsman in the mid-1990s, 
when we began to deploy regularly, and it definitely changes 
the paradigm. So there will be a change as this goes forward, 
and we are going to have to work with the employers and the 
members to the maximum extent possible so that we don't lose 
them.
    Ms. McCollum of Minnesota. Well, thank you for your answer, 
and I am taking it in the spirit in which I think you totally 
meant it, but I am going to put a cautionary tale on it. This 
just isn't about leadership to put up and to be quiet about it. 
This is also about leadership to see if we need to go back and 
review and figure out how these folks are not only trained but 
deployed in the future.
    Thank you.
    Ms. Granger. Thank you. Chairman Emeritus Rogers.

                              END STRENGTH

    Mr. Rogers. Thank you, Madam Chairwoman.
    Welcome, General, to these premises. Let me ask you, the 
Guard has a dual responsibility, one to the State of their 
location, the Governor, and, of course, then the combatant 
commands on the Federal level. The previous administration 
proposed cuts, continued cuts, to Guard end strength. But our 
2017 bill reversed those cuts to end strength and will add 
1,000 Army Guard troops above the 2016 level. Tell us how you 
are going to utilize that extra manpower.
    General Lengyel. Yes, sir. Thank you. That is true, and we 
are happy to see that the reduction in end strength stopped for 
the Army National Guard. And because of the two missions we 
have, when force structure leaves our States, it is a double 
hit. It is a hit against the Federal mission, and it is a hit 
against the ability to do our homeland mission. So our plan is 
to take the additional manpower that we have. If you recall, we 
were on a glide path to 335,000 force structure inside the Army 
National Guard. It stopped at 342,000 last year, and we were 
able to grow it back 1,000 to 343,000 this year. Our intent is 
to take that additional manpower, and as I talked about on the 
five brigade combat teams, is we are going to place it against 
and increase the readiness of these high-demand, operationally 
deploying units that will make them more ready, be able to get 
ready quicker, and train as they go.
    One of the concerns, frankly, of the increased manpower is 
we got the people back, but we didn't get the increased full-
time support back with it. We got the part-time soldiers back. 
We took the full-timers out all the way down to 335,000. We 
built the Army Guard back up to 343,000, but they were part-
time billets and not full-time billets. And that hurts our 
ability to generate the force quickly and keep it ready and 
minimize the time it takes to get it ready to go out the door.

                          COUNTERDRUG PROGRAM

    Mr. Rogers. In my State, and I suspect I speak for all 
States when I say this, we have got a tremendous, incredible 
drug problem. And in my area, the Guard has had a great program 
to eradicate marijuana in the remote hills of Appalachia, where 
it is apparently a very great climate for the growth of 
marijuana. But that Guard unit has just been tremendous. In 
joint support operations, they have eradicated 13 million 
marijuana plants. They have seized tons of marijuana, illegal 
weapons, and so forth, all to the tune of $25 billion.
    And we are seeing now across the country an effort 
apparently to make marijuana legal. But in the hills of 
Kentucky--and I have been on a couple of these missions where 
they fly into a very remote area of mountains, no homes or 
properties of any kind--mainly the marijuana is grown under 
high-tension electric wires right-of-way. Number one, you can't 
prove who owns it. And, number two, you can't get there with a 
helicopter because of the electric lines and the like. And the 
troopers have to rappel down a rope, cut the marijuana, put it 
in a big bag, put it over their shoulder, and they are picked 
up by the helicopter and carried 50 miles dangling 100 feet 
from below a helicopter. Very dangerous work but very 
productive. Do you see that continuing, and what can we do to 
help you see that?
    General Lengyel. Well, first, let me thank this committee 
for the $234 million we got in this year's appropriation for 
the Counterdrug Program. That Counterdrug Program, as you said, 
sir, is incredibly important, I believe, to leverage the skill 
sets that we have in the National Guard to facilitate and work 
with law enforcement to detect, disrupt, curtail illegal drug 
activities in every State.
    As you mentioned, the State of Kentucky has an issue with 
marijuana, and I think that, you know, as you look across the 
Nation, every State's program is tailored for the individual 
requirements that they have inside their State, and that is the 
way it should be. So, as we look at the disbursement of the 
$234 million, we have what is called the threat-based resource 
model, which has about 70 different factors. It allows each 
State to prioritize what is important to them such that when 
they come into the pool, their particular problem gets 
resourced, and then the States use those funds and develop 
their own plan, and in your case, sir, it is the eradication of 
marijuana inside Kentucky. And so I want to be able to continue 
to support that.
    I want to thank this committee for the continued funding of 
that program. Your funding of that program has enabled not only 
a robust liaison with law enforcement, but the schooling, the 
five additional schools that are funded have allowed us to 
build additional capacity to fight this drug issue, whether it 
is marijuana or opioids or heroin or synthetics. And we all 
know the significant toll that that has taken on our country 
across the Nation.
    Mr. Rogers. You mentioned opioids. My area was ground zero 
14 years ago at the outset of an OxyContin rage that raged 
across the country. But these marijuana growers frequently are 
the dealers in opioids, and it is a double whammy with the 
money that we put into the antimarijuana program because it 
does bring in additional breakers of the law.
    Well, we appreciate your service, sir.
    General Lengyel. Thank you, sir.
    Ms. Granger. Mr. Ruppersberger.

                            RUSSIA AGRESSION

    Mr. Ruppersberger. Thank you for being here, and also we do 
appreciate your service and what you do in our hometowns and 
also what you are doing to fight the war with ISIS and the 
other issues we deal with.
    I come from local government, so many, many times with 
storms and hurricanes, the National Guard has been there. And I 
also want to get a little local, but I want to acknowledge the 
Adjutant General Linda Singh, who is doing a great job in 
Maryland, is heading that area.
    As you know, the National Guard also plays a critical role 
in deterring Russia's aggression. I was just in Estonia about 3 
weeks ago, and Maryland National Guard has about 500 members 
there right now that are working on the cyber capability and 
helping Estonia deal with the Russian aggression and Russian 
hacks and those types of things.
    And when we met, I think a couple months ago, you said it 
was critical that Russia must respect the frontline National 
Guard combat units as well as the full time. And do you believe 
at this point that Russia sees the National Guard units in a 
strength position? Where do you feel we are at this point? Are 
there additional capabilities that this committee needs to help 
fund to get you to that level? And then also if you have time--
I think we do--I want to talk, if you can talk a little bit 
about that Maryland National Guard in Estonia and what their 
mission is and what they are doing, and what is their future 
there?
    General Lengyel. Congressman, I think when the Russians 
look across in Estonia or anywhere else in uniform and they see 
men and women in the Army, wearing an Army uniform, they see 
the United States Army. That is what I think they see. I think 
that is thanks in many ways to this committee. It is in thanks 
to 15 years or more now of continuous deployments, of 
integration of Army National Guard formations with Active 
Component formations, of a Total Force policy from General 
Milley and those on his staff that support this associate unit 
pilot program that is training our brigades with the Active 
Army brigades, aligning their formations so that we can train 
together and fight together.
    And I do think that everywhere I go--I was in the Sinai 
Peninsula this past week. I saw the swap out of an infantry 
brigade from Minnesota National Guard to the Massachusetts 
National Guard in the Sinai for the multinational force and 
observer mission, and I can tell you that they see no 
difference when they look across and they see, whether it is 
combat maneuver forces or whether it is combat support 
services, they are wearing the United States Army uniform. And 
there is one training standard for the Army, and the National 
Guard doesn't have a different one. The National Guard will 
train, will deploy, will be ready at the same training standard 
as the United States Army, and that is what I think Russia 
sees.
    And the second part of your question, Estonia, the State 
Partnership Program--and, again, thanks for the significant 
amounts of plus ups that you gave us for this year; I believe 
we got an additional $9 million added to the program from this 
committee--that enables the engagements we have. The cyber 
relationship with Estonia and their Cyber Center of Excellence 
over there, is a model for programs around the globe. That 
engagement since 1993, they were among the first three programs 
that started in the Baltics with us there. That ability to 
assure our allies of the United States' commitment to the 
region, that ability to train together with the forces in the 
region, have had a strategic impact on our ability to assure 
and strengthen the NATO alliance. And my thanks to Linda Singh, 
who has been a great supporter of that, the State Maryland, and 
everyone else who is part of that.
    Mr. Ruppersberger. You know, Estonia is only 120 miles from 
Russia, and Putin is continuing to threaten it. And they had 
one of those severe attacks, and as a country, they only have 
close to a million people. They decided they were going to take 
on Russia. And with our help, the United States' help and 
working with them, they have become pretty sophisticated, I 
think, from all the countries in that region dealing with the 
Russian aggression and trying to counter the Russian attacks.
    General Lengyel. Absolutely.
    Mr. Ruppersberger. I yield back.
    Ms. Granger. Thank you.
    Mr. Calvert.

                MODERNIZATION RECAPITALIZATION STRATEGY

    Mr. Calvert. Thank you, Madam Chairman.
    Good morning, General Lengyel. Thank you for appearing 
before the committee, and thank you for your dedicated service 
to our great Nation, especially on the eve of honoring those 
who sacrificed everything in the service of our country this 
coming Memorial Day.
    Readiness is the most dangerous limiting factor across all 
branches of our military, ranging from the timely training of 
personnel to aging aircraft. Congress, as you are aware, has 
appropriated additional funds for Army aircraft procurement, 
specifically for Black Hawk helicopters. In fiscal year 2017, 
Congress provided the Army National Guard with 15 additional 
Black Hawks. As you may know, my home State of California is 
one of the country's most active emergency response forces, and 
its primary workhorse for aerial support is the Black Hawk 
helicopter. California flies one of the oldest fleets of Black 
Hawks in the country. Sixty-five percent of them were built 
before 1990. In 2015, only 55 percent of the State's Black Hawk 
fleet was operational at any given time.
    Please explain to us your current modernization 
recapitalization strategy for allocating these aircraft and 
those projected in fiscal year 2018 and 2019. When do you 
expect the States to receive the first of those additional 
aircraft?
    General Lengyel. Yes, sir. Thank you and to this committee 
for the funding for the 15 Black Hawks. I think that, as we do 
with all our dispersion of equipment and recapitalization and 
modernization decisions, we look across the enterprise and see 
where it best makes sense to recapitalize a fleet at the time. 
I am not exactly sure yet when those Black Hawks are going to 
get delivered. I think that will make a case to determine when 
we get them. We will look at things like readiness as a fleet, 
maintenance statistics of the fleet, the sustainment levels of 
the fleet, potential deployments and utilization of those for 
our three missions--war fight, homeland, and partnerships--and, 
at the time, work with the Army National Guard to determine 
where its best to deploy those additional 15 Black Hawks. That 
is how we look at every stationing of all equipment, sir, and I 
thank you for your support of getting those Black Hawks.
    Mr. Calvert. I hope in that process you think of good ole 
California.
    General Lengyel. Absolutely. Yes, sir.

                         COUNTERDRUG OPERATION

    Mr. Calvert. To carry on with Chairman Rogers' line of 
questioning, combating terrorism and protecting our national 
interests abroad is only a part of the Guard's expansive 
mission. Protecting the homeland through the counterdrug 
operation is a vital mission I know that you take very 
seriously. In my area and throughout the United States, what 
are you seeing from these drug cartels, and do you see any 
association or collaboration between cartels and terrorist 
organizations?
    General Lengyel. So, sir, I think the consensus is that 
they are one in the same. I think that the money from the drug 
cartels is part and parcel to terrorist organizations. And 
counterterrorist organizations, countertransnational criminal 
organizations are all networked and aligned and work against 
the security of the United States.
    Mr. Calvert. Do you see any collaboration outside of 
organizations in South America, or are there organizations 
outside of South America involved in the drug activities?
    General Lengyel. It is a global network, no question. It is 
not limited to South America. The funding streams, part of the 
things that the National Guard provides is counterthreat 
finance analysis. We train people who do these kinds of 
analysis in great detail, and it is clear that funding streams 
in these networks are not geographically limited. They are 
global in their nature. No question.
    Mr. Calvert. Thank you, Madam Chair.
    Ms. Granger. Mr. Cuellar.

                NATIONAL GUARD STATE PARTNERSHIP PROGRAM

    Mr. Cuellar. Thank you, Madam Chair.
    And, again, thank you for your service.
    A couple things. There are some of us who pushed for two 
items. One was the million dollars more to the National Guard 
State Partnership Program, from 8 to 9. I would like to get 
your thoughts, what you are looking at doing with that extra 
money. And the other item was the, I think, fiscal year for the 
Counterdrug Program was 192, and some of us pushed it to $234 
million. So I would like to get your quick thoughts on those, 
and then I would like to ask you a question about Operation 
Phalanx.
    General Lengyel. Yes, sir. Thank you. As I mentioned the 
State Partnership Program and thanks to your funding, it is an 
incredible tool, strategic tools, for the Department of 
Defense, for the country, for our States. And the $234 million, 
my only worry is we got it so late in the year, I am worried 
that getting the money this late will be difficult for us to 
execute some of it because, as you know, we have the posture in 
the SPP, troops and people to go, and events, and work with 
host-nation countries, and some of these things take time to 
develop.
    Mr. Cuellar. And we understand.
    General Lengyel. But, clearly, we can spend every bit of 
money you give us for the State Partnership Program, given the 
lead time to spend it. And the same thing for the Counterdrug 
Program. There is no shortage of requirements or asks from law 
enforcement agencies for what we do across the program. So 
absolutely thank you for the----

                           OPERATION PHALANX

    Mr. Cuellar. If you want to just share with the committee 
and ourselves later on what your plans are, I would like to do 
that. I know the last time we were with Chairman Rogers and Mr. 
Womack, we went down to South America, and there are some 
partnerships out there. Chile has one with Texas, and you have 
other States also. Do you all have anything with Mexico? I know 
we have been trying to do something with Mexico. If we can help 
you, it would only make sense that our largest neighbor, at 
least to the south, is one. So if we can help you on that, let 
me just say that. We can follow up.
    I do want to ask you about Operation Phalanx. I know that 
Chairman Carter and Governor Abbott and I have been working on 
it. As you know, when you have Border Patrol, and they are 
doing night operations, the Air Marine, with all due respect, 
they do it during the day. They don't want to go out at 
nighttime. But you still have Border Patrol that are going out 
there, and you got to have something at nighttime, and 
unfortunately, some of our Air Marine folks, and we can address 
this later, but they don't go after 5 o'clock. And now they are 
trying to move away from the border, trying to set up--like 
they have a base in Laredo. They want to move to San Antonio. 
They want to be away from the border, which is 
counterintuitive. But the National Guard has done a heck of a 
job.
    We added some money, the leadership of John Carter and 
other folks, we added some money for Operation Phalanx, but 
what happened was that the Homeland Secretary, the previous 
Homeland Secretary, even though the money was there, they never 
asked. Then they send this little letter that really didn't 
mean anything. It was a feel-good letter. Then we contacted the 
new Secretary of Homeland, and his people are not familiar with 
it. You are familiar with it. We would ask you to get a hold of 
the new Secretary's office, and I believe the money is there. 
And whatever you all can do, because we got to give our men and 
women of the Border Patrol support at nighttime. It is unfair 
that they are out there in the night and there is no aerial 
support for them. So I would like to--I got about a minute and 
a half, but if you can finish on that thought, some of us, 
including Governor Abbott and ourselves, are big supporters of 
this.
    General Lengyel. Sir, I thank you for the $19 million for 
Operation Phalanx. I have already spoken to Secretary Kelly. I 
went to his office, and I met with him, and I told him about my 
recent trip to the Southwest border, McAllen was one place I 
went, and also in Nogales in Arizona, at the request of Senator 
McCain, to see the Southwest border. And I saw firsthand the 
need, the requirement, for additional air support to the folks 
who are on the border, the Customs and Border Protection agents 
who are there. I rode in an Army National Guard helicopter at 
night flying as part of the Counterdrug Program, with a Customs 
and Border Protection agent in the helicopter, and I must share 
with the committee it was not much different than what you see 
on TV for taking down a spot in Afghanistan. There weren't 
bullets and things flying along, but there were escorters. 
There were people running. There were police officers trying to 
apprehend them. And it is absolutely useful. So I commit to go 
back to Secretary Kelly, and I already have, and provided his 
staff a briefing on the capability we can provide.
    Mr. Cuellar. I know John Carter and other folks are 
interested, but if you can keep us informed, we really would 
appreciate it. Thank you for your time.
    My time is up. I yield back.
    Ms. Granger. Mr. Womack.

                           FULL-TIME MANNING

    Mr. Womack. Thank you very much, Madam Chair, and thanks to 
General Lengyel for his leadership and the work of our National 
Guard both on the Army and the Air side. Great questions coming 
from my colleagues today, talking about things like Border 
Patrol, security, counterdrug, operational tempo, Black Hawks, 
and those kinds of things.
    I am going to open a line of questioning about what I 
consider to be the single biggest issue facing our Guard today, 
and that is in relation to full-time manning. It is not a sexy 
subject. But it is a critical subject if we are going to 
continue to utilize our National Guard, as we should, as an 
operational force. As an example--and you correct me if I am 
wrong--when we were doing the drawdown on end strength, the 
Army Guard was scheduled to go to a number, and we were on the 
glide path to get to that number. And proportionately, full-
time manning was cut based on that number. And then when this 
Congress gives money back to the Guard for end strength and we 
increase that end strength, not increased was the proportionate 
loss of the full-time manning. That is insane that we would 
allow this to happen.
    So my question for you, General Lengyel is, how has this 
happened, and what is this doing to impact the readiness of a 
critical operational force for our military and our National 
Guard? Take all the time you need.
    General Lengyel. All right, sir. Thank you very much for 
that question. And so our business model in the National Guard 
is different. And I am a protector of that business model. I 
don't want to look like the United States Army. I do not want 
to look like the United States Air Force. We need to remain a 
preponderantly part-time force. That is the value in it for 
this country and for what we do.
    The United States Air National Guard is about 35 percent 
full-time. In its 100,000 people, 105,000, it is about 35 
percent full-time. In the Army National Guard, 343,000 people, 
we are about 16 percent full-time. What that full-time force 
does, and the only reason we have them and the only reason I am 
here before you today is to make ready for the United States 
Army and United States Air Force and the Governors in our 
States, is to make ready that force, to be ready, to be manned, 
to be trained, to be equipped, so that we can do the missions. 
That is why we have full-time people in the Army National 
Guard.
    So you need to understand why they were gone. Money--I 
understand why they are gone, why we took them. We had 
incredible bills to pay. In our budgets, that is where all our 
money is. Our money is in that small chunk of change, $16 
billion in the Army Guard. Two-thirds of that is people. Most 
of that is people. Same thing for the Air National Guard. So 
that is why it went. We had bills to pay and sequestrations and 
drawdowns and budgets. But what this force does is it prepares 
the force so that, when they come to drill for the 39 days or 
the 45 days or the 60 days, they have the structure to do the 
collective training they need to do to do their wartime 
tasking. They make sure that the equipment that they need to 
train on, the tanks and the Bradleys, that they work, that the 
aircraft are flyable, so that when the people come in, they can 
fly not only together, but they can fly in collective training, 
and they can do the kinds of training that the Army needs them 
to do. Same thing for the Air Force side. So the full-time 
support piece is what enables us to make the Army National 
Guard ready quicker. They come in and they prepare for a 
military unit training assembly for people to come in for a 
drill, and they put them together for 3 and 4 days at a time so 
that they can do some more training. They build the 
battlefield. They build the command post. They build everything 
so the soldiers come in, they get out of their pickup truck, 
they walk into the field, and they train. So, without the full-
time support, then they waste time. They have to come in. They 
have to build the battlefield. They have to train. They have to 
fix the equipment so they can fly it. It is incredibly 
important.
    I am not looking for huge numbers of--by the way, I am 
looking at my staff, NGB, where do we have full-time people 
right now so that, if I could, I could put some back out into 
the fields so that they can help make the operational force 
more ready. And I would tell you that I think if we are going 
to be ready quicker, stay an operational force, we are going to 
have to slowly increase the percentage of full-time support in 
the Army National Guard.
    Ms. Granger. Thank you.
    Mr. Ryan.

                 RESERVE COMPONENT BENEFITS PARITY ACT

    Mr. Ryan. Thank you, Madam Chair.
    Let me associate myself with all of my colleagues' remarks. 
Since I have been here, I agree they have got some great 
questions.
    First, thank you. Obviously, Ohio is a huge part of the 
team and has deployed and will continue to deploy around the 
globe. And we know that post-9/11 use of the Guard has been a 
big part of our plan. One of the things I am concerned with is 
making sure that we are providing the benefits that match the 
service our National Guard are providing. And I understand 
there are significant differences in the benefits provided to 
our National Guard based upon minor administrative coding 
orders, and I will give you an example. I have cosponsored the 
bipartisan Reserve Component Benefits Parity Act designed to 
ensure National Guard who are activated in administrative 
codes, such as 12304(a) and 12304(b) of title 10, U.S. Code, 
are treated in the same manner as other Active Duty orders for 
determining veterans' benefits. This issue and many like it 
were documented in the October 1, 2014, Reserve Force's policy 
board memorandum, and yet we are still struggling to make sure 
that our National Guard and Reserve get the correct benefits 
that they have earned.
    So what have we done to focus on educating our National 
Guard and Reserve on the differences administrative coding can 
make in veteran benefits? And how is your leadership making 
every effort to correctly reflect the importance of military 
service of our National Guard and Reserve by using the 
appropriate coding so their service counts toward their earned 
benefits?
    General Lengyel. Sir, I think this is one of the more 
important issues that we need to fix going forward, is the 
parity of benefits for service. I am thankful for the Parity 
Act. I completely think it is the right thing to do. 12304 
bravo was a flexible mobilization authority given to the 
service Secretaries which has enabled access, mobilization of 
the force. However, when they created it, funding numbers being 
what they were, they didn't attach all the entitlements that go 
with it. So the soldiers who are in the Sinai who I just spoke 
to, they want this fixed.
    Mr. Ryan. How are we coming with it? We are getting calls 
on this, and this is obviously a pocketbook issue for so many? 
Are we making some progress on this?
    General Lengyel. The awareness that thing has got is we 
have got to fix it here. We have got to find the resources to 
put against it so that there is no difference so that they are 
entitled to healthcare beyond 180 days when they come back, so 
that they are entitled to post-9/11 GI Bill education benefits, 
so that they have access to early retirement as per other 
mobilization authorities.
    So what my soldiers are doing, what the soldiers from the 
States are doing, is they are changing their mobilization 
authority to voluntary status, which doesn't give them the 
protections of the dwell periods that we talked about earlier 
with Congresswoman McCollum; that is, they are voluntarily 
giving up their rights to serve their employers and their 
families and give themselves their dwell period as citizens so 
that they can get the health benefits and retirement benefits 
that they deserve. So I ask for your continued support here. It 
is an important issue that needs to be fixed.
    I think that the commission that was established a couple 
years ago, MCRMC commission--I am sorry; I can't spit out that 
acronym for you, exactly what it is--retirement benefits and 
duty status reform, OSD is actually working on behalf of all of 
the Reserve Components, not just National Guard, to streamline 
and make right the entitlements that go with pay and duty 
status, like service equals like pay in benefits. So I do 
sense, inside the Department at least, there is a push to make 
that happen and a push to make the reform. There will be a bill 
with it to do it, but it is the right thing to do.

                           OPIATE DRUG ISSUE

    Mr. Ryan. Well, we need you to continue to push us, and we 
will push you and hopefully make some progress. Real quick 
because I only have 30-some seconds, I know the chairman 
brought up earlier the opiate drug issue. Are you starting to 
make a distinction in prioritization of opiates versus 
marijuana because the problem is so big? Are you prioritizing 
how you are deploying your resources, I guess I should say?
    General Lengyel. So, because of the rise and the 
devastating effects of the opiate piece, it has taken on a more 
important role in the threat-based resource model. That team 
has come together, which is adjutant generals from the States, 
its academic institutions who study this. It is subject-matter 
experts who come together. There used to be 20 variables per 
State, because, as I said earlier, every State has a unique and 
distinct environment that threatens their State. So we need a 
model that is flexible so that each State can articulate it. 
And so the opioid issue has risen inside that threat-based 
resource model, and we will apply the right authority to it.
    Mr. Ryan. Thank you.
    Ms. Granger. Mr. Carter.

                        ASSOCIATED UNITS PROGRAM

    Mr. Carter. Thank you, Madam Chairman.
    General Lengyel, I welcome a fellow Texan.
    I want to thank my friend, Mr. Cuellar, for raising the 
issue on the border, and I associate myself with all the 
conversation we have had today.
    General, our Associated Pilot Program, high-demand National 
Guard units see more training days in combat training center 
rotations as part of the Army Associated Units Pilot Program. 
We talked about that a little bit. The Army requires training 
together to increase the readiness across all three components, 
keep up the demand for soldiers around the world. Can you 
provide the committee with an assessment of the Associated 
Pilots Program to date and if you feel like you are meeting the 
accomplishments that you are seeking to meet? And are there any 
additional funding requirements that you feel like we should 
know about as we go forward?
    And I am reading a book called ``Fast Tanks and Heavy 
Bombers'' that General Milley gave me. And I would venture to 
say that the National Guard trains more than the regular Army 
did. Today, we train more than the regular Army did during this 
period of time between World War I and World War II, and that 
is an amazing change in the Guard's requirements. Would you 
tell us a little bit about that, sir?
    General Lengyel. Thank you, sir.
    I am thankful for the Commission and their recommendations 
that came up with the Associated Units Program. It is a test, 
and I am thankful that General Milley has embraced it. And by 
all counts so far, I am willing to say that, from every 
indication I have, it is a success. It has been embraced by the 
Army. It has been embraced by the Army National Guard. It has 
resulted in people swapping unit patches and becoming part of 
each other's uniform. It is a fundamental cultural change of 
integrating the Air National Guard into the United States Army, 
and I think only good things will come from it.
    Time will tell. We will look at the end of this, and we 
will determine, has our readiness increased? I will tell you 
what is increasing: the trust in each other, the ability and 
the awareness of the commanders, the sharing of resources and 
training, the utilization of our force. Everything has gotten 
better since we have become this operational force, and I 
believe the Army Unit Pilot Program, the Associated Units, is 
nothing but good. That is incredible.
    With respect to how we train, I couldn't be more impressed. 
I spent the last 5 years of my life learning about the Army and 
the Army National Guard and how we train. It is an amazing 
undertaking to train a brigade combat team. It is logistically 
complex. To amass the forces and equipment and training that 
you need in the right places where you can actually use them 
and train on them, it takes an immense amount of coordination, 
and, quite frankly, it is expensive.
    Where we save the money is the 27 brigades that we have in 
the Army National Guard save you a little money when they are 
not training. We cost the same when you use us. We cost the 
same when you train us, but when you are not using us, we save 
some money. So it is my job, I think--you don't want 27 
brigades in the Army National Guard at C-1. That is not where 
you save money because it will spoil that readiness before you 
use it. So we want to meter that readiness. We want to make 
them ready faster. General Milley needs us inside of 60 days, 
inside of 90 days, if something happens in North Korea.
    We have to look hard at our business models. We have to 
look hard at the mobilization process. How do we mobilize? How 
can we mobilize faster? I think that is what we are trying to 
do in the Army National Guard Service, is make that force ready 
quicker, and be ready to participate as part of the Army as 
fast as they need us.
    Mr. Carter. Thank you. We are very proud of you.
    General Lengyel. Thank you.
    Ms. Granger. Thank you.
    Mrs. Roby.

                       CURRENT OPERATIONAL TEMPO

    Mrs. Roby. Thank you, Chairwoman. And thank you, sir, for 
being here. It is great to see you again. I have a few 
questions but first a few comments.
    As you know, the Site Survey Team is in Montgomery right 
now with the 187th Fighter Wing and at Dannelly Field for the 
future fielding of the F-35. And as a long supporter of the F-
35 program, it is exciting to see how much progress the program 
has made, and I would be remiss if I didn't take the 
opportunity to say to you that, if there are any questions from 
the Guard for the community or for any Member of the Alabama 
delegation, we continue to make ourselves available to you. The 
Alabama delegation, of course, in the community and our State 
is so excited about this possibility.
    In your testimony, you highlight the numerous deployments 
that the Guard has performed since 9/11 and the fact that the 
operational tempo today remains very high. And so I want to 
thank you and all members of the National Guard for your 
selfless service in protecting the Nation in these challenging 
times and the sacrifice of your families.
    I am concerned, however, and have recently had some 
conversations with friends of mine who served about how 
sustainable current operational tempo is and what has been 
brought to my attention as it relates to dwell time. We have 
placed a huge burden on our Guard families and not to mention 
their employers. And the question I have, are we placing too 
much on the Guard to constantly be an operational partner? And 
I have heard the comments of my colleagues in here, and I 
listened to you as well. But when my phone rings and it is a 
member of the Guard who has served both in the Active, for many 
years in the Active Component, and now as a pilot in the Guard, 
and what is being communicated to me is that there is concern 
by those who continue to serve their country hearing these 
rumors about a decrease in the dwell time from 5-to-1 to 4-to-
1, and then is that a slippery slope? So I just really wanted 
you to take an opportunity to address these concerns that I 
have heard and I am sure others have as well.
    General Lengyel. Yes, ma'am, the concerns are real. I think 
you probably heard from the fellow Joint Chiefs yesterday that 
the threats that the country is facing is absolutely going to 
require the continued operational use of the National Guard.
    One of the things that you are seeing in Alabama, 
particularly in the 135 arena, KC-135 arena, so, because all of 
these issues that we are dealing with are far away, they 
require a lot of air refueling capability. For the past 15 
years, the Air Force has had the good fortune to have, you 
know, pretty much a downturn in the airlines cycle in which 
they had pilots available and willing to work who were either 
waiting or not engaged in an airline job. And so the 
volunteerism of people who were able to deploy beyond normal 
mobilized deployment was high. And so what has happened now is 
the availability that the airline industry is booming. They 
have a large draw on our pilot force who are now fully engaged 
in a civilian job, and so that volunteerism is beginning to be 
harder to get.
    You have to keep in mind what our units are funded to do. 
So there are areas that are being stressed on the utilization, 
and I would tell you that KC-135s are one of them. Writ large 
across the force, we are using, as I mentioned in my remarks 
opening statement, 18,000 men and women deployed right now 
today. If you go back 10 years ago, we had 70,000 men and women 
deployed today, and an average of that for over 10 years. So I 
characterize the sustainability of our force, the utilization 
of our force right now, as a normal walk, maybe a brisk walk. 
Whereas, 10 years ago, 2005, with 100,000 people deployed plus 
50,000 during Hurricane Katrina, that was a full-out sprint, 
and that would not have been sustainable. Overall, writ large 
across the force, we can sustain what we are doing today, but 
we have to be careful and look at specific threatened areas 
like KC-135s and work to do that, and maybe associations can 
help. Maybe we can put additional Active pilots in there, and 
they can take on some of those flying responsibilities.
    Mrs. Roby. I certainly don't claim to have the solution, 
and that is why I wanted to just bring it to your attention and 
continue to have this conversation. These men and women are 
there because they want to be there and because they love their 
country, and I know we all recognize that, but I do appreciate 
your commitment to them, and I would like to continue to have 
this conversation with you down the road.
    General Lengyel. Yes, ma'am.
    Ms. Granger. Mr. Visclosky.

                          COUNTERDRUG PROGRAM

    Mr. Visclosky. Thank you very much.
    A couple of statements. First of all, General, there is a 
series of questions for the record on the Tactical Wheeled 
Vehicle Strategy for the Guard and certainly attaching 
importance to that program. I will be interested in the Guard's 
response.
    I would join with a number of my colleagues who have 
mentioned the Counterdrug Program, very important in our State, 
particularly important in my congressional district, and I do 
appreciate the Guard's work with the local communities.
    Also, it has been talked about, the partnership act. I 
think it is a very enriching program for the Guard, for our 
country, for the other countries we are involved with. I am 
very proud again that our State now has two such partnerships. 
I was interested in the exchange you had with Mr. Ryan, and I 
will be interested in the Guard following up on his question. 
Some years ago, I asked in a different fashion the same 
question. Some years ago, the Guard said they were working on 
it. So I would hope that some progress is being made.

                HOMELAND SECURITY AND NATIONAL DISASTERS

    For the questions I have, there has been mention of the 
Guard's responsibility for homeland security, for responses to 
national disasters. You just mentioned Katrina. As far as 
equipment in the Guard, as far as training of the Guard, when 
you do have a hurricane--it could be in Florida; it can be a 
tornado in a Midwestern State, wildfire--are there enough 
training dollars? Are there particular types of training 
programs that we should be attuned to that may not be fully 
funded? Are there types of equipment for some of these natural 
disasters that Guard units across the country may not have 
adequate resources for? We are always thinking of overseas 
deployment, homeland protection, but if there is that natural 
disaster, is there something we are missing here as far as the 
needs that you and the Guard have?
    General Lengyel. Sir, I thank you. You know, I think one 
thing I would point out is thanks for NGREA money that we get 
that allows us to buy some of the equipment that we use 
specifically for the homeland, communications stuff, engineer 
stuff, modernize our aviation fleet with things that help us do 
our homeland mission. A lot of that is done for and used by the 
NGREA account.
    The money that we get in the Counterdrug Program to have 
the schools and to train our servicemembers to be value-added, 
for that helps us. And I consider the counterdrug a huge part 
of the Homeland Security mission and support mission that we 
do.
    I don't have a specific additional ask for you. I would 
tell you that we are looking right now at our cyber training 
requirements. Although I will say, for the most part, our cyber 
training schools are on track, the money that this committee 
gives us--I think we had $12 million this year for the Army 
National Guard to fund the positions that allow us to build and 
grow out our cyber network--we wouldn't be able to do that 
without the money. Although the training is validated by the 
Army, it is not yet funded, is straight in our baseline budget. 
So, without the funding that we get from this committee, we 
wouldn't be able to complete those kinds of training things. So 
I will give you a more direct list, but those are the things 
that come to mind as I sit here right now.
    Mr. Visclosky. I mean, as far as natural disasters, there 
is nothing that comes to mind that we are missing as far as 
resources?
    Okay, thank you very much.
    Ms. Granger. General Lengyel, thank you for your time and 
your attention to this concern.
    This will conclude panel one.
    [The information follows:]

    The Army National Guard (ARNG) has identified several domestic 
operations equipment priorities. The ARNG requires $4.1 billion to 
modernize its Black Hawk inventory A models to M models and $100 
million for HMMWV modernization. Equipping needs for disaster response 
include Hydraulic Excavators, High Mobility Engineer Excavators, and 
Heavy Scrapers ($117.5 million), nine additional Disaster Incident 
Response Emergency Communications Terminal systems ($13.5 million), and 
CBRN detection and protection equipment for ARNG first responders ($1.2 
million). The Air National Guard (ANG) domestic operations equipment 
needs include personal protective equipment, such as modernized EOD 
bomb suits ($3 million) and Emergency Responder Personal Protective 
Gear Decontaminators for ANG Fire and Emergency Services flights ($1.8 
million). Aircraft modernization priorities include KC-135 Fuel Off-
Load Hoses ($0.3 million), HH-60 Firefighting and Search and Rescue 
modernization ($1.7 million), and RPA Sense and Avoid systems for MQ-9 
Launch and Recovery elements ($25 million).
                           RESERVE COMPONENTS


                               WITNESSES

LIEUTENANT GENERAL CHARLES LUCKEY, CHIEF OF THE ARMY RESERVE
VICE ADMIRAL LUKE McCOLLUM, CHIEF OF THE NAVY RESERVE
LIEUTENANT GENERAL REX McMILLIAN, COMMANDER, MARINE FORCES RESERVE
LIEUTENANT GENERAL MARYANNE MILLER, CHIEF OF THE AIR FORCE RESERVE

             Opening Statement of Chairman Granger--Panel 2

    Ms. Granger. We will now move to panel two: The Army, Navy, 
Marine Corps, and Air Force Reserves. I would encourage all 
members to please stay for this panel. We are going to break 
for just 3 minutes to change panels.
    General Lengyel. Thank you, Chairwoman.
    [Recess.]
    Ms. Granger. If you will be seated, please.
    Our second panel this morning consists of leaders of the 
Reserve Components: Lieutenant General Charles Luckey, Chief of 
the Army Reserve; Vice Admiral Luke McCollum, Chief of the Navy 
Reserve; Lieutenant General Rex McMillian, Commander, Marine 
Corps Reserve; and Lieutenant General Maryanne Miller, Chief of 
the Air Force Reserve.
    We are pleased to welcome these four very distinguished 
general officers as witnesses today, and the subcommittee 
thanks each of you for your service.
    As I mentioned in my opening remarks for the first panel, 
this country relies now, perhaps more than ever, upon the 
service of your soldiers, sailors, and airmen to ensure mission 
success. The committee commends the Reserve Components for 
their dedication to service and to our Nation. We look forward 
to your testimony and your insight, but first, I would like to 
call on the ranking member, my friend, Pete Visclosky, for his 
comments.
    Mr. Visclosky. Madam Chair, I appreciate again that you are 
holding this hearing, and appreciate the panel before us for 
your testimony and your service, and I look forward to hearing 
it. Thank you very much.
    Ms. Granger. Thank you.
    General, please proceed with your testimony. Your full 
written testimony will be placed in the record. Please 
summarize your oral statement so we can leave enough time to 
get to everyone's questions.

                  Summary Statement of General Luckey

    General Luckey. Chairwoman Granger, Vice Chairman 
Visclosky, distinguished members of the committee, I will keep 
my remarks brief, as the chairwoman just requested. I want to 
thank you for the opportunity to appear before you this 
morning. It is an awesome opportunity and an honor for me to 
represent the 200,000 soldiers of America's Army Reserve, who 
are serving today across 20 time zones and around the globe. On 
behalf of them, their families, the employers of America, and 
the Department of Army civilians who support us, I want to 
thank each of you for your unwavering support and commitment to 
this team.
    As I noted in my posture statement, which has been filed 
with the committee, as the leader of this team, I am well 
attuned to the persistent presence of the asymmetric threat of 
terrorism and radical groups, as well as the emerging and 
compelling challenges presented by near-peer competitors, 
potential adversaries with the capability, propensity, and 
willingness to contest American power in all domains. We have 
not faced these conditions for over a quarter of a century. And 
the Army Reserve must take action, along with the rest of our 
Army, to meet the new and evolving threats.
    In this environment, an operational reality where the 
lethality and complexity of the battlespace presents new 
challenges to our Army, America's Army Reserve's practice of 
building rotational readiness and units over time will no 
longer be sufficient. We must prepare some units for full-
spectrum operational environment immediately. This includes 
making ready significant portions of our team able to go fast, 
in some cases in days or weeks, in order to immediately 
complement and augment the Active Component formations who rely 
on America's Army Reserve to fight and win on the battlefield 
for the first round downrange.
    In this new threat paradigm, some 300 units of action or 
approximately 30,000 soldiers, need to be able to deploy in 
harm's way in less than 90 days, many in less than 30. I refer 
to this force as Ready Force X. It is a fast-deploying set of 
capabilities, which I will be happy to discuss with the 
committee in more detail. We need to deliver these units for 
the mobility, survivability, connectivity, and lethality needed 
to win on the modern battlefield.
    As always, consistent and predictable funding for essential 
training, equipment, and modernization is crucial to our 
success. The degree of funding which the committee has afforded 
us in the past and continues to is of tremendous benefit to 
America's Army Reserve. It is a superb tool, which in 
accordance with your guidance, enables me to procure certain 
high-priority capabilities that can be used for both combat 
operations and, as appropriate, domestic response operations. I 
thank you for your continued support in this regard.
    Let there be no doubt that my team's number one priority is 
readiness. In fact, as I testified today, America's Army 
Reserve has just completed the largest crew-served weapons 
gunnery operation in its history, Operation Cold Steel, 
conducted up at Fort McCoy, Wisconsin. There, we rapidly 
accelerated the training qualification of our master gunners, 
of our vehicle crew evaluators, and individual soldiers, while 
reinvigorating the Noncommissioned Officers Corps of America's 
Army Reserve, which, as you all well know, is the first line, 
if you will, the core role in our Army of training and leading 
our soldiers when the lead hits the air. This is money and time 
well spent and much needed as we move into the future, and I 
appreciate this committee's support in that regard.
    As for the future, America's Army Reserve is uniquely 
postured and empowered to leverage the wide-ranging reservoir 
of professional talent to understand, develop, and exploit 
emerging commercial markets and cutting-edge technologies by 
partnering with private industry in order to stay on pace in a 
very dynamic world. Working closely with Defense Innovation 
Experimental Unit here in Washington, D.C., and spread around 
the country, as well as Military District 5 over at National 
Defense University and other partners, we are well on the way 
to strengthening linkages between the private sector and 
America's Army.
    I want to reiterate the message I shared with the American 
people in closing. I shared this with them on the Army 
Reserve's 109th birthday last month in Times Square, joining 
that stage, if you will, with the Army's noncommissioned 
officer of the year, who, by the way, happens to be an Army 
Reserve soldier from the Golden State of California: My team 
relies, as I told the American people, on our families, on the 
commitment to support them, and the persistent willingness of 
America's employers to share their finest talent with us, and 
working the delicate balance between being ready enough to be 
relevant, but not so ready that my soldiers can't maintain good 
rewarding civilian employment. As I reach out to the influences 
across America and around the globe, I ask them and press them 
to act and to encourage their communities, cities, campuses, 
congressional districts, and the employers located therein, to 
see themselves as full partners in national security, sharing 
America's best talent with us, America's Army Reserve, as we 
support and defend the Constitution of the United States of 
America.
    Distinguished members, your Army Reserve has always met the 
challenges of the time. With the committee's help, we will 
continue to provide the capabilities and readiness, live the 
example, and exude the ethos that the people of the United 
States expect and deserve. We will remain your premier team of 
skilled professionals, serving the Nation's both soldiers and 
engaged civilians around the globe. That is just who we are.
    I look forward to your questions.
    [The written statement of General Luckey follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you.

                 Summary Statement of Admiral McCollum

    Admiral McCollum. Good morning, Chairwoman Granger, Ranking 
Member Visclosky, and certainly the distinguished members of 
the subcommittee. It is a distinct honor to be here this 
morning to talk to you about the state of the Navy Reserve and 
talk to you about the Navy's fiscal year 2018 budget request 
and, probably more importantly, to report on the dedicated men 
and women of our Reserve Force.
    The Navy Reserve is the busiest it has ever been, and as an 
integrated force with the Active Component, we are experiencing 
competition in the maritime environment. This environment, it 
is fast-paced, it is complex, it is ambiguous, and, at times, 
uncertain. And the demand signal for the Reserve support has 
now exceeded over 79,000 individual mobilizations around the 
globe. And as you may know, these individuals, our sailors have 
left their civilian jobs, sometimes up to a year, and their 
families as well.
    In addition to these mobilizations that I referenced, we 
have about 20 percent of the force that is engaged day to day 
performing what we call operational support. The Navy Reserve 
works out of 123 operational support centers, and these support 
centers are across the 50 States, Puerto Rico, and Guam. And 
the force structure is the result of the Navy's imperative to 
optimize interoperability and operational effectiveness of the 
Navy.
    We spread our units around the country, beyond our fleet 
concentration areas, and this has allowed the Navy to retain 
valuable human capital and provides reservists a convenient 
place to train while remaining close to their businesses and 
their homes. One highly successful example of this strategy is 
the Naval Air Station Joint Reserve Base in Fort Worth, Texas, 
and this facility alone is a model for inter-service 
cooperation and community support that achieves the readiness 
that I am referring to. This installation holds 40 Tenant 
Commands, encompassing nearly 10,000 personnel across all four 
services. This is just one example of how the Navy Reserve is 
operating around the country in each of your districts.
    The fiscal year 2018 budget request is focused on restoring 
balance and wholeness and laying the foundation for future 
investments. This is both in our equipment and our people. And 
as an integrated force, the Navy knows that its heartbeat is 
its people. And this investment addresses Reserve personnel 
wholeness in areas such as unmanned aircraft, cyber shipyard 
maintenance, and tactical operations.
    While our Navy Reserve continues to execute at extremely 
high levels, our hardware, specifically our aging aircraft 
fleet, is facing some obsolescence challenges and rapidly 
approaching the end of its designed service life. Sixteen years 
of hard use has accelerated this effort. Accordingly, aircraft 
recapitalization remains the Navy Reserve's top equipping 
priority. The fiscal year 2018 budget request allows us to 
restore wholeness in aviation maintenance accounts and sets a 
solid foundation for next and future years' investments. And to 
continue restoring the wholeness of our force, we need stable, 
predictable funding mechanisms that allow us to plan 
effectively and react to contingencies.
    Additionally, your increased support for flexible funding 
authority for the NGREA is needed. Providing us this authority 
as well as flexible funding methods enables the Navy Reserve to 
provide operational support where and when needed, and that 
will maximize the total effectiveness of the Total Force.
    While the challenges ahead of us are significant, I could 
not be more proud of our Navy Reserve force. Every time I set 
foot in one of our operational reserve centers around the 
country, I come away, as you can imagine, very impressed with 
the dedication and the commitment of these sailors. And the 
pride that they take combining their civilian skill sets with 
their professional competence in military operations, I must 
admit, is very inspiring.
    So, on behalf of the Navy and the Navy Reserve, I thank the 
members of the committee for your support, and I look forward 
to your questions.
    [The written statement of Admiral McCollum follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you.

                 Summary Statement of General McMillian

    General McMillian. Chairman Granger, Ranking Member 
Visclosky, and distinguished members of the committee, thank 
you for the opportunity to appear before you today to testify 
on behalf of the Commandant of the Marine Corps about your 
Marine Corps Reserve. I am honored to be here with my fellow 
Reserve Component chiefs, and with me here today is my force 
sergeant major, Sergeant Major Kimble.
    I have been at the helm of the Marine Forces Reserve for a 
year and a half, and I am pleased to inform you that your 
Marine Corps Reserve is thriving. On average, we are 95 percent 
manning, and our leadership, morale, and personnel health of 
the force is at unprecedented levels. I am continually 
impressed by the professionalism, competence, dedication, and 
motivation of our Reserve Marines. Like their Active Duty 
brothers and sisters, they serve selflessly to protect our 
Nation while at the same time balancing their civilian careers 
and their families. The strength of Marine Forces Reserve is 
the talent, skill, and discipline of our individual Marines and 
sailors.
    I am motivated by the most common question that I receive 
from your Reserve Marines, which is, when do we get to deploy? 
They maintain the same mindset as the Active Component Marine 
Corps. We are ready to fight tonight, and we are ready to 
respond to any mission.
    My primary focus remains being combat-ready and having 
Reserve Marines and units capable of moving, shooting, and 
communicating across the battlefield. Reserve Marines are 
viewed the same and are expected to respond the same as our 
Active Duty counterparts on a moment's notice. We are 
integrated with the Active Component as part of the Total 
Force. We are expected to be a force that is fully 
complementary, seamless, and an equal teammate to the Active 
Component. We are manned, trained, and equipped to support 
Marine Corps operational requirements across the full range of 
military operations. We are 39,000 strong, formed into major 
commands that comprise the Marine Air-Ground Task Force, and we 
are unofficially known as the Fourth Marine Expeditionary 
Force. As the Commandant of the Marine Corps has said, we are 
one Marine Corps, a Total Force Marine Corps.
    To seamlessly integrate with the Active Component, Marine 
Forces Reserve must maintain equipment parity. Shortfalls in 
equipment modernization result in less interoperability with 
the Active Component, which slows the pace of operations and 
increases risk to your Marines and risk to mission 
accomplishment. Marine Forces Reserve continues to see 
shortfalls in modernization, like our most pressing shortfall, 
the KC-130J, which is used for tactical assault support, air-
to-air, and ground refueling, and combat logistics support. It 
is the major end item which facilitates moving to and across 
the battlefield. We should not send our Marines to a fight with 
legacy equipment. Transition to modern equipment requires 
budget resources.
    NGREA, as you are all familiar with, is a complement to the 
Presidential budget. And while we greatly appreciate NGREA, 
greater spending flexibility, combined with a more 
representative funding proportion that is more aligned with our 
historical percentage, would significantly contribute to the 
ability of Marine Forces Reserve to modernize legacy equipment, 
transition to new systems, improve our readiness, and better 
support our young marines.
    We owe it to our Nation's most precious assets, the young 
men and women in uniform, to send them into combat with the 
most modern equipment available. With the continued support of 
Congress, Marine Forces Reserve will continue to serve as a 
crucial operational and tactical shock-absorber to the Active 
Component.
    In conclusion, I want to leave this distinguished body with 
two final thoughts: Number one, I want to personally thank you 
for passing the fiscal year 2017 omnibus appropriations bill. 
Having a predictable and consistent budget in the future will 
significantly improve readiness across the services. And, 
number two, we need a flexible NGREA that complements the 
budget to assist your Marine Corps Reserve in funding major end 
items, as defined by law.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    [The written statement of General McMillian follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    General Miller. Chairwoman Granger, Ranking Member 
Visclosky, and distinguished members of the committee, thank 
you for the opportunity to appear before you today. I am 
honored to have with me this morning Command Chief Master 
Sergeant Ericka Kelly. Together, we represent America's 69,000 
Reserve citizen airmen, providing operational capability and 
surge capacity, ensuring airspace and cyber dominance around 
the globe.
    Twenty-six years of continuous global operations and 
decreased budgets have stressed our force, which is always in 
demand. Last year, we were the fourth largest major command 
contributor to combat operations, filling over 10,000 air 
expeditionary and volunteer taskings across the U.S. and in 30 
foreign countries. Our airmen deliver critical capabilities to 
the fight every day, through global vigilance, global reach, 
and global power.
    Your Air Force Reserve operates with 16,000 fewer airmen 
and 220 fewer aircraft than we did in Desert Storm. The stress 
of our size, the steady state operations tempo, and our funding 
shortfalls keep us challenged, yet we remain a lethal combat-
ready force, composed of amazing and resilient airmen and 
families.
    The concerns which weigh most in our day-to-day operations 
are insufficient manpower for both full-time support and 
critical skills, training availability and funding, weapon 
system sustainment, and concurrent fielding of aircraft and 
equipment. We continue to make incremental steps in the 
readiness needed for today's fight, while posturing for the 
complex future threats and the many challenges.
    Although the fiscal year 2018 President's budget request is 
a good beginning, to ensure that we deliver the most ready, 
capable, and lethal force, a long-term effort is needed. This 
balance of readiness today and the needs of tomorrow is 
difficult without predictable, sustainable funding through the 
outyears.
    The fiscal year 2018 President's budget request continues 
our efforts to build readiness and capability by adding 800 
positions across our rated space, cyber, and our ISR missions. 
The budget request, with the additional overseas contingency 
operation support, begins to fund weapon system sustainment 
closer to the required levels, ensuring that we can produce the 
exercise, training, and combat sorties needed to sustain the 
best Air Force in the world. Modernization and recapitalization 
are essential to maintaining our combat edge. With continued 
congressional support for the National Guard and Reserve 
equipment appropriation, we can smartly invest in weapon 
systems, which will increase our capability and recapitalize 
systems that will minimize risk against our emerging threats.
    And I thank you for the fiscal year 2017 NGREA funding of 
$105 million, which provided all-weather targeting pods for the 
F-16, enabled KC-135 defensive systems, updated digital 
displays for platforms, such as the A-10, and afforded personal 
recovery equipment for our Pave Hawk helicopters. This funding 
helps ensure that we maintain that lethal edge to dominate and 
to survive in all spectrums of the conflict.
    Delivering combat air power to the joint force is our 
mission. To best execute this requirement, we must develop a 
concurrent fielding and investment strategy to ensure 
operational parity with the Active Component. This ensures 
synchronized use of manpower, equipment, and training resources 
in a fiscally constrained environment.
    Over the past few decades, we have successfully adjusted to 
an operational Reserve. Portions of our force are stressed, but 
our Reserve citizen airmen are resilient, engaged, and honored 
to serve. We require your support for sufficient resources to 
meet full-spectrum readiness, increase end strength to support 
integrated operations, and an increased budget to buy back the 
readiness deficit and modernize weapon systems. A stable, 
predictable budget will ensure Air Force Reserve is combat-
ready at all times.
    Thank you again for your support and this amazing 
opportunity to represent our airmen, and I look forward to your 
questions. Thank you.
    [The written statement of General Maryanne Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Thank you very much. I thank all of you for 
your testimony and for describing the service and the sacrifice 
and the needs of those that you represent here today.
    We will be using a timer this morning. We are going to 
reduce the time for you to ask and answer questions to 3 
minutes, because of the size of the panel and the number of 
members who are here, and we have a hard end time at 12 
o'clock. That will include questions and responses. If time 
permits, we would have a second round, but I doubt that will 
happen.
    I am going to call on Ms. McCollum first.
    Ms. McCollum of Minnesota. Thank you, Madam Chair.
    I am going to submit for the record a question on Lodging-
in-Kind, and what we can do to have, especially in the Army 
Reserve, our soldiers not paying out of pocket for some of the 
training that they perform.
    [The information follows:]

                            Lodging-in-Kind

                       witness: mccollum, luke m.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. Navy provides lodging, at no cost to members, for Navy 
Reservists who travel 50 miles, or more, to their drill site. Transient 
Department of Defense (DOD) quarters are used whenever available. When 
DoD accommodations are not available, commercial berthing is provided 
at no personal expense to Navy Reserve personnel meeting eligibility 
requirements. When Navy Reservists are on travel orders (e.g., Inactive 
Duty Training Travel (IDTT), Annual Training (AT), Active Duty Training 
(ADT), and Active Duty for Special Work (ADSW)) to a location outside 
the vicinity of their drill site, they may receive lodging and per-diem 
pursuant to Joint Travel Regulations.
                      witness: lengyel, joseph l.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. For eligible, unaccompanied personnel, the Army National 
Guard (ARNG) and Air National Guard (ANG) provides lodging-in-kind to 
members traveling over 50 miles for inactive duty training. The ARNG 
and ANG fund lodging in kind out of operations and maintenance 
accounts.
                       witness: mcmillian, rex c.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. The Marine Corps has used Inactive Duty Training (IDT) 
travel reimbursement to offset certain critically-short military 
occupational specialties and/or military billets. This is a targeted 
program that addresses the need of the Service to offset costs for 
Marines who have to travel to locations that are more than 150 miles 
from the Home Training Center (HTC). We expanded the program to fill 
critically-short leadership billets over the past year. There aren't 
any other programs that specifically target travel costs. As 
highlighted during the Reserve Component Duty Status reform process, 
Reserve Marines receive double the amount of basic pay for two drill 
periods performed in one day than if they were in one day of pay 
status. This differential can be seen as a means to lower out-of-pocket 
expenses. Due to the relatively small number of HTCs geographically, 
Marine Corps Reservists often have to travel long distances to attend 
training.
                       witness: miller, maryanne
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. Air Force provides lodging, at no cost to members, for 
Reservists who travel 50 miles, or more, to their drill site. Transient 
Department of Defense (DoD) quarters are used whenever available. Air 
Force also provides reimbursement for travel expenses up to $300 per 
drill weekend provided the reservist was assigned to a unit or position 
that was affected by a Defense Base Realignment or closure or if the 
individual is in a critical AFSC and there is a documented shortfall in 
the organization for that grade/skill level.
                      witness: luckey, charles d.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. Regarding Lodging-in-Kind, we have addressed it internally 
by funding this program with $26 million per year average through FY22. 
Regarding the related issue of Inactive Duty for Training (IDT) travel 
outside the local commuting area, currently, the Joint Travel 
Regulations cap reimbursement for IDT-T expenses (e.g. plane tickets, 
rental cars, and lodging) at $300 per round trip for select Reserve 
Component members assigned to a unit or position that was affected by a 
Defense Base Realignment or closure or in a skill designated as 
critically short. Over 25% of claims submitted by Service Members to 
the Army Reserve are above the $300 limit.

    Ms. McCollum of Minnesota. But I do have a question. I 
think it affects all of you. I commend people who decide to 
continue in the Reserves after their discharge. Sometimes it is 
a very heavy family discussion about whether or not people are 
going to stay in the Reserves. And so people who do that do it 
with their eyes wide open about what a deployment could really 
be meaning for them.
    So, when they come home, they come home as a citizen too. 
And this is a question I had had with General Luckey, but I 
want to pose this to all of you. In many, many cases, soldiers 
and airmen are deployed with as little as 30 days' notice, and 
that can put a lot of strain on the family. So, because they 
have been planning their lives moving forward, they don't have 
the same protection in their civilian jobs that sometimes--and 
I commend our businesses in Minnesota for what they do for our 
National Guard--but they have personal money invested. They are 
getting ready to close on homes. They might have paid tuition 
forward.
    What are we doing? What can we do to help you? What is your 
team doing to ensure that families of these soldiers and 
airmen, when they are given this short notice, that they don't 
find themselves in financial harm or with unexpected 
consequences with their employment when they come back home? 
Thank you.
    General Luckey. To the extent that the question was 
initially directed to me, I will respond first.
    Ms. McCollum of Minnesota. I figured you would take one for 
the team.
    General Luckey. So, as you well know, and I think we have 
discussed this before, part of the focus from a priority-of-
work perspective, if you will, of America's Army Reserve is to 
make sure that we are tracking, if you will, or witting of 
which families and which units are most likely to be forced to 
do exactly what you just said, Congresswoman, which is move 
very quickly.
    This past weekend, I spent the better part of 2 days in 
Oklahoma City at what we call Family Programs University. It is 
an Army Reserve program to essentially bring in volunteers, 
family program coordinators, and family program facilitators 
from units, particularly those units that are most likely to be 
called to go first.
    So I can't give you a complete comprehensive answer as it 
pertains necessarily to units located in eastern Minnesota. 
What I can tell you is the focus and the energy, if you will, 
of our efforts to make sure we have good quality engaged 
outreach, if you will, to families is particularly seized with 
the problem you have just articulated. So I want you to know 
that I am paying very close attention to that.
    Admiral McCollum. Thanks for that question. Just an 
additional thing I would add onto it. The greatest return on 
investment to the American taxpayer in the military for a 
transitioning military individual is if we can retain them into 
the Reserve Component. We don't have to train them; we can take 
advantage of the time they spent on Active Duty.
    So it certainly behooves us to maximize and create an 
environment that allows that reservist to thrive, thrive with 
their families, thrive with their civilian employers. And the 
way I would answer that question is predictability. Create a 
predictable environment with funding that we don't have a 
sustained period of long continuing resolutions, and that that 
predictability allows the reservist, with confidence, that they 
know that they can plan; there is going to be funding and 
funding available for the training to get ready to meet those 
commitments.
    Ms. Granger. Anyone else?
    You are welcome to respond.
    General McMillian. Ma'am, as you know, the Marine Corps is 
a force in readiness. We have to be ready to fight tonight. The 
Commandant depends very much on his Reserve Component to be 
ready on a moment's notice.
    The biggest thing that we do is express that out to our 
Marines and their families at every opportunity, to be prepared 
mentally, to be prepared physically, to know their MOS, to not 
waste 1 minute of their training time. We have 38 training days 
with them a year in order to prepare them to go downrange into 
combat. They have to be ready to fight tonight.
    We have a lot of history or examples throughout our history 
of having to get out the door very quickly, inside of 30 days, 
45 days, and directly into combat. Their families know that; 
they are prepared for it. They are leaning forward. We ask them 
to reach out to their employers to make sure that they are 
aware of the commitment that they have to the United States 
Marine Corps and to the United States for the defense of this 
Nation.
    General Miller. And for the Air Force Reserve, our response 
time is 72 hours. So, for those longer term deployments, at the 
Air Force, we have done an amazing job over the last 26 years 
of getting that battle rhythm of reservists deploying 
downrange. And we will give them 180 days' notice to 270 days' 
notice, and that is good. But every reservist knows they are on 
a 72-hour hook, and our systems support that. Our wing 
commanders support that. The Yellow Ribbon Program supports 
that, and we are structured to support that.
    Ms. Granger. Thank you.
    Mr. Womack.

                           STATE OF READINESS

    Mr. Womack. Thank you, Madam Chairwoman.
    And thanks to the distinguished panel that is gathered in 
front of us. Because of the short timeframe, I will go to one 
question. Before I do, I want to take just a moment of personal 
privilege in welcoming the great admiral over here, Mr. 
McCollum, who before he took this particular job was working at 
a small five-and-dime in northwest Arkansas that I represent 
and the proud parent I might also add of a young son who is 
making his rounds in the Arkansas General Assembly and doing 
remarkable work, and we are really, really proud of him.
    I wanted to ask the panel if they would just take a moment 
and tell us what their top one or two issues are right now. And 
I will take out of those answers funding, because we know 
funding is the answer to a whole lot of problems that everybody 
has. So we will just leave that off to the side. I don't know 
if it is OPTEMPO. I don't know if it is modernization. I don't 
know if it is medical fitness. But in the Reserves, you have 
got a different set of issues that affect you. And so just go 
from Army down the line and give me the top two. What should 
this committee understand to be your top couple of issues?
    General Luckey. So thank you for the question. Very simply, 
two things: one, being able to generate the formations that I 
need to generate in the timelines required to support the 
warfighter, primarily focusing on two different theaters of 
operation, so the Pacific and Europe, and being able to 
generate, as I said in my opening remarks, capabilities on the 
orders of 10,000, 15,000 soldiers in less than 45 days up to 
33,000 soldiers in about 90 days. So the units, if you will, 
incorporate those capabilities, and the soldiers in those units 
have to be at a very high degree of state of readiness.
    So my challenge, first of all, is to be able to identify 
those requirements, make sure that each one of those formations 
has the training, the equipment, the modernization, and the, if 
you will, mission command architecture to operate in a 
completely interoperable efficacious fashion with Active 
Component formations very quickly.
    Inside that, I would say the number two thing is 
deployability of the individual soldiers, making sure that I am 
affording every soldier the opportunity to get everything that 
they need done so that they are completely in a deployable 
status at the time that somebody needs them to go do a job. So 
that is a persistent ongoing challenge for us, but we are 
getting after it.
    Admiral McCollum. Congressman, thank you for the question. 
So you won't allow us to use the word ``budget,'' but may I 
just use the word what the budget does for us. It creates 
wholeness. Creating wholeness creates the ability to generate 
readiness. And at its core, the U.S. Navy is an integrated 
force and the Navy Reserve, as a component of that, relies on 
the help of Congress to give us the ability to be whole, to fix 
our, what I would say, divots are in our readiness accounts, 
our maintenance accounts. And by doing that, the second thing 
it does then is it then generates readiness to deploy when and 
where the American public chooses us to go.
    General McMillian. Congressman, thank you for the question. 
I will tell you what keeps me awake at night is readiness of 
the force, the Reserve Forces, to fight tonight and be able to 
get out the door and seamlessly augment and reinforce the 
Active Component in a fistfight.
    The things that we need to do is investment in our future, 
modernization of our equipment, and then the maintenance of our 
legacy equipment, those two things and, specifically, 
transition of the KC-130T and the AH-1Z attack helicopter for 
the Marine Corps Reserves.
    General Miller. The two things I think that are most 
important for the Air Force Reserve are the critical skills 
manning, particularly our pilot shortage and our cyber 
professionals. On the cyber side, industry is just pulling 
them. We can attract them, and we can train them, but we don't 
keep them that long. So your Reserve and Guard are the capacity 
that can keep them in uniform, which is great.
    The other piece is weapon system sustainment and making 
sure that is--that is vital to our readiness.
    Mr. Womack. Thanks for the extra time.
    Ms. Granger. Mr. Ruppersberger.

                         CYBER PROTECTION TEAMS

    Mr. Ruppersberger. First, General, thank you for meeting 
with me yesterday.
    I want to get into cyber. When we met yesterday, you 
mentioned you were on track to provide 10 cyber protection 
teams for the Army Reserve. Those soldiers who are in cyber-
related positions require specific skills, as we know. What 
challenges could you face with attempting to fill these cyber 
positions?

                      MODERNIZATION OF READY FORCE

    And let me ask you another readiness question. Then I will 
stop. The National Guard Reserve equipment account we know is 
critical to Army Reserve Force readiness. Can you explain how 
this account and the funds in it will be used to enhance the 
modernization of your ready force and what concerns you have 
with equipment currently on hand and modernization levels in 
the Army Reserve?
    General Luckey. So, sir, if I may answer the second 
question first, very briefly.
    So, in the main, the money that has been given to us by the 
committee--and, again, thank you for that--basically along the 
lines I articulated here earlier this morning. So it is about 
mobility. So some of this is platforms, if you will. A 
significant portion of the investment portfolio is going to go 
against mission command systems. As I think I have explained to 
some members before, one of my concerns is making sure that 
every one of my platforms is completely interlocked, if you 
will, from a network perspective, in terms of communications, 
architecture, and Blue Force Tracker, to make sure that all of 
my formations are completely interoperable from a 
communications command-and-control perspective. So the priority 
is really focusing on lethality, mobility, and that net of C2, 
command and control, structure.
    Circling back to the issue about the cyber specifically, as 
I think I have mentioned before, from a build perspective, we 
are in a very good place. So you are correct, Congressman. So 
10 cyber protection teams over time building out, we are on a 
good glide path for that. In fact, what I would say is--and I 
touched on it a little bit in my opening remarks--part of what 
we are doing in America's Army Reserve is looking at those 
places in America where there is rapidly evolving, if you will, 
digital capabilities, technologies--so cyber, artificial 
intelligence, all sorts of, if you will, exploding capabilities 
in the private sector--making sure that the Army Reserve is 
posturing force structure to be able to retain and in some 
cases actually assess those capabilities into the Army Reserve, 
to make that a much more integrated part, if you will, of the 
Army's linkage, the warfighter's linkage, Department of 
Defense's linkage to the emerging private sectors.
    I think I mentioned to you I have gone out to see private 
industry in many locations. We are investing capabilities and 
we are moving folks, if you will, or billets, opportunities to 
create structure into those rapidly developing parts of 
commercial America. So I think we are in a very good place.
    Mr. Ruppersberger. Anybody else?
    General McMillian. Yes, sir, I will just dive in on that. 
We are building out in the Marine Corps Reserves two cyber 
protection teams from our marines who have gotten out, gotten 
into the civilian work sector, learned that skill set, and now 
finding out that we are trying to stand up two teams, one on 
the West Coast, one on the East Coast: one at the 1st Marine 
Expeditionary Force in San Diego; the other one at the 2nd 
Marine Expeditionary Force at Camp Lejeune.
    What drives these Marines to come back into the Reserves to 
join cyber protection teams is that they are closer to the 
fight. They want to be with those tactical deploying units that 
have the potential to go downrange and do work wherever the 
country may need them. So they are excited about getting their 
boots dirty and deploying downrange with tactical units. Thank 
you.
    Mr. Ruppersberger. I yield back.
    Ms. Granger. Mr. Carter.

              READINESS AND RETENTION OF SKILLED PERSONNEL

    Mr. Carter. Thank you, Madam Chairman.
    I am going to address this question to the whole panel. 
General Luckey and I had a conversation yesterday.
    Thank you for coming by. I really appreciate that 
conversation.
    But as citizen lawyers and members of the Armed Forces 
Reserve, people are often called upon to face the challenge in 
the workforce, because people miss work due to their 
deployments. Please provide the subcommittee with your 
assessments of how these challenges affect not only readiness 
but retention of highly skilled personnel and what resources or 
assistance can we provide that will help you sustain your level 
of readiness and retention.
    General Luckey. So let me just take that first, if I may, 
very quickly.
    I will tell you the biggest thing that this committee could 
do to continue to support America's Army Reserve in this regard 
is to, if you will, be the influencers that can help me 
influence other influencers in America. As I have discussed 
with members of this committee before in a more informal 
context, part of our challenge is making sure we continue to 
message, as I said in my opening remarks, to the employers of 
America that they are strategic partners in the national 
security of the United States of America. And by allowing them, 
if you will, and encouraging them to understand how 
fundamentally important their support is to make sure that our 
soldiers--I would say sailors, airmen, and marines--all have an 
opportunity to be shared, if you will, between those employers 
and these teams is absolutely critical to us being able to 
continue, if you will, to take some pressure off our soldiers 
to be able to do both.
    So I would just--I really don't think this is about money 
so much. Fundamentally, it is about messaging and making sure 
our employers really understand how vital their support 
continues to be.
    Admiral McCollum. And, sir, just to complement General 
Luckey's words is the idea of partnerships and the idea of 
leveraging those relationships that these, in our case, sailors 
and airmen and marines, that they have, not only with their 
employers, but with friends of the military, and understanding 
those connection points and whatever constituency gathering, 
whatever activity that is in place, where we understand the 
heart and soul of what generates the capability of America's 
military power, which is our people, and all those programs 
that support how we take care of our people, whether it is when 
they get back home in the repatriation programs or how we 
support them when they are forward in giving the readiness, 
finding the readiness to be ready, to distract them from any 
problems they may have otherwise.
    General McMillian. Much the same answer, sir. Thank you for 
the question.
    Again, we are at 95 percent manning across the board, 
highest I have ever seen it, healthiest I have ever seen it, 
morale, leadership, esprit de corps off the top of the charts. 
Reserve marines want to be here and serve and go downrange and 
do good work for our country. The key to that is the public 
support for their employers. I think their employers are proud 
to have marines in their organizations. But a pat on the back 
goes a long way, and so the public support, as General Luckey 
and Admiral McCollum have touched upon, is huge for us and 
helps out with our retention and the serving.
    General Miller. Yes. For the Air Force Reserve, as I 
stated, the 72-hour response time is the tether that we are all 
on. So, with that, we have a great relationship at every wing 
level across all our 36 wings with the employees who are part 
of Guard and Reserve. So it is that expectation management 
between the reservist and the employer that we bring together 
around the table so there is no misunderstanding.
    A perfect example of that would be the airline pilot. 
General Goldfein last week got us together around the table 
with 70 airline executives from the majors to the regionals. 
And we sat around the table and said--we keep tugging on both--
either--you know, we have the uniform arm, and they have the 
airline arm of these pilots, and we are pulling them. We are 
pulling them apart, basically.
    So we had to sit around the table and basically come to an 
agreement of, how we are going to use this one asset, this 
national asset that has now become a crisis for this country? 
So that is the perfect example of how we work together with 
industry. And we are beginning steps to do that to work our way 
through this.
    Mr. Carter. Well, I, for one, if you can get the 
information by congressional district of the employers that 
employ members of any of the Reserve Components--I am going to 
make the same request of the National Guard--our office will 
personally send them a letter commending them for their service 
to their country. So, if you can get me that information, I 
will put my people to work to do that.
    [The information follows:]
                     Employers That Employ Members

                      witness: lengyel, joseph l.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. The National Guard Bureau does not have a method of 
tracking or collecting comprehensive employer data for all 54 states 
and territories. However, Service members nominated several employers 
of the National Guard from Texas' 31st Congressional District for the 
2017 Secretary of Defense Employer Support Freedom Award through the 
Employer Support of the Guard and Reserve (ESRG) program. The nominees 
include: (a) ARCIL Inc. (Round Rock) (b) Sprint (Killeen) (c) Wilsonart 
International (Temple) (d) Real Green Pest & Lawn (Round Rock)
                       witness: mccollum, luke m.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Naval Operational Support Center (NOSC) Austin, TX supports 
250 Navy Reservists and 9 Navy Reserve units. Many of these service 
members live and/or work in Texas' 31st congressional district. The 
following is a list of major employers of NOSC Austin Reservists.

------------------------------------------------------------------------
        Company              Mailing Address         City, State, Zip
------------------------------------------------------------------------
Ash Chiropractic         3688 Williams Dr, Ste 5  Georgetown, TX 78628
Georgetown ISD           1313 Williams Dr         Georgetown, TX 78628
Discount Tire            2720 E Whitestone Blvd   Cedar Park, TX 78613
City of Round Rock       301 E Main St            Round Rock, TX 78664
Firestone                100 E. Old Settlers      Round Rock, TX 78664
                          Blvd
Mattress One             1208 N. IH35 Suite 900   Round Rock, TX 78664
Dell                     2401 Greenlawn Blvd      Round Rock, TX 78664
                          Bldg 7
Baylor Scott and White   2401 S 31st St           Temple, TX 76508
Johnson Controls         1908 Kramer Ln Ste 100   Round Rock, TX 78664
Pacesetter K9 LLC        555 County Road 200      Liberty Hill, TX 78260
Dell Inc                 7215 Alacia Dr           Leander, TX 78641
DFPS                     503 Priest Dr            Killeen, TX 76549
Dell Inc                 1 Dell Way               Round Rock, TX 78664
TEK Systems/Emerson      1100 Louis Henna Blvd    Round Rock, TX 78681
Baylor Scott & White     2401 S 31st St           Temple, TX 76508
Amplify                  202 Walton Way Ste 200   Cedar Park, TX 78613
------------------------------------------------------------------------

                       witness: mcmillian, rex c.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Information and data collection concerning employers in 47 
states, the District of Columbia, and the commonwealth of Puerto Rico 
that employ Marine Corps reservists is not easily attained or readily 
available. We are currently reviewing options to satisfactorily respond 
to this question.
                       witness: miller, maryanne
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. The Air Force Reserve does not track employers that employ 
Service members of any Reserve Components by congressional district. 
However, Employer Support for the Guard and Reserves (ESGR) provided a 
listing of employers nominated by Service members for the FY 2017 
Secretary of Defense Employer Support Freedom Award via the attached 
listing. These employers in Texas have earned praise from their Service 
member employees for their support of our reserve component military 
members. Other interested members can obtain similar data.
                      witness: luckey, charles d.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Congressman Carter, we appreciate your support and 
willingness to contact employers in your district and while the USAR 
works closely with many employers in communities across the nation, we 
do not track employer information for each member of the Army Reserve. 
With that in mind, we believe providing a partial list would 
potentially be damaging to your overall goal of recognizing all 
employers who provide employment support to America's Army Reserve 
Soldiers.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Employer Support of the Guard and Reserve (ESGR) recognizes 
outstanding employers on a regular basis through its progressive awards 
program. Starting with the Patriot Award all the way up to the 
Secretary of Defense Employer Support Freedom Award, ESGR works to 
build positive employment environments for Reserve Component members 
and veterans. In Fiscal Year 2016, ESGR presented 10,627 Patriot Awards 
to supervisors nominated by their Reserve Component employees and 
received 3,064 nominations for the Freedom Award. The Freedom Award is 
the highest honor given by the U.S. government to employers for their 
support of employees who serve in the Reserve Components. Started in 
1996, the Freedom Award has been presented to a total of only 250 
employers (small, large, and public) who represent the best of the best 
in employer support of Reserve Component service.
    This year, the following 15 employers were recognized at a Pentagon 
ceremony for the annual Secretary of Defense Employer Support Freedom 
Award:
          1. Accordia Urgent Healthcare & Family Practice of Vidalia, 
        Georgia. Nominator's branch: Air Force Reserve
          2. Boston Scientific Corporation of Marlborough, 
        Massachusetts. Nominator's branch: Air National Guard
          3. Cargill, Incorporated of Wayzata, Minnesota. Nominator's 
        branch: Army National Guard
          4. Comcast NBCUniversal of Philadelphia, Pennsylvania. 
        Nominator's branch: Air National Guard
          5. CSI Aviation, Incorporated of Albuquerque, New Mexico. 
        Nominator's branch: Army National Guard
          6. Hensel Phelps Construction Company of Greely, Colorado. 
        Nominator's branch: Army Reserve
          7. Howard County Fire & Rescue of Columbia, Maryland. 
        Nominator's branch: Coast Guard Reserve
          8. Indianapolis Fire Department of Indianapolis, Indiana. 
        Nominator's branch: Air Force Reserve
          9. Johnson & Johnson of New Brunswick, New Jersey. 
        Nominator's branch: Air National Guard
          10. Mesa Natural Gas Solutions of Casper, Wyoming. 
        Nominator's branch: Army National Guard
          11. Office of the District Attorney, 18th Judicial District 
        of Centennial, Colorado. Nominator's branch: Marine Corps 
        Reserve
          12. Renown Health of Reno, Nevada. Nominator's branch: Air 
        National Guard
          13. Salt River Project of Tempe, Arizona. Nominator's branch: 
        Army National Guard
          14. Andeavor (formerly Tesoro) of San Antonio, Texas. 
        Nominator's branch: Army Reserve
          15. Zapata, Incorporated of Charlotte, North Carolina. 
        Nominator's branch: Air National Guard
                       witness: mccollum, luke m.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Naval Operational Support Center (NOSC) Austin, TX supports 
250 Navy Reservists and 9 Navy Reserve units. Many of these service 
members live and/or work in Texas' 31st congressional district. The 
following is a list of major employers of NOSC Austin Reservists.

------------------------------------------------------------------------
        Company              Mailing Address         City, State, Zip
------------------------------------------------------------------------
Ash Chiropractic         3688 Williams Dr, Ste 5  Georgetown, TX 78628
Georgetown ISD           1313 Williams Dr         Georgetown, TX 78628
Discount Tire            2720 E Whitestone Blvd   Cedar Park, TX 78613
City of Round Rock       301 E Main St            Round Rock, TX 78664
Firestone                100 E. Old Settlers      Round Rock, TX 78664
                          Blvd
Mattress One             1208 N. IH35 Suite 900   Round Rock, TX 78664
Dell                     2401 Greenlawn Blvd      Round Rock, TX 78664
                          Bldg 7
Baylor Scott and White   2401 S 31st St           Temple, TX 76508
Johnson Controls         1908 Kramer Ln Ste 100   Round Rock, TX 78664
Pacesetter K9 LLC        555 County Road 200      Liberty, Hill, TX
                                                   78260
Dell Inc                 7215 Alacia Dr           Leander, TX 78641
DFPS                     503 Priest Dr            Killeen, TX 76549
Dell Inc                 1 Dell Way               Round Rock, TX 78664
TEK Systems/Emerson      1100 Louis Henna Blvd    Round Rock, TX 78681
Baylor Scott & White     2401 S 31st St           Temple, TX 76508
Amplify                  202 Walton Way Ste 200   Cedar Park, TX 78613
------------------------------------------------------------------------

                       witness: mcmillian, rex c.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Information and data collection concerning employers in 47 
states, the District of Columbia, and the commonwealth of Puerto Rico 
that employ Marine Corps reservists is not easily attained or readily 
available. We are currently reviewing options to satisfactorily respond 
to this question.
                       witness: miller, maryanne
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. The Air Force Reserve does not track employers that employ 
Service members of any Reserve Components by congressional district. 
However, Employer Support for the Guard and Reserves (ESGR) provided a 
listing of employers nominated by Service members for the FY 2017 
Secretary of Defense Employer Support Freedom Award via the attached 
listing. These employers in Texas have earned praise from their Service 
member employees for their support of our reserve component military 
members. Other interested members can obtain similar data.
                      witness: luckey, charles d.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Congressman Carter, we appreciate your support and 
willingness to contact employers in your district and while the USAR 
works closely with many employers in communities across the nation, we 
do not track employer information for each member of the Army Reserve. 
With that in mind, we believe providing a partial list would 
potentially be damaging to your overall goal of recognizing all 
employers who provide employment support to America's Army Reserve 
Soldiers.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Employer Support of the Guard and Reserve (ESGR) recognizes 
outstanding employers on a regular basis through its progressive awards 
program. Starting with the Patriot Award all the way up to the 
Secretary of Defense Employer Support Freedom Award, ESGR works to 
build positive employment environments for Reserve Component members 
and veterans. In Fiscal Year 2016, ESGR presented 10,627 Patriot Awards 
to supervisors nominated by their Reserve Component employees and 
received 3,064 nominations for the Freedom Award. The Freedom Award is 
the highest honor given by the U.S. government to employers for their 
support of employees who serve in the Reserve Components. Started in 
1996, the Freedom Award has been presented to a total of only 250 
employers (small, large, and public) who represent the best of the best 
in employer support of Reserve Component service.
    This year, the following 15 employers were recognized at a Pentagon 
ceremony for the annual Secretary of Defense Employer Support Freedom 
Award:

          1. Accordia Urgent Healthcare & Family Practice of Vidalia, 
        Georgia. Nominator's branch: Air Force Reserve
          2. Boston Scientific Corporation of Marlborough, 
        Massachusetts. Nominator's branch: Air National Guard
          3. Cargill, Incorporated of Wayzata, Minnesota. Nominator's 
        branch: Army National Guard
          4. Comcast NBCUniversal of Philadelphia, Pennsylvania. 
        Nominator's branch: Air National Guard
          5. CSI Aviation, Incorporated of Albuquerque, New Mexico. 
        Nominator's branch: Army National Guard
          6. Hensel Phelps Construction Company of Greely, Colorado. 
        Nominator's branch: Army Reserve
          7. Howard County Fire & Rescue of Columbia, Maryland. 
        Nominator's branch: Coast Guard Reserve
          8. Indianapolis Fire Department of Indianapolis, Indiana. 
        Nominator's branch: Air Force Reserve
          9. Johnson & Johnson of New Brunswick, New Jersey. 
        Nominator's branch: Air National Guard
          10. Mesa Natural Gas Solutions of Casper, Wyoming. 
        Nominator's branch: Army National Guard
          11. Office of the District Attorney, 18th Judicial District 
        of Centennial, Colorado. Nominator's branch: Marine Corps 
        Reserve
          12. Renown Health of Reno, Nevada. Nominator's branch: Air 
        National Guard
          13. Salt River Project of Tempe, Arizona. Nominator's branch: 
        Army National Guard
          14. Andeavor (formerly Tesoro) of San Antonio, Texas. 
        Nominator's branch: Army Reserve
          15. Zapata, Incorporated of Charlotte, North Carolina. 
        Nominator's branch: Air National Guard

    General Luckey. I appreciate that, sir.
    Ms. Granger. I can say the same thing. Thank you.
    When you are talking about messaging, if there is--I have a 
Reserve base, as you mentioned, thank you, in my district--but 
some way to make sure that we are telling communities how 
important it is to encourage this with employers. Any ideas, 
any places where they are doing it really well, if you would 
pass it on to all of us, then we will encourage that, because 
that partnership is just vital. Thank you.
    Mr. Cuellar.

                     Remarks of Congressman Cuellar

    Mr. Cuellar. Thank you, Madam Chair.
    I don't have any questions except to say thank you for what 
you all do. We really, really appreciate it. We want to be 
supportive in any way.
    I do associate myself to the questions, to the comments 
also. I would like to get followup on that. Thank you.
    Thank you, Madam Chair.
    Ms. Granger. Mrs. Roby.

                    PROFESSIONAL MILITARY EDUCATION

    Mrs. Roby. Thank you very much.
    Thank you all for being here, and a very heartfelt thank 
you to all of your families for their service and sacrifice as 
well.
    With all the professional military education conducted at 
Maxwell Air Force Base, I am well aware of the emphasis that 
the services place on PME, and rightly so. The investments in 
education and career development are critical to the 
development of our next generation of military leaders.
    That being said, I am very concerned about possible 
disparities between Reserve and Active Duty servicemembers with 
regard to pay and benefits as it relates to PME. While a 
soldier on Active Duty receives full pay and credit toward 
retirement while attending PME courses, a reservist is often 
balancing, obviously, a civilian career and completing these 
courses by correspondence. Not only is the reservist not paid, 
in many cases, the reservist gets no credit toward their 
retirement.
    And so what needs to happen to fix this disparity, 
particularly as it relates toward retirement credit, and how 
quickly can we make this happen? And I will be quiet and let 
you answer. Thank you very much.
    General Luckey. So let me jump on that first, if I may, 
Congresswoman.
    So I will just tell you, as a soldier who went to the Army 
War College and, to your point, spent the better part of 2 
years doing it by sort of--some of it was virtual; some of it 
was paper; some of it was--but it ruined--I won't say it 
ruined. It consumed weekends for the Luckey family for a couple 
years. And then we had the summer sessions where I would go to 
Carlisle for 2 weeks.
    I will just tell you that I was completely compensated for 
the time that I spent at Carlisle by the Army, and I received a 
master's degree from the Army War College as part of the 
program. Candidly, while I got retirement points for, if you 
will, the coursework that I accomplished, I am not going to sit 
here and tell you that necessarily in some cases I felt that it 
was--I mean, some of the work was very difficult, frankly.
    But I will just tell you, on behalf of the Army, on behalf 
of America's Army Reserve, I don't think that there is a 
compensation issue or a credit issue as it pertains to 
retirement as it pertains to the Professional Military 
Education program of the Army.
    What I will tell you is it is a challenge. My guess is it 
is true for all the services. It is a challenge for Reserve 
soldiers to balance all the requirements of their lives. But 
the reality is I have fantastic soldiers who have support of 
their families and, by and large, support of their employers. 
We talked earlier. I didn't touch on this data point, but I 
think it is relevant. The authorized end strength of the United 
States Army Reserve, you know, is going back to 199,000, and 
right now, I am at 198,000 soldiers.
    So I guess what I would say is this is not a pressing 
concern for me. So I respect your question and I appreciate it, 
but this is not a pressing concern for America's Army Reserve.
    Admiral McCollum. Thank you, ma'am, for that question.
    I would say, for the Navy Reserve, it is very similar to 
what General Luckey just said. The Navy Reserve sailors are 
motivated, dedicated, and they are awesomely inspiring, and 
they do have this complexity of the family and civilian jobs. 
So it is a little bit different to master from just having one 
focus of their employment.
    Where the conversations generally go regarding AC/RC ends 
up in the benefits area. In the case, we do have an authority 
right now, the 12304 bravo, which is basically an authority to 
let a reservist deploy. So the benefits don't currently match. 
And I know that work is underway to address that. So that is 
where I hear more of the work and the questions.
    General McMillian. Great question, ma'am. Thank you for the 
question. The Commandant of the Marine Corps is focused on 
building a fifth-generation Marine Corps, highly technical, 
highly advanced. I need to build a fifth-generation Reserve 
part of that to augment and reinforce. Along with that comes 
education. But I am book-ended by readiness. I have 38 training 
days to train our marines ready to go downrange, as you have 
heard me talk about, to be ready to go to combat.
    So I need to take full advantage--and this is my point--
with online training and getting the pay and the benefits 
between drills, between those 28 days that I don't have them 
during the month, to bring them up to speed educationally. So 
we are working towards that, and we have great support in the 
Marine Corps.
    General Miller. Within the Air Force and the Air Force 
Reserve, we are moving more toward the virtual. And, with that, 
you know, our folks just achieve greatness. Many of them, if 
not all of them, have master's degrees on the officer side. On 
the enlisted side, those numbers are going up. So this young 
group coming in just achieve and overachieve, and they are not 
really concerned about getting compensated for that. They just 
do it. And the same for the Professional Military Education. It 
is just a requirement and an expectation that we have had, and 
we just do it.
    Mrs. Roby. Thank you all.
    I yield back.
    Ms. Granger. Mr. Ryan.

            ANTITERRORISM AND FORCE PROTECTION REQUIREMENTS

    Mr. Ryan. Thank you, Madam Chair.
    I have a question for General Miller, a couple I will try 
to squeeze in, and, hopefully, you can get to them. And I will 
make the committee aware that you are a graduate of a small 
unknown university in Columbus, Ohio, called the Ohio State 
University. And we are grateful for your service. So thank you 
very much.
    Two quick questions: One, last year, our committee 
identified in the report that many Reserve facilities do not 
meet antiterrorism and force protection requirements, and that 
these deficiencies result in traffic, congestion in surrounding 
roads. And these congested access points, as we saw recently in 
the U.K. with the terrorist attack, can be a major issue.
    The response from the Air Force Deputy Assistant Secretary 
of Budget last year stated the requirements would be met in 
2022, which, in my estimation, is way too long to wait for 
those kinds of security measures.
    So can you comment on that?

                                C-130JS

    And the other question is with regard to the C-130Js and, 
specifically, if we have enough with regard to specialty 
missions. I am concerned that those areas and those planes and 
the training necessary to deal with the specialty missions, 
that we are not where we need to be with that.
    General Miller. Regarding the security measures, thank you 
all for the additional appropriation in 2017 for FSRM. We 
brought in $65 million. You appropriated $65 million for 
additions. I just looked at the list. None of those include 
gates, the security around the installation. So I will go back 
and see. We do a facilities assessment every year at every 
base. So I will do a quick review and see where we are lacking 
in that and get back with you on that specifically.
    Regarding the C-130Js, the last recapitalization for the 
Air Force Reserve for Js was in 2007 at Keesler, and we 
recapitalized 20, partly for the weather mission there and then 
the operational mission there at Keesler. That is the last C-
130J that the Air Force Reserve received, and there is none 
programmed in the POM for us. And that is a decision with the 
Air Force just due to limited funding; that is where we are on 
that program.
    The AMP 1 and AMP 2 on our H model fleet is critical to the 
longevity of that mission set.
    If there were funding that were set aside for the Js for 
the Air Force Reserve, then I would actually put that in the 
special missions at Youngstown and the firefighting unit at 
Peterson. That is where those J models would go, if 
recapitalized, and there would be 60 needed for that.
    But right now, it is not in the program, and there is just 
no room in the program, given where we need to go for the 
future fight.
    Mr. Ryan. Thank you.
    Ms. Granger. Mr. Visclosky.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Madam Chair.
    I don't have a question, but in response to my colleague's 
opening remarks, Mr. Ryan, I would point out that, while Ohio 
State is an incredible athletic institution--the decor of my 
Washington office is patterned after your colors--in the 
National Fencing Championship round, it was Notre Dame-1, Ohio 
State-2.
    Thank you, ma'am.
    Ms. Granger. Thanks for your time, your attention to the 
committee's concerns. Please feel free at any time to remind us 
or talk to us more so we can serve you the very best because we 
respect what you do.
    This concludes today's hearing. The subcommittee stands 
adjourned.
    [Questions submitted by Mr. Aderholt and the answers 
thereto follow:]

          High Mobility Multipurpose Wheeled Vehicles (HMMWVs)

                      witness: lengyel, joseph l.
    Question. The Alabama National Guard has about 1,330 High Mobility 
Multipurpose Wheeled Vehicles (HMMWV). Almost 60% of them are over 13 
years old. To say the least, the HMMWV Modernization Program has been 
very successful and has brought 124 much needed new vehicles to the 
Alabama National Guard and over 2,200 nationwide. Does your FY 2018 
Budget include funding to continue this program?
    Answer. Yes, the FY18 President's Budget included a requirement for 
$53M to continue modernizing HMMWVs. With Congress' support during the 
last four years, the ARNG has modernized over 2,788 Up-Armored HMMWVs 
and HMMWV Ambulances with the most modern operational capabilities and 
Soldier safety upgrades. The ARNG plans to maintain its readiness 
through the synchronization of all Light Tactical Wheeled Vehicle 
modernization and recapitalization efforts in accordance with the 
Army's Light Tactical Vehicle Modernization Strategy. The ARNG HMMWV 
modernization improvements is the direct result of year-to-year 
Congressional Line-Items. To date this funding has been used to 
accelerate ARNG LTV modernization efforts which has greatly enhanced 
unit readiness for dual use and contingency operations.

                    Dual-Status Military Technicians

                      witness: lengyel, joseph l.
    Question. The FY 2016 National Defense Authorization Act directed 
DoD to convert 20% of administrative, clerical, finance, and office 
service dual-status military technicians, and all non-dual status 
technicians to Title 5 federal civilian employees on 1 January 2016, to 
include Title 32 technicians. To date, our committee has included 
language in appropriations bills to state that no funds would be used 
to support this effort. Is this conversion something that you support? 
What impact would a 20% conversion of technicians to Title 5 federal 
civilians have on the National Guard Bureau? Also, is there a 
conversion percentage that you would consider acceptable for your 
organization?
    Answer. As the Chief National Guard Bureau I have an inherent Title 
10 responsibility to execute the law as it is written. That said, as 
previously discussed in my own testimony I favor a smaller conversion 
number than what is currently called for and would support 
congressional efforts to reduce the required percentage. A 20% 
conversion will have a negative impact. As I stated in previous 
testimony the smaller the conversion number the better when it comes to 
readiness of the National Guard. I believe, as I have testified that 
there is some number that can be converted with minimal impact to 
readiness; I don't believe that number is 20 percent.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Ms. Roby and answers thereto follow:]

                 Professional Military Education (PME)

                      witness: lengyel, joseph l.
    Question. In light of the publication of Department of Defense 
Instruction 1215.17 in 2013 as well as the increasing use of virtual 
training for Professional Military Education (PME), does your service 
provide retirement credit for Reservists completing PME? If not, what 
steps would be required to provide credit to all reservists who 
completed PME since the publication of his DODI?
    Answer. Title 10 United States Code, Sec. 12732(a)(2) does not 
permit the awarding of retirement credit for Reserve Component Service 
members who complete training via distributed electronic methods. This 
is an issue the Department is examining as part of its review of 
Reserve Component duty status reform.

    [Clerk's note.--End of questions submitted by Ms. Roby. 
Questions submitted by Mr. Graves and answers thereto follow:]

                   Dual Status Technicians Conversion

                      witness: lengyel, joseph l.
    Question. It is my understanding that National Guard Bureau has 
provided information to Congress regarding dual status technician 
positions identified for conversion per the NDAA requirement. Is this 
accurate? Were the Adjutants General or the Governors consulted when 
identifying the positions for conversion?
    Answer. (1) It is my understanding that National Guard Bureau has 
provided information to Congress regarding dual status technician 
positions identified for conversion per the NDAA requirement. Is this 
accurate? Answer. Yes, to both the HASC and SASC at different times and 
at their requests. (2) Were the Adjutants General or the Governors 
consulted when identifying the positions for conversion? Answer. Yes to 
both entities. The Adjutants General and National Governor's Council 
were and continue to be heavily involved in the process. The Adjutant 
General's provided their best military advice in the Report to Congress 
directed by NDAA 2016.

    [Clerk's note.--End of questions submitted by Mr. Graves. 
Questions submitted by Mr. Visclosky and answers thereto 
follow:]

                   Tactical Wheeled Vehicle Strategy

                      witness: lengyel, joseph l.
    Question. The Army intends to maintain a mixed fleet of 104,099 
tactical wheeled vehicles, including 50,000 HMMWVs and 49,099 JLTVs. At 
one point the Army planned to continue operating 100,000 HMMWVs, but 
that strategy has shifted to maintain a nearly even mix of HMMWVs and 
JLTVs.--Over the past several fiscal years, this Committee has added 
significant additional funding to modernize the HMMWV fleets of the 
Guard and reserve components.--Given that the HMMWV will remain half of 
Army's light tactical wheeled vehicle fleet beyond 2040, can you share 
the plan to maintain and modernize the readiness of the National Guard 
and Reserve HMMWVs? Do you feel that Army leadership is committed to 
funding this plan?--Please explain the Army's intentions for the nearly 
26,000 HMMWVs that are supposedly no longer required? Was there any 
discussion of repurposing these vehicles for the National Guard dual-
purpose mission?
    Answer. Congressional support has enabled the Army National Guard 
(ARNG) to purchase 1,509 HMMWV Ambulances and modernize 1,279 Up-
Armored HMMWVs since 2013. As such, the ARNG will replace our entire 
HMMWV Ambulance fleet by 2019. The Army's Light Tactical Wheeled 
Vehicle modernization and recapitalization efforts include the National 
Guard and Reserve. The ARNG supports the Army's HMMWV Modernization 
Strategy of improving all HMMWVs by recapitalizing existing assets. The 
Army's HMMWV Modernization Strategy incorporates JLTV deliveries, Up-
Armor HMMWV modernization and Un-Armored HMMWV modernization, roles and 
missions. The Army has fully supported the ARNG's Light Tactical 
Vehicle modernization strategy with funding. The ARNG's Light Tactical 
Vehicle modernization strategy is aligned with the Army's overall 
strategy and also meets the ARNG objectives and requirements for dual-
use Light Tactical Vehicles. The ARNG is assisting the Army in 
developing a plan for HMMWVs which fall outside the JLTV and Up-Armored 
HMMWV requirements. Although not finalized, ARNG Light Tactical Vehicle 
dual-use requirements are included in the way-ahead strategy.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Ms. Kaptur and answers 
thereto follow:]

                       State Partnership Program

                      witness: lengyel, joseph l.
    Question. With Russia's increasing aggression, how do you plan to 
enhance the State Partnership Program? What more can the State 
Partnership Program in Ukraine and Hungary do to enhance the area of 
civil works/transportation infrastructure in those countries?
    Answer. The State Partnership Program began in Europe at the close 
of the Cold War with the purpose of establishing enduring relationships 
to reassure our allies, deter aggression, and help our partners provide 
more effectively for their own security. Currently, the program has 
partnerships with 12 former Soviet Bloc nations. The State Partnership 
Program is and will remain an important tool for Combatant Commanders 
advancing America's national security interests in Europe and around 
the globe. In addition to obtaining necessary funding through the 
Program Objective Memorandum (POM) process to execute a full slate of 
partnership activities in FY18, the National Guard will continue 
seeking innovative ways to leverage the unique skills of the Guard's 
Citizen-Soldiers and-Airmen as well as the strong relationships that 
Guard members have built over the years to meet emerging security 
challenges. The Commander, U.S. European Command, the lead U.S. 
Department of Defense command in both Ukraine and Hungary, will 
determine the projects undertaken by the State Partnership Program in 
those countries.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]

                                           Thursday, June 15, 2017.

             FY 2018 DEPARTMENT OF DEFENSE BUDGET OVERVIEW

                               WITNESSES

HON. JAMES N. MATTIS, SECRETARY OF DEFENSE
GENERAL JOSEPH F. DUNFORD, USMC, CHAIRMAN, JOINT CHIEFS OF STAFF
DAVID NORQUIST, UNDER SECRETARY OF DEFENSE, COMPTROLLER

                 Opening Statement of Chairman Granger

    Ms. Granger. The subcommittee will come to order.
    Today, we will hear testimony on the fiscal year 2018 
budget request for the Department of Defense.
    As the incoming chair of the Defense Subcommittee, I said 
that the defense bill would be based on the needs of our 
military and the best military advice from our leaders in 
uniform. Unfortunately, after extensive conversations with our 
military leaders, I am concerned that the fiscal year 2018 
defense budget request is not enough to address the shortfalls 
and damage caused by years of underfunding. The budget caps 
have enlarged that problem and must be repealed.
    For many years, military leaders have said they would get 
the mission done no matter the level of funding they received. 
That is no longer possible, and it is our job to make sure our 
military has what it needs to face the many threats to our 
Nation.
    All Federal dollars are not the same. During a time when we 
face threats from Russia, China, North Korea, ISIS and other 
terrorist groups, we must prioritize our defense funding first. 
Our adversaries are rapidly advancing their tactics and their 
capabilities. The fiscal year 2018 appropriations bill must 
ensure our capabilities remain more advanced and more lethal 
than our adversaries. The last thing we want to give our 
enemies is a fair fight.
    General Dunford, in 2012, your predecessor, General 
Dempsey, testified that we were living in the most dangerous 
era of his lifetime. That was true when he made the statement, 
and the world is so much more dangerous today.
    Unfortunately, I am concerned that the fiscal year budget 
request doesn't go far enough. Our senior military leaders tell 
us this is the minimal level needed to stop the deterioration 
of our military readiness.
    As you had said, Secretary Mattis, it will take years of 
increased funding to get us to where we need to be, and the 
budget request should be viewed as the first step for what is 
truly needed to rebuild our national defense.
    This fiscal year 2018 budget process is especially 
complicated, and we have a big job in front of us and little 
time to complete it. The world isn't standing still, and the 
threats of today and tomorrow are not waiting on our budget 
cycle. It is my hope we can find a bipartisan common ground to 
give our military the robust support that our service chiefs 
and combatant commanders tell us they desperately need. This is 
where our witnesses come in to help us clarify what we need to 
do.
    Before I introduce them, I would like to recognize our 
ranking member, Mr. Visclosky, for any opening remarks he would 
like to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. The only thing I would say, Madam Chair, is 
thank you for holding the hearing and, gentlemen, for your 
service, for your testimony today, and I would commend the 
Secretary of Defense for his very good judgment in bringing 
aboard Mr. Norquist as Comptroller. Despite the fact that he 
graduated from the University of Michigan, I think he is 
eminently qualified for the position given his 6 years of 
experience as a member of our subcommittee staff, and I am very 
serious about that.
    Good luck to you, David.
    Mr. Norquist. Thank you, sir.
    Ms. Granger. I call on Chairman Frelinghuysen.

               Opening Remarks of Chairman Frelinghuysen

    Mr. Frelinghuysen. Thank you.
    I am going to go through my remarks because I think it is 
important to say a few things, but, first of all, I want to 
join on all the members and Chairwoman Granger in thanking you 
all for being here, especially those brothers in arms that have 
sat together at this table on a variety of earlier occasions.
    Today's hearing is an important part of the oversight 
duties of this committee. After all, the power of the purse 
lies in this building. It is the constitutional duty of 
Congress to make spending decisions on behalf of the people we 
represent at home.
    Secretary Mattis, we gather here this morning to review the 
budget of the Department of Defense, the posture of our Armed 
Forces, and to determine how this committee can help our 
soldiers, sailors, airmen, marines meet the many threats and 
challenges this very dangerous world has produced, because when 
it comes to the men and women in uniform, their missions are 
our missions, and we want to hear your clear priorities for 
making them more successful and safe.
    What is our strategy in Syria? What level of success are we 
having in Iraq and Afghanistan? Even as we have a policy to 
accelerate and to annihilate ISIS, we also recognize that 
threats are growing across the globe from Russia, China, Iran, 
North Korea, transnational jihadists, hackers, and 
cyberterrorists. Your needs are great, but the current 
resources available to you are not adequate.
    We share your opposition to the BCA, the Budget Control 
Act. We will work to lift its restrictions, but this hearing is 
all about an opportunity for you to tell us exactly what you 
need in the short term and long term.
    Mr. Secretary, I have questions also about the devolution 
of warfighting command authority from our Commander in Chief to 
subordinates both civilian and military. While we never want 
the President and the National Security Council to be involved 
in the minute details of operational decisions, we do have 
questions about how to strike a proper balance.
    Secretary Mattis, I hear the constant drumbeat of concern 
from field officers and enlisted personnel about the rules of 
engagement during visits to the Middle East, which all of us 
feel are important, and even from the perspective of visiting 
Bethesda and Walter Reed Hospital. Previously, they were too 
restrictive; now, I am hearing they are confusing.
    In another important area, I think I speak on behalf of all 
of my colleagues when I say we endorse the marriage of hard and 
soft power, military capability and diplomacy to ensure our 
national security. As we prepare the defense appropriations 
bill under Congresswoman Granger's leadership and a State, 
foreign operations bill, we will ask you to weigh in.
    Finally, the general accounting office recently identified 
five key challenges that significantly affect your Department's 
ability to accomplish its mission. These include: top of the 
list, rebuild readiness; secondly, mitigate threats to 
cyberspace and expand cyber capabilities; thirdly, control the 
escalating costs of certain weapons systems and, yes, of 
course, strategically managing your human capital; and, lastly, 
achieving greater efficiencies in defense business operations.
    We do not need a special report to tell us that we have a 
readiness problem--I am sure you will do that in your 
statements--or that the Department of Defense has acquisition 
challenges, but we do look forward to hearing your strategy to 
address these issues and their recommendations.
    And, with that, Madam Chairman, I thank you for the time, 
and I thank the panel for being here with us again. Thank you.
    Ms. Granger. Ranking Member Lowey.

                     Opening Remarks of Mrs. Lowey

    Mrs. Lowey. Thank you, Madam Chair.
    And I would like to thank Chairwoman Granger, Ranking 
Member Visclosky for holding this hearing.
    And I welcome sincerely Secretary Mattis and General 
Dunford and Under Secretary--your title now is Under Secretary 
of Defense--David Norquist. I know many of us sleep better at 
night in this very difficult world knowing that you are there 
making decisions. Thank you for appearing before us today.
    We do live in such a dangerous world in which the threats 
emanate from every corner of the globe, including North Korea's 
belligerence; ISIL's increasingly common attacks in the Middle 
East and Europe; Boko Haram and Al Shabaab in Africa; Iran's 
destabilizing activities in the Middle East and state sponsor 
of terrorism; cyber attacks on U.S. interests at home and 
overseas; continued Russian aggression in the Ukraine, to name 
just a few.
    The Department of Defense's task to track the quickly 
changing global security landscape and ensure the defense of 
our Nation and our allies is both exceedingly challenging and 
costly.
    Secretary Mattis, your fiscal year 2018 budget requests 
$564.7 billion in the base budget and $63.9 billion in overseas 
contingency operations funding. The base budget request is $52 
billion above DOD's share of the fiscal year 2018 budget cap in 
current law. The President's corresponding proposal to cut 
nondefense discretionary funds to pay for it would outright 
cripple important investments needed here at home.
    While I am very pleased that your budget focuses on 
readiness and strengthening our military, I have serious 
concerns about how this dynamic world would impact nondefense 
discretionary funding, which is equally important and 
contributes to our national security.
    Quite simply, the President's budget request forsakes 
critical nondefense programs, many of which support our men and 
women in uniform, contribute to national security, and even 
enable our ability to maintain ready and able Armed Forces.
    For example, Major General Jeffrey Snow, the Commanding 
General of the United States Army Recruiting Command notes that 
only 3 in 10 recruits can meet the requirements to join the 
Army. That is an extraordinary statistic. The two things Major 
General Snow recommended are, and I quote, ``something as 
simple as what our kids are fed in schools,'' end quote, and 
the importance of not doing away with physical education 
programs. And yet this administration would roll back 
guidelines for healthy school meals and proposes to cut $400 
million from education and academic support initiatives, 
including physical education.
    Even retired General Stanley McChrystal has raised 
concerns, stating that public broadcasting, which this budget 
proposes to eliminate, makes us, quote, ``smarter, stronger, 
and, yes, safer.''
    General Mattis, you have said, and I quote, ``If you don't 
fund the State Department fully, then I need to buy more 
ammunition,'' yet the increases you request come at the expense 
of the 32-percent reduction in the international affairs 
budget, which would put American lives in danger, a fact 
underscored in a recent letter by 120--120--three- and four-
star generals, and would abdicate our leadership in the world.
    This administration is heading down a dangerous path by 
proposing increases in defense spending, which I certainly 
support, while falling short of our obligations for education, 
healthcare, transportation, support for law enforcement, and 
first responders and more.
    Congress must reject President Trump's misguided budget 
request and instead pass appropriation bills that support 
national security and American families alike.
    And I just want to say in closing: I have been on this 
committee a long time, and I am proud to be on this committee 
because we have always worked constructively in a bipartisan 
way.
    So I am looking forward to this discussion. I look forward 
to your comments. And I do hope we can approach this budget and 
all the other essential parts of the budget sincerely and be 
successful in creating an appropriate balance.
    Thank you so much for appearing before us today.
    Ms. Granger. Chairman Emeritus Rogers.
    Mr. Rogers. Thank you, Chairman, I will forego.
    Ms. Granger. Thank you.
    And I will do the same.
    Again, allow me to introduce our witnesses. Secretary of 
Defense Jim Mattis comes to the civilian leadership of the 
Department after a long and illustrious career in the Marine 
Corps in which he served in several senior command positions, 
including combat commands in Afghanistan and Iraq, before 
retiring with the rank of general in 2013.
    General Joseph Dunford is the Chairman of the Joint Chiefs 
of Staff and is making his second appearance before us. Like 
Secretary Mattis, General Dunford is a Marine with a long and 
distinguished career and served as Commandant of the Marine 
Corps prior to becoming Chairman.
    Appearing with Secretary Mattis and General Dunford is 
David Norquist, who recently was sworn in as the new 
Comptroller of the Department of Defense.
    Mr. Norquist, thank you for being here today, also.
    Secretary Mattis we will begin with your opening statement, 
followed by General Dunford. Please summarize your statements 
so that we are able to get to our questions as quickly as 
possible.

                     Statement of Secretary Mattis

    Secretary Mattis. Well, thank you, Chairwoman Granger, 
Ranking Member Visclosky, and members of the committee. I 
appreciate this opportunity to testify in support of the 
President's budget request for fiscal year 2018.
    And, Madam Chairman, I request that the committee accept my 
written statement for the record.
    I am joined today by Chairman Dunford and the Comptroller 
so that, hopefully, if there are detailed questions, we can 
actually answer them all right here in front of you today. I 
would like to give an opening statement, chairwoman, because I 
think I can address some of the issues that have been brought 
up already, and it should take only a few minutes.
    But this budget request does hold me accountable to the men 
and women of the Department of Defense. Every day, as you know, 
more than 2 million servicemembers, nearly a million civilians, 
do their duty, and in doing so, they honor previous generations 
of veterans and civil servants who have sacrificed for our 
country, and it is my privilege to be back among them.
    We in the Department are keenly aware of the sacrifices 
made by the American people to fund our military. Many times in 
the past, we have had as a country to look reality in the eye 
and meet challenges with the help of congressional leadership 
building the most capable warfighting force in the world.
    There is no room for complacency in the Department of 
Defense, and we have no God-given right to victory on the 
battlefield. Each generation of Americans, from the Halls of 
Congress to the battlefield, earns victory through commitment 
and sacrifice. And, yet, for 4 years, the Department has been 
subjected to or threatened by automatic across-the-board cuts 
as a result of sequester, a mechanism meant to be so injurious 
to the military, it would never go into effect. But it did go 
into effect, and as forecast by then-Secretary of Defense 
Panetta the damage has been severe.
    In addition, during 9 of the last 10 years, Congress has 
enacted separate continuing resolutions to fund the Department 
of Defense, thus inhibiting our readiness and adaptation to new 
challenges. We need bipartisan support for this request, as 
noted by the chairwoman. In the past, by failing to pass a 
budget on time or to eliminate the threat of sequestration, 
Congress sidelined itself from its active constitutional 
oversight role.
    Continuing resolutions coupled with sequestrations blocked 
new programs, prevented service growth, stalled industry's 
initiatives, and placed troops at greater risk. Despite the 
tremendous efforts of this committee, Congress as a whole has 
met the present challenge with lassitude, not leadership.
    I retired from military service 3 months after 
sequestration took effect. Four years later, I have returned to 
the Department. I am shocked by what I have seen about our 
readiness to fight. While nothing can compare to the heartache 
caused by the loss of our troops during these wars, no enemy in 
the field has done more to harm the combat readiness of our 
military than sequestration. We have only sustained our ability 
to meet America's commitments for our security because our 
troops have stoically shouldered a much greater burden, but our 
troops' stoic commitment cannot reduce the growing risk.
    It took us years to get into this situation, as the 
Chairwoman noted. It will require years of stable budgets and 
increased funding to get us out of it. I urge members of this 
committee and Congress to achieve these goals:
    First, fully fund our request, which requires an increase 
to the defense budget caps.
    Second, pass a fiscal year 2018 budget in a timely manner 
to avoid yet another harmful continuing resolution.
    And, third, eliminate the threat of future sequestration 
cuts to provide a stable budgetary planning horizon.
    Stable budgets and increased funding are necessary because 
of four external factors that are impacting the Department at 
this time.
    The first force acting on us that we must recognize is 16 
years of war. When Congress approved the all-volunteer force in 
1973, our country never envisioned sending our military to war 
for more than a decade without pause or conscription. America's 
long war has placed a heavy burden on men and women in uniform 
and their families.
    And here I will note a few points on Afghanistan that were 
brought up during the opening remarks by the committee, 
recognizing there that our military posture is part of a larger 
regional context in South Asia. Our primary national interest 
and the international interest in Afghanistan is ensuring it 
does not become an ungoverned space from which attacks can 
again be launched against the United States, other nations, or 
the Afghan people. In this regard, our forces are conducting 
partnered counterterrorism operations, and we are supporting 
the NATO-led mission so, in the future, the Afghan people can 
defend themselves.
    This week, President Trump delegated to me the authority to 
manage troop numbers in Afghanistan. The delegation of this 
authority, consistent with the authority President Trump 
granted me 2 months ago for Iraq and Syria, does not at this 
time change the troop numbers for Afghanistan. Together in the 
interagency process with Secretary Tillerson's foreign policy 
guiding us as he implements the President's direction, we will 
define the way ahead, and I will set the U.S. military 
commitment consistent with the Commander in Chief's strategic 
direction and his foreign policy, as dictated by Secretary of 
State Tillerson. This ensures our Department can facilitate our 
missions and nimbly align the commitment of troops to the 
situation on the ground.
    Our overall mission in Afghanistan remains the same: to 
train, advise, and assist the Afghan forces so they can 
safeguard the Afghan people and terrorists find no haven in 
Afghanistan for attacking us or others. The revised Afghanistan 
strategy with a new approach will be presented to the President 
for his approval in the coming weeks.
    The second concurrent force acting on our Department is the 
worsening global security situation that was mentioned by all 
members of the committee in their opening remarks. And here we 
must look reality in the eye. Russia and China are seeking a 
veto authority over the economic, diplomatic, and security 
decisions of nations on their periphery. North Korea's reckless 
rhetoric and provocative actions continue, despite United 
Nations' censure and sanctions, while Iran remains the largest 
long-term challenge to Mideast stability. All the while, 
terrorist groups murder the innocent and threaten peace in many 
regions while targeting us.
    The third force that we have to deal with is adversaries 
actively contesting America's capabilities. For decades, we 
enjoyed uncontested or dominant superiority in every operating 
domain or realm. We could generally deploy our forces when we 
wanted, assemble them where we wanted, and employ them, operate 
them as we wanted. Every operating domain today, on the other 
hand, from outer space to air, sea, undersea, land, and 
cyberspace is contested.
    The fourth concurrent force that we must deal with is rapid 
technological change. Among the other forces noted thus far, 
technological change is one that necessitates new investment, 
innovative approaches, and new program starts that have been 
denied us by law when we have been forced to operate under 
continuing resolutions.
    Each of these four forces--16 years of war, the worsening 
security environment, contested operations in multiple domains, 
and the rapid pace of technological change--requires stable 
budgets and increased funding to provide for the protection of 
our citizens and for the survival of our freedoms.
    I reiterate that security and solvency are my watchwords as 
Secretary of Defense. The fundamental responsibility of our 
government is to defend the American people, providing for our 
security, and we cannot defend America and help others if our 
Nation is not both strong and solvent.
    So we in the Department of Defense owe it to the American 
public and the Congress to ensure we spend each dollar wisely. 
President Trump has nominated for Senate approval specific 
individuals who will bring proven skills to discipline our 
Department's fiscal processes and ensure that we do so.
    The first step in restoring readiness is underway thanks to 
Congress' willingness to support the administration's request 
for an additional $21 billion in resources for fiscal year 2017 
to address vital warfighting shortfalls. Your support put more 
aircraft in the air, more ships at sea, and more troops to 
training in the field.
    However, we all recognize it will take a number of years of 
higher funding delivered on time to restore readiness, to 
strengthen the military, and President Trump has requested $639 
billion top line for the fiscal year 2018 budget.
    There are five priorities here. The first is to improve 
warfighter readiness, and that was begun in 2017, filling in 
the tradeoffs made during 16 years of war, 9 years of 
continuing resolutions, and Budget Control Act caps.
    The second priority is increasing capacity and lethality, 
as noted by the chairwoman, while preparing for future 
investment, driven then by the results of the defense strategy 
that we are working on now. Our fiscal year 2018 budget request 
ensures the Nation's current nuclear deterrent will be 
sustained and supports continuation of its much-needed 
modernization process.
    The third priority is reforming how the Department does 
business. I am devoted to gaining full value from every dollar, 
and we have begun implementation of a range of reform 
initiatives directed by the 2017 National Defense Authorization 
Act, and we are on track to enter into a full agencywide 
financial statement audit, as required by statute.
    I urge Congress to support the Department's request for 
authority to conduct a 2021 Base Realignment and Closure 
process. I recognize the careful deliberation that members must 
exercise in considering it, but BRAC has been one of the most 
successful and significant efficiency programs we have. We have 
forecast that a properly focused base closure effort could 
generate $2 billion or more annually, and over a 5-year period, 
that savings would be enough to buy 300 Apache attack 
helicopters or 120 Super Hornets.
    The fourth priority in the fiscal year 2018 budget is 
keeping faith with servicemembers and their families, since 
talented people remain our most valuable asset. But we must 
balance these requirements with those of investing for other 
readiness equipment modernization efforts to ensure that our 
military is the most capable warfighting force in the world and 
that we bring our folks home alive. Investment in military 
compensation is essential.
    Our fifth priority is support for overseas contingency 
operations. The 2018 budget requests $64.6 billion focusing on 
operations in locations you are well aware of. ISIS and other 
terrorist organizations represent a clear and present danger, 
and I am encouraged, members of this committee, by the 
willingness of our allies and partners to help share the burden 
that we carry.
    Moving forward, the 2019 budget will be informed by the 
National Defense Strategy. I will then have the analytical 
rigor that I can recommend hard choices as we shape the program 
for the next 5 years. The Department will work with President 
Trump, the Congress, and this committee in particular, to 
ensure future budget requests are sustainable and provide the 
Commander in Chief with viable military options that support 
our security.
    In summation, I need the BCA caps lifted and a budget, not 
a continuing resolution, passed on time and elimination of 
future sequestration cuts so we can provide a stable and 
adequate way ahead. For those who are concerned that we are not 
asking for sufficient dollars, please consider the following: 
For 2017, we asked for $30 billion. The Congress provided $21 
billion as a supplemental. Second, this fiscal year, we have 
requested the amounts I have noted already. This is a 5-percent 
growth over what national defense was funded for in 2017. This 
request is admittedly $52 billion above the Budget Control Act 
defense caps. We have underway at this time a National Security 
Strategy that will give me the analytical rigor to come back to 
you for the fiscal year 2019 to 2023 budget request when we 
want to build up our military to confront the situation that 
the chairman and I have laid out in our written statements.
    I am keenly aware that we have the support of this 
committee, and we have over many years, but I ask for your help 
to inform your fellow Members of Congress about the reality 
facing our military and the need for Congress as a whole to 
pass a defense budget on time.
    Thank you for your strong support over many years. I pledge 
to collaborate with you.
    And, ladies and gentlemen, Chairman Dunford can give some 
military aspects of this that might give more depth to some of 
the things I have just stated.
    [The written statement of Secretary Mattis follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. Thank you, Mr. Secretary.
    General Dunford.

                      Statement of General Dunford

    General Dunford. Chairwoman Granger, Ranking Member 
Visclosky, distinguished members of the committee, it is an 
honor to join Secretary Mattis and Under Secretary Norquist in 
appearing before you today.
    I am honored to represent you men and women in uniform, and 
it is because of them I can state up front with confidence that 
we have the most capable U.S. military in the world. However, 
the competitive advantage that our military has long enjoyed is 
eroding, and a number of factors have contributed to that 
erosion, and we have discussed those in previous hearings.
    One is an extraordinarily high level of operational tempo 
since 9/11, which has accelerated the wear and tear of our 
weapons and equipment. Meanwhile, budget instability and Budget 
Control Act have forced the Department to operate with far 
fewer resources than necessary to meet the current strategy of 
record. As a consequence, we have prioritized near-term 
readiness at the expense of replacing aged equipment and 
capability development.
    We also maintain a force that consumes readiness as fast as 
we build it, and we lack sufficient capacity to meet current 
operational requirements while rebuilding and maintaining what 
when we describe as full-spectrum readiness. Of course, we are 
talking there of being able to respond to both Russia on one 
end and violent extremism on the other end and all the 
challenges that may fall between. The Secretary and the service 
chiefs have addressed that dynamic in their testimonies, and I 
fully concur with their assessments, but beyond current 
readiness, we are confronted with another significant challenge 
that I assess today to be near term. While we have been 
primarily focused on the threat of violent extremism, our 
adversaries and our potential adversaries have developed 
advanced capabilities and operational approaches. And these are 
specifically designed to limit our ability to project power, 
which we view as our source of strength of the U.S. military. 
They recognize that our ability to project power is, in fact, 
necessary to defend the homeland, advance our interests and 
meet our alliance commitments.
    And as Secretary Mattis mentioned, Russia, China and Iran 
field a wide range of cyberspace, aviation, maritime, and land 
capabilities specifically designed to limit our ability to 
deploy the force, employ the force, and sustain the force in 
combat. Russia and China have also modernized a nuclear arsenal 
while North Korea has been on a relentless path to field a 
nuclear-armed ICBM that can reach the United States.
    In just a few years, if we don't change the trajectory we 
are going to lose our qualitative and quantitative competitive 
advantage, and the consequences will be profound. It is going 
to affect our ability to deter a nuclear war, a conventional 
war, and our ability to respond if deterrence fails.
    Alternatively, we can maintain our competitive advantage 
with sustained, sufficient, and predictable funding. To that 
end, the fiscal year 2018 budget request is an essential step, 
and it builds on the fiscal year 2017 supplemental request, as 
the Secretary mentioned. However, this request alone is not 
going to fully restore our readiness or arrest the erosion of 
our competitive advantage. Doing that is going to require 
sustained investment beyond fiscal year 2018.
    As the Secretary mentioned, this took us several years to 
get into this situation we are in right now, and we assess it 
will take many years to get out of this situation. Specific 
recommendation for 2019 and beyond will be informed by the 
Secretary's forthcoming defense strategy, but we know right now 
that continued growth in the base budget of at least 3 percent 
above inflation is necessary just to maintain the relative 
competitive advantage that we have today. That is not to build 
a force that we need tomorrow, but simply to maintain the force 
that we have today.
    As we ask for your support, we recognize the responsibility 
to maintain the trust of the American taxpayer, and we take 
this responsibility seriously and will continue to eliminate 
redundancies and achieve efficiencies where possible.
    Thank you again for the opportunity to appear before you 
this morning, and, Chairwoman, more importantly, thank you for 
all you and the committee do to make sure that, as you said, 
our young men and women never find themselves in a fair fight.
    And, with that, I am prepared to take your questions.
    [The written statement of General Dunford follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. Thank you very much.
    We will now proceed to questions observing our usual 5-
minute rule, and watch your red light. I am going to forego my 
questions until the end, but just in response to your opening 
statements, we request that you reach out to Members that are 
not on this committee or the authorizing committee and make 
sure that they understand how very important this is and what 
your plan is that says we will rebuild to this at this time and 
then continue for years.
    And the question and answers, we have several members who 
are in either committee, subcommittee hearings that are hearing 
right now. So I am going to go to Ms. McCollum first because I 
know you have to leave. Mr. Calvert will be second.

                        Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Madam Chair. And Mr. Calvert and I 
will someday repay the kindness that this committee as shared 
with us.
    First, I want to thank you all for being here today and 
your service to our Nation. I have two questions I am going to 
submit for the record, but one I am going to just mention what 
it is because I am very concerned about what appears to be--
well, not appears to be--it is a growing problem with pilots 
across our services reporting symptoms of hypoxia and oxygen 
deprivation. And I have had some briefings on it, but I want to 
learn how more this committee can be helpful on that, and then 
another question for the record on the transgender policy and 
the way that is unfolding.
    But I want to state however, Mr. Secretary, I find this 
budget to be completely out of balance with the needs of the 
American people. We do--we do need a strong national defense, 
but we also must ensure that the needs of the American people 
here at home are taken care of. The proposed increase for 
defense will come at the expense of domestic investments for 
all Americans, including our men and women in uniform, their 
families, our veterans, and these are services that they all 
depend on: lifesaving medical research, support for our first 
responders, educational opportunities for future generations, 
safe roads and bridges. So this is about making smart choices.
    The Pentagon is going to have to be tougher on cutting 
waste and controlling spending, and I was pleased to hear in 
your remarks that you are on top of doing just that. And I 
couldn't agree with you more that we need to participate with 
the armed services in doing a BRAC. We need to be doing that. 
So you have my full support and count on me to work with you 
with that.

                        STRATEGY FOR AFGHANISTAN

    But there is an example of how continued investment after 
15 years in Afghanistan has left us in a stalemate. Just let me 
lay out some statistics here: 2,000 Americans have lost their 
lives. Over 20,000 have been wounded. Last year alone--last 
year alone--5,000 Afghanistan troops were killed in action, and 
the President of Afghanistan said that there is over 11,000 
foreign fighters right now operating in country. Corruption 
continues to run rampant in Afghanistan. Afghanistan remains 
foremost a NARCO state, and the cost of our involvement, the 
U.S. involvement, is $700 billion. That is a staggering amount 
to spend on a war you said yourself at the time we are not 
winning, and that is from The Washington Post article on June 
13th.
    So, Mr. Secretary, now that President Trump has fully 
delegated all the authority for troop levels on to you, will 
you be sending more troops to Afghanistan in the calendar year? 
What do you consider success? And will U.S. troops be fighting 
in Afghanistan 15 years from now?
    Thank you.
    Secretary Mattis. Congresswoman, he has not delegated all 
authority to me. He maintains strategic oversight. He is an 
actively engaged and a very hard questioner about what the 
strategy is. He has delegated the details of forces that will 
be allocated to support what he approves finally as the 
strategy, but I assure you this is not a carte blanche for me 
to come up with numbers that are going into this in 
interagency, foreign policy-led effort.
    As far as what it is that we would be doing in order to 
bring this to a better conclusion, we have got to recognize 
that we tried to leave the Afghan forces before they were fully 
mature without the sufficient air support that would allow them 
to hold the high ground, to put it in military terms. So we are 
going to have to look at a more regional strategy, one that 
takes into account Afghanistan as part of South Asia, not look 
at it in isolation. It is going to have to be one that marries 
itself to reality and the current level of support that we 
could expect out of the leadership in the Afghan forces so that 
we don't add to their responsibility without preparing them for 
success, and if that means we have to keep advisors with them a 
little longer, then 9/11 taught us the cost of not paying 
attention to this problem. And we will do so.
    For right now, we also have to work hard on the 
countercorruption effort there in order to make this government 
responsive to the needs of its people, and in that regard, that 
is why the State Department is an equal partner with me as we 
put this strategy together. We are not looking at a purely 
military strategy, and it has got to be one that leads to a 
reconciliation. All wars come to an end. Our job is to end it 
as quickly as possible without losing the very mission that we 
recognized through several administrations was worth putting 
those young Americans on the line for.
    Ms. Granger. Thank you.
    Mr. Calvert.
    Mr. Calvert. Thank you, Madam Chairwoman.

                           BUDGET CONTROL ACT

    Good morning, Secretary Mattis and General Dunford, Mr. 
Norquist. Thank you for appearing before our committee. Thank 
you for your service to our Nation. Most of us, if not all of 
us, agree and understand that the base on defense must go up 
and maybe more than the $50 billion that you are asking for.
    However, I am going to have a bipartisan moment here--maybe 
the sobering couple of days that we have had here--but the 
funding on military cannot be obtained on the back of 
nondefense discretionary spending. I think all of us here in 
this room understand that. It is not going to work. We need a 
budget agreement. We need the administration, we need the 
Senate, the House to come to a workable number that we can 
agree to get rid of the sequestration and the Budget Control 
Act and come up with realistic numbers both on the 
discretionary side and the nondiscretionary side. And we need 
to talk about the entire budget, not just discretionary 
spending.
    So I hope in the coming days that we take this seriously, 
and that is not just the House and the Senate. That does 
include the administration. So I think we all need to be 
working together on that.

                           CIVILIAN WORKFORCE

    One issue, though, that we can do within the Department of 
Defense--and you, Mr. Secretary, mentioned reforms--is 
something I know I have been harping on, and some of my friends 
up here have heard this a number of times, but from 2001 to 
2014, the Active-Duty military has shrunk by 4 percent while 
the number of civilian defense employees has grown by 15 
percent. A recent study uncovered by The Washington Post found 
that there is approximately $125 billion in bureaucratic waste 
at the DOD.
    Now I know many of my colleagues and the service chiefs 
pointed out the importance of our civilian workforce, 
especially our maintenance people and civilians who work at the 
depots. I have got to point that out here. But this report 
found excess capacity in the bureaucratic overhead, desk jobs, 
held by civilians and certainly contractors.
    Secretary Mattis, I would like to give you both the mandate 
and the authority to conduct a reduction in force that would 
place more emphasis on performance and, as you mentioned, the 
word ``lethality.'' We want to keep the best and the brightest 
of our civilian workforce while realizing billions in savings 
that could be redirected back into the Department for 
readiness, procurement, and end strength. Can you share your 
thoughts on the size of the civilian workforce within the DOD, 
and what is the overarching plan to match capability with 
requirements? Thank you.
    Secretary Mattis. Congressman Calvert, we are on track 
right now to reduce our headquarters by 30 percent. That is 
where you find much of the specific jobs that you have 
highlighted here. I would add that I have met twice now with 
the authors of the report that found the $125 billion in waste, 
as they pointed out. I do not agree with everything in the 
report. I have got real concerns about logistics. I know it 
doesn't look sexy, but I would tell you that the strength of 
our forces in deploying around the world is heavily dependent 
on those logistics elements and just-in-time civilian practices 
may not work well on a battlefield where the enemy is trying to 
disrupt your timelines in terms of undercutting our warfighting 
capability.
    But that does not take away in my mind that I need to look 
carefully at each one of the wastes that they identified and 
address it. The best way to do this, I believe, is to get the 
right people into the Pentagon, and I am drawing people from 
industry, including those who saved programs, big programs that 
were in big problems, for industry, aircraft programs. This 
way, they come in with a background of how to very analytically 
weigh the quantitative and nonquantitative factors so that we 
can have a grounding, I would say, a grounding in what the 
fundamentals are that permit us to revolutionize our business 
practices.
    I have three priorities in the Department: Strengthen our 
military; strengthen our alliances so we are not carrying the 
full burden for our security; and to reform the business 
practices. And I will get these people in. They are being 
confirmed as we speak. It is ongoing. And once I have them 
there, I am going to fully empower them along the lines you are 
talking about.
    Mr. Calvert. Thank you. Thank you.
    Ms. Granger. Mrs. Lowey.

                    INTERNATIONAL DEVELOPMENT BUDGET

    Mrs. Lowey. Thank you, Madam Chair.
    Secretary Mattis, during testimony before the Senate Armed 
Services Committee in 2013, Senator Wicker asked you if you had 
observed that the international development budget is helpful 
to us in providing national defense for our country. You 
responded, and I quote, ``If you don't fund the State 
Department full then I need to buy more ammunition ultimately. 
So I think it is a cost-benefit ratio. The more that we put 
into the State Department's diplomacy, hopefully the less we 
have to put into a military budget as we deal with the outcome 
of an apparent American withdrawal from the international 
scene,'' end quote.
    As the ranking member of both the full House Appropriations 
Committee and the State and Foreign Operations Subcommittee, I 
frankly am extremely concerned that the fiscal year 2018 budget 
requests drastic increases in defense spending at the expense 
of nondefense discretionary priorities, including foreign aid 
and international development programs.
    Mr. Secretary, do you stand by your statements about the 
importance of the foreign aid budget, and how will these 
drastic cuts to diplomacy programs impact future DOD 
expenditures?
    Secretary Mattis. Congresswoman, I believe America has two 
fundamental powers: the power of intimidation, and that is 
represented here before the committee today, America's awesome 
determination to defend ourselves; and the power of 
inspiration, which is heavily conveyed overseas by our 
Department of State. Well, they are the lead on it.
    I have not reviewed--just getting ready for these hearings 
consumed my time to understand budgets that are rather 
extensive. I have not reviewed where the cuts come to Secretary 
of State Tillerson's budget. So I do not want to speak offhand 
without having done my homework.
    But I would tell you that, as I read about those cuts, I 
called Secretary of State Tillerson. I meet with him weekly. We 
talk several times a day, and we agreed to put two of our top-
level subordinates together. We are going to look at the 
priorities for where we need to engage in the world. This 
committee also gives me development funds, and we have married 
the two. We will set the priorities together so that we get the 
best possible use of the dollars allocated to each of the 
Departments working in concert. So that is my effort to 
reinforce on that and keep us together, and I am confident this 
is also what President Trump expects us to do. So that is my 
best response to you.
    I have not reviewed their budget in any detail, ma'am. So I 
just can't speak to where the cuts are coming.
    Mrs. Lowey. Well, thank you very much.
    Madam Chair, my timer is not on.
    Ms. Granger. Out of respect, Mrs. Lowey, we don't put a 
timer on you.
    Mrs. Lowey. Oh, you are so kind. You know, Chairwoman 
Granger and I have worked together a long time, and there 
really is outstanding mutual respect.
    Well, then I will just take another minute.
    Ms. Granger. Okay.

                             CYBER SECURITY

    Mrs. Lowey. Because there is another issue that I am 
passionately concerned about, and that is cyber security. I am 
so concerned about the growing cyber threats against the United 
States' interests and assets both at home and overseas. If you 
could share with us the primary risk faced by the Department of 
Defense in the cybersecurity realm. How does the budget request 
support offense of cyber operations? And along with its 
elevation to a full unified command, as specified in the fiscal 
year 2017 NDAA, would Cyber Command benefit from ending the 
dual-hat relationship with NSA? And what steps is the 
Department taking to attract and retain these skilled 
personnel? And I have been so concerned about, once an 
individual comes to your Department and has gone through 
extensive training, we hope that we will be able to keep them 
because this is such a challenge I am aware of from the private 
sector. So thank you.
    Secretary Mattis. Just quickly, ma'am, I could not agree 
more about the growing threat. If we had been here 10 years 
ago, I would have yawned and said: I don't see the big problem.
    Right now, it is at $8 billion this year specifically 
targeted, and actually, there is a lot more going into this, 
because we are not counting in all the recruiting dollars on--
this is just targeted on the cyber capability. I would tell you 
that growing from basically $3 billion to $8 billion in 5 years 
shows the priority we are placing on it.
    As far as the Cyber Command-NSA split, we intend to make 
this a split that actually gains more unity of effort from a 
broader constituency, too, from other elements that are also 
engaged in the countercyber threat.
    And, lastly, I just say that the attracting and keeping key 
people, the educated, trained people will be very challenging. 
We recognize it because they can be offered so much more money 
on the open market than they can be offered in government 
service. We will have to fight it probably with bonuses but 
also with a call to their patriotism, which at times is the 
most compelling, and we keep a lot of young people around based 
on the fact that we need them to defend the country. But it is 
going to be a challenge, and I did not hear one word you said 
on this issue that I take issue with. I agree with you 100 
percent. It is a priority effort.
    Mrs. Lowey. Thank you.
    And, unfortunately, I have to go to another hearing, too. 
So thank you, Madam Chair.
    And I know we rest better at night knowing that you are in 
charge of the policy. Thank you.
    Ms. Granger. Chairman Rogers.

                      STATE AND FOREIGN OPERATIONS

    Mr. Rogers. Amen to that last remark. We are assured with 
you in charge.
    Let me quickly and briefly take up the matter that Mr. 
Calvert mentioned and also Mrs. Lowey on the funding for the 
Department of State. We had Secretary Tillerson here yesterday, 
and he agreed with the same description of your relationship 
that you have mentioned here today, and that is great.
    But the proposed budget for State and foreign operations 
has rather draconian cuts. For example, economic assistance to 
Egypt is cut by a third; Ukraine by half; Pakistan by a third; 
Iraq by 14 percent; Afghanistan by 9 percent; and the like. 
That is economic assistance, not to mention the military each 
side. Those are rather severe, would you not agree?
    Secretary Mattis. I agree, sir.
    Mr. Rogers. Yes. What impact would those kinds of cuts have 
on your capability to do what you need to do in these various 
countries?
    Secretary Mattis. Well, in terms of a direct military 
impact, if I am kept funded, then, obviously, I can keep the 
military--the purely military--effort ongoing, and that 
includes the support for protection of our embassies, which is 
a constant priority for us.
    But I think that I would have to look--again, I am not 
trying to get out of answering the question, Congressman, but I 
would have to look in detail about what is the capability that 
they are losing, what is it, and then we would have to do an 
analysis of what that does.
    The concern I would have is sometimes these issues do not 
relate easily to a quantitative analysis, that there is 
nonquantitative aspects to our relationship with the world that 
are more difficult to come up with. They are easier to see, 
frankly, in the rearview mirror. That is when you see what has 
happened. But I just don't want to say something right now, 
sir, that I can't back up with some kind of homework that I 
have done already so I can give you some authoritative answers.
    Mr. Rogers. When you have time to reflect on that, we would 
like to hear from you.
    Secretary Mattis. Okay, sir.

                            BUDGETARY NUMBER

    Mr. Rogers. I have been dealing with these CRs and 
omnibuses now for many years. And we are headed straight into 
that rabbit patch again very quickly. I don't recollect a time 
later in the season that we have gone as far as we have this 
time. Here it is almost July 4th, and we are nowhere near 
coming up with a budgetary number that we can sit down and 
appropriate to on Appropriations Committee.
    So I want to encourage you to talk with the White House 
people, especially OMB, and see if we can negotiate a number 
that we can appropriate to here on this subcommittee and the 
other 11. Otherwise, we are headed straight into a CR, with all 
that contains, or an omnibus, where we don't get what we need 
to get in defense.
    So that is the dilemma that we are in, but it also is the 
dilemma that you are in. We need desperately a number that both 
sides have agreed to, and I am here to tell you that I think 
that is possible, but it does take some elbow work, and it 
takes some grease work, and it takes some effort.
    But on this subcommittee, we understand completely your 
need for help, and we are there to give it to you. But our 
hands are tied until we get that number that we can all work 
under. So let me encourage you to work your magic with the 
budgeteers at the OMB and other places.
    We appreciate your service, all of you. Thank you so much 
for dedicating your lives to our country. And we feel safe with 
you in the positions you are in.
    I yield.
    Ms. Granger. Mr. Visclosky.

                         NUCLEAR POSTURE REVIEW

    Mr. Visclosky. Thank you very much.
    I would just point out to the panel that my understanding 
is the deadline for the Department to have auditable results is 
the end of fiscal year 2017, which is fast approaching. I 
understand from the Under Secretary that that goal will 
absolutely be met, and I am counting on him.
    What I would suggest, Mr. Secretary, is, if we can follow 
up with your office, as you know, I have an intense interest on 
the Nuclear Posture Review, the modernization program, and I 
appreciate your very thoughtful conversation in February. Too 
often I think people have an instinctive response that we need 
a triad forever. You suggested that you want to take a very 
serious look as to what it should be going forward.
    I think when people think about the nuclear posture, they 
also think about nonproliferation, many of the programs being 
at the Department of Energy, but the third element, from my 
perspective, are those nonnuclear events or weapons that 
potentially trigger a nuclear event. Our country, others are 
working on hypersonic weapons. So we have unstable regimes that 
what will trigger their nuclear response, absent a nuclear 
attack of our own?
    And I would appreciate sitting down with whoever you think 
is appropriate from the Department so that I have a clearer 
understanding and perhaps the chair and others on the 
subcommittee, how the Department works through preventing that 
from happening to the best of our Nation's ability, where it is 
not toe to toe, somebody launches first, but there is some 
event, there is that new weapons system that is just kinetic, 
nonnuclear, that triggers that nuclear event. I think it is a 
very serious issue, and I would like to have that conversation.
    Secretary Mattis. I will find the right people to bring up, 
sir. I understand the nature of your question, though, and I 
would just say that I had not put those in my thinking into the 
Nuclear Posture Review. So let me reconsider the guidance I 
have given them. We are working, obviously, the triad: should 
it be there, which weapon system should constitute each leg, 
and the nonproliferation. I need to look at this myself. After 
I get my head wrapped around it right, I will assign some 
people to come up and brief you and get your thoughts on this.
    Mr. Visclosky. I appreciate it, because I do think you have 
been very thoughtful on this.
    Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Cole.

                       NATIONAL SECURITY STRATEGY

    Mr. Cole. Thank you, Madam Chairman.
    Mr. Secretary and General Dunford, and Mr. Norquist, it is 
good to have all three of you here. I really thank you for your 
service. And, quite frankly, it speaks well of the President 
that you all were nominated in your respective positions and 
got such strong bipartisan support when the Senate considered 
you. So I appreciate that.
    Second, I couldn't help but laugh, Mr. Secretary, when I 
read your now famous remark about your sleep habits. And I 
thought, well, all of us sleep a lot better right now if you 
happen to be an American thanks to you. So we are very grateful 
for that.
    I want to echo a little bit of what has been said up here 
several times, because I don't think it can be said often 
enough. When we look at the approps process, and I focus a lot 
on that, at the end of the day, there are only one or two 
outcomes this year. We are either going to have a continuing 
resolution or we are going to have a negotiated bipartisan 
agreement. And as you have made crystal clear, the latter is 
much preferable to the former. And so I really want to 
emphasize that where my colleagues are concerned and, quite 
frankly, associate myself with some of my Democratic 
colleagues' remarks: If we don't get to a good number in the 
nondefense area, we will inevitably end up doing something that 
nobody on either side of the aisle wants to do, and that is 
present you with the kind of dilemma that you have outlined in 
front of you.
    I think, at the end of this day, this committee will give 
you at least what you ask and probably more. But, again, if we 
don't get the process right, none of that will matter. You 
know, they can authorize everything all day long. Until we 
actually get the numbers where we can appropriate, things don't 
happen.
    I do have a question. I know you are in the last part of 
really working on the National Security Strategy, and we look 
forward with a great deal of anticipation to looking at that. 
But I am curious if you believe--and this may be a little out 
of your lane. If you don't want to comment on it, that is 
perfectly fine with me. But some of us up here have been 
concerned for a long time about the lack of a new Authorization 
for Use of Force. We are really operating off things that go 
back to 2001, 2002, 2003. We are fighting a different enemy in 
a different place than we envisioned at that time.
    Would it be helpful for Congress to explicitly have this 
sort of debate and come to these sorts of conclusions, 
obviously, with the guidance from the administration, input 
from the administration and experts, or is that just a waste of 
time?
    Secretary Mattis. Sir, I don't believe it is a waste of 
time at all. The Chairman and I have talked at length about 
this in our private conversations, and the Congress making a 
statement like that would hearten our own troops. It would 
reassure our allies around the world. It would put America out 
front in terms of a united--or the consensus of the Congress 
that this is where you think we have to be committed.
    I believe it is much preferable to leaving it to be argued 
about in bits and pieces over specific issues or troop strength 
or something like this. And the Chairman, I could have him 
comment, too, but he believes it sends a real statement, sir.
    Mr. Cole. Mr. Chairman.
    General Dunford. Congressman, that is exactly the 
conversation we had. I think it would send a loud and 
unmistakable message to our young men and women that are 
deployed that the people at home in the form of the Congress 
support what they are doing. And it is a consensus about what 
they are doing, and what they are doing is important.
    Mr. Cole. Well, thank you very much for that because I feel 
exactly the same way. I think it is a constitutional issue as 
well. And I think it means a lot when people of your stature 
tell us that it matters to the men and women that we have put 
in harm's way to do difficult things for us.
    So, Madam Chairman, I would hope, while we all work hard, 
and I know we will, on getting the appropriate resources so 
that we have at least the administration's request and perhaps 
some more, that we also push our respective leadership on both 
sides of the aisle to stop avoiding a debate that needs to 
happen.
    You know, I have actually worked with my friend, Mr. 
McGovern from Massachusetts, we probably don't see eye to eye 
on the issue, but we certainly see eye to eye on the importance 
of a resolution and a congressional statement. So I think that 
is part of our job ahead of us, too. It is not just to give you 
the resources, which we certainly need to do, but to make sure 
that you have got the clear lines of authority and the 
unequivocal support of the American people as you go about 
carrying out the mission we have asked you to do.
    I am not going to take the rest of my time. I yield back. 
Thank you.
    Ms. Granger. I certainly agree with you Mr. Cole.
    Mr. Ryan.

                         U.S. ROLE IN THE WORLD

    Mr. Ryan. Thank you, Madam Chair. I appreciate it.
    I want to make a couple of points, and then have a question 
with regard to North Korea. One is we just got back from a 
trip: We were in Bahrain. We were in Norway. We were in 
Germany. We were in Spain. And as a guy from Youngstown, Ohio, 
it always inspires me to see the footprint of the young men and 
women who are under your command, that they take their 
responsibilities so very seriously. They are so well trained.
    The point I want to make is that I don't think we do a good 
enough job of letting the American people know how important 
our role in the world is. When you are in the Persian Gulf, 
when you are in the Middle East, when you are in Europe, you 
are thinking about what we are doing in Eastern Europe with 
NATO, the American people just don't quite understand, I think, 
the prominence and the responsibilities that we carry. And part 
of that is losing the World War II generation, the people that 
were engaged in war and all the rest. So all of us--just to 
make a point because I think all of us need to think about, as 
we are having these discussions, how we communicate that to the 
average citizen that is in Gary, Indiana, or Youngstown, Ohio, 
how important it is for us to be engaged in the world, and you 
are on the front lines of that. So I wanted to make that point.

                              NORTH KOREA

    Secondly, I would love for either Secretary Mattis or 
General Dunford to talk to us about North Korea generally. But, 
in particular, what does it look like should we have to make a 
decision in the next 12 to 18 months, if you look at the 
trajectory of where North Korea is going? We have got to come 
to some determination here about what we are going to do, and 
whether or not we are okay with them potentially getting the 
capabilities to be able to launch some attack, not just in U.S. 
interests, but potentially strike the United States.
    I think it would be instructive for the American people to 
know, kind of not giving away state secrets or getting 
classified, but just what that would look like if there is a 
back and forth between, whether it is the United States or an 
ally that we have in the region, and North Korea, what happens 
in South Korea, what happens in Seoul, what happens to Japan? 
Because we hear a lot: Well, just bomb them; just take it out, 
take out their capabilities.
    Can you just illustrate for us what that engagement looks 
like?
    Secretary Mattis. I can, Congressman Ryan. I would suggest 
that we will win. It will be a war more serious in terms of 
human suffering than anything we have seen since 1953. It will 
involve the massive shelling of an ally's capital, which is one 
of the most densely packed cities on Earth. It would be a war 
that fundamentally we don't want. And we would have our allies 
and us; we would win at great cost.
    This is why in one of the most--the highest priority 
efforts that President Trump has directed, he has brought--
invited the President of China to Mar-a-Lago. There were only 
two issues brought up in Mar-a-Lago, and this was one of them. 
It was that high a priority.
    Secretary Tillerson has this as a priority. We are working 
through China to ensure that China understands that North Korea 
is today a strategic burden for them; it is not a strategic 
asset. And China has actually responded in some ways 
positively. You saw them vote last week for additional 
sanctions on North Korea, for example. And I think that we are 
exhausting all possible diplomatic efforts in this regard.
    Next week, Secretary Tillerson and I will meet with our 
opposite members from Beijing who are flying here to Washington 
over several issues, but this one will loom large. So it would 
be a serious--it would be a catastrophic war, especially for 
innocent people in some of our allied countries, to include 
Japan most likely, but it is also one that we are doing 
everything possible not to have happen and resolve this through 
diplomatic means.

                         ADDITIVE MANUFACTURING

    Mr. Ryan. I appreciate that. Thank you.
    Just, lastly, one point. When we were in Kuwait a few weeks 
back, we went to this small little tent where they had 3D 
printers, and the Marine Corps was printing parts for different 
things that they needed. I want to engage the Department in the 
future to make sure that you have the resources that you need. 
This could be a tremendous capability. But one of the aspects 
is they almost need like a depot for how to get these parts, 
get the kind of design, a design depot, to be able to download 
these parts in places like Kuwait to really, I think, save us a 
lot of money, Madam Chair. And I know we are putting money into 
one of President Obama's initiatives for manufacturing 
innovation institutes, one of which is additive manufacturing, 
a great capability where you don't have to order a thousand 
parts of this, that or the other; you can actually print one in 
the field. And this is a way for us to merge modern technology, 
to give the warfighter the capabilities that they need. So I 
just wanted to give you the heads-up. We are going to continue 
to work on that and I think save the taxpayer a heck of a lot 
of money in the process. Thank you so much.
    Ms. Granger. Mrs. Roby.

                 STRATEGIC DECISIONS AND DEFENSE BUDGET

    Mrs. Roby. Thank you all for being here today. We have 
learned a lot, and we appreciate your service to our country 
and that of your families. So, please, pass that along as well.
    Secretary Mattis, throughout much of your military career, 
it was the National Security Strategy of our country to have 
the ability to fight and win two major conflicts 
simultaneously. And over time, that strategy has changed to a 
strategy of being able to win one significant conflict in one 
theater while having the ability to hold in another until 
additional resources could be brought to the fight.
    Accordingly, Congress has appropriated the necessary 
resources for force structure, procurement, and research and 
development to reach those strategic objectives. Today, with 
the rising threats all over the world, many of which we have 
already discussed here today, I am concerned that, should a 
conflict break out in one region, that our adversaries in other 
regions may use that as an opportunity to take aggressive 
military action.
    At the end of the day, with the President's budget we are 
discussing today, how capable will we be to simultaneously 
fight two major conflicts should that become necessary?
    Secretary Mattis. Implementing this budget, Congresswoman, 
will enable us to be better prepared for this. That is not to 
say strategic decisions wouldn't have to be made once engaged. 
And we do assume, however, that--we agree with your thesis 
that, in the event we are doing something in one place, the 
potential for somebody to take advantage of it is a given. So 
we are completely aligned with you on that.
    You can see us right now engaged in Afghanistan, not in a 
heavy way. The Afghan Army is carrying the bulk of the 
fighting, but it is still a significant draw on us. You see us 
engaged in the Middle East in the same way. And we are doing an 
awful lot of this by, with, and through allies, but your 
question go to the heart of, what if we have to do most of it? 
And this budget is designed to better prepare us, but it is 
going to take years to recover from all the damage, ma'am.
    Mrs. Roby. Thank you.
    General Dunford. Congresswoman, I would just add, as 
directed last year, we did a simultaneity drill in the 
Department so we could understand what really it would take to 
do two MCOs. We certainly wouldn't want to have that 
conversation in this venue. But we would be happy to share the 
details of that with you. We have done the analytic work 
necessary to really be able to talk about the capabilities and 
capacity implications of being able to fight in two places at 
once. And that will very much inform the Secretary's strategy 
review that is ongoing right now. We will bring that work into 
the Secretary's strategy review.

                      ARMY AVIATION AND READINESS

    Mrs. Roby. Well, I would like that. I think we could 
probably all benefit from having that information in front of 
us.
    Turning to readiness, specifically Army aviation. Of 
course, our military doesn't go many places without Army 
aviators. And my concern is that those aviation assets are 
being stretched pretty thin. Given the global high demand for 
Army aviation capabilities, I am interested in your thoughts as 
it relates to increasing readiness.
    It is my understanding that we have a shortage of pilots. I 
know we are short on Apache helicopters, and programs like the 
Light Utility Helicopter look to be underfunded. So what are 
your thoughts on increasing Army aviation readiness?
    Secretary Mattis. Since near the end of World War II, we 
have dominated the skies overhead, almost to the point that we 
could start taking it for granted, which would be a disaster if 
we did that. It takes a lot of commitment, sacrifice over many 
years. There is, for Army aviation alone, over $3 billion in 
investment. This is building more Black Hawks, Apaches, 
Chinooks, that sort of thing.
    The Chief of Staff of the Air Force and the Chief of Naval 
Operations, Commandant of the Marine Corps are all working with 
private industry now because we are not creating enough pilots 
in this environment right now to serve either the commercial or 
security interests, service interests. So we are going to have 
to deal with this as a national level problem. And, you know, 
we have responded to this sort of thing in the past. We have to 
dust off the old thinking and find some new ideas in there. But 
we are working it right now. We just had the meeting with 
industry here last month with, again, General Goldfein, our 
Chief of Staff of the Air Force, leading it, but all the 
service chiefs are engaged.
    Mrs. Roby. Okay. Thank you.
    I yield back.
    Ms. Granger. Thank you.
    Ms. Kaptur.
    Mr. Ruppersberger. I think I was next.
    Ms. Granger. Oh. Mr. Ruppersberger. Pardon me.

                             SEQUESTRATION

    Mr. Ruppersberger. Thank you very much. First, Secretary 
Mattis, or General Mattis, I respect you and worked with you as 
a General, General Dunford and also Mr. Norquist. You know, you 
have gotten a lot of accolades, and you deserve it because of 
who you are and you earned the position. We all talk about 
sleeping at night, but these are serious times for our country.
    I want to quote you, because I am going to make more of a 
statement, I think, to this committee and to our leadership on 
the committee. You have said that Congress has failed to show 
leadership when it comes to funding the Pentagon, and I agree 
with you on that comment. For years now, since sequestration 
has passed, we have had four-stars coming in and telling us how 
it makes it weaker and weaker. And, yet, we really have not 
done what we need to do to repeal it, both Democrats and 
Republicans.
    Times have changed since sequestration was passed; the 
world has gotten a lot more dangerous, as you have testified. 
By the way, when you are one of the last ones to ask questions, 
you know, a lot of these issues, North Korea and all, have come 
up. So I am going to maybe make a statement within my time.
    And I want to say this to our committee: A lot of us have 
worked together for years, and I respect each and every one of 
you on the Republican and Democratic side. But there comes a 
time when we have to do something, and that is this issue of 
sequestration. As dangerous as we are and when every single 
Army, Navy, Air Force, Marine talks about sequestration, and, 
yet, we have not repealed this at these very, very dangerous 
times. And I think we have to show some action. I think we 
can't be concerned about Republican or Democrat or whether we 
are going to break the Hastert rule. I mean, all of these 
things are just political, and yet we have an obligation on 
this committee, Defense Appropriations, to give you the 
resources. And if sequestration is still there because of 
idealistic political reasons, whatever that is, or we are not 
going to give this up if we don't get something else, that is 
wrong.
    So I am asking our leadership and each and every one of us 
on this committee to really sit down and work a strategy, 
Republican and Democratic strategy. Now, we are very upset 
about what happened yesterday. Maybe that is going to be an 
impetus for us to do something, because we haven't done it, and 
it is about time we do it.
    And my question was going to be, and you have already 
repeated it: Do you agree with what I said that we need to 
repeal sequestration?
    Secretary Mattis. I do. And I agree it is nonpartisan. 
Secretary Panetta was my boss a few years ago, and he was in a 
Democrat administration. He was a Democrat. And I don't see 
this as a partisan issue. This is an American issue.
    Mr. Ruppersberger. Whether it is the Speaker or the leader, 
whatever that is, let's pull together this committee. We know 
each other, and we trust each other. I have respect for every 
single member on this committee, and I know we all feel this 
way. Let's just get it done. I am an Under Armour guy because 
of Baltimore, but there is the Nike phrase, ``Just Do It.'' And 
I think it is about time we really just sit down and take care 
of that strategy.

                              NORTH KOREA

    The other issue I have--and we have talked North Korea, and 
I don't want you to repeat yourself--one thing that hasn't come 
up. I found the subject matter that hasn't come up, and that is 
the issue of hypersonic missiles. We know that Russia and China 
have developed hypersonic missiles, which are so fast that they 
could put, in my opinion, our ships, our aircraft carriers, all 
at risk. And I am not sure where the Navy is at that point, and 
if it is classified, I don't want to get into it. But I think 
this is something that has to be focused on and very quickly.

                             CYBER SECURITY

    You know, we talked about cyber. We are dealing with those 
issues and all the things that need to be done. But when our 
aircraft carriers, which are so awesome--look at how many 
people we have, look at how we use them, and yet they could be 
at risk. And I want to make sure that we look at the funding 
and the focus, and that you can report back to this committee 
where we are on our defense and hypersonic missiles.
    Secretary Mattis. Will do, Congressman. And coming into the 
job, I have been briefed by holdovers from the last 
administration and new people coming in now, and your view of 
the hypersonic threat, the need for defenses, but also to 
ensure we have hypersonic technology at cutting edge is agreed 
upon. There is no pushback on it that I found. We have got to 
move out--we will come back to you showing----
    Mr. Ruppersberger. Most people don't know about the issue, 
but I would like this, at least personally for me, but I think 
the committee, too, wants to hear about hypersonic. 
    Thank you, I yield back.
    Ms. Granger. Thank you. Mr. Carter.

                            COMBAT VEHICLES

    Mr. Carter. Thank you, Madam Chairman.
    And thank all three of you for being here. You are very 
important to the future of our Nation and we appreciate the 
good work that you do. And I would like to associate myself 
with everyone who has discussed the challenges we have trying 
to put together what we need to do without a number that we 
need to work with. And anyway you could help us get that fixed 
is a great idea.
    My world is all about the guys on the ground. I represent 
Fort Hood. I have got kind of a combination question I would 
like to ask. First and foremost, Secretary Mattis, they are 
obviously investing very heavily in upgrading many of the 
combat vehicles. While these upgrades certainly represent 
increased speed, lethality, and protection, they cannot be 
characterized as significant leaps forward in capability. As 
you are aware, our competitors' combat vehicles are approaching 
parity with the Army. It seems readily apparent that we should 
prioritize investing heavily to speed up the development of the 
next generation of combat vehicles, yet funding levels for this 
effort has not increased over the last several years.

                        NATIONAL TRAINING CENTER

    Can you share with the committee your sense of our ground 
combat vehicles and what additional resources you need from 
this committee to adequately close the capability gap? And I 
will include with that that I would like to hear an assessment 
of where we are--of what are the training changes we have to 
make at the National Training Center to go to high-end 
warfighting versus the warfighting we have been engaged in for 
16 years almost.
    So where are we on readiness of our troops, training, and 
the vehicles that we are sending them to war in? And I would 
love to hear from both of you.
    Secretary Mattis. Yes, sir. And we probably owe you a more 
detailed explanation of the program to get us where we need to 
go, because we are not there today is the bottom line. This is 
somewhat a result of the funding issues and the distraction of 
war and the combination of those factors. But we have programs 
we have put together. The Joint Lightweight Tactical Vehicle is 
being fielded now to the first Army and Marine units. It is a 
joint program to get full economies of scale to spend the money 
wisely. But it is a much broader issue, as you know, with 
different types of vehicles, from armored vehicles to transport 
vehicles, and the various levels--types of vehicles that we 
need to get.
    In terms of the training challenges, I will hit that and 
then turn the two questions to The Chairman. There, what we 
have to do is adapt to the changing character of war, and Army 
battalions in the field are now going to have assets that an 
Army battalion didn't have 10 years ago, for example, 
surveillance assets, drones. We also have an enemy drone 
problem, where we don't have the right defenses. Every Army 
battalion headquartered out there is probably going to come 
under cyber attack. That didn't happen 10, 20 years ago.
    So these new domains, these new technologies highlight the 
need to avoid a continuing resolution. As you know, under a 
continuing resolution, I can do zero about new starts to 
address the changing character of war. Let me turn over to the 
Chairman.
    General Dunford. Congressman, you bring up a really 
important point, and I alluded to it in my opening statement, 
and that is, I think it is fair to say that the majority of our 
investment--and if you look at the Army's investment in 2017, 
even in the supplemental--it was all to maintain the current 
capability we have. So we made marginal improvements in the 
capability protection system of the current tanks, for example, 
but we don't necessarily have as much money in modernizing our 
armored capability as we would want to have.
    And that really is, as the Secretary lays it out, I mean 
2018 hits readiness, to include for vehicles. And what we 
really need to start thinking about, 2019 and beyond, is 
tomorrow. And we have, for the last 7 or 8 years, one of the 
most significant challenges of the budget situation, we have 
discussed here today is we are always dealing with the current 
challenges, always dealing with today's readiness, always 
trying to get today's equipment up to speed.
    And now we are at the point where there is actually a 
distinction without a difference between procurement and 
current readiness because, in many cases, either units don't 
have the full complement of the vehicles they have or we are 
starting to field vehicles that don't have a competitive 
advantage or the competitive advantage, as you suggest, is 
reducing. So I think as we look to 2019 and beyond, you know 
modernizing our ground combat vehicles is something that 
probably hasn't moved at a pace satisfactory to us.
    With regard to training, though, what General Milley has 
identified as now a requirement, I think your word, 
Congressman, is all of his brigades will go through the 
National Training Center. That is exactly to address the 
dynamic that you spoke about to make sure that we are not only 
prepared for the current deployments in dealing with violent 
extremism, but we are full-spectrum ready and that the Army 
units at Fort Hood, the mechanized units at Fort Hood actually 
can conduct the full range of mission-essential tasks that 
those units have been assigned. And he won't certify those 
brigades as being ready unless they actually have done an NTC 
rotation. And in this budget in 2018, in the readiness piece, 
we are addressing increased numbers of NTC rotations to enhance 
the readiness problem you talked about.
    So I think we have a good-news story on maintenance and 
readiness. I think we have a good-news story on training. And I 
think the challenge that remains before us to address next year 
and years after is going to be the modernization challenge 
because I'm not satisfied that we are actually doing all we can 
to build the Army of tomorrow.
    Mr. Carter. Thank you. From what little I have been able to 
figure out, I agree with that assessment and I am worried about 
it and concerned about it. And I want to make sure we all know 
that, when the smoke clears, it takes a man with a gun to stop 
a man with a gun. In fact, we learned that yesterday.
    So I wish you well. And I will be raising this issue 
constantly. Thank you.
    I yield back.
    Ms. Granger. Ms. Kaptur.

                            INDUSTRIAL BASE

    Ms. Kaptur. Thank you.
    Gentlemen, you give great example to the young generation 
of this country. I thank you for your patriotic service. I am 
going to read some questions that I will be submitting to the 
record, and then I will ask each of you two questions that I 
would like you to verbally respond to. I don't expect you to 
answer the first issues I am going to talk about.
    First of all, I have deep concerns about our industrial 
base issues, and your testimony does reference that to some 
extent. I would just like to state the importance of dual 
sourcing of certain technologies, such as small gas turbine 
engines. I have concern about that.
    Number two, stresses on our U.S. steel industry due to the 
severe dumping by China, South Korea and Russia.
    And, thirdly, real threats to our single-source domestic 
beryllium capability. I have a letter, actually, on that, Mr. 
Secretary, that I will give you.
    But thank you for mentioning the defense industrial base. 
Thanks for being aware of it and, in view of a lot of things 
that have happened with the global economy, why we need to pay 
attention to it.
    Number two, I place a very high priority on U.S. energy 
independence. We are about 90 percent of the way there. I 
appreciate what DOD has been doing, particularly Navy and 
Marine Corps, with significant leadership, both in installation 
and operational energy efficiency, to move us toward 
independence. And I will ask you, for the record, to summarize 
the Department's role in achieving DOD energy independence but 
also in terms of some of your technological investments, how 
you are helping America reach that broader goal of energy 
independence.
    My two questions are: General Dunford, three-quarters of a 
century after World War II, could you summarize for the 
American people, particularly the younger generation, the 
nature of the Russian threat and why the European Reassurance 
Initiative is so vital to liberty and affirmation of our 
Article 5 commitment.
    Secretary Mattis, the question I wish to ask you is: I 
really particularly gravitated to a sentence in your testimony 
having to do with the stresses on our troops and the prolonged 
wars in which we are involved. And I can't seem to put my 
finger on the sentence on that, but it was right at the 
beginning. Oh, here: ``Our country never envisioned sending our 
military to war for more than a decade without pause or 
conscription.'' The American people ought to reread that 
sentence.

                            HEALTH BENEFITS

    But my question really is, Mr. Secretary, the GAO released 
a study on May 16, reporting that of the 91,764 servicemembers 
who were separated for misconduct between 2011 and 2015, had 
later been diagnosed with PTSD or TBI, associated with that 
misconduct, GAO found many, many of them, at least 23 percent, 
were made ineligible for health benefits from the VA. I would 
like to just express to you that I have spent a long time 
trying to get DOD to discharge to care. I have failed in that, 
though it is getting a little bit better. And I would ask you 
if you could help us to review the separation policies of the 
U.S. military in all the branches to assure that servicemembers 
who need care will receive it. I will also place on the record 
from a 10-year study we have been conducting with the Ohio 
Guard and Case Western Reserve University and University of 
Michigan and University of Toledo, over 3,000 DNA samples from 
separated servicemembers who voluntarily offered their DNA.
    One of the most shocking findings of what we have been 
investigating has been that the most significant predictor of a 
servicemember contracting PTSD is not military service but 
violence experienced by that individual prior to military 
service which the military service complicates. That is a 
really important finding and one that should be paid attention 
to on enlistment. And I just thought I would place it on the 
record.
    So, General Dunford, if you could kindly respond on the 
Russia question and, Secretary Mattis, on the ability of your 
Department to discharge to care.
    General Dunford. Congressman, first, thanks.
    And on the Russia question, interesting, we rewrote our 
National Military Strategy last year, and we took some time to 
say, what is the source of strength of the United States? And 
not a surprise to the committee, we went back and we said: 
Since World War II, the strategic source of strength to the 
United States is the network of allies and partners that we 
have built up since World War II. In other words, the friends 
that we have that we can call upon for a wide range of common 
challenges is what is critical.
    What Russia really is going about doing each and every day 
is undermining the credibility of our alliance commitment to 
NATO and our ability to respond to NATO. That is what they are 
doing. That is the most insidious thing that Russia is doing. 
So why is it important that we have the European Reassurance 
Initiative?
    First of all, we had an expression in the past that virtual 
presence is actual absence. It has to be a physical 
manifestation of our commitment, and the European Reassurance 
Initiative, which this year is $4.8 billion, gives us three 
brigade combat teams on a continuous basis in Europe. It gives 
us additional preposition equipment.
    Most importantly, what it does is it assures our allies 
that we actually are committed, and it deters Russia because 
they know we have the ability to respond, and they also know 
that we are committed, which is the linkage between the 
European Reassurance Initiative and the challenge that we face 
from Russia.
    But in addition to what they do to undermine the 
credibility of our alliances, of course, Russia possesses the 
nuclear weapons in the thousands that can destroy our Nation. 
They also have significant cyber capabilities, and they have 
been using those on a routine basis against our networks, and 
we have seen that. So there is a full range of challenges. And 
I would just say that, in terms of capability as well as 
behavior, if you look at what Russia has done since the Crimea 
in the Ukraine and testing Georgia a few years ago, both their 
behavior and their capabilities would tell me that, of all the 
nations in the world that could pose an existential threat to 
our Nation and that could undermine the credibility of our 
alliances and the international order that we have had and 
enjoyed since World War II, it would be Russia.
    Ms. Granger. Before we go further in this--Ms. Kaptur, you 
used the entire 5 minutes for your question, and we have a hard 
stop at 11:50. So I am going to ask those on our panel today to 
answer that in writing or some meeting of Ms. Kaptur, because 
we have others that are waiting. Thank you.
    Mr. Aderholt.

                              NORTH KOREA

    Mr. Aderholt. Thank you.
    Secretary Mattis, Chairman Dunford, Under Secretary 
Norquist, welcome, glad to have you here today. And we 
appreciate your service to our Nation and know that you will 
pass along that gratitude to the men and women who will work 
throughout the Department of Defense.
    I want to follow up on a question that my colleague, Mr. 
Ryan, had asked. If you go back to Operation Iraqi Freedom, the 
first 3 days from March 19, 20, and 21 of 2003, 1,700 sorties 
were launched, including 504 cruise missile strikes.
    We all appreciate the candor that a war with North Korea 
would pose a severe threat to Seoul and, of course, to a lot of 
most South Korea. However, the concern is that this may be 
interpreted by North Korea to mean that we are going to allow 
them to continue to build weapons that are capable of dropping 
nuclear bombs here on the U.S. territory. If North Korea fails 
to curb the program and the President were to decide to strike, 
my question is, are we assembling the resources that we need to 
cripple the North Korean military in the first 72 hours?
    Secretary Mattis. Our intent, if we had an indicator and 
warning of war, would be to assemble those resources, sir.
    Mr. Aderholt. What do you need in order to do that to 
prevent just mass civilian casualties?
    Secretary Mattis. The best thing, sir, would be to have 
such a strong military and diplomatic front, including 
international, that we force Korea to divest of its nuclear 
program, a policy that both the United States and China share, 
by the way, of a denuclearized peninsula. So that is the most 
important thing, is to make certain we don't get to that point.
    Mr. Aderholt. But you have--currently, do you have the 
capabilities to assemble the resources that you would need to 
cripple North Korea within that first 72 hours?
    Secretary Mattis. Sir, due to the nature of the threat, the 
dug-in nature of the artillery and missile--or our rocket 
positions within range of Seoul, there is probably an awful lot 
of damage that is going to be done no matter how much 
capability we bring to the theater.

                      CYBER ATTACKS ON POWER GRIDS

    Mr. Aderholt. Okay. A report was released recently that 
highlighted the potential for adversaries to conduct cyber 
attacks on power grids. The article referenced the attack on 
Ukraine's power grid back in December of 2016. I know this may 
be classified, but is this area of cybersecurity an area that 
you are looking at?
    Secretary Mattis. It is an active, very active, area of 
security we are looking at, sir, in conjunction with Homeland 
Security--Department of Homeland Security and the Department of 
Energy and the FBI. And it is active. It is ongoing. We keep a 
very close eye on it, including this week.
    Mr. Aderholt. Chairman Dunford, do you have any comments on 
either one of those issues?
    General Dunford. The only thing I would say, Congressman, 
is just go through the priorities and talk about what we do 
with regard to those challenges to our power grid and so forth. 
The number one priority we have in the Department is to defend 
our own DOD information technology network, and then we work in 
collaboration with the private and public sector to make sure 
that we share when there is a vulnerability and the solutions 
to those vulnerabilities.
    Then we play the away game, if you will, and prepare to 
deal with those threats that are outside the continental United 
States. So, when the Secretary spoke about the collaboration 
with the FBI and Homeland Security and so forth, the actual 
protection of the power grid in the United States is not 
something that we are responsible for but something we support.
    Again, when the United States CYBERCOM identifies 
vulnerabilities or solutions to address those vulnerabilities, 
there is a collaboration that takes place. But what we really 
focus on is our own network and then making sure we have cyber 
capabilities to take the fight to the enemy.
    Mr. Aderholt. Thank you.
    Ms. Granger. Thank you.
    Mr. Cuellar.

                 REGIONAL STRATEGY AND AERIAL RESOURCES

    Mr. Cuellar. Thank you, Madam Chairman.
    I also want to say thank you to all three of you for your 
service. I also join my colleagues that we need to get to a 
number in a bipartisan way, because we have to find that 
balance between the defense and the nondefense spending, and I 
hope we can do this. Otherwise, if we going to CR, I think it 
is not good for anybody.
    I have two questions. Earlier you all had discussed the 
importance of a regional strategy and aerial resources to the 
maintaining of the high ground on the operations of 
Afghanistan.
    General Dunford, I know that, in February, you were in 
Azerbaijan meeting with your counterpart of this year, and I 
think we know it is a--Azerbaijan is an ally. I think we know 
the role that they played during the Afghanistan conflict 
there. Would you all give us--would you give me your thoughts 
on elevating maybe the facility that you have there in 
Azerbaijan or maybe some other stable regional ally there, 
because we know that the Middle East is complicated, and 
sometimes our ally provides complicated situations to us. That 
is question number one.

                   READINESS OF FLIGHT TRAINING UNITS

    Number two, in light of the discussion of readiness, can 
you also discuss the importance of maintenance in supporting 
force readiness? Specifically, the readiness of flight training 
units have suffered in Texas because of an incomplete approach 
to the engine maintenance, and how does your proposed budget 
attempt to fix this deficiency?
    General Dunford. Sure, Congressman, let me start with 
Azerbaijan. As you mentioned, I was there back in February and 
had the privilege of meeting with their leadership, to include 
the President, and to thank him for the support they provided 
in what we call a northern distribution network. We were able 
to reinforce and resupply our forces in Afghanistan as a result 
of the access that Azerbaijan provided to us.
    And I don't assess today that we need to increase that 
access. But we appreciate maintaining that access because it 
has been critical in allowing us to have global reach. And 
certainly our United States Transportation Command has a very 
close partnership with Azerbaijan, and they are very 
appreciative of the access and the support that we have. And we 
would like to maintain that relationship.
    With regard to readiness, you will see in the Secretary's 
budget a significant emphasis overall on readiness, a subset of 
which is the maintenance issue. But, Congressman, I would like 
to highlight for you an important point. Back in 2013, when we 
went through sequestration, we laid off a lot of engineers and 
a lot of artisans and a lot of people that are very critical to 
maintaining our aircraft. They are critical to the triage of 
aircraft and identifying what repairs need to be done and 
making sure in a very systematic way we get the right aircraft 
in the depot at the right time to turn it around with an 
acceptable timeline.
    We have not recovered from 2013, and many of the people 
that were laid off as a result of sequestration in 2013 never 
came back. So the challenge that we have with aviation 
maintenance--and it is across all the services--the challenge 
that we have in aviation maintenance can only be fixed--this is 
another argument for all of us collectively for having 
sustainable budgets, because we need to have sustainable 
budgets to recruit and retain a high-quality workforce. And 
when we talked about civilian workforce earlier, we are very 
reliant, as you know, in our depots, for a quality civilian 
force and the right people to work on our aircraft. And 
predictable budgets and a stable workforce are going to be 
critical for us to get out of this maintenance trough.
    In many cases, what you see is units that actually aren't 
able to man or unable to field the requisite number of aircraft 
for that particular unit, for--we call it Primary Aircraft 
Authorized. In some cases, they rate 12; they only have 6. They 
rate 20, and they only have 10. So the budget does address the 
maintenance issue. We are trying to recover from, really, what 
has happened over the last 3 to 4 years and appreciate your 
support and focus on that issue.
    Mr. Cuellar. Thank you.
    I yield back the balance of my time.
    Ms. Granger. Thank you.
    Mr. Womack.

                         CONTINUING RESOLUTION

    Mr. Womack. Thank you. I just got a couple of questions or 
give you an opportunity to expound just a little bit. As my 
friend Tom Cole said earlier in his testimony, we are rapidly 
moving to one of two outcomes in the fiscal year 2018 budget 
process and appropriations process. We are either going to have 
a bipartisan omnibus package of some type or we are going to 
end up with a CR. CR is disastrous.
    I want to give both of you an opportunity to--at the risk 
of sounding like I am piling on the sequester--give us a real 
idea of what this means if we are headed toward a potential 
continuing resolution with significant limitations on how we 
can fund the emerging needs that have been emerging now for a 
while at the Pentagon.
    Secretary Mattis. Thank you, Congressman.
    Just for an example, we cannot do the new starts. So why is 
that so critical today? Because the changing character of war, 
which this committee has articulated repeatedly this morning--
cyber warfare, space issues, I can go on, counterdrone 
capability--we cannot start that. We cannot start new starts 
under the continuing resolution.
    We also block service growth. For example, we cannot enlist 
people in the United States Army, and they need more soldiers; 
we all recognize that. The world has changed. But if we don't 
know how we are going to pay them a year from now, the only way 
we could respond if we didn't have the money next year, if we 
brought more troops in, for example, if a CR comes into effect, 
is we have to take the money from operations and maintenance. 
Now the troops, you are paying them using the money that should 
have been fixing their gear.
    I think, too, just look at--what business would say, ``We 
are going to do short-term contracts, repeated contracts now 
that we are going to have to put a lot of time into''--you know 
how extensive government contracts are to prevent any fraud, 
waste or abuse--``and we are now going to do the same contract 
for a 3-month period or for a 6-month period''? We get nothing 
more out of it. We simply pay. We double, triple, quadruple the 
administrative costs that deliver no combat capability 
whatsoever. In other words, it did not only cost us adaptation; 
it actually reduces the result, the effect we can get from the 
dollars you give us. It goes into administrative air; it 
doesn't go into combat capability on the ground.

                             SEQUESTRATION

    Mr. Womack. And it goes on and on and on, this impact of 
the sequester, and so what--and I am on the Budget Committee 
with other members of the Appropriations Committee. So what is 
the right number for 2018? That seems to be where we are hung 
out to dry right now in terms of getting a budget agreement out 
of the Budget Committee and onto the floor of the House.
    We certainly know it is not the sequester number, which I 
believe is 549 on the base. Is it 603? Is it 640 that HASC 
wants? Is it somewhere in between? Where is that number, so 
that people like me can have an informed idea of what is 
possible out of committee?
    Secretary Mattis. Sir, I am going to give you a number: $52 
billion over the BCA defense cap. It is $574 billion in our 
base budget. It is $65 billion in our OCO. But there is also, 
if you were to go above that, I think our priorities are right 
in everything that we have given you, but I have reviewed the 
service secretaries unfunded priorities list, and I agree with 
the priorities they give if we go beyond the base budget 
numbers I have given you. In other words, that too is an area 
where the Congress can exercise its oversight and its purse 
strings, frankly.
    But, right now, the President's budget, which I am 
defending and I believe is the right step to fix, to reverse--
start reversing the damage and get us on the right track as we 
get a strategy right, is 574 in the base, 65 in the OCO, and 
there is about $33 billion in the service unfunded priorities 
lists, sir.
    Mr. Womack. How impactful is sequester on your planners at 
the Pentagon, particularly for the FYDP, because when you do 
your FYDP, you have to look at what current law is, correct?
    Secretary Mattis. We do, sir. We have placeholders as we 
look further out because we all know that we cannot defend this 
country unless we withdraw from many of our commitments that we 
have learned over the years we need to protect our people and 
our interests. So, right now, it is paralyzing.
    Mr. Womack. One final thought before my time is up. Impact 
on the defense industrial base is also something we don't spend 
a lot of time talking about.
    Secretary Mattis. Sir, the industrial base cannot be 
expanded to bring us when we know we need more munitions, for 
example, if they don't know 3 months from now or 9 months from 
now that they are going to still get a contract for it. In 
other words, they can't do something that would put the company 
out of business just on a bet. And so you are highlighting all 
of our concerns, I will just tell you, sir.
    Mr. Womack. Yeah, before I yield back, I just want to say 
we have to fix the issue or else we are going to be right back 
where we were, and that is with a yearlong CR, and that would 
just be a disaster.
    I yield back.
    Ms. Granger. Let me clarify one thing.
    Mr. Womack, on the numbers that you gave, you also included 
military construction in that, right? So it is not just our 
bill; it is the MILCON?
    Secretary Mattis. Yes, ma'am. It is. It is in there, the 
MILCON.

                  Closing Remarks of Chairman Granger

    Ms. Granger. Okay. Thank you. Thank you. That finishes the 
question.
    I want you to just go away with understanding how much 
confidence we have in you. You have experience. You are in a 
position, and so we are--we have great confidence in what you 
say and what you stand for, but we also have great concerns 
about readiness. Are we ready--how much damage those cuts have 
done to us.
    We have a concern that we share with you, and that is a 
continuing resolution, and it is just deadly. It is a horrible 
situation. And we can't get to what you need with a continuing 
resolution. So any way you can reach out. You have such 
presence. People respect you. They look to you for the answers. 
They have to understand that. If you will reach out to those 
that are on the committees in both the House and the Senate 
that are on the committees, the four committees that make these 
decisions, it would make the possibilities much better.
    That concludes today's meeting. Thank you very much.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

                       Hypersonic Weapons Systems

                        witness: dunford, joseph
    Question. I have long been a supporter of offensive, hypersonic 
weapons systems. However, our efforts have remained at the research 
level rather than a true program. Our Combatant Commanders have 
expressed a need for this capability against enemy air defenses, and 
General Milley before this subcommittee also confirmed the need for 
this weapon. I don't believe the current budget justification documents 
create the program we need; I believe the range in the 2013 JROC 
document is too limited. A land-based system which launches from U.S. 
territory is needed. Could you please provide a budget outline which 
would support a limited, early operational capability as soon as 
possible, and would you consult with General Milley and the Army SMDC 
to see what that timeline could be?
    Answer. The Joint Staff supports hypersonic weapon system 
development and the Joint Requirements Oversight Council (JROC) 
recently revalidated the requirements for a Prompt Global Strike 
capability. The Joint Staff will continue to work with and support the 
Services to provide a limited or early operational capability within 
the FYDP, to include exploring basing options for new and existing 
systems.

                           Transgender Troops

                         witness: mattis, james
    Question. I understand that the Army and Marine Corps have asked 
for up to a 2-year delay on implementation of the policies regarding 
transgender troops and the Transgender Training sessions required for 
all officers, non-commissioned officers, and civilians. While I 
understand concerns for fairness and related matter, I believe these 
policies may have been unnecessarily rushed by the previous 
Administration. Readiness must be your top priority. On a related 
matter, I also urge you to block any consideration of gender transition 
therapy requests by detainees at Guantanamo. I don't believe that this 
is a justifiable use of our taxpayer funds. Are you willing to strongly 
consider such a delay?
    Answer. The Marine Corps supports the Department of Defense Policy 
regarding Transgender Marines and associated training.

                          Space Launch System

                         witness: mattis, james
    Question. A. Let's assume that the NASA fully covers the 
development costs of the Space Launch System, or SLS. In the event that 
other launch vehicles are behind schedule or have gone up dramatically 
in cost, does the SLS present an opportunity for the Department of 
Defense to launch some of our large national security payloads? B. If 
NASA creates a production model which allows SLS to be sold on a lower 
cost basis, are you willing to look at SLS as an occasional launch 
vehicle for national security payloads?
    Answer. The Department of Defense (DoD) does not have any current 
requirement for this large payload space lift capability. For the most 
common payload separation orbits, all variants of the SLS provide 
significantly (at least three times, and upwards of nine times) more 
capability than operationally required to meet current DoD 
requirements. Additionally, public law and National Space Policy 
dictate that the DoD must procure launch services from the commercial 
marketplace when practicable. The DoD does not have any current 
requirements that cannot be met with current launch services provided 
by commercial sources.

                                Space X

                         witness: mattis, james
    Question. A. What are the terms of the lawsuit settlement between 
the Department of Defense and SpaceX? (SpaceX sued the Air Force over 
an alleged lack of opportunity to compete). B. Were a specific number 
of sole-source launches provided to SpaceX as part of the settlement?
    Answer. The terms of the lawsuit settlement between the Department 
of Defense and SpaceX cannot be released due to the confidentiality 
order of the United States Court of Federal Claims, No. 14-354 C, filed 
January 23, 2015.

                           Frigate Production

                         witness: mattis, james
    Question. I believe the distributed lethality concept is more 
important than ever in locations which involve littoral waters, and 
that a hybrid ship order would provide stability to the shipyards and 
an opportunity to test new systems and components prior to full-blown 
Frigate production. Please provide your view on that possibility, and 
the likely budget needed.
    Answer. To allow adequate time to define Frigate (FFG(X)) 
requirements, thoroughly evaluate design alternatives and mature the 
design, the Presidents Budget (PB) 2018 submission defers the first 
year of FFG(X) procurement to Fiscal Year (FY) 2020 with additional 
Littoral Combat Ships (LCS) being procured in FY 2018 and FY 2019. This 
approach keeps both LCS shipyards viable ahead of the pending FFG(X) 
competition, allowing the Navy to leverage past and current investments 
in our shipyard workforce and infrastructure. The Navy is already 
pursuing opportunities to forward fit and back fit some FFG(X) 
capabilities onto LCS to further increase the lethality and 
survivability of those platforms. Increased magazine protection and 
shock hardening of auxiliaries along with the addition of a lightweight 
tow, and space and weight for the Over-The-Horizon Weapon System (OTH-
WS) are separately priced options in the Request for Proposal for the 
three FY 2017 LCS. As the Navy is currently in negotiations for the 
three FY 2017 LCS, details regarding the cost of those options cannot 
be provided in accordance with federal regulations. The Navy is also in 
source selection for OTH-WS which will provide added offensive 
capabilities to the LCS. The PB 2018 submission includes $8.4M to 
initiate ship engineering work to include design configuration and 
installation planning for the LCS platforms. The submission also 
identifies OTH-WS procurement ($42.3M) and in-service fleet support 
funding ($15.9M) through the Future Years Defense Plan (FYDP) for the 
weapon system.

                   FY 2019 to FY 2023 Funding Levels

                         witness: mattis, james
    Question. Secretary Mattis, you mentioned a Defense Strategy to 
determine Defense funding levels for FY 2019 to FY 2023. Do you have a 
timeframe on when those numbers will be available? Your report on those 
estimates will be important to this body if we consider repealing or 
lifting BCA Caps.
    Answer. The National Defense Strategy is ongoing and will direct 
resourcing requirements for the FY 2019-2023 Future Years Defense 
Program. Funding levels and resourcing decisions will be worked closely 
with the Office of Management and Budget in preparation for the FY 2019 
President's Budget Submission to Congress in February 2018.

                    European Reassurance Initiative

                         witness: mattis, james
    Question. Your FY 2018 budget request contains a 40 percent 
increase in funding for the European Reassurance Initiative. Does this 
funding pay for equipment, weapons, and systems software for our allied 
partners? If so, is there funding allocated for maintaining and 
servicing those items?
    Answer. The vast majority of the Department's FY 2018 European 
Reassurance Initiative request focused on increasing U.S. readiness and 
responsiveness through increased presence, expanded exercises, and 
prepositioning of wartime equipment and stocks. The United States 
prefers to use other programs and authorities, such as Foreign Military 
Sales and Foreign Military Financing, to provide Allies and partners 
with equipment, weapons, and systems software. This year, Congress 
added ERI funding to increase Ukraine's ability to defend its sovereign 
territory. ERI support to Ukraine will include assistance with command 
and control capabilities; counter-battery radars; training, equipping, 
and employment of forces; comprehensive logistics; and advisory 
efforts.

                            European Allies

                         witness: mattis, james
    Question. I think that the European Reassurance Initiative is 
critically important to deter potential Russian aggression. There was a 
unit from the California National Guard here recently and they 
discussed some of the challenges in training their Ukrainian 
counterparts. These challenges ranged from the Ukrainian forces not 
having a formalized enlistment and training program, to not having the 
proper systems to account for personnel and to pay their Soldiers. So, 
I am interested in how the Department of Defense is assessing the 
capabilities of our European allies as we continue to rotate units into 
the European theater. Is there a one to two-page product on each of the 
allied partner forces that you can provide that gives us a snapshot of 
their capabilities, strengths, weaknesses, their overall level of 
readiness?
    Answer. The Department, both unilaterally and in conjunction with 
Allies, continuously assesses the capabilities, strengths, weaknesses, 
and overall readiness of our Allies. These assessments are often 
voluminous and contain classified information. The Department does not 
produce one- or two page unclassified summaries of these assessments, 
however my staff would be happy to provide a classified briefing on 
these matters at your convenience.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                         Overpressure Injuries

                         witness: mattis, james
    Question. A. How concerned are your service chiefs about 
overpressure injuries and what actions are you taking to mitigate 
exposure to your personnel in the field and training environments? B. 
Who in your organization is responsible for this occupational hazard? 
C. It took roughly 40 years of personalized radiation measurement to 
fully understand the effects of exposure. Measurement was the necessary 
first step to understanding dose response. Is this a similar situation? 
Why not deploy blast overpressure surveillance to at least begin to 
capture the data? D. DARPA has recommended expanding the fielding of 
the gauge because it ``ensures timely evaluation and treatment of 
TBI.'' How many of our men and women are using the gauges in the field 
or in training? Do high-risk units have access to the devices? How many 
devices have been purchased and where are they today?
    Answer. A. How concerned are your service chiefs about overpressure 
injuries and what actions are you taking to mitigate exposure to your 
personnel in the field and training environments? Air Force leadership 
is concerned about the health and safety of all our Airmen and strives 
to institute appropriate engineering, administrative, or personal 
protective equipment controls where the evidence supports their 
effectiveness in preventing workplace injury and illness, regardless of 
the type of exposure encountered. B. Who in your organization is 
responsible for this occupational hazard? The Air Force Medical 
Service's Aerospace Medicine community is responsible for the medical 
aspects of the occupational health and safety program. They identify 
and measure workplace hazards and conduct associated medical 
surveillance of at-risk service members. Numerous medical and line 
responsibilities are enumerated within DoD Instruction 6490.11, DoD 
Policy Guidance for Management of mild Traumatic Brain Injury/
Concussion in the Deployed Setting. Given the current science regarding 
overpressure, the only workplace exposures of this type which can be 
reliably monitored are noise exposures as part of our long-established 
hearing conservation program. C. It took roughly 40 years of 
personalized radiation measurement to fully understand the effects of 
exposure. Measurement was the necessary first step to understanding 
dose response. Is this a similar situation? Why not deploy blast 
overpressure surveillance to at least begin to capture the data? The 
current surveillance science regarding overpressure continues to 
evolve. However, other than that which is hearing related, surveillance 
mechanisms are insufficiently reliable to protect against the effects 
of blast exposures. The key performance element of any such monitoring 
device or test is its positive predictive value, the ability to 
associate exposures with outcomes in a reliable, predictable manner. 
Blast gauges are environmental sensors and have proven particularly 
deficient in this regard when tested in the field, particularly in 
their ability to correlate blast exposure with Traumatic Brain Injury. 
D. DARPA has recommended expanding the fielding of the gauge because it 
``ensures timely evaluation and treatment of TBI.'' How many of our men 
and women are using the gauges in the field or in training? Do high-
risk units have access to the devices? How many devices have been 
purchased and where are they today? Following unsuccessful field 
testing in the US Central Command theater of operations with various 
army units, there are no deployed units currently using these devices. 
The Air Force was not part of that study and currently fields no such 
devices on our deployed Airmen based upon the lack of evidence 
regarding their surveillance value based upon those earlier field 
studies. As the science and technology matures we will re-assess the 
fielding of these devices for our at-risk Airmen.
    Answer. Navy Medicine is dedicated to our mission of optimizing 
Sailors' and Marines' readiness, health, and keeping them on the job. 
Navy Medicine is actively engaged in research performed in partnership 
with other Department of Defense (DoD) entities. In addition, we are 
partnering with nongovernmental academic institutions and assessing 
clinical application of evolving scientific information to develop best 
practices and policy as part of Navy Medical Department TBI programing. 
Inquiries regarding acquisition and fielding of specific blast exposure 
sensors and other related technology is out of Navy Medicine's scope. 
A. How concerned are your service chiefs about overpressure injuries 
and what actions are you taking to mitigate exposure to your personnel 
in the field and training environments? Navy and Marine Corps are aware 
of and acutely concerned with the risk of overpressure injuries in both 
training and field environments. Many of the acute risks of exposure to 
blast overpressure are known. While acute exposure standards do exist 
for overpressure injury protection for single events, a standard for 
repetitive exposure has not been established. As an emerging science, 
dose effect exposure impact and injury pattern research is active but 
insufficient at present for driving policy to mitigate exposure 
effects. Monitoring systems and threshold determination for multiple 
blast overpressure events to accumulate data in a manner similar to 
cumulative radiation dosimetry is under development as part of an 
effort funded by Military Operational Medicine Research Program. B. Who 
in your organization is responsible for this occupational hazard? 
Leaders at all levels are responsible for the health and safety of 
Sailors and Marines. Navy Medicine is invested in research to 
understand risks associated with overpressure exposure, as well as 
methods to identify and treat possible consequences of overexposure. It 
should be noted that overpressure exposure is currently considered an 
emerging occupational hazard, without current nationally recognized 
established exposure limits or standards, and is still in the research 
realm. The Naval Medical Research Center (NMRC) is part of a multi-
institutional effort to develop exposure standards to repetitive low 
intensity blast overpressure events. This effort involves research on 
the assessment of blast effects in DoD operational units (e.g., 
Breachers, Artillery) and the use of animal models to develop an 
exposure standard algorithm. The effort is funded under the Defense 
Health Program. NMRC's collaborative effort is focused on the 
development of an exposure algorithm. The data from this effort will be 
shared with DoD operational planners to develop occupational standards 
and surveillance procedures. Navy Medicine is responsible for the 
medical readiness of Sailors and Marines, and as such, is actively 
engaged with the TBI community of interest, including ongoing 
collaborations with DoD, the other Services, Defense and Veterans Brain 
Injury Center (DVBIC), National Intrepid Center of Excellence (NICoE), 
and numerous private research institutions. The collaborations keep 
Navy Medicine at the cutting edge of science to ensure policies and 
practices are current with regard to informing policy to reduce 
exposure to injury, establish appropriate screening and surveillance 
practices, and to guide interventions to mitigate effects of injuries. 
As has been stated, this is an area of emerging science, and thus, 
policies and practices are dynamic, with efforts to continually capture 
data to advance efficacy of mitigation strategies. C. It took roughly 
40 years of personalized radiation measurement to fully understand the 
effects of exposure. Measurement was the necessary first step to 
understanding dose response. Is this a similar situation? Why not 
deploy blast overpressure surveillance to at least begin to capture the 
data? Accurate measurement of overpressure exposure is critical in 
protecting Sailors and Marines, and in understanding potential health 
consequences of exposure. There are several challenges associated with 
this, including understanding how different devices measure 
overpressure, how differences in measurement relate to actual 
physiological and brain exposure, and then what different levels of 
exposure mean for risk to brain integrity, as well as clinical 
consequences. Advances have been made in all of these areas. Despite 
this progress, the current state of science is inconclusive with regard 
to exposure to sub-concussive events and subsequent injury or symptoms, 
and there is a need for continued partnerships to advance the science. 
Efforts to accurately measure and understand overpressure exposure have 
shifted from wide-scale deployment which had limited utility for 
understanding effects and development of subsequent policy. In order to 
better understand overpressure phenomenon, current use of overpressure 
measurement is in focused, rigorously studied settings. This allows for 
capture and analysis of data in a systematic way which is contributing 
to ongoing advancement of understanding of exposure and subsequent 
policy and practice changes. Navy and Marine Corps are proactively 
involved in collaborative research including measurement of 
overpressure exposure in institutional review board controlled trials 
which will allow for systematic collection and analysis of data in 
specific environments and applications, which is necessary to answer 
the questions above. NMRC is aware of several efforts within the DoD 
medical research and development community to develop and refine blast 
sensor technology. The Office of Naval Research (ONR) is conducting the 
Blast Load Assessment Sense and Test (BLAST) program which is 
developing technologies that quantify the physiological effects of 
blast loads on personnel in the field. The objective is to address 
military-specific blast overpressure induced injury as well as blunt 
force injury. D. DARPA has recommended expanding the fielding of the 
gauge because it ``ensures timely evaluation and treatment of TBI.'' 
How many of our men and women are using the gauges in the field or in 
training? Do high-risk units have access to the devices? How many 
devices have been purchased and where are they today? Navy Medicine 
doesn't manage distribution of blast sensor devices and is not in a 
position to respond to questions of distribution. However, it should be 
noted that there is, as of yet, no definitive evidence linking 
repetitive overpressure exposure to traumatic brain injury. The state 
of science is emerging, and Navy Medicine stands at the forefront of 
research to understand these relationships, and to adjust policy and 
practices as indicated to protect Sailors and Marines.
    Answer. A. The Service Chiefs are very concerned about the 
potential for blast overpressure (BOP) injuries and enforce established 
occupational health standards and safety procedures to protect 
personnel who use weapon systems in field and training environments. In 
parallel, the DoD and the Army have implemented policies to maximize 
the identification and screening for Service members exposed to BOP. 
Medical information collected as a result of policy is leveraged for 
immediate healthcare delivery, while exposure data is shared through 
Service or department-wide efforts to maximize understanding of BOP. B. 
DoD-level policies task operational commanders to oversee the safety of 
training events, and enforce policies and procedures that provide 
maximal surveillance, mitigation, and treatment of BOP-related 
injuries. The Army serves as the Executive Agent for coordinating all 
DoD blast injury research which bridges medical and operational 
commands. U.S. Army Medical Command (USA MEDCOM) has the lead on 
occupational health compliance, clinical care for injuries, and 
development of medical research on occupational hazards related to BOP. 
C. It is unclear at this time if direct parallels can be drawn between 
personalized radiation measurement and blast overpressure surveillance. 
The Army previously deployed a large-scale blast overpressure 
surveillance program during OEF deployments, which did not produce 
actionable information. The Army has since moved to a focused approach, 
involving research level data collection and surveillance from 
environmental sensors in training. This effort aims to: (1) optimize 
sensor technologies for surveillance in training environments, (2) 
understand the health effects of single and repetitive exposure to BOP, 
(3) establish evidence-based injury thresholds, and (4) provide 
immediate feedback to Leaders on BOP profiles in training. D. In 2012, 
the Army procured approximately 108,000 gauges for use in Operation 
Enduring Freedom (OEF). The data from this effort did not provide 
actionable information or insights into the impact of single or 
cumulative BOP. The Army's effort to understand low-level BOP shifted 
to a more tailored approach in the training environment. Within the 
current Army effort (Environmental Sensors in Training (ESiT)), there 
are 1600 gauges in use on select training ranges: artillery, breacher, 
mortar, grenade, engineers, and shoulder fired weapons. These gauges 
are drawn from both existing inventory and purchase of newer designs. 
The gauges are available to ``high-risk units'' as commercial off the 
shelf (COTS) devices.

                      Blast Overpressure Exposure

                         witness: mattis, james
    Question. Scientific studies have linked repetitive blast 
overpressure exposure to structural changes in the brain, increased 
risk of PTSD, and age related neurological diseases. A. Why has this 
research not resulted in blast overpressure surveillance programs that 
provide actionable exposure data to protect and preserve our 
warfighters, particularly considering the signature injuries from Iraq 
and Afghanistan have been TBI and PTSD. B. Given the significant 
scientific evidence linking blast overpressure exposure and brain 
injury, how do you explain the hesitation to monitor to fully document 
exposures and take steps to reduce those exposures?
    Answer. The state of science and knowledge associated with 
overpressure exposure and subsequent health risks is ongoing and 
advancing. As technology and knowledge increase, awareness of potential 
risks become known, and policies and practices are adjusted 
accordingly. Overpressure detection capabilities are in use and have 
undergone successive iterations as knowledge has increased, with 
ongoing active research to further improve our ability to protect 
Sailors and Marines. While there is some emerging indication of a 
relationship between repetitive overpressure exposure and subsequent 
health risks, this is also an evolving state of science, and specific 
correlations are still unknown. As Navy Medicine actively supports 
ongoing research to better understand overpressure exposure, we 
continue to implement and advance evidence based practice to increase 
detection and treatment to maximize health and readiness of Sailors and 
Marines. A. Where standards exist, current DoD policy is designed to 
protect Sailors and Marines from known overpressure risks. However, 
advances in science in this area have shown that previously established 
standards may be inadequate, and as of yet, more refined national 
standards do not exist. The Navy continues to be engaged in 
collaborative research to improve capability to accurately measure 
overpressure, as well as increase knowledge related to effects of sub-
concussive overpressure effects. Even in advance of publication in peer 
reviewed publications, DoD proactively acts on emerging data, often 
developing policies and practices to protect Sailors and Marines. There 
are active and robust efforts to translate knowledge from research into 
actionable equipment, practices, and interventions both on the field 
and in the medical realm. B. As knowledge of exposure dose and 
cumulative effects evolves, policy and practice is evolving to protect 
Sailors and Marines from unnecessary exposure, and to evaluate and 
mitigate effects. As science emerges, policy adapts. Navy Medicine is 
currently working with leaders in the Naval Special Warfare unit in 
Southern California to develop a protocol for routine periodic 
assessment and monitoring that is not triggered by a specific event. 
This is a step forward in practice. Historically, screenings were 
triggered by ``potentially concussive events''' and did not take into 
account single or repetitive exposure to ``sub-concussive'' events. The 
effects of individual sub-concussive events may be minor and not 
identified by the Sailor, and may not even be identified with 
traditional screening tools. However, the effects of repeated exposures 
may be cumulative, and because an individual event may not trigger a 
screening protocol, establishing routine reassessment is expected to 
enable identification of cumulative effects which will allow for 
earlier intervention and mitigation. As mentioned above, ongoing 
research efforts with our partners will improve ability to accurately 
monitor exposure, as well as possible medical consequences of exposure, 
which will increase ability to mitigate effects and enhance readiness.
    Answer. A. The DoD has surveillance programs to protect our 
warfighters from exposure to BOP which are based on prior research 
efforts and the current scientific understanding. In accordance with 
occupational health standards, the BOP programs are managed within the 
DoD Auditory community and coordinated with the TBI community as 
appropriate. The link between low-threshold repetitive blast 
overpressure (BOP) exposure to ``structural changes in the brain, 
increased risk of PTSD, and age related neurological diseases,'' is 
currently debated in the medical and scientific communities (internal 
and external to the DoD) and remains a topic of research rather than 
settled science. B. The link between low-threshold repetitive blast 
overpressure (BOP) exposure to ``structural changes in the brain, 
increased risk of PTSD, and age related neurological diseases,'' is 
currently debated in the medical and scientific communities (internal 
and external to the DoD) and remains a topic of research rather than 
settled science. The DoD has taken actions to improve our understanding 
of BOP through the analysis of retrospective and prospective human 
exposure data from the training and operational environment while 
simultaneously implementing policies to monitor, protect, screen, 
diagnose, document and treat not just diagnosed TBls, but also 
potentially concussive events. Through event-driven screening for 
exposures, and early medical evaluation and documentation, the Army is 
the lead for the DoD and is maximizing the identification and treatment 
of Service members with injuries.

               Exposures in Training With Weapons Systems

                         witness: mattis, james
    Question. DoD research studies have shown exposures in training 
with weapon systems that are routinely above currently established safe 
overpressure exposure limits. Monitoring revealed these exposures, and 
can help to identify and reduce repetitive exposures in the future. A. 
Why have the services failed to institute formal overpressure 
monitoring programs in areas where existing safety standards are 
routinely violated? B. Repetitive blast overpressure exposure and mild 
TBI impact unit readiness. Given the hidden nature of brain injury and 
the overlap of mild TBI symptoms with those commonly experienced by 
servicemembers (headache, sleep disturbance, etc), isn't monitoring 
essential to maintaining unit readiness? C. Marine Corps System Command 
has invested over $1 million in a Phase I and Phase II SBlR to develop 
a blast overpressure measurement system which was delivered in 
September 2016. Is this technology being used to monitor exposures for 
at risk personnel? If no, why not?
    Answer. A. The DoD uses a combination of environmental monitoring, 
in select higher risk training environments, with connections to active 
medical research protocols. The output of these efforts are improving 
environmental sensor capabilities and honing our understanding of BOP 
and the potential short-term or long-term clinical outcomes. The Army 
protects personnel by assessing health risks associated with the use of 
weapon systems prior to rollout and by implementing evidence based 
safety standards that are enforced by operational commanders. The Army 
no longer uses universal monitoring of blast overpressures (BOP) 
exposures in combat because this program did not produce actionable 
information. However, the Army does employ a targeted monitoring effort 
to protect personnel. B. The DoD maintains readiness through policy, 
education, and standardized clinical care to produce an educated force 
trained and prepared to recognize potential for risk and provide early 
recognition, treatment and tracking of concussive injuries to protect 
Service member health. The DoD is also funding research efforts with 
the goal of validating exposure thresholds. C. Since the development of 
the blast gauge, the Army, USSOCOM, DARPA and the USMC have all 
purchased and used blast gauges in varying capacities. The Army's 
Environmental Sensors in Training (ESiT) program is primarily using the 
earlier generation 6 gauges. However, the DoD through Walter Reed Army 
Institute of Research is actively working to assess and improve the 
gauges including the generation 7.
    Answer. The state of science and knowledge associated with 
overpressure exposure and subsequent health risks is ongoing and 
advancing. As technology and knowledge increase, awareness of potential 
risks become known, and policies and practices are adjusted 
accordingly. Overpressure detection capabilities are in use and have 
undergone successive iterations as knowledge has increased, with 
ongoing active research to further improve our ability to protect 
Sailors and Marines. While there is some emerging indication of a 
relationship between repetitive overpressure exposure and subsequent 
health risks, this is also an evolving state of science, and specific 
correlations are still unknown. As Navy Medicine actively supports 
ongoing research to better understand overpressure exposure, we 
continue to implement and advance evidence based practice to increase 
detection and treatment to maximize health and readiness of Sailors and 
Marines. A. Where standards exist, current DoD policy is designed to 
protect Sailors and Marines from known overpressure risks. However, 
advances in science in this area have shown that previously established 
standards may be inadequate, and as of yet, more refined national 
standards do not exist. The Navy continues to be engaged in 
collaborative research to improve capability to accurately measure 
overpressure, as well as increase knowledge related to effects of sub-
concussive overpressure effects. Even in advance of publication in peer 
reviewed publications, DoD proactively acts on emerging data, often 
developing policies and practices to protect Sailors and Marines. There 
are active and robust efforts to translate knowledge from research into 
actionable equipment, practices, and interventions both on the field 
and in the medical realm. B. As knowledge of exposure dose and 
cumulative effects evolves, policy and practice is evolving to protect 
Sailors and Marines from unnecessary exposure, and to evaluate and 
mitigate effects. As science emerges, policy adapts. Navy Medicine is 
currently working with leaders in the Naval Special Warfare unit in 
Southern California to develop a protocol for routine periodic 
assessment and monitoring that is not triggered by a specific event. 
This is a step forward in practice. Historically, screenings were 
triggered by ``potentially concussive events'' and did not take into 
account single or repetitive exposure to ``sub-concussive'' events. The 
effects of individual sub-concussive events may be minor and not 
identified by the Sailor, and may not even be identified with 
traditional screening tools. However, the effects of repeated exposures 
may be cumulative, and because an individual event may not trigger a 
screening protocol, establishing routine reassessment is expected to 
enable identification of cumulative effects which will allow for 
earlier intervention and mitigation. As mentioned above, ongoing 
research efforts with our partners will improve ability to accurately 
monitor exposure, as well as possible medical consequences of exposure, 
which will increase ability to mitigate effects and enhance readiness. 
C. Yes, the GEN 7 B3 sensor developed to measure blast overpressure in 
the Phase I and Phase II SMIR is currently being used by researchers 
for monitoring personnel exposures to blast. Current users include 
Naval Research Laboratory Walter Reed Army Institute of Research, 
Office of Naval Research and Special Operations Command. We are 
currently working with our Training and Education Command and Walter 
Reed to get the system sensors approved for use at the Weapons Training 
Schools. Anticipated deployment is late FY18.
    Answer. The state of science and knowledge associated with 
overpressure exposure and subsequent health risks is ongoing and 
advancing. As technology and knowledge increase, awareness of potential 
risks become known, and policies and practices are adjusted 
accordingly. Overpressure detection capabilities are in use and have 
undergone successive iterations as knowledge has increased, with 
ongoing active research to further improve our ability to protect 
Sailors and Marines. While there is some emerging indication of a 
relationship between repetitive overpressure exposure and subsequent 
health risks, this is also an evolving state of science, and specific 
correlations are still unknown. As Navy Medicine actively supports 
ongoing research to better understand overpressure exposure, we 
continue to implement and advance evidence based practice to increase 
detection and treatment to maximize health and readiness of Sailors and 
Marines. A. Why have the services failed to institute formal 
overpressure monitoring programs in areas where existing safety 
standards are routinely violated? Where standards exist, current DoD 
policy is designed to protect Sailors and Marines from known 
overpressure risks. However, advances in science in this area have 
shown that previously established standards may be inadequate, and as 
of yet, more refined national standards do not exist. The Navy 
continues to be engaged in collaborative research to improve capability 
to accurately measure overpressure, as well as increase knowledge 
related to effects of sub-concussive overpressure effects. Even in 
advance of publication in peer reviewed publications, DoD proactively 
acts on emerging data, often developing policies and practices to 
protect Sailors and Marines. There are active and robust efforts to 
translate knowledge from research into actionable equipment, practices, 
and interventions both on the field and in the medical realm. B. 
Repetitive blast overpressure exposure and mild TBI impact unit 
readiness. Given the hidden nature of brain injury and the overlap of 
mild TBI symptons with those commonly experienced by service members 
(headache, sleep disturbance, etc), isn't monitoring essential to 
maintaining unit readiness? As knowledge of exposure dose and 
cumulative effects evolves, policy and practice is evolving to protect 
Sailors and Marines from unnecessary exposure, and to evaluate and 
mitigate effects. As science emerges, policy adapts. Navy Medicine is 
currently working with leaders in the Naval Special Warfare unit in 
Southern California to develop aprotocol for routine periodic 
assessment and monitoring that is not triggered by a specific event. 
This is a step forward in practice. Historically, screenings were 
triggered by ``potentially concussive events'' and did not take into 
account single or repetitive exposure to ``sub-concussive'' events. The 
effects of individual sub-concussive events may be minor and not 
identified by the Sailor, and may not even be identified with 
traditional screening tools. However, the effects of repeated exposures 
may be cumulative, and because an individual event may not trigger a 
screening protocol, establishing routine reassessment is expected to 
enable identification of cumulative effects which will allow for 
earlier intervention and mitigation. As mentioned above, ongoing 
research efforts with our partners will improve ability to accurately 
monitor exposure, as well as possible medical consequences of exposure, 
which will increase ability to mitigate effects and enhance readiness. 
C. Marine Corps System Command has invested over $1 million in a Phase 
I and Phase II SBIR to develop a blast overpressure measurement system 
which was delivered in September 2016. Is this technology being used to 
monitor exposures for at risk personnel? If no, why not? Defer to 
Marine Corps Systems Command.
    Answer. A. Why have the services failed to institute formal 
overpressure monitoring programs in areas where existing safety 
standards are routinely violated? While operational guidelines exist 
for safe distancing from acute blast sources, we are not aware of 
existing overpressure standards from the Occupational Health and Safety 
Administration, the American Conference of Governmental Industrial 
Hygienists, the American National Standards Institute, or other 
recognized certifying standards organization, that characterize and 
establish exposure limits for repetitive or sustained blast exposures. 
B. Repetitive blast overpressure exposure and mild TBI impact unit 
readiness. Given the hidden nature of brain injury and the overlap of 
mild T81 symptoms with those commonly experienced by servicemembers 
(headache, sleep disturbance, etc), isn't monitoring essential to 
maintaining unit readiness? The current surveillance science regarding 
overpressure continues to evolve, but is currently not sufficiently 
reliable to protect against the effects of such exposures. The key 
performance element of any such monitoring device or test is its 
positive predictive value, the ability to associate exposures with 
outcomes in a reliable, predictable manner. The devices which are 
environmental sensors, have proven particularly deficient in this 
regard when tested in the field, particularly in their ability to 
correlate blast events to Traumatic Brain Injury. Until such time as 
better sensors are available, we will continue to maintain readiness 
through policy, education, and standardized clinical care to provide 
early recognition, treatment, and tracking of all concussive injuries. 
C. Marine Corps System Command has invested over $1 million in a Phase 
I and Phase 11 SBIR to develop a blast overpressure measurement system 
which was delivered in September 2016. Is this technology being used to 
monitor exposures for at risk personnel? If no, why not? The Air Force 
has not procured any elements of the system for use within the Air 
Force. Though this is a Generation 7 gauge, its extremely low detection 
threshold results in high sensing variability, thus limiting its 
effectiveness as a reliable surveillance device.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Ms. Roby and the answers 
thereto follow:]

                          Sea Hawk Helicopter

                         witness: mattis, james
    Question. As you both know, the Sea Hawk Helicopter is the 
workhorse of the Navy as we have sustained a very high OPTEMPO for many 
years. The current Seahawk fleet of 555 aircraft is based on a five 
year old Force Structure Assessment that was updated in December 2016 
from 308 to 355 ships. If this plan is carried out, the Navy will need 
a corresponding increase in helicopters. Meanwhile the Service Life 
Extension program will ultimately take roughly 50 aircraft out of 
service each year. Procuring additional aircraft now will help address 
these needs as well as prevent a key production line from going cold. 
What are the Navy's plans for procurement of the Seahawk in the coming 
years?
    Answer. The Department is committed to building the capability and 
capacity in our Fleet, and Seahawk helicopters play a vital role in 
accomplishing these goals. The Navy operates nearly 600 MH-60 
helicopters around the world, and intends to modernize and sustain MH-
60 inventory via planned Service Life Extension Program and/or Mid-Life 
Upgrade initiatives. These programs will ensure the capabilities of 
these aircraft remain relevant well into the future. Although the 
current fleet of Seahawks is fulfilling our needs, we need to consider 
airframe delivery schedules relative to future ship delivery timelines 
before committing to purchasing additional Seahawks. The decision to 
procure or recapitalize the current MH-60 in the face of increasing 
threats will be considered alongside all of our warfighting priorities. 
Thank you for your continued support of the Navy and in particular, 
Naval Aviation.

                                Stryker

                         witness: mattis, james
    Question. 203 Members of Congress and 10 Members of this 
Subcommittee wrote a letter to the Army earlier this year urging 
funding both for Stryker lethality and survivability upgrades. I was 
surprised to see no funding for either modernization programs in the 
President's FY18 Budget request. Given that we know that Strykers are 
critical to the 21st Century Army, what would the Army choose such a 
path? What is the impact on the industrial base?
    Answer. Although the Army has not specifically requested funding 
for Stryker lethality and survivability upgrades, the Army requested 
$97.6 million for Stryker modifications in Fiscal Year 2018 (FY18). 
This funding will support procurement of Stryker Training Aids; 
Devices; Simulators and Simulations (TADSS); Stryker Lethality 
hardware; fielding support (wholesale parts); and various Stryker 
fleet-wide modifications including addressing Command, Control, 
Communication,, Computers, Intelligence, Surveillance, and 
Reconnaissance (C41SR) obsolescence. The Army will field the 2nd 
Cavalry Regiment's 30 millimeter Strykers in 4th Quarter FY18 but has 
yet to determine the solution for the entire fleet. The Army is 
solidifying requirements for improving the lethality of the remaining 
eight Stryker Brigade Combat Teams and is scheduled to present options 
in October of this year to the Chief of Staff of the Army to determine 
lethality and survivability options moving forward. These options all 
include near-term lethality upgrades to the Stryker fleet. Although the 
Army's fourth Double V Hull (DVH) Stryker brigade is on the Chief of 
Staff of the Army's FY18 Unfunded Requirements List, the Army continues 
to modernize the DVH fleet. The DVH vehicles that have been procured 
beyond the current three DVH Brigades come equipped with the latest 
upgrades that include engine, suspension, and electrical network. These 
Strykers will go into the current DVH brigades to allow older DVH 
vehicles opportunity for these upgrades. The Army is aware of a 
potential impacts to the Stryker industrial base, and has developed 
options to mitigate any production gap between completion of DVH 
production and upgrades to current DVH Strykers.

                               Munitions

                         witness: mattis, james
    Question. I am concerned about our stockpiles of key munitions like 
the Hellfire. What else can we do to ensure that our munitions 
stockpiles are at a sufficient level? I also noticed that funding for 
THAAD looked a bit light. I would think that we would be ramping that 
up with the increasing ballistic threats from Iran and North Korea.
    Answer. The Army continues to place emphasis on ensuring critical 
munitions are being produced, stockpiled and positioned appropriately 
to support world-wide contingencies. For example, the HELLFIRE missile 
is currently being produced at its maximum rate of 6,000 missiles per 
year.
    Additionally, a $77M investment in the HELLFIRE production line in 
FY17 will increase capacity from 6,000 missiles in FY16 to 11,000 
missiles in FY19. The Army will see results from this investment but 
deliveries of HELLFIRE missiles take place approximately 24 months 
after they are put on contract. The Army is a user of the THAAD system, 
but procurement for THAAD interceptors is programmed by the Missile 
Defense Agency using Defense Wide Funds. The FY18 budget request 
procures 34 THAAD interceptors out of a potential maximum production 
capacity of 96.

                                  LCS

                         witness: mattis, james
    Question. A. Could you please provide an update on the transition 
from the Littoral Combat Ship to the Frigate? B. What are the 
priorities for the development of the Frigate and how will it improve 
upon the current Littoral Combat Ship? C. Is the Navy still planning to 
down-select between the two current vendors in FY19 or has that been 
pushed to FY20? Given the vulnerability of the shipbuilding industrial 
base, what would be the benefits of keeping the contract split between 
the two vendors?
    Answer. A. The 2016 Force Structure Assessment (FSA) validated the 
requirement for 52 Small Surface Combatants. To date, nine LCS have 
been commissioned into the Fleet and 19 are under contract (LCS 27 & 28 
were awarded in June 2017), with 11 of these 19 LCS in various stages 
of construction. A total of 30 LCS are planned to be procured. FY19 LCS 
quantities are under review and will be provided with the FY19 budget 
submission, following completion of the Defense Strategy Review. The 
Navy recognizes the critical nature of maintaining the shipbuilding 
industrial base while transitioning from LCS to Frigate and will weigh 
this factor in the FY19 budget submission. For FFG(X), the Navy will 
consider multiple proposed designs for a lethal, multi-mission ship 
capable of integrated strike group operations and operating 
independently in contested environments while incorporating Navy 
standard combat system elements. The Navy is evaluating capability and 
cost trade space associated with FFG(X) requirements through a Request 
for Information from industry. Additionally, a competitive industry 
environment will contribute to maturing multiple designs during the 
Conceptual Design phase with an anticipated FY20 contract award for 
Detail Design and Construction. B. FFG(X) priorities for development 
include improved lethality and survivability beyond that of LCS and the 
previous Frigate baseline. The FFG(X) will include improved radar, 
combat systems, launchers, weapons, and electronic warfare, and add 
capability in the electromagnetic maneuver warfare area that LCS does 
not currently possess. These improvements will make the FFG(X) a blue-
water capable, multi-mission ship capable of operating in contested 
environments with robust self-defense. LCS was designed to be a 
focused-mission ship with limited self-defense. FFG(X) will have the 
ability to protect itself and potentially others with improved air 
defense capability and shock-hardened systems for decreased 
vulnerability.The FFG(X) will be capable of simultaneous multi-mission 
execution in Surface Warfare (SLJW), Anti-Submarine Warfare (ASW), 
Electromagnetic Maneuver Warfare (EMW), and unmanned intelligence, 
surveillance, and reconnaissance. It will implement Navy standard 
combat system elements to achieve commonality, decreasing development 
risk while ensuring required capability, lowering life cycle costs, and 
streamlining sparing, training, and maintenance requirements. These 
improvements over LCS will enable FFG(X) to support Distributed 
Maritime Operations by extending the Fleet tactical grid with improved 
EMW, Electronic Warfare (EW), unmanned, and Command, Control, 
Communications, Computer, and Information (C4I) systems and provide 
relief for large surface combatants to conduct missions for which they 
are uniquely qualified. FFG(X) requirements will be refined and 
finalized based on industry feedback on the feasibility of meeting the 
desired performance levels and accommodating common Navy standard 
systems in the various ship designs in a cost effective manner. C. The 
Navy does not plan to down-select between the two current LCS 
shipbuilders, but instead will hold a full and open competition for the 
FFG(X) utilizing existing designs. The Navy is evaluating trade space 
associated with FFG(X) requirements through a Request for Information 
from industry that maximizes capability at the appropriate cost. 
Additionally, a competitive industry environment will contribute to 
maturing multiple designs during the Conceptual Design phase with an 
anticipated FY20 contract award for Detail Design and Construction.

                        Army Fixed Wing Aircraft

                         witness: mattis, james
    Question. Can you please provide your thoughts on cost savings that 
can be achieved through the Army's replacement of the C12?
    Answer. The Army is in the process of replacing the legacy C-12 
fleet with a commercially available aircraft and expects to award a 
procurement contract in 3QFY18. With an estimated savings of 
approximately $100M in operation and sustainment costs over the life of 
the aircraft. These savings estimates are based on costs of similar, 
currently available, commercial aircraft.

                                 Cyber

                         witness: mattis, james
    Question. With so much happening in the Cyber domain, I was hopeful 
That you could share your vision regarding DOD's increasing role in 
this fight and what additional resources may be required. How can we 
recruit and retain the type of cyber warriors we need for this fight?
    Answer. In addition to defending DoD's network, data, and weapons 
platforms, our cyberspace operations provide commanders with options 
across all domains to apply combined arms maneuver, create dilemmas for 
the enemy, complicate adversaries' strategic calculus, and ultimately 
gain the advantage on the battlefield for the Joint Force to win. The 
Army continues to grow its specialized fields and recruit much needed 
cyber skills, recently accessing 30 officers into the established Cyber 
branch. Both the Army's Cadet Command (USACC) and the US Military 
Academy (USMA) have been mentoring cadets to consider degrees in 
Science, Technology, Engineering and Mathematics (STEM) fields for the 
last several years. As a result, the STEM degree average rose to 26% of 
FY17 new lieutenants commissioned through ROTC, from 15.5% in FY12. 
USMA conducts STEM outreach for diverse youth as part of its recruiting 
strategy, and its Cyber Research Center and Cyber Center of Excellence 
prepares cadets in the acquisition, use, management, and protection of 
information. The Army is also executing a direct commissioning pilot 
program into cyber specialties to uniquely skilled and experienced 
individuals who meet program requirements. On the enlisted side, many 
of our highest level enlistment and reenlistment incentives are 
dedicated to cyber and other information technology fields. The Army 
also offers a variety of compensation incentives to recruit quality 
civilian talent into the cyber workforce, including up to 25% of the 
annual rate of basic pay for newly appointed employees, a higher pay 
rate through the Superior Qualifications and Special Needs Pay-Setting 
Authority, and up to $60,000 to repay student loans for a highly 
qualified employee. The Army retention program retains sufficient 
numbers of retention-eligible Soldiers consistent with fluctuating end 
strength requirements. The Army developed Special Duty (SD) and 
Assignment Incentive Pay (AlP) incentives to focus on Soldiers serving 
in critical cyber work roles, which complement the professional 
development and training benefits that also enhance the ability to 
recruit and retain quality personnel. The Army offers its civilian 
cyber workforce similar opportunities for career growth and formal 
training, as well as retention and relocation incentives to retain high 
performing employees.

    [Clerk's note.--End of questions submitted by Ms. Roby. 
Questions submitted by Ms. McCollum and the answers thereto 
follow:]

                       Fighter Oxygen Deprivation

                         witness: mattis, james
    Question. Gentlemen, I want to ask you about what appears to be a 
growing problem in which pilots across our services are reporting 
symptoms of hypoxia and oxygen deprivation. In the past few months, 
Senior Navy officials have reported a rising rate of psychological 
episodes experienced by F-18 pilots during flights. The Navy also 
halted the entire fleet of T-45 trainer jets because of pilots' 
breathing concerns. And then just last week the Air Force temporarily 
stopped flying F-35 fighter jets at Luke Air Force Base due to a number 
of incidents where pilots were reporting symptoms of hypoxia. It seems 
like we have a serious problem that is not unique to one fleet and 
extends across the services. Safety of flight is non-negotiable, and 
the increasing number of pilots suffering from oxygen deprivation is 
simply unacceptable. Gentlemen, how concerned are you about these 
reports and what is being done right now to ensure that our pilots are 
operating in a safe environment?
    Answer. The DOD and the Services are extremely concerned about 
aircrew safety related to hypoxia and oxygen deprivation. This is the 
number one safety issue, with the utmost priority to fix. All available 
assets (e.g. laboratories, specialists and test facilities across DOD 
and Industry) and expertise (e.g., NASA, Industry and Academia) are 
being utilized to assess, isolate and correct root cause(s). As the 
scientific and engineering investigations work toward determining the 
root causes, the Services are concentrating on four major pillars of 
action: to alert, monitor, protect and prevent hypoxia and oxygen 
deprivation. Although aircraft oxygen systems vary in complexity, there 
are two major potential contributors to hypoxia and oxygen deprivation 
that are common: the oxygen system not providing sufficient oxygen to 
the aircrew and cockpit pressure fluctuations. There are multiple 
technical paths being pursued, to include aircraft system hardware re-
designs and component improvements; maintenance and support process 
implementation and modification; interim operational limitations and 
modified flight procedures; aircrew and aircraft sensor integration; 
aircrew flight gear modifications; and aircrew awareness and training--
to name a few. The department has deemed this a resources unconstrained 
approach and will continue to receive maximum attention and 
prioritization until the risks of hypoxia and oxygen deprivation are 
resolved.

                         DoD Transgender Policy

                         witness: mattis, james
    Question. Mr. Secretary, we are approaching the July 1st deadline 
for the Defense Department to implement the policy that lifted the ban 
on transgender personnel from serving in the military. Is the Pentagon 
considering delaying this decision and if this is the case, was this a 
decision that was made internally at the Pentagon or was this direction 
that came from the White House?
    Answer. STATEMENT OF THE SECRETARY OF DEFENSE ON MILITARY SERVICE 
BY TRANSGENDER INDIVIDUALS: The Department of Defense has received the 
Presidential Memorandum, dated August 25, 2017, entitled ``Military 
Service by Transgender Individuals.'' The Department will carry out the 
President's policy direction, in consultation with the Department of 
Homeland Security. As directed, we will develop a study and 
implementation plan, which will contain the steps that will promote 
military readiness, lethality, and unit cohesion, with due regard for 
budgetary constraints and consistent with applicable law. The soon 
arriving senior civilian leadership of DoD will play an important role 
in this effort. The implementation plan will address accessions of 
transgender individuals and transgender individuals currently serving 
in the United States military. Our focus must always be on what is best 
for the military's combat effectiveness leading to victory on the 
battlefield. To that end, I will establish a panel of experts serving 
within the Departments of Defense and Homeland Security to provide 
advice and recommendations on the implementation of the President's 
direction. Panel members will bring mature experience, most notably in 
combat and deployed operations, and seasoned judgment to this task. The 
panel will assemble and thoroughly analyze all pertinent data, 
quantifiable and non-quantifiable. Further information on the panel 
will be forthcoming. Once the panel reports its recommendations and 
following my consultation with the Secretary of Homeland Security, I 
will provide my advice to the President concerning implementation of 
his policy direction. In the interim, current policy with respect to 
currently serving members will remain in place. I expect to issue 
interim guidance to the force concerning the President's direction, 
including any necessary interim adjustments to procedures, to ensure 
the continued combat readiness of the force until our final policy on 
this subject is issued.

    [Clerk's note.--End of questions submitted by Ms. McCollum. 
Questions submitted by Mr. Ryan and the answers thereto 
follow:]

                                  F-35

                         witness: mattis, james
    Question. A. For such an expensive aircraft, I'm concerned about 
our pilots having to self-limit their flying in this way. How long do 
we anticipate having this issue with the F-35? Are we concerned about 
adversaries exploiting this weakness by adjusting their tactics against 
the F-35? B. Do you anticipate further slippage in the F-35 schedule?
    Answer. A. The restriction on the weapons bay doors was removed in 
March 2016 as a result of further analysis, test, and requalification 
of the limiting component, which was the Remote Input/Output unit 
within the weapons bay. With this restriction lifted there are no 
concerns related to adversary exploitation. B. Since the flight 
restriction related to excessive weapons bay temperature was lifted in 
March 2016, the F-35 program does not anticipate any related schedule 
slippages. In a broader context, the F-35 program continues to make 
steady progress toward the completion of its System Development and 
Demonstration (SDD) phase and delivery of full Block 3F capability. 
Following the 2011 re-baseline, the program of record estimate for the 
end of developmental flight test was October 31, 2017. Since the time 
of this re-baseline, the F-35 Joint Program Office has recognized a 3 
to 4 month risk associated with this date, putting the end of SDD 
flight test in early CY 2018. The program is tracking to completion of 
SDD flight test in that timeframe. Delivery of full Block 3F capability 
remains on track as well; current estimates for delivery of full Block 
3F capability by variant are shown in the table below.

                    FULL BLOCK 3F CAPABILITY DELIVERY
------------------------------------------------------------------------
    2011 Post Nunn-McCurdy APB Dates             Current Estimate
------------------------------------------------------------------------
Objective: August 2017.................  F-35A: October 2017 (w/o AIM-
                                          9X).
                                         November 2017 (w/AIM-9X).
                                         F-35B: November 2017 (1.3
                                          Mach).
                                         May 2018 (1.6 Mach).
Threshold: February 2018...............  F-35C: January 2018 (1.3 Mach).
                                         February 2018 (1.6 Mach).
------------------------------------------------------------------------

    The delivery of full capability for all 3 variants falls within the 
2011 Acquisition Program Baseline dates with the exception of the B-
model envelope between 1.3 and 1.6 Mach. This is due to the fact that 
only one B-model test aircraft (BF-3) has been properly instrumented 
for the testing needed to reach 1.6 Mach.

                           Weaponized Drones

                         witness: mattis, james
    Question. Do you have adequate funding and authorizations to deal 
with emerging threats, such as weaponized drones? How can Congress 
support you better?
    Answer. The Department has adequate authorities to respond to 
emerging threats, such as weaponized drones, in zones of active 
conflict overseas. For instance, Rapid Acquisition Authority (RAA) 
provided under section 806 (c) of Public Law 107-314, enables the 
Secretary or Deputy Secretary to waive certain laws, and, with certain 
limitations, permit the use of any funds available to the Secretary, in 
order to respond quickly to Urgent Operational Needs and to expedite 
delivery of capabilities to the warfighter. DoD authorities to counter 
potential (weaponized) drone threats in the homeland are constrained by 
provisions of Federal law. Congress--in the FY2017 NDAA--established 
section 130i of title 10, U.S. Code, which authorized the Secretary to 
mitigate threats posed by drones to the safety or security of 
facilities and assets related to three DoD mission areas, including 
nuclear deterrence, missile defense, and the national security space. 
DoD is seeking a modest expansion of this authority in the FY2018 NDAA 
to, in part, incrementally expand the covered missions detailed in the 
authority. The Department will continue to plan for and resource 
capabilities to counter weaponized small unmanned aircraft consistent 
with the risks these threats pose and their overall priority in future 
President's Budget requests.

                         Additive Manufacturing

                         witness: mattis, james
    Question. A. How are we empowering our servicemembers to use 
additive manufacturing? Are you receiving sufficient funding? B. Is 
there work to include contractual requirements for the manufacturing 
base to provide MILSPECS for additive manufacturing parts when they 
cease carrying existing product lines?
    Answer. For several years the DoD Manufacturing Technology 
programs, under the collaborative umbrella of the Joint Defense 
Manufacturing Technology Panel, have been working to enhance standards 
for technical data packages (TDPs). A TDP is ``a technical description 
of an item adequate for supporting an acquisition strategy, production, 
engineering, and logistics support. The description defines the 
required design configuration and procedures to ensure adequacy of item 
performance. It consists of all applicable technical data such as 
drawings, associated lists, specifications, standards, performance 
requirements, quality assurance (QA) provisions, and packaging 
details.'' Citation needed. Although TDPs are applicable to all types 
of manufacturing (not just additive manufacturing), their widespread 
use would greatly enhance DoD's ability to make parts after the 
original manufacturer has ceased production. Regardless of whether 
parts are made additively or otherwise, each acquisition program office 
is responsible for deciding whether to include delivery of TDPs as part 
of the contract deliverables. While providing TDPs benefits DoD by 
providing information needed to make the parts indefinitely, industry's 
concerns include: (1) TDPs are often considered proprietary, and 
manufacturers may only agree to document and deliver the data at a 
significant expense to the DOD; (2) the packaging and delivery of TDPs 
may require special handling which adds further expense; and (3) there 
is a wide variance in the capabilities of the acquiring organizations 
to validate and store TDPs. Through the DoD-wide AM Business Model 
Wargame working group, the Department is working with industry to 
address the concerns with acquisition contract language related to 
technical data. The various efforts in this area hope to address both 
concerns of industry and the needs of the Department.

                         Translators and Visas

                         witness: mattis, james
    Question. A. Can you comment on the impact of our translators to 
the safety of our military forces? B. Can you discuss how strengthening 
our ties with allied citizens in these regions and honoring our 
commitment to our translators preserves the safety of our forces? C. Do 
you recommend that we continue to authorize and appropriate Special 
Immigrant Visas?
    Answer. Translators provide a valuable service to our military 
forces serving overseas, particularly in areas of active combat. I 
agree that our translators should be well compensated for their service 
in order to promote continued support amongst our partners. The 
authorization and appropriation of Special Immigrant Visas however, 
needs to be weighed in the larger context of visa authorizations as 
determined by the State Department.

                               INF Treaty

                         witness: mattis, james
    Question. A. From your perspective as the senior military advisor 
are Russian treaty violations a risk to US Forces and commitments? Are 
we unduly constrained by treaties which only our nation is complying 
with, such as the INF Treaty? B. Do you find our defense unduly 
constrained by the INF Treaty given that we appear to be the only 
nation in compliance with this agreement? C. One additional area the 
General Dunford acknowledges as a risk to our strategic advantage are 
mounting global ballistic missile threats. I am aware that growth in 
missile defense capabilities for the United States have been paused 
while the administration conducts a Ballistic Missile Defense Review. 
Do you have an anticipated timeline for completion of the BMDR?
    Answer. Currently, we are able to satisfy our military requirements 
while remaining in compliance with the INF Treaty. However, any treaty 
violation that could allow Russia to unlawfully gain a military 
capability advantage poses a potential threat to U.S. forces. With 
respect to the INF Treaty, I believe the status quo, in which the 
United States remains in compliance with the Treaty and the Russians 
are in violation of it, is untenable. The INF Treaty is in our national 
security interest if all parties comply with their Treaty obligations. 
We will continue to engage Russia--directly and together with our 
allies--to urge Russia to return to full and verifiable compliance with 
its Treaty obligations, but our patience is not unlimited. Regarding 
missile defense, our goal is to complete the Ballistic Missile Defense 
Review in the October timeframe. However, I would like to assure you 
that our development of missile defense capabilities is not on hold 
during this process. The approximately $8 billion fiscal year 2018 
budget request for the Missile Defense Agency (MDA) missile defense 
programs includes funding for completing construction of the Aegis 
Ashore site in Poland, continuing development of the redesigned kill 
vehicle, developing a long-range discriminating radar, beginning work 
on a new radar in Hawaii, and continuing funding for advanced 
discrimination sensor technology and space-based kill assessment 
programs. We also remain on track to complete the deployment of 8 more 
interceptors in Alaska by the end of this year, bringing the total to 
44, and we are moving forward with efforts to bolster our defenses 
against advanced cruise missiles.

                            Industrial Base

                         witness: mattis, james
    Question. A. Is reliance on non-American-made products a risk to 
our national security? B. Could your share where you feel the 
Department will find its biggest challenges in the industrial base? 
What can Congress do to help you build up these lost industries? Is the 
solution more funding or more time?
    Answer. The Department understands there may be security concerns 
in some key technology and production areas that support maintaining 
our technical dominance. These security concerns might be associated 
with critical technology areas such as microelectronics, robotics, 
artificial intelligence, and virtual reality, or security-of-supply 
concerns resulting from foreign dependency on products from adversarial 
nations. However, reliance on non-American made products is necessary 
to take advantage of the cost and technology benefits offered by access 
to global suppliers and many of our non-American made products are 
provided by trusted allies. The Department continues to identify and 
address risks related to supply-chain disruption, counterfeit parts, 
sabotage, and theft of critical American defense technology. Our job is 
to create a balance that allows us to benefit from global markets 
without putting at risk our national security. The biggest industrial 
base challenge the Department is facing is to sustain a healthy and 
resilient industrial base. DoD is concerned about the viability of 
critical elements of the supply chain at the lower-tiers for defense-
unique markets and heavily commercial markets where DoD has very 
limited participation. On July 21, the President signed an Executive 
Order requesting the Department, in coordination with Commerce, Labor, 
Energy, and Homeland Security, to provide a report assessing the 
products and materials essential to national security and the 
resiliency of the manufacturing and defense industrial base and supply 
chains to support national security needs. In the next months, we will 
be working with multiple government agencies and industry to do the 
required assessment and provide recommendations to mitigate identified 
issues. The solutions to mitigate industrial base risks involve both 
adequate funding and time to implement them. The Department thanks you 
for your continuous support to the programs and authorities that allow 
us to sustain an innovative and healthy defense industrial base. 
Programs like the Manufacturing Institutes, the Industrial Base 
Analysis and Sustainment Funds, Defense Production Act Title Ill, and 
ManTech are helping us to work with industry to identify and reduce 
supply-chain risks. We ask you to continue supporting sufficient and 
timely investments to sustain the industrial base.

                            AAFES and NEXCOM

                         witness: mattis, james
    Question. A. What is the status of healthy, convenient food options 
for our servicemembers? Are you getting the support necessary from 
AAFES and NEXCOM to provide healthy choices for our servicemembers? B. 
What can we do to encourage a healthy style of eating that will support 
our servicemembers career and fitness needs? For example, would it help 
if every base has a Nutrition Coordinator to help unify the efforts of 
dining facilities and convenience food outlets elsewhere on base?
    Answer. A. Healthy, convenient food options continue to expand Army 
wide. Building on the success of the DoD Healthy Base Initiative, the 
Healthy Army Communities (HAC) program commenced as a coordinated Army-
wide program to improve the health and wellness of the total Army 
community, including active duty, reservists, families, civilians and 
retirees. The program focuses on changing the environment to make the 
healthy choice easier while helping individuals change their behavior 
towards healthier lifestyles. This includes the reshaping of Army 
garrison communities to be healthier places to live, learn, eat, work, 
play and shop. AAFES is a very committed partner with HAC and has 
already begun identifying brand transition opportunities and contract 
timelines to consider brands with healthier offerings. AAFES also 
provides for healthier options through the ``Be Fit'' program of vetted 
healthy nutritional criteria that's highlighted in the Express 
locations with Healthy Only item end caps and new refrigerated island 
coolers featuring healthy only grab and go products. The program is 
more than just food, but also aligns with active wear and fitness 
equipment to promote overall health and wellness. Additionally, AAFES 
is actively participating in the development and implementation of the 
Military Nutritional Environment Assessment Tool (m-NEAT 2.0) and 
working with the DoD Food and Nutrition Subcommittee. B. We believe HAC 
and the newly launched Army Holistic Health and Fitness Initiative are 
the most effective way ahead to promote healthy eating, increased 
physical activity, improved sleep and the reduction of tobacco products 
in the total Army community. Stakeholders are in the process of 
coordinating and developing action plans with short and long-term 
initiatives. These plans will be used as a foundation for implementing 
both short and long-term improvements. In FY18, ten Army Installations 
will conduct Innovation Demonstrations that will highlight and measure 
many of the efforts and initiatives developed to encourage and promote 
health and wellness to the total community. These demonstrations will 
take full advantage of the many programs and support structures already 
in place to support the community and will increase education and 
awareness.
    Answer. A. Healthy food options are generally available to Sailors 
who, depending on their messing status, have a variety of choices for 
where they obtain their food. For the approximately 70% of Sailors who 
live off-base and receive a basic allowance for subsistence (and those 
who live on base but are authorized to mess separately) food options 
include the base or ships galley, the commissary, civilian grocery 
stores, NEXCOM mini-markets, and both on-base and off-base restaurants. 
Sailors provided subsistence in kind are entitled to take all of their 
meals at the galley, which always provides healthy options, but are 
free to use their income to purchase food at commercial establishments 
if they desire. NEXCOM supports healthy eating across the spectrum of 
food sales. The food and merchandising experts, with the guidance of 
the staff dietician, work to ensure a balance of eating options at each 
installation. As part of NEXCOM's ``A Better You Program,'' exercise 
and healthy lifestyle products and information are promoted, and 
healthy eating is addressed through: 1. Food Service--NEXCOM provides 
name-brand food service as a complement to government dining facilities 
(where available) and home eating. Food service contracts include a 
clause requiring food partners to post nutritional information on their 
food offerings. The Subway chain represents approximately 20% of 
NEXCOM's fast food portfolio and is widely recognized as an industry 
leading healthy brand, and each restaurant is encouraged to provide 
healthy menu options. As new or existing spaces become available, new 
partners that promote healthier eating are pursued. 2. Retail--NEXCOM 
has extended a Fresh Food Initiative to 87 locations such as minimarts 
and micromarkets, across CONUS and OCONUS. These locations feature a 
full assortment of grab-and-go healthy options such as whole and cut 
fruits, gourmet wraps, salads, sandwiches, vegetables and yogurt. B. 
Providing for the optimal nutritional fitness and well-being of Service 
members, without unreasonably infringing on their personal liberties, 
is a priority for the Navy. Optimized nutrition is a significant 
component of preventive health strategies with potentially significant 
pay back in maintaining mission readiness, long-term health, and well-
being while reducing personnel losses, subsequent accessions and 
training, and direct health treatment costs. Sailor's food choices are 
affected by taste, price, convenience, and nutritional literacy. The 
Navy has several programs to improve nutritional literacy, including 
``Go For Green'' food labeling in the galleys and the Navy Operational 
Fitness and Fueling Series (NOFFS). However, while Sailors are 
generally aware of the healthy food choice, they often choose less 
nutritious options because of taste, price or convenience. The proposed 
example of a Nutrition Coordinator on every base is likely to have a 
low return on investment because of the challenge posed by complex mix 
of appropriated, non-appropriated and off-base food options and the 
vastly different business imperatives they face.
    Answer. A. Marine Corps Manpower and Reserve Affairs' (M&RA) 
Business & Support Services Division (MR) encompasses the Marine Corps 
Exchange (MCX), Marine Marts, Vending, Tactical Field Exchanges and MWR 
Food Operations (clubs, food courts, snack bars, and restaurants). 
These are valued non-appropriated fund (NAF) entities that provide 
critical financial support to a myriad of MWR, and Family Readiness 
programs. These venues provide a variety of items geared towards the 
promotion of an active healthy lifestyle. Our MCX has increased the 
number of healthy grab-and-go offerings at Marine Marts, highlighting 
``Better for You'' products including beverages, fresh fruits, yogurts, 
smoothies, boiled eggs, snack foods, sandwiches, salads, as well as, 
creatively packaged lunch kits designed as portion-controlled 
convenience offerings. Similarly, Marine Corps NAF food courts, snack 
bars and restaurants feature several healthier concepts such as 
Wheatfields, LifeJuice, Panera Bread, Chopz and Jamba Juice. 
Additionally, many Marine Corps clubs offer reduced portion sizes, 
expanded salad bars, and alternative sides such as fruit or steamed 
vegetables. B. The Marine Corps actively participates in several DoD-
led programs to develop new ways to promote healthy lifestyles for 
Marines and their families, including: DoD's Total Force Fitness 
initiative, which is a framework for building and maintaining health, 
readiness and performance; Operation Live Well, a DoD wellness 
campaign, aimed to make healthy living an easy choice for service 
members, retirees, civilians and their families; and DoD's Nutrition 
Committee. We have also partnered with Cornell University, the National 
Association of Convenience Stores, and Pepsi & Coca-Cola to test new 
ways of promoting healthy consumption choices. A mandated education 
component by credentialed nutritional educators would assist in 
demystifying purported ``healthy'' items. Transforming available food 
options on the installations by nutritionally educated Marines who 
choose to spend their food dollars on healthy options, rather than on 
less healthy options.

    [Clerk's note.--End of questions submitted by Mr. Ryan. 
Questions submitted by Ms. Kaptur and the answers thereto 
follow:]

                   Domestic Small Gas Turbine Engines

                         witness: mattis, james
    Question. What steps are the DoD taking to preserve a dual domestic 
source for procurement and maintenance of small gas turbine engines 
(the type used to power Harpoon and F-107 missiles)?
    Answer. Small gas turbine engines power the U.S. Navy Harpoon, 
Standoff Land-Attack Missile-Expanded Response (SLAM-ER) and Tomahawk 
weapons. The Harpoon and SLAM-ER are powered by J402 engines, which 
Teledyne Technologies manufactures. Tomahawks are powered by F107 and 
F415 engines manufactured by Williams International. Both Teledyne 
Technologies and Williams International are domestic companies. 
Currently, these weapons are in production for the U.S. Navy or foreign 
military sales. Additionally, there are maintenance activities for 
sustainment that include tasks performed by these engine companies. 
Looking to the future, Williams International, Teledyne Technologies, 
and Florida Turbine Technologies (also a domestic company) are 
individually partnered with the Department of Defense under the 
Versatile Affordable Advanced Turbine Engine (VAATE) Consortium. This 
consortium aligns technology investments with projected requirements of 
future programs. The domestic industrial base for small gas turbines is 
assessed as healthy. This position is supported by participation of two 
domestic engine companies in production and maintenance activities of 
current weapon systems along with membership/involvement of three 
domestic sources in technology advancement of small gas turbines. This 
level of participation and interest is providing an innovative 
environment that includes competitive pressure.

                          U.S. Steel Industry

                         witness: mattis, james
    Question. What are the DoD's concerns as related to our national 
security due to the stresses on our U.S. Steel Industry caused by 
severe dumping by China, South Korea and Russia?
    Answer. The Department's concerns related to our national security 
resulting from stresses caused by excess foreign production capacity on 
the U.S. Steel Industry are generally associated with potential adverse 
impacts and negative effects on the viability of U.S. steel producers. 
DoD needs a healthy U.S. steel industry, but military uses of steel 
represent approximately three percent of U.S. steel demand. Therefore, 
the Department believes that DoD programs will be able to acquire the 
steel necessary to meet national defense requirements.

                               Beryllium

                         witness: mattis, james
    Question. What is the DoD doing to preserve our single source of 
domestic Beryllium?
    Answer. In 2005, the Department of Defense (DoD) executed and 
successfully completed a 9-year beryllium domestic-production, 
capacity-development project. The project's purpose was to establish 
and preserve an assured supply of beryllium for U.S. defense 
requirements. The Department is undertaking a refreshed industrial base 
assessment of beryllium. The purposes of this assessment are to 
identify any new unmet U.S. defense requirements for beryllium, and if 
so, the potential need for further industrial base investment by the 
Department in related areas. We expect to complete this assessment 
during 2018.

                             Russian Threat

                        witness: dunford, joseph
    Question. Please summarize the nature of the Russian threat.
    Answer. Russia presents the greatest array of military challenges 
and remains the only potential existential threat to the United States. 
They continue to invest in a full-range of capabilities designed to 
limit our ability to project power into Europe and meet our alliance 
commitments to NATO. These capabilities include long-range conventional 
strike, cyber, space, electronic warfare, ground force and undersea 
capabilities. Russia is also modernizing all elements of its nuclear 
triad. These modernization efforts must also be viewed in the context 
of their activities in the Ukraine, Crimea, and Syria. Russia's 
operations, capability development, and asymmetric doctrinal and 
strategic approaches are designed to counter NATO and U.S. power 
projection capability, and undermine the credibility of the NATO 
alliance.

                               Article 5

                        witness: dunford, joseph
    Question. Please state for the record, why are the European 
Reassurance Initiative and affirmation of our Article 5 commitment so 
critical to democracy?
    Answer. The North Atlantic Treaty is founded on the principles of 
democracy, individual liberty, and the rule of law. The Treaty reflects 
the commitment of all NATO Allies to safeguard the freedom, common 
heritage and civilization of their people, to promote stability and 
well-being in the North Atlantic area, and to unite their efforts for 
the preservation of peace and security and for collective defense. 
Article 5 is the foundation on which this commitment is based, and has 
ensured the security of the Euro-Atlantic area since 1949. The U.S. 
commitment to Article 5 not only reassures our NATO Allies that the 
U.S. will take action, in the event of an armed attack against one of 
more of them, to restore and maintain the security of the North 
Atlantic area; but it also serves to deter any potential aggressor from 
conducting an armed attack against any NATO nation, knowing the U.S. 
will respond, in accordance with Article 5. The 2014 Russian occupation 
and annexation of Crimea, and subsequent Russian backed and led 
fighting in the Donbass, has shown Russia's willingness to use force to 
achieve its objectives, and disregard for the sovereignty of 
independent nations. These Russian actions have led to concern and 
uncertainty in many of the democratic nations of Europe. The European 
Reassurance Initiative is a tangible demonstration of our commitment to 
democracy in Europe, reassures our democratic allies that we are 
committed to their sovereignty, and shows Russia that their efforts to 
undermine democracy in Europe will not be tolerated, and will be met 
with force if needed.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    

                                           Wednesday, May 24, 2017.

                NATIONAL GUARD BUREAU/RESERVE COMPONENTS

                                WITNESS

GENERAL JOSEPH L. LENGYEL, CHIEF, NATIONAL GUARD BUREAU

             Opening Statement of Chairman Granger--Panel 1

    Ms. Granger. The Subcommittee on Defense will come to 
order. This morning, the subcommittee will hold a hearing on 
the posture of the National Guard and Reserve Components. This 
will be a two-panel hearing. Panel 1 recognizes the Chief of 
the National Guard Bureau. Panel 2 will recognize the Reserve 
Component Chiefs from the Army, Navy, Marine, and Air Force 
Reserves. I would encourage all members to stay for both 
panels.
    Our witness for panel 1 is General Joe Lengyel, Chief of 
the National Guard Bureau. We are pleased to welcome General 
Lengyel, a four-star sitting member of the Joint Chiefs of 
Staff.
    Welcome, and welcome to the subcommittee hearing, your 
first time to testify as Chief. As Chief of the Guard Bureau, 
General Lengyel will address all joint Army and Air National 
Guard questions.
    General, we have known each other for a long time, and as 
Chairman, I value your knowledge and your experience in leading 
the National Guard. Given the challenges our Nation faces, we 
want to ensure that you have the resources and support to 
accomplish your mission. This subcommittee has provided the 
Guard with additional resources to the National Guard and 
Reserve Equipment Account, an appropriation which has never 
been included in a President's budget request, additional 
funding for counterdrug operations, HMMWVs, helicopters, fixed-
wing aircraft, and more.
    However, we are concerned this is not nearly enough when 
you take into account the funding is significantly less than 
the vast resources available to the Active Components. Our 
country stands for strength, and citizen soldiers are the 
background and the foundation of that strength. There are 
limited resources and significant needs. We should not make 
decisions in a vacuum. We will rely on your best military 
advice to guide these funding decisions. We look forward to 
your testimony and your insight. But, first, I would like to 
call on the ranking member, my friend, Pete Visclosky, for his 
comments.
    Mr. Visclosky. Well, I simply want to thank the Chairwoman 
for holding the hearing today and, General, for your service 
and your testimony. I look forward to it. Thank you very much.
    Ms. Granger. General, please proceed with your testimony. A 
full written testimony will be placed in the record. Please 
feel free to summarize your oral statement so we can leave 
enough time to get to everyone's questions.

                  Summary Statement of General Lengyel

    General Lengyel. Thank you, Chairwoman. Thank you very 
much.
    I think I say that to you and to Ranking Member Visclosky 
and distinguished members of the subcommittee, it is a pleasure 
for me to be here today, and I look forward to talking to you 
about the men and women of not only the Army National Guard but 
also the Air National Guard.
    In summary, the National Guard focuses on three things. It 
focuses on our warfighting mission, the homeland mission, and 
building partnerships. And thanks to the support from this 
committee, I can tell you that the National Guard that I have 
the honor to represent here today is the most ready it has ever 
been, I think, or the most capable National Guard it has ever 
been in our 380-year history.
    As I talk to you today, we have 18,000 men and women 
deployed in every combatant command around the globe. In 
addition to that, I have 4,000--you have 4,000 of your men and 
women working for homeland defense and Homeland Security 
missions here today. And we have made and continue to develop 
robust partnerships with not only our international partners 
through the State Partnership Program, which is about to go to 
79 partnerships when we formalize the relationship with 
Malaysia here in the near term--thanks to you and the funding 
that this committee has provided, that State Partnership 
Program has taken on a strategic impact that I think maybe, 
when we developed it, we didn't see that it was becoming.
    This committee provides the resources for us through NGREA, 
as you mentioned in your remarks, to maintain a force that is 
first ready for the war fight but used as a dual-nature force, 
as it is our job as the National Guard to be ready to provide 
those forces here in the homeland when the Governors and the 
States need us to do that. And never have we been more ready to 
do that, whether it is fires or floods or winter snowstorms or 
terrorists, such as bombs blown up in Boston, the National 
Guard is there, and we are trained, and we are ready because of 
the resources that this committee has chosen to give it.
    The relationship with our parent services, the Active Duty 
Air Force and the Active Duty Army, I have to tell you, has 
never been better. My relationship with General Milley and 
General Goldfein, who I understand testified yesterday, have 
committed to a Total Force that includes an operational use of 
the Reserve Component. And if I have one ask of this committee 
today, it is to maintain the Reserve Component, and, in my 
case, the National Guard, as an operational force. We have been 
driven to that because of the demands placed on our Department 
of Defense and the global nature of the threat.
    The services have had to rely more on the use of the Army 
National Guard and the Air National Guard than ever before, and 
because of that, they are willing to invest in us, invest in 
our leaders, invest in our training, and because of the 
resources this committee gives us, we have the equipment, the 
people, and the training to go there. Can we use more? Can we 
get better? Yes, we can. But I report to you today, and I thank 
this committee today for the opportunity to testify, and I look 
forward to your questions.
    [The written statement of General Lengyel follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

                             SEQUESTRATION

    Ms. Granger. Thank you so much. I want to make our members 
aware that we will be using a timer for each member and that 
you have 5 minutes, including questions and responses, for the 
witness. A yellow light on your timer will appear when you have 
1 minute remaining. If time permits, we will have a second 
round of questions.
    I am going to ask a question to begin. General Lengyel, 
full-spectrum readiness training has been suppressed over the 
past 15 years due to combat operations in Iraq and Afghanistan. 
In recent years, sequestration further squeezed the readiness 
dollars needed to resume such training. Could you describe the 
impact this has on military readiness now and in future years, 
and how does the fiscal year 2018 request begin to address 
those concerns?
    General Lengyel. Yes, ma'am. I think you address the 
problem that the service Chiefs have talked about in terms of 
the ability to maintain full-spectrum readiness for their 
force, mostly because of the demand on that force and the 
limited funding to sustain things like flying hour programs, 
complex training scenario programs. But we are beginning to dig 
out of that and rebuild readiness inside the services and 
inside the National Guard.
    The Army National Guard and the Air National Guard have 
been used in an operational sense, which has allowed the 
services in some cases to maintain or rebuild their readiness.
    Sequestration clearly is going to limit every aspect, would 
limit every aspect of our ability to do that, should it come in 
the future. And I would tell you that predictable and 
dependable funding is probably the single most important factor 
that we in the National Guard need so that we can plan to 
recruit our people, so that we can plan to train our people, 
and so that we can maintain our equipment and recapitalize our 
equipment through the services as we normally do. So I think 
that clearly readiness is funding-related, and this budget 
begins to build some of that back, but it is going to take a 
long time before all of the things, the recapitalization and 
modernization of the force, are fully complete.
    Ms. Granger. Thank you.
    Mr. Visclosky.
    Mr. Visclosky. I will pass. Thank you.
    Ms. Granger. Ms. McCollum.

                      FAMILY ASSISTANCE SPECIALIST

    Ms. McCollum of Minnesota. Thank you. Good morning. I am 
going to touch on something, and then I have a question. So I 
am glad you are here today, in part because we are going to 
learn a lot more on how we can be a proactive partner in making 
sure that the Guard remains the successful part of our military 
force that it is.
    But I also want to take this opportunity to reinstate some 
concerns that I have with you about the family assistance 
specialists. It is still causing a lot of concern among my 
Guard members, family members, constituents which include the 
businesses that employ these Guard members and many, many other 
people in Minnesota and, I know, other States as well.
    As we talked about in my office, these specialists provide 
critical benefits and assistance. And in Minnesota alone, there 
were 1,700 cases handled by these folks. I understand there has 
been a new contract issued, but, folks, when someone's hourly 
wage increase for a job that they are doing is cut from $21 to 
11--to $14 an hour, it sends a message to the people who had 
been previously doing this job: You can work for less money, or 
your work is not valued.
    So we are going to be watching to see what happens with 
county veterans service offices in Minnesota's caseloads, what 
happens in our congressional office with caseloads now that the 
expertise isn't there. So I know you are going to be monitoring 
this, too, and change is always an option, and we need to maybe 
work with a new vendor or figure something out if this is a 
problem. Maybe it won't be, but we are a little alarmed.

                      ARMORED BRIGADE COMBAT TEAMS

    What I would like to focus on is the five National Guard 
armored brigade combat teams. Currently, the operating tempo 
has been drastically increased so the number of training days 
for National Guard soldiers went from 60 to 90. That is an 
extra month, right, on average. So we know this increase in 
training days is important. But along with what we have 
happening with mobilization, deployments, it is putting more 
and more of a burden on the quality of life for soldiers, their 
units, and their families. So I am concerned and the Minnesota 
National Guard is concerned about long-term retention in these 
brigades. I know we want to make sure that we have a great 
readiness posture so everybody is able to perform their job 
successfully and come home safely.
    But can you tell me how you are going to be monitoring and 
some of the concerns that you might have with going from 39 to 
60 days on average?
    General Lengyel. Well, yes, ma'am. I can tell you that we 
are aware of this issue, and that is one of the things as the 
Chief of the National Guard Bureau that I track closely, is I 
worry about the business model of the National Guard, which 
means our soldiers and airmen have a civilian life and a 
military life. And if I lose support from the soldier or airman 
to support both of those lives, if he is forced to make a 
choice or she is forced to make a choice, then I know which one 
they will pick, and most likely I will lose that soldier or 
that airman.
    So what we are trying to do, as you are aware is, yes, it 
is true that the armored brigade combat teams will require more 
training to be ready should the United States Army need them to 
fight in any of the various scenarios where they will be.
    I will tell you that some of this transformation has 
already happened in terms of the Army force generation model 
previously has been for several years now a graduated increase 
in the training requirements as the brigade progresses through 
its training cycle just before it is available to be deployed, 
and that is not new.
    What is new is that the United States Army has decided to 
increase the training available to the brigade combat teams. We 
are going to go from two combat training center rotations a 
year to four combat training centers a year. In my estimation, 
that is a good thing in that it is going to make this 
operational Army National Guard more valuable to the country, 
more valuable to the Army, and more ready so it can be ready 
quicker should it go out the door.
    To your point about how are we going to monitor them, well, 
I think that this is a leadership issue. This is something 
where we have to watch the people, personal engagement on my 
part, on the adjutant general's part, on the commander's part, 
with making sure that the schedules that we give these soldiers 
are predictable, that we let the employers know that you can 
count on these soldiers, and that these increased training 
times actually result in a deployment for the soldiers at the 
end. Otherwise, they won't be seen as a reason why--why should 
an employer endure the extended time away from their jobs if, 
at the end of that training period, they don't use them? So, as 
we are going through this now, the plan is for the Army to use 
these forces and deploy them.
    This is the first cycle of this, and some people have 
decided that they have to change. They can't support it, and 
they will change MOSes and go someplace else. I lived this in 
the Air National Guard myself as a guardsman in the mid-1990s, 
when we began to deploy regularly, and it definitely changes 
the paradigm. So there will be a change as this goes forward, 
and we are going to have to work with the employers and the 
members to the maximum extent possible so that we don't lose 
them.
    Ms. McCollum of Minnesota. Well, thank you for your answer, 
and I am taking it in the spirit in which I think you totally 
meant it, but I am going to put a cautionary tale on it. This 
just isn't about leadership to put up and to be quiet about it. 
This is also about leadership to see if we need to go back and 
review and figure out how these folks are not only trained but 
deployed in the future.
    Thank you.
    Ms. Granger. Thank you. Chairman Emeritus Rogers.

                              END STRENGTH

    Mr. Rogers. Thank you, Madam Chairwoman.
    Welcome, General, to these premises. Let me ask you, the 
Guard has a dual responsibility, one to the State of their 
location, the Governor, and, of course, then the combatant 
commands on the Federal level. The previous administration 
proposed cuts, continued cuts, to Guard end strength. But our 
2017 bill reversed those cuts to end strength and will add 
1,000 Army Guard troops above the 2016 level. Tell us how you 
are going to utilize that extra manpower.
    General Lengyel. Yes, sir. Thank you. That is true, and we 
are happy to see that the reduction in end strength stopped for 
the Army National Guard. And because of the two missions we 
have, when force structure leaves our States, it is a double 
hit. It is a hit against the Federal mission, and it is a hit 
against the ability to do our homeland mission. So our plan is 
to take the additional manpower that we have. If you recall, we 
were on a glide path to 335,000 force structure inside the Army 
National Guard. It stopped at 342,000 last year, and we were 
able to grow it back 1,000 to 343,000 this year. Our intent is 
to take that additional manpower, and as I talked about on the 
five brigade combat teams, is we are going to place it against 
and increase the readiness of these high-demand, operationally 
deploying units that will make them more ready, be able to get 
ready quicker, and train as they go.
    One of the concerns, frankly, of the increased manpower is 
we got the people back, but we didn't get the increased full-
time support back with it. We got the part-time soldiers back. 
We took the full-timers out all the way down to 335,000. We 
built the Army Guard back up to 343,000, but they were part-
time billets and not full-time billets. And that hurts our 
ability to generate the force quickly and keep it ready and 
minimize the time it takes to get it ready to go out the door.

                          COUNTERDRUG PROGRAM

    Mr. Rogers. In my State, and I suspect I speak for all 
States when I say this, we have got a tremendous, incredible 
drug problem. And in my area, the Guard has had a great program 
to eradicate marijuana in the remote hills of Appalachia, where 
it is apparently a very great climate for the growth of 
marijuana. But that Guard unit has just been tremendous. In 
joint support operations, they have eradicated 13 million 
marijuana plants. They have seized tons of marijuana, illegal 
weapons, and so forth, all to the tune of $25 billion.
    And we are seeing now across the country an effort 
apparently to make marijuana legal. But in the hills of 
Kentucky--and I have been on a couple of these missions where 
they fly into a very remote area of mountains, no homes or 
properties of any kind--mainly the marijuana is grown under 
high-tension electric wires right-of-way. Number one, you can't 
prove who owns it. And, number two, you can't get there with a 
helicopter because of the electric lines and the like. And the 
troopers have to rappel down a rope, cut the marijuana, put it 
in a big bag, put it over their shoulder, and they are picked 
up by the helicopter and carried 50 miles dangling 100 feet 
from below a helicopter. Very dangerous work but very 
productive. Do you see that continuing, and what can we do to 
help you see that?
    General Lengyel. Well, first, let me thank this committee 
for the $234 million we got in this year's appropriation for 
the Counterdrug Program. That Counterdrug Program, as you said, 
sir, is incredibly important, I believe, to leverage the skill 
sets that we have in the National Guard to facilitate and work 
with law enforcement to detect, disrupt, curtail illegal drug 
activities in every State.
    As you mentioned, the State of Kentucky has an issue with 
marijuana, and I think that, you know, as you look across the 
Nation, every State's program is tailored for the individual 
requirements that they have inside their State, and that is the 
way it should be. So, as we look at the disbursement of the 
$234 million, we have what is called the threat-based resource 
model, which has about 70 different factors. It allows each 
State to prioritize what is important to them such that when 
they come into the pool, their particular problem gets 
resourced, and then the States use those funds and develop 
their own plan, and in your case, sir, it is the eradication of 
marijuana inside Kentucky. And so I want to be able to continue 
to support that.
    I want to thank this committee for the continued funding of 
that program. Your funding of that program has enabled not only 
a robust liaison with law enforcement, but the schooling, the 
five additional schools that are funded have allowed us to 
build additional capacity to fight this drug issue, whether it 
is marijuana or opioids or heroin or synthetics. And we all 
know the significant toll that that has taken on our country 
across the Nation.
    Mr. Rogers. You mentioned opioids. My area was ground zero 
14 years ago at the outset of an OxyContin rage that raged 
across the country. But these marijuana growers frequently are 
the dealers in opioids, and it is a double whammy with the 
money that we put into the antimarijuana program because it 
does bring in additional breakers of the law.
    Well, we appreciate your service, sir.
    General Lengyel. Thank you, sir.
    Ms. Granger. Mr. Ruppersberger.

                            RUSSIA AGRESSION

    Mr. Ruppersberger. Thank you for being here, and also we do 
appreciate your service and what you do in our hometowns and 
also what you are doing to fight the war with ISIS and the 
other issues we deal with.
    I come from local government, so many, many times with 
storms and hurricanes, the National Guard has been there. And I 
also want to get a little local, but I want to acknowledge the 
Adjutant General Linda Singh, who is doing a great job in 
Maryland, is heading that area.
    As you know, the National Guard also plays a critical role 
in deterring Russia's aggression. I was just in Estonia about 3 
weeks ago, and Maryland National Guard has about 500 members 
there right now that are working on the cyber capability and 
helping Estonia deal with the Russian aggression and Russian 
hacks and those types of things.
    And when we met, I think a couple months ago, you said it 
was critical that Russia must respect the frontline National 
Guard combat units as well as the full time. And do you believe 
at this point that Russia sees the National Guard units in a 
strength position? Where do you feel we are at this point? Are 
there additional capabilities that this committee needs to help 
fund to get you to that level? And then also if you have time--
I think we do--I want to talk, if you can talk a little bit 
about that Maryland National Guard in Estonia and what their 
mission is and what they are doing, and what is their future 
there?
    General Lengyel. Congressman, I think when the Russians 
look across in Estonia or anywhere else in uniform and they see 
men and women in the Army, wearing an Army uniform, they see 
the United States Army. That is what I think they see. I think 
that is thanks in many ways to this committee. It is in thanks 
to 15 years or more now of continuous deployments, of 
integration of Army National Guard formations with Active 
Component formations, of a Total Force policy from General 
Milley and those on his staff that support this associate unit 
pilot program that is training our brigades with the Active 
Army brigades, aligning their formations so that we can train 
together and fight together.
    And I do think that everywhere I go--I was in the Sinai 
Peninsula this past week. I saw the swap out of an infantry 
brigade from Minnesota National Guard to the Massachusetts 
National Guard in the Sinai for the multinational force and 
observer mission, and I can tell you that they see no 
difference when they look across and they see, whether it is 
combat maneuver forces or whether it is combat support 
services, they are wearing the United States Army uniform. And 
there is one training standard for the Army, and the National 
Guard doesn't have a different one. The National Guard will 
train, will deploy, will be ready at the same training standard 
as the United States Army, and that is what I think Russia 
sees.
    And the second part of your question, Estonia, the State 
Partnership Program--and, again, thanks for the significant 
amounts of plus ups that you gave us for this year; I believe 
we got an additional $9 million added to the program from this 
committee--that enables the engagements we have. The cyber 
relationship with Estonia and their Cyber Center of Excellence 
over there, is a model for programs around the globe. That 
engagement since 1993, they were among the first three programs 
that started in the Baltics with us there. That ability to 
assure our allies of the United States' commitment to the 
region, that ability to train together with the forces in the 
region, have had a strategic impact on our ability to assure 
and strengthen the NATO alliance. And my thanks to Linda Singh, 
who has been a great supporter of that, the State Maryland, and 
everyone else who is part of that.
    Mr. Ruppersberger. You know, Estonia is only 120 miles from 
Russia, and Putin is continuing to threaten it. And they had 
one of those severe attacks, and as a country, they only have 
close to a million people. They decided they were going to take 
on Russia. And with our help, the United States' help and 
working with them, they have become pretty sophisticated, I 
think, from all the countries in that region dealing with the 
Russian aggression and trying to counter the Russian attacks.
    General Lengyel. Absolutely.
    Mr. Ruppersberger. I yield back.
    Ms. Granger. Thank you.
    Mr. Calvert.

                MODERNIZATION RECAPITALIZATION STRATEGY

    Mr. Calvert. Thank you, Madam Chairman.
    Good morning, General Lengyel. Thank you for appearing 
before the committee, and thank you for your dedicated service 
to our great Nation, especially on the eve of honoring those 
who sacrificed everything in the service of our country this 
coming Memorial Day.
    Readiness is the most dangerous limiting factor across all 
branches of our military, ranging from the timely training of 
personnel to aging aircraft. Congress, as you are aware, has 
appropriated additional funds for Army aircraft procurement, 
specifically for Black Hawk helicopters. In fiscal year 2017, 
Congress provided the Army National Guard with 15 additional 
Black Hawks. As you may know, my home State of California is 
one of the country's most active emergency response forces, and 
its primary workhorse for aerial support is the Black Hawk 
helicopter. California flies one of the oldest fleets of Black 
Hawks in the country. Sixty-five percent of them were built 
before 1990. In 2015, only 55 percent of the State's Black Hawk 
fleet was operational at any given time.
    Please explain to us your current modernization 
recapitalization strategy for allocating these aircraft and 
those projected in fiscal year 2018 and 2019. When do you 
expect the States to receive the first of those additional 
aircraft?
    General Lengyel. Yes, sir. Thank you and to this committee 
for the funding for the 15 Black Hawks. I think that, as we do 
with all our dispersion of equipment and recapitalization and 
modernization decisions, we look across the enterprise and see 
where it best makes sense to recapitalize a fleet at the time. 
I am not exactly sure yet when those Black Hawks are going to 
get delivered. I think that will make a case to determine when 
we get them. We will look at things like readiness as a fleet, 
maintenance statistics of the fleet, the sustainment levels of 
the fleet, potential deployments and utilization of those for 
our three missions--war fight, homeland, and partnerships--and, 
at the time, work with the Army National Guard to determine 
where its best to deploy those additional 15 Black Hawks. That 
is how we look at every stationing of all equipment, sir, and I 
thank you for your support of getting those Black Hawks.
    Mr. Calvert. I hope in that process you think of good ole 
California.
    General Lengyel. Absolutely. Yes, sir.

                         COUNTERDRUG OPERATION

    Mr. Calvert. To carry on with Chairman Rogers' line of 
questioning, combating terrorism and protecting our national 
interests abroad is only a part of the Guard's expansive 
mission. Protecting the homeland through the counterdrug 
operation is a vital mission I know that you take very 
seriously. In my area and throughout the United States, what 
are you seeing from these drug cartels, and do you see any 
association or collaboration between cartels and terrorist 
organizations?
    General Lengyel. So, sir, I think the consensus is that 
they are one in the same. I think that the money from the drug 
cartels is part and parcel to terrorist organizations. And 
counterterrorist organizations, countertransnational criminal 
organizations are all networked and aligned and work against 
the security of the United States.
    Mr. Calvert. Do you see any collaboration outside of 
organizations in South America, or are there organizations 
outside of South America involved in the drug activities?
    General Lengyel. It is a global network, no question. It is 
not limited to South America. The funding streams, part of the 
things that the National Guard provides is counterthreat 
finance analysis. We train people who do these kinds of 
analysis in great detail, and it is clear that funding streams 
in these networks are not geographically limited. They are 
global in their nature. No question.
    Mr. Calvert. Thank you, Madam Chair.
    Ms. Granger. Mr. Cuellar.

                NATIONAL GUARD STATE PARTNERSHIP PROGRAM

    Mr. Cuellar. Thank you, Madam Chair.
    And, again, thank you for your service.
    A couple things. There are some of us who pushed for two 
items. One was the million dollars more to the National Guard 
State Partnership Program, from 8 to 9. I would like to get 
your thoughts, what you are looking at doing with that extra 
money. And the other item was the, I think, fiscal year for the 
Counterdrug Program was 192, and some of us pushed it to $234 
million. So I would like to get your quick thoughts on those, 
and then I would like to ask you a question about Operation 
Phalanx.
    General Lengyel. Yes, sir. Thank you. As I mentioned the 
State Partnership Program and thanks to your funding, it is an 
incredible tool, strategic tools, for the Department of 
Defense, for the country, for our States. And the $234 million, 
my only worry is we got it so late in the year, I am worried 
that getting the money this late will be difficult for us to 
execute some of it because, as you know, we have the posture in 
the SPP, troops and people to go, and events, and work with 
host-nation countries, and some of these things take time to 
develop.
    Mr. Cuellar. And we understand.
    General Lengyel. But, clearly, we can spend every bit of 
money you give us for the State Partnership Program, given the 
lead time to spend it. And the same thing for the Counterdrug 
Program. There is no shortage of requirements or asks from law 
enforcement agencies for what we do across the program. So 
absolutely thank you for the----

                           OPERATION PHALANX

    Mr. Cuellar. If you want to just share with the committee 
and ourselves later on what your plans are, I would like to do 
that. I know the last time we were with Chairman Rogers and Mr. 
Womack, we went down to South America, and there are some 
partnerships out there. Chile has one with Texas, and you have 
other States also. Do you all have anything with Mexico? I know 
we have been trying to do something with Mexico. If we can help 
you, it would only make sense that our largest neighbor, at 
least to the south, is one. So if we can help you on that, let 
me just say that. We can follow up.
    I do want to ask you about Operation Phalanx. I know that 
Chairman Carter and Governor Abbott and I have been working on 
it. As you know, when you have Border Patrol, and they are 
doing night operations, the Air Marine, with all due respect, 
they do it during the day. They don't want to go out at 
nighttime. But you still have Border Patrol that are going out 
there, and you got to have something at nighttime, and 
unfortunately, some of our Air Marine folks, and we can address 
this later, but they don't go after 5 o'clock. And now they are 
trying to move away from the border, trying to set up--like 
they have a base in Laredo. They want to move to San Antonio. 
They want to be away from the border, which is 
counterintuitive. But the National Guard has done a heck of a 
job.
    We added some money, the leadership of John Carter and 
other folks, we added some money for Operation Phalanx, but 
what happened was that the Homeland Secretary, the previous 
Homeland Secretary, even though the money was there, they never 
asked. Then they send this little letter that really didn't 
mean anything. It was a feel-good letter. Then we contacted the 
new Secretary of Homeland, and his people are not familiar with 
it. You are familiar with it. We would ask you to get a hold of 
the new Secretary's office, and I believe the money is there. 
And whatever you all can do, because we got to give our men and 
women of the Border Patrol support at nighttime. It is unfair 
that they are out there in the night and there is no aerial 
support for them. So I would like to--I got about a minute and 
a half, but if you can finish on that thought, some of us, 
including Governor Abbott and ourselves, are big supporters of 
this.
    General Lengyel. Sir, I thank you for the $19 million for 
Operation Phalanx. I have already spoken to Secretary Kelly. I 
went to his office, and I met with him, and I told him about my 
recent trip to the Southwest border, McAllen was one place I 
went, and also in Nogales in Arizona, at the request of Senator 
McCain, to see the Southwest border. And I saw firsthand the 
need, the requirement, for additional air support to the folks 
who are on the border, the Customs and Border Protection agents 
who are there. I rode in an Army National Guard helicopter at 
night flying as part of the Counterdrug Program, with a Customs 
and Border Protection agent in the helicopter, and I must share 
with the committee it was not much different than what you see 
on TV for taking down a spot in Afghanistan. There weren't 
bullets and things flying along, but there were escorters. 
There were people running. There were police officers trying to 
apprehend them. And it is absolutely useful. So I commit to go 
back to Secretary Kelly, and I already have, and provided his 
staff a briefing on the capability we can provide.
    Mr. Cuellar. I know John Carter and other folks are 
interested, but if you can keep us informed, we really would 
appreciate it. Thank you for your time.
    My time is up. I yield back.
    Ms. Granger. Mr. Womack.

                           FULL-TIME MANNING

    Mr. Womack. Thank you very much, Madam Chair, and thanks to 
General Lengyel for his leadership and the work of our National 
Guard both on the Army and the Air side. Great questions coming 
from my colleagues today, talking about things like Border 
Patrol, security, counterdrug, operational tempo, Black Hawks, 
and those kinds of things.
    I am going to open a line of questioning about what I 
consider to be the single biggest issue facing our Guard today, 
and that is in relation to full-time manning. It is not a sexy 
subject. But it is a critical subject if we are going to 
continue to utilize our National Guard, as we should, as an 
operational force. As an example--and you correct me if I am 
wrong--when we were doing the drawdown on end strength, the 
Army Guard was scheduled to go to a number, and we were on the 
glide path to get to that number. And proportionately, full-
time manning was cut based on that number. And then when this 
Congress gives money back to the Guard for end strength and we 
increase that end strength, not increased was the proportionate 
loss of the full-time manning. That is insane that we would 
allow this to happen.
    So my question for you, General Lengyel is, how has this 
happened, and what is this doing to impact the readiness of a 
critical operational force for our military and our National 
Guard? Take all the time you need.
    General Lengyel. All right, sir. Thank you very much for 
that question. And so our business model in the National Guard 
is different. And I am a protector of that business model. I 
don't want to look like the United States Army. I do not want 
to look like the United States Air Force. We need to remain a 
preponderantly part-time force. That is the value in it for 
this country and for what we do.
    The United States Air National Guard is about 35 percent 
full-time. In its 100,000 people, 105,000, it is about 35 
percent full-time. In the Army National Guard, 343,000 people, 
we are about 16 percent full-time. What that full-time force 
does, and the only reason we have them and the only reason I am 
here before you today is to make ready for the United States 
Army and United States Air Force and the Governors in our 
States, is to make ready that force, to be ready, to be manned, 
to be trained, to be equipped, so that we can do the missions. 
That is why we have full-time people in the Army National 
Guard.
    So you need to understand why they were gone. Money--I 
understand why they are gone, why we took them. We had 
incredible bills to pay. In our budgets, that is where all our 
money is. Our money is in that small chunk of change, $16 
billion in the Army Guard. Two-thirds of that is people. Most 
of that is people. Same thing for the Air National Guard. So 
that is why it went. We had bills to pay and sequestrations and 
drawdowns and budgets. But what this force does is it prepares 
the force so that, when they come to drill for the 39 days or 
the 45 days or the 60 days, they have the structure to do the 
collective training they need to do to do their wartime 
tasking. They make sure that the equipment that they need to 
train on, the tanks and the Bradleys, that they work, that the 
aircraft are flyable, so that when the people come in, they can 
fly not only together, but they can fly in collective training, 
and they can do the kinds of training that the Army needs them 
to do. Same thing for the Air Force side. So the full-time 
support piece is what enables us to make the Army National 
Guard ready quicker. They come in and they prepare for a 
military unit training assembly for people to come in for a 
drill, and they put them together for 3 and 4 days at a time so 
that they can do some more training. They build the 
battlefield. They build the command post. They build everything 
so the soldiers come in, they get out of their pickup truck, 
they walk into the field, and they train. So, without the full-
time support, then they waste time. They have to come in. They 
have to build the battlefield. They have to train. They have to 
fix the equipment so they can fly it. It is incredibly 
important.
    I am not looking for huge numbers of--by the way, I am 
looking at my staff, NGB, where do we have full-time people 
right now so that, if I could, I could put some back out into 
the fields so that they can help make the operational force 
more ready. And I would tell you that I think if we are going 
to be ready quicker, stay an operational force, we are going to 
have to slowly increase the percentage of full-time support in 
the Army National Guard.
    Ms. Granger. Thank you.
    Mr. Ryan.

                 RESERVE COMPONENT BENEFITS PARITY ACT

    Mr. Ryan. Thank you, Madam Chair.
    Let me associate myself with all of my colleagues' remarks. 
Since I have been here, I agree they have got some great 
questions.
    First, thank you. Obviously, Ohio is a huge part of the 
team and has deployed and will continue to deploy around the 
globe. And we know that post-9/11 use of the Guard has been a 
big part of our plan. One of the things I am concerned with is 
making sure that we are providing the benefits that match the 
service our National Guard are providing. And I understand 
there are significant differences in the benefits provided to 
our National Guard based upon minor administrative coding 
orders, and I will give you an example. I have cosponsored the 
bipartisan Reserve Component Benefits Parity Act designed to 
ensure National Guard who are activated in administrative 
codes, such as 12304(a) and 12304(b) of title 10, U.S. Code, 
are treated in the same manner as other Active Duty orders for 
determining veterans' benefits. This issue and many like it 
were documented in the October 1, 2014, Reserve Force's policy 
board memorandum, and yet we are still struggling to make sure 
that our National Guard and Reserve get the correct benefits 
that they have earned.
    So what have we done to focus on educating our National 
Guard and Reserve on the differences administrative coding can 
make in veteran benefits? And how is your leadership making 
every effort to correctly reflect the importance of military 
service of our National Guard and Reserve by using the 
appropriate coding so their service counts toward their earned 
benefits?
    General Lengyel. Sir, I think this is one of the more 
important issues that we need to fix going forward, is the 
parity of benefits for service. I am thankful for the Parity 
Act. I completely think it is the right thing to do. 12304 
bravo was a flexible mobilization authority given to the 
service Secretaries which has enabled access, mobilization of 
the force. However, when they created it, funding numbers being 
what they were, they didn't attach all the entitlements that go 
with it. So the soldiers who are in the Sinai who I just spoke 
to, they want this fixed.
    Mr. Ryan. How are we coming with it? We are getting calls 
on this, and this is obviously a pocketbook issue for so many? 
Are we making some progress on this?
    General Lengyel. The awareness that thing has got is we 
have got to fix it here. We have got to find the resources to 
put against it so that there is no difference so that they are 
entitled to healthcare beyond 180 days when they come back, so 
that they are entitled to post-9/11 GI Bill education benefits, 
so that they have access to early retirement as per other 
mobilization authorities.
    So what my soldiers are doing, what the soldiers from the 
States are doing, is they are changing their mobilization 
authority to voluntary status, which doesn't give them the 
protections of the dwell periods that we talked about earlier 
with Congresswoman McCollum; that is, they are voluntarily 
giving up their rights to serve their employers and their 
families and give themselves their dwell period as citizens so 
that they can get the health benefits and retirement benefits 
that they deserve. So I ask for your continued support here. It 
is an important issue that needs to be fixed.
    I think that the commission that was established a couple 
years ago, MCRMC commission--I am sorry; I can't spit out that 
acronym for you, exactly what it is--retirement benefits and 
duty status reform, OSD is actually working on behalf of all of 
the Reserve Components, not just National Guard, to streamline 
and make right the entitlements that go with pay and duty 
status, like service equals like pay in benefits. So I do 
sense, inside the Department at least, there is a push to make 
that happen and a push to make the reform. There will be a bill 
with it to do it, but it is the right thing to do.

                           OPIATE DRUG ISSUE

    Mr. Ryan. Well, we need you to continue to push us, and we 
will push you and hopefully make some progress. Real quick 
because I only have 30-some seconds, I know the chairman 
brought up earlier the opiate drug issue. Are you starting to 
make a distinction in prioritization of opiates versus 
marijuana because the problem is so big? Are you prioritizing 
how you are deploying your resources, I guess I should say?
    General Lengyel. So, because of the rise and the 
devastating effects of the opiate piece, it has taken on a more 
important role in the threat-based resource model. That team 
has come together, which is adjutant generals from the States, 
its academic institutions who study this. It is subject-matter 
experts who come together. There used to be 20 variables per 
State, because, as I said earlier, every State has a unique and 
distinct environment that threatens their State. So we need a 
model that is flexible so that each State can articulate it. 
And so the opioid issue has risen inside that threat-based 
resource model, and we will apply the right authority to it.
    Mr. Ryan. Thank you.
    Ms. Granger. Mr. Carter.

                        ASSOCIATED UNITS PROGRAM

    Mr. Carter. Thank you, Madam Chairman.
    General Lengyel, I welcome a fellow Texan.
    I want to thank my friend, Mr. Cuellar, for raising the 
issue on the border, and I associate myself with all the 
conversation we have had today.
    General, our Associated Pilot Program, high-demand National 
Guard units see more training days in combat training center 
rotations as part of the Army Associated Units Pilot Program. 
We talked about that a little bit. The Army requires training 
together to increase the readiness across all three components, 
keep up the demand for soldiers around the world. Can you 
provide the committee with an assessment of the Associated 
Pilots Program to date and if you feel like you are meeting the 
accomplishments that you are seeking to meet? And are there any 
additional funding requirements that you feel like we should 
know about as we go forward?
    And I am reading a book called ``Fast Tanks and Heavy 
Bombers'' that General Milley gave me. And I would venture to 
say that the National Guard trains more than the regular Army 
did. Today, we train more than the regular Army did during this 
period of time between World War I and World War II, and that 
is an amazing change in the Guard's requirements. Would you 
tell us a little bit about that, sir?
    General Lengyel. Thank you, sir.
    I am thankful for the Commission and their recommendations 
that came up with the Associated Units Program. It is a test, 
and I am thankful that General Milley has embraced it. And by 
all counts so far, I am willing to say that, from every 
indication I have, it is a success. It has been embraced by the 
Army. It has been embraced by the Army National Guard. It has 
resulted in people swapping unit patches and becoming part of 
each other's uniform. It is a fundamental cultural change of 
integrating the Air National Guard into the United States Army, 
and I think only good things will come from it.
    Time will tell. We will look at the end of this, and we 
will determine, has our readiness increased? I will tell you 
what is increasing: the trust in each other, the ability and 
the awareness of the commanders, the sharing of resources and 
training, the utilization of our force. Everything has gotten 
better since we have become this operational force, and I 
believe the Army Unit Pilot Program, the Associated Units, is 
nothing but good. That is incredible.
    With respect to how we train, I couldn't be more impressed. 
I spent the last 5 years of my life learning about the Army and 
the Army National Guard and how we train. It is an amazing 
undertaking to train a brigade combat team. It is logistically 
complex. To amass the forces and equipment and training that 
you need in the right places where you can actually use them 
and train on them, it takes an immense amount of coordination, 
and, quite frankly, it is expensive.
    Where we save the money is the 27 brigades that we have in 
the Army National Guard save you a little money when they are 
not training. We cost the same when you use us. We cost the 
same when you train us, but when you are not using us, we save 
some money. So it is my job, I think--you don't want 27 
brigades in the Army National Guard at C-1. That is not where 
you save money because it will spoil that readiness before you 
use it. So we want to meter that readiness. We want to make 
them ready faster. General Milley needs us inside of 60 days, 
inside of 90 days, if something happens in North Korea.
    We have to look hard at our business models. We have to 
look hard at the mobilization process. How do we mobilize? How 
can we mobilize faster? I think that is what we are trying to 
do in the Army National Guard Service, is make that force ready 
quicker, and be ready to participate as part of the Army as 
fast as they need us.
    Mr. Carter. Thank you. We are very proud of you.
    General Lengyel. Thank you.
    Ms. Granger. Thank you.
    Mrs. Roby.

                       CURRENT OPERATIONAL TEMPO

    Mrs. Roby. Thank you, Chairwoman. And thank you, sir, for 
being here. It is great to see you again. I have a few 
questions but first a few comments.
    As you know, the Site Survey Team is in Montgomery right 
now with the 187th Fighter Wing and at Dannelly Field for the 
future fielding of the F-35. And as a long supporter of the F-
35 program, it is exciting to see how much progress the program 
has made, and I would be remiss if I didn't take the 
opportunity to say to you that, if there are any questions from 
the Guard for the community or for any Member of the Alabama 
delegation, we continue to make ourselves available to you. The 
Alabama delegation, of course, in the community and our State 
is so excited about this possibility.
    In your testimony, you highlight the numerous deployments 
that the Guard has performed since 9/11 and the fact that the 
operational tempo today remains very high. And so I want to 
thank you and all members of the National Guard for your 
selfless service in protecting the Nation in these challenging 
times and the sacrifice of your families.
    I am concerned, however, and have recently had some 
conversations with friends of mine who served about how 
sustainable current operational tempo is and what has been 
brought to my attention as it relates to dwell time. We have 
placed a huge burden on our Guard families and not to mention 
their employers. And the question I have, are we placing too 
much on the Guard to constantly be an operational partner? And 
I have heard the comments of my colleagues in here, and I 
listened to you as well. But when my phone rings and it is a 
member of the Guard who has served both in the Active, for many 
years in the Active Component, and now as a pilot in the Guard, 
and what is being communicated to me is that there is concern 
by those who continue to serve their country hearing these 
rumors about a decrease in the dwell time from 5-to-1 to 4-to-
1, and then is that a slippery slope? So I just really wanted 
you to take an opportunity to address these concerns that I 
have heard and I am sure others have as well.
    General Lengyel. Yes, ma'am, the concerns are real. I think 
you probably heard from the fellow Joint Chiefs yesterday that 
the threats that the country is facing is absolutely going to 
require the continued operational use of the National Guard.
    One of the things that you are seeing in Alabama, 
particularly in the 135 arena, KC-135 arena, so, because all of 
these issues that we are dealing with are far away, they 
require a lot of air refueling capability. For the past 15 
years, the Air Force has had the good fortune to have, you 
know, pretty much a downturn in the airlines cycle in which 
they had pilots available and willing to work who were either 
waiting or not engaged in an airline job. And so the 
volunteerism of people who were able to deploy beyond normal 
mobilized deployment was high. And so what has happened now is 
the availability that the airline industry is booming. They 
have a large draw on our pilot force who are now fully engaged 
in a civilian job, and so that volunteerism is beginning to be 
harder to get.
    You have to keep in mind what our units are funded to do. 
So there are areas that are being stressed on the utilization, 
and I would tell you that KC-135s are one of them. Writ large 
across the force, we are using, as I mentioned in my remarks 
opening statement, 18,000 men and women deployed right now 
today. If you go back 10 years ago, we had 70,000 men and women 
deployed today, and an average of that for over 10 years. So I 
characterize the sustainability of our force, the utilization 
of our force right now, as a normal walk, maybe a brisk walk. 
Whereas, 10 years ago, 2005, with 100,000 people deployed plus 
50,000 during Hurricane Katrina, that was a full-out sprint, 
and that would not have been sustainable. Overall, writ large 
across the force, we can sustain what we are doing today, but 
we have to be careful and look at specific threatened areas 
like KC-135s and work to do that, and maybe associations can 
help. Maybe we can put additional Active pilots in there, and 
they can take on some of those flying responsibilities.
    Mrs. Roby. I certainly don't claim to have the solution, 
and that is why I wanted to just bring it to your attention and 
continue to have this conversation. These men and women are 
there because they want to be there and because they love their 
country, and I know we all recognize that, but I do appreciate 
your commitment to them, and I would like to continue to have 
this conversation with you down the road.
    General Lengyel. Yes, ma'am.
    Ms. Granger. Mr. Visclosky.

                          COUNTERDRUG PROGRAM

    Mr. Visclosky. Thank you very much.
    A couple of statements. First of all, General, there is a 
series of questions for the record on the Tactical Wheeled 
Vehicle Strategy for the Guard and certainly attaching 
importance to that program. I will be interested in the Guard's 
response.
    I would join with a number of my colleagues who have 
mentioned the Counterdrug Program, very important in our State, 
particularly important in my congressional district, and I do 
appreciate the Guard's work with the local communities.
    Also, it has been talked about, the partnership act. I 
think it is a very enriching program for the Guard, for our 
country, for the other countries we are involved with. I am 
very proud again that our State now has two such partnerships. 
I was interested in the exchange you had with Mr. Ryan, and I 
will be interested in the Guard following up on his question. 
Some years ago, I asked in a different fashion the same 
question. Some years ago, the Guard said they were working on 
it. So I would hope that some progress is being made.

                HOMELAND SECURITY AND NATIONAL DISASTERS

    For the questions I have, there has been mention of the 
Guard's responsibility for homeland security, for responses to 
national disasters. You just mentioned Katrina. As far as 
equipment in the Guard, as far as training of the Guard, when 
you do have a hurricane--it could be in Florida; it can be a 
tornado in a Midwestern State, wildfire--are there enough 
training dollars? Are there particular types of training 
programs that we should be attuned to that may not be fully 
funded? Are there types of equipment for some of these natural 
disasters that Guard units across the country may not have 
adequate resources for? We are always thinking of overseas 
deployment, homeland protection, but if there is that natural 
disaster, is there something we are missing here as far as the 
needs that you and the Guard have?
    General Lengyel. Sir, I thank you. You know, I think one 
thing I would point out is thanks for NGREA money that we get 
that allows us to buy some of the equipment that we use 
specifically for the homeland, communications stuff, engineer 
stuff, modernize our aviation fleet with things that help us do 
our homeland mission. A lot of that is done for and used by the 
NGREA account.
    The money that we get in the Counterdrug Program to have 
the schools and to train our servicemembers to be value-added, 
for that helps us. And I consider the counterdrug a huge part 
of the Homeland Security mission and support mission that we 
do.
    I don't have a specific additional ask for you. I would 
tell you that we are looking right now at our cyber training 
requirements. Although I will say, for the most part, our cyber 
training schools are on track, the money that this committee 
gives us--I think we had $12 million this year for the Army 
National Guard to fund the positions that allow us to build and 
grow out our cyber network--we wouldn't be able to do that 
without the money. Although the training is validated by the 
Army, it is not yet funded, is straight in our baseline budget. 
So, without the funding that we get from this committee, we 
wouldn't be able to complete those kinds of training things. So 
I will give you a more direct list, but those are the things 
that come to mind as I sit here right now.
    Mr. Visclosky. I mean, as far as natural disasters, there 
is nothing that comes to mind that we are missing as far as 
resources?
    Okay, thank you very much.
    Ms. Granger. General Lengyel, thank you for your time and 
your attention to this concern.
    This will conclude panel one.
    [The information follows:]

    The Army National Guard (ARNG) has identified several domestic 
operations equipment priorities. The ARNG requires $4.1 billion to 
modernize its Black Hawk inventory A models to M models and $100 
million for HMMWV modernization. Equipping needs for disaster response 
include Hydraulic Excavators, High Mobility Engineer Excavators, and 
Heavy Scrapers ($117.5 million), nine additional Disaster Incident 
Response Emergency Communications Terminal systems ($13.5 million), and 
CBRN detection and protection equipment for ARNG first responders ($1.2 
million). The Air National Guard (ANG) domestic operations equipment 
needs include personal protective equipment, such as modernized EOD 
bomb suits ($3 million) and Emergency Responder Personal Protective 
Gear Decontaminators for ANG Fire and Emergency Services flights ($1.8 
million). Aircraft modernization priorities include KC-135 Fuel Off-
Load Hoses ($0.3 million), HH-60 Firefighting and Search and Rescue 
modernization ($1.7 million), and RPA Sense and Avoid systems for MQ-9 
Launch and Recovery elements ($25 million).
                           RESERVE COMPONENTS


                               WITNESSES

LIEUTENANT GENERAL CHARLES LUCKEY, CHIEF OF THE ARMY RESERVE
VICE ADMIRAL LUKE MCCOLLUM, CHIEF OF THE NAVY RESERVE
LIEUTENANT GENERAL REX MCMILLIAN, COMMANDER, MARINE FORCES RESERVE
LIEUTENANT GENERAL MARYANNE MILLER, CHIEF OF THE AIR FORCE RESERVE

             Opening Statement of Chairman Granger--Panel 2

    Ms. Granger. We will now move to panel two: The Army, Navy, 
Marine Corps, and Air Force Reserves. I would encourage all 
members to please stay for this panel. We are going to break 
for just 3 minutes to change panels.
    General Lengyel. Thank you, Chairwoman.
    [Recess.]
    Ms. Granger. If you will be seated, please.
    Our second panel this morning consists of leaders of the 
Reserve Components: Lieutenant General Charles Luckey, Chief of 
the Army Reserve; Vice Admiral Luke McCollum, Chief of the Navy 
Reserve; Lieutenant General Rex McMillian, Commander, Marine 
Corps Reserve; and Lieutenant General Maryanne Miller, Chief of 
the Air Force Reserve.
    We are pleased to welcome these four very distinguished 
general officers as witnesses today, and the subcommittee 
thanks each of you for your service.
    As I mentioned in my opening remarks for the first panel, 
this country relies now, perhaps more than ever, upon the 
service of your soldiers, sailors, and airmen to ensure mission 
success. The committee commends the Reserve Components for 
their dedication to service and to our Nation. We look forward 
to your testimony and your insight, but first, I would like to 
call on the ranking member, my friend, Pete Visclosky, for his 
comments.
    Mr. Visclosky. Madam Chair, I appreciate again that you are 
holding this hearing, and appreciate the panel before us for 
your testimony and your service, and I look forward to hearing 
it. Thank you very much.
    Ms. Granger. Thank you.
    General, please proceed with your testimony. Your full 
written testimony will be placed in the record. Please 
summarize your oral statement so we can leave enough time to 
get to everyone's questions.

                  Summary Statement of General Luckey

    General Luckey. Chairwoman Granger, Vice Chairman 
Visclosky, distinguished members of the committee, I will keep 
my remarks brief, as the chairwoman just requested. I want to 
thank you for the opportunity to appear before you this 
morning. It is an awesome opportunity and an honor for me to 
represent the 200,000 soldiers of America's Army Reserve, who 
are serving today across 20 time zones and around the globe. On 
behalf of them, their families, the employers of America, and 
the Department of Army civilians who support us, I want to 
thank each of you for your unwavering support and commitment to 
this team.
    As I noted in my posture statement, which has been filed 
with the committee, as the leader of this team, I am well 
attuned to the persistent presence of the asymmetric threat of 
terrorism and radical groups, as well as the emerging and 
compelling challenges presented by near-peer competitors, 
potential adversaries with the capability, propensity, and 
willingness to contest American power in all domains. We have 
not faced these conditions for over a quarter of a century. And 
the Army Reserve must take action, along with the rest of our 
Army, to meet the new and evolving threats.
    In this environment, an operational reality where the 
lethality and complexity of the battlespace presents new 
challenges to our Army, America's Army Reserve's practice of 
building rotational readiness and units over time will no 
longer be sufficient. We must prepare some units for full-
spectrum operational environment immediately. This includes 
making ready significant portions of our team able to go fast, 
in some cases in days or weeks, in order to immediately 
complement and augment the Active Component formations who rely 
on America's Army Reserve to fight and win on the battlefield 
for the first round downrange.
    In this new threat paradigm, some 300 units of action or 
approximately 30,000 soldiers, need to be able to deploy in 
harm's way in less than 90 days, many in less than 30. I refer 
to this force as Ready Force X. It is a fast-deploying set of 
capabilities, which I will be happy to discuss with the 
committee in more detail. We need to deliver these units for 
the mobility, survivability, connectivity, and lethality needed 
to win on the modern battlefield.
    As always, consistent and predictable funding for essential 
training, equipment, and modernization is crucial to our 
success. The degree of funding which the committee has afforded 
us in the past and continues to is of tremendous benefit to 
America's Army Reserve. It is a superb tool, which in 
accordance with your guidance, enables me to procure certain 
high-priority capabilities that can be used for both combat 
operations and, as appropriate, domestic response operations. I 
thank you for your continued support in this regard.
    Let there be no doubt that my team's number one priority is 
readiness. In fact, as I testified today, America's Army 
Reserve has just completed the largest crew-served weapons 
gunnery operation in its history, Operation Cold Steel, 
conducted up at Fort McCoy, Wisconsin. There, we rapidly 
accelerated the training qualification of our master gunners, 
of our vehicle crew evaluators, and individual soldiers, while 
reinvigorating the Noncommissioned Officers Corps of America's 
Army Reserve, which, as you all well know, is the first line, 
if you will, the core role in our Army of training and leading 
our soldiers when the lead hits the air. This is money and time 
well spent and much needed as we move into the future, and I 
appreciate this committee's support in that regard.
    As for the future, America's Army Reserve is uniquely 
postured and empowered to leverage the wide-ranging reservoir 
of professional talent to understand, develop, and exploit 
emerging commercial markets and cutting-edge technologies by 
partnering with private industry in order to stay on pace in a 
very dynamic world. Working closely with Defense Innovation 
Experimental Unit here in Washington, D.C., and spread around 
the country, as well as Military District 5 over at National 
Defense University and other partners, we are well on the way 
to strengthening linkages between the private sector and 
America's Army.
    I want to reiterate the message I shared with the American 
people in closing. I shared this with them on the Army 
Reserve's 109th birthday last month in Times Square, joining 
that stage, if you will, with the Army's noncommissioned 
officer of the year, who, by the way, happens to be an Army 
Reserve soldier from the Golden State of California: My team 
relies, as I told the American people, on our families, on the 
commitment to support them, and the persistent willingness of 
America's employers to share their finest talent with us, and 
working the delicate balance between being ready enough to be 
relevant, but not so ready that my soldiers can't maintain good 
rewarding civilian employment. As I reach out to the influences 
across America and around the globe, I ask them and press them 
to act and to encourage their communities, cities, campuses, 
congressional districts, and the employers located therein, to 
see themselves as full partners in national security, sharing 
America's best talent with us, America's Army Reserve, as we 
support and defend the Constitution of the United States of 
America.
    Distinguished members, your Army Reserve has always met the 
challenges of the time. With the committee's help, we will 
continue to provide the capabilities and readiness, live the 
example, and exude the ethos that the people of the United 
States expect and deserve. We will remain your premier team of 
skilled professionals, serving the Nation's both soldiers and 
engaged civilians around the globe. That is just who we are.
    I look forward to your questions.
    [The written statement of General Luckey follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. Thank you.

                 Summary Statement of Admiral McCollum

    Admiral McCollum. Good morning, Chairwoman Granger, Ranking 
Member Visclosky, and certainly the distinguished members of 
the subcommittee. It is a distinct honor to be here this 
morning to talk to you about the state of the Navy Reserve and 
talk to you about the Navy's fiscal year 2018 budget request 
and, probably more importantly, to report on the dedicated men 
and women of our Reserve Force.
    The Navy Reserve is the busiest it has ever been, and as an 
integrated force with the Active Component, we are experiencing 
competition in the maritime environment. This environment, it 
is fast-paced, it is complex, it is ambiguous, and, at times, 
uncertain. And the demand signal for the Reserve support has 
now exceeded over 79,000 individual mobilizations around the 
globe. And as you may know, these individuals, our sailors have 
left their civilian jobs, sometimes up to a year, and their 
families as well.
    In addition to these mobilizations that I referenced, we 
have about 20 percent of the force that is engaged day to day 
performing what we call operational support. The Navy Reserve 
works out of 123 operational support centers, and these support 
centers are across the 50 States, Puerto Rico, and Guam. And 
the force structure is the result of the Navy's imperative to 
optimize interoperability and operational effectiveness of the 
Navy.
    We spread our units around the country, beyond our fleet 
concentration areas, and this has allowed the Navy to retain 
valuable human capital and provides reservists a convenient 
place to train while remaining close to their businesses and 
their homes. One highly successful example of this strategy is 
the Naval Air Station Joint Reserve Base in Fort Worth, Texas, 
and this facility alone is a model for inter-service 
cooperation and community support that achieves the readiness 
that I am referring to. This installation holds 40 Tenant 
Commands, encompassing nearly 10,000 personnel across all four 
services. This is just one example of how the Navy Reserve is 
operating around the country in each of your districts.
    The fiscal year 2018 budget request is focused on restoring 
balance and wholeness and laying the foundation for future 
investments. This is both in our equipment and our people. And 
as an integrated force, the Navy knows that its heartbeat is 
its people. And this investment addresses Reserve personnel 
wholeness in areas such as unmanned aircraft, cyber shipyard 
maintenance, and tactical operations.
    While our Navy Reserve continues to execute at extremely 
high levels, our hardware, specifically our aging aircraft 
fleet, is facing some obsolescence challenges and rapidly 
approaching the end of its designed service life. Sixteen years 
of hard use has accelerated this effort. Accordingly, aircraft 
recapitalization remains the Navy Reserve's top equipping 
priority. The fiscal year 2018 budget request allows us to 
restore wholeness in aviation maintenance accounts and sets a 
solid foundation for next and future years' investments. And to 
continue restoring the wholeness of our force, we need stable, 
predictable funding mechanisms that allow us to plan 
effectively and react to contingencies.
    Additionally, your increased support for flexible funding 
authority for the NGREA is needed. Providing us this authority 
as well as flexible funding methods enables the Navy Reserve to 
provide operational support where and when needed, and that 
will maximize the total effectiveness of the Total Force.
    While the challenges ahead of us are significant, I could 
not be more proud of our Navy Reserve force. Every time I set 
foot in one of our operational reserve centers around the 
country, I come away, as you can imagine, very impressed with 
the dedication and the commitment of these sailors. And the 
pride that they take combining their civilian skill sets with 
their professional competence in military operations, I must 
admit, is very inspiring.
    So, on behalf of the Navy and the Navy Reserve, I thank the 
members of the committee for your support, and I look forward 
to your questions.
    [The written statement of Admiral McCollum follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Granger. Thank you.

                 Summary Statement of General McMillian

    General McMillian. Chairman Granger, Ranking Member 
Visclosky, and distinguished members of the committee, thank 
you for the opportunity to appear before you today to testify 
on behalf of the Commandant of the Marine Corps about your 
Marine Corps Reserve. I am honored to be here with my fellow 
Reserve Component chiefs, and with me here today is my force 
sergeant major, Sergeant Major Kimble.
    I have been at the helm of the Marine Forces Reserve for a 
year and a half, and I am pleased to inform you that your 
Marine Corps Reserve is thriving. On average, we are 95 percent 
manning, and our leadership, morale, and personnel health of 
the force is at unprecedented levels. I am continually 
impressed by the professionalism, competence, dedication, and 
motivation of our Reserve Marines. Like their Active Duty 
brothers and sisters, they serve selflessly to protect our 
Nation while at the same time balancing their civilian careers 
and their families. The strength of Marine Forces Reserve is 
the talent, skill, and discipline of our individual Marines and 
sailors.
    I am motivated by the most common question that I receive 
from your Reserve Marines, which is, when do we get to deploy? 
They maintain the same mindset as the Active Component Marine 
Corps. We are ready to fight tonight, and we are ready to 
respond to any mission.
    My primary focus remains being combat-ready and having 
Reserve Marines and units capable of moving, shooting, and 
communicating across the battlefield. Reserve Marines are 
viewed the same and are expected to respond the same as our 
Active Duty counterparts on a moment's notice. We are 
integrated with the Active Component as part of the Total 
Force. We are expected to be a force that is fully 
complementary, seamless, and an equal teammate to the Active 
Component. We are manned, trained, and equipped to support 
Marine Corps operational requirements across the full range of 
military operations. We are 39,000 strong, formed into major 
commands that comprise the Marine Air-Ground Task Force, and we 
are unofficially known as the Fourth Marine Expeditionary 
Force. As the Commandant of the Marine Corps has said, we are 
one Marine Corps, a Total Force Marine Corps.
    To seamlessly integrate with the Active Component, Marine 
Forces Reserve must maintain equipment parity. Shortfalls in 
equipment modernization result in less interoperability with 
the Active Component, which slows the pace of operations and 
increases risk to your Marines and risk to mission 
accomplishment. Marine Forces Reserve continues to see 
shortfalls in modernization, like our most pressing shortfall, 
the KC-130J, which is used for tactical assault support, air-
to-air, and ground refueling, and combat logistics support. It 
is the major end item which facilitates moving to and across 
the battlefield. We should not send our Marines to a fight with 
legacy equipment. Transition to modern equipment requires 
budget resources.
    NGREA, as you are all familiar with, is a complement to the 
Presidential budget. And while we greatly appreciate NGREA, 
greater spending flexibility, combined with a more 
representative funding proportion that is more aligned with our 
historical percentage, would significantly contribute to the 
ability of Marine Forces Reserve to modernize legacy equipment, 
transition to new systems, improve our readiness, and better 
support our young marines.
    We owe it to our Nation's most precious assets, the young 
men and women in uniform, to send them into combat with the 
most modern equipment available. With the continued support of 
Congress, Marine Forces Reserve will continue to serve as a 
crucial operational and tactical shock-absorber to the Active 
Component.
    In conclusion, I want to leave this distinguished body with 
two final thoughts: Number one, I want to personally thank you 
for passing the fiscal year 2017 omnibus appropriations bill. 
Having a predictable and consistent budget in the future will 
significantly improve readiness across the services. And, 
number two, we need a flexible NGREA that complements the 
budget to assist your Marine Corps Reserve in funding major end 
items, as defined by law.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    [The written statement of General McMillian follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    General Miller. Chairwoman Granger, Ranking Member 
Visclosky, and distinguished members of the committee, thank 
you for the opportunity to appear before you today. I am 
honored to have with me this morning Command Chief Master 
Sergeant Ericka Kelly. Together, we represent America's 69,000 
Reserve citizen airmen, providing operational capability and 
surge capacity, ensuring airspace and cyber dominance around 
the globe.
    Twenty-six years of continuous global operations and 
decreased budgets have stressed our force, which is always in 
demand. Last year, we were the fourth largest major command 
contributor to combat operations, filling over 10,000 air 
expeditionary and volunteer taskings across the U.S. and in 30 
foreign countries. Our airmen deliver critical capabilities to 
the fight every day, through global vigilance, global reach, 
and global power.
    Your Air Force Reserve operates with 16,000 fewer airmen 
and 220 fewer aircraft than we did in Desert Storm. The stress 
of our size, the steady state operations tempo, and our funding 
shortfalls keep us challenged, yet we remain a lethal combat-
ready force, composed of amazing and resilient airmen and 
families.
    The concerns which weigh most in our day-to-day operations 
are insufficient manpower for both full-time support and 
critical skills, training availability and funding, weapon 
system sustainment, and concurrent fielding of aircraft and 
equipment. We continue to make incremental steps in the 
readiness needed for today's fight, while posturing for the 
complex future threats and the many challenges.
    Although the fiscal year 2018 President's budget request is 
a good beginning, to ensure that we deliver the most ready, 
capable, and lethal force, a long-term effort is needed. This 
balance of readiness today and the needs of tomorrow is 
difficult without predictable, sustainable funding through the 
outyears.
    The fiscal year 2018 President's budget request continues 
our efforts to build readiness and capability by adding 800 
positions across our rated space, cyber, and our ISR missions. 
The budget request, with the additional overseas contingency 
operation support, begins to fund weapon system sustainment 
closer to the required levels, ensuring that we can produce the 
exercise, training, and combat sorties needed to sustain the 
best Air Force in the world. Modernization and recapitalization 
are essential to maintaining our combat edge. With continued 
congressional support for the National Guard and Reserve 
equipment appropriation, we can smartly invest in weapon 
systems, which will increase our capability and recapitalize 
systems that will minimize risk against our emerging threats.
    And I thank you for the fiscal year 2017 NGREA funding of 
$105 million, which provided all-weather targeting pods for the 
F-16, enabled KC-135 defensive systems, updated digital 
displays for platforms, such as the A-10, and afforded personal 
recovery equipment for our Pave Hawk helicopters. This funding 
helps ensure that we maintain that lethal edge to dominate and 
to survive in all spectrums of the conflict.
    Delivering combat air power to the joint force is our 
mission. To best execute this requirement, we must develop a 
concurrent fielding and investment strategy to ensure 
operational parity with the Active Component. This ensures 
synchronized use of manpower, equipment, and training resources 
in a fiscally constrained environment.
    Over the past few decades, we have successfully adjusted to 
an operational Reserve. Portions of our force are stressed, but 
our Reserve citizen airmen are resilient, engaged, and honored 
to serve. We require your support for sufficient resources to 
meet full-spectrum readiness, increase end strength to support 
integrated operations, and an increased budget to buy back the 
readiness deficit and modernize weapon systems. A stable, 
predictable budget will ensure Air Force Reserve is combat-
ready at all times.
    Thank you again for your support and this amazing 
opportunity to represent our airmen, and I look forward to your 
questions. Thank you.
    [The written statement of General Maryanne Miller follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you very much. I thank all of you for 
your testimony and for describing the service and the sacrifice 
and the needs of those that you represent here today.
    We will be using a timer this morning. We are going to 
reduce the time for you to ask and answer questions to 3 
minutes, because of the size of the panel and the number of 
members who are here, and we have a hard end time at 12 
o'clock. That will include questions and responses. If time 
permits, we would have a second round, but I doubt that will 
happen.
    I am going to call on Ms. McCollum first.
    Ms. McCollum of Minnesota. Thank you, Madam Chair.
    I am going to submit for the record a question on Lodging-
in-Kind, and what we can do to have, especially in the Army 
Reserve, our soldiers not paying out of pocket for some of the 
training that they perform.
    [The information follows:]

                            Lodging-in-Kind

                       witness: mccollum, luke m.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. Navy provides lodging, at no cost to members, for Navy 
Reservists who travel 50 miles, or more, to their drill site. Transient 
Department of Defense (DOD) quarters are used whenever available. When 
DoD accommodations are not available, commercial berthing is provided 
at no personal expense to Navy Reserve personnel meeting eligibility 
requirements. When Navy Reservists are on travel orders (e.g., Inactive 
Duty Training Travel (IDTT), Annual Training (AT), Active Duty Training 
(ADT), and Active Duty for Special Work (ADSW)) to a location outside 
the vicinity of their drill site, they may receive lodging and per-diem 
pursuant to Joint Travel Regulations.
                      witness: lengyel, joseph l.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. For eligible, unaccompanied personnel, the Army National 
Guard (ARNG) and Air National Guard (ANG) provides lodging-in-kind to 
members traveling over 50 miles for inactive duty training. The ARNG 
and ANG fund lodging in kind out of operations and maintenance 
accounts.
                       witness: mcmillian, rex c.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. The Marine Corps has used Inactive Duty Training (IDT) 
travel reimbursement to offset certain critically-short military 
occupational specialties and/or military billets. This is a targeted 
program that addresses the need of the Service to offset costs for 
Marines who have to travel to locations that are more than 150 miles 
from the Home Training Center (HTC). We expanded the program to fill 
critically-short leadership billets over the past year. There aren't 
any other programs that specifically target travel costs. As 
highlighted during the Reserve Component Duty Status reform process, 
Reserve Marines receive double the amount of basic pay for two drill 
periods performed in one day than if they were in one day of pay 
status. This differential can be seen as a means to lower out-of-pocket 
expenses. Due to the relatively small number of HTCs geographically, 
Marine Corps Reservists often have to travel long distances to attend 
training.
                       witness: miller, maryanne
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. Air Force provides lodging, at no cost to members, for 
Reservists who travel 50 miles, or more, to their drill site. Transient 
Department of Defense (DoD) quarters are used whenever available. Air 
Force also provides reimbursement for travel expenses up to $300 per 
drill weekend provided the reservist was assigned to a unit or position 
that was affected by a Defense Base Realignment or closure or if the 
individual is in a critical AFSC and there is a documented shortfall in 
the organization for that grade/skill level.
                      witness: luckey, charles d.
    Question. What can we do to have, especially in the Army Reserve, 
our soldiers not paying out of pocket for some of the training that 
they perform?
    Answer. Regarding Lodging-in-Kind, we have addressed it internally 
by funding this program with $26 million per year average through FY22. 
Regarding the related issue of Inactive Duty for Training (IDT) travel 
outside the local commuting area, currently, the Joint Travel 
Regulations cap reimbursement for IDT-T expenses (e.g. plane tickets, 
rental cars, and lodging) at $300 per round trip for select Reserve 
Component members assigned to a unit or position that was affected by a 
Defense Base Realignment or closure or in a skill designated as 
critically short. Over 25% of claims submitted by Service Members to 
the Army Reserve are above the $300 limit.

    Ms. McCollum of Minnesota. But I do have a question. I 
think it affects all of you. I commend people who decide to 
continue in the Reserves after their discharge. Sometimes it is 
a very heavy family discussion about whether or not people are 
going to stay in the Reserves. And so people who do that do it 
with their eyes wide open about what a deployment could really 
be meaning for them.
    So, when they come home, they come home as a citizen too. 
And this is a question I had had with General Luckey, but I 
want to pose this to all of you. In many, many cases, soldiers 
and airmen are deployed with as little as 30 days' notice, and 
that can put a lot of strain on the family. So, because they 
have been planning their lives moving forward, they don't have 
the same protection in their civilian jobs that sometimes--and 
I commend our businesses in Minnesota for what they do for our 
National Guard--but they have personal money invested. They are 
getting ready to close on homes. They might have paid tuition 
forward.
    What are we doing? What can we do to help you? What is your 
team doing to ensure that families of these soldiers and 
airmen, when they are given this short notice, that they don't 
find themselves in financial harm or with unexpected 
consequences with their employment when they come back home? 
Thank you.
    General Luckey. To the extent that the question was 
initially directed to me, I will respond first.
    Ms. McCollum of Minnesota. I figured you would take one for 
the team.
    General Luckey. So, as you well know, and I think we have 
discussed this before, part of the focus from a priority-of-
work perspective, if you will, of America's Army Reserve is to 
make sure that we are tracking, if you will, or witting of 
which families and which units are most likely to be forced to 
do exactly what you just said, Congresswoman, which is move 
very quickly.
    This past weekend, I spent the better part of 2 days in 
Oklahoma City at what we call Family Programs University. It is 
an Army Reserve program to essentially bring in volunteers, 
family program coordinators, and family program facilitators 
from units, particularly those units that are most likely to be 
called to go first.
    So I can't give you a complete comprehensive answer as it 
pertains necessarily to units located in eastern Minnesota. 
What I can tell you is the focus and the energy, if you will, 
of our efforts to make sure we have good quality engaged 
outreach, if you will, to families is particularly seized with 
the problem you have just articulated. So I want you to know 
that I am paying very close attention to that.
    Admiral McCollum. Thanks for that question. Just an 
additional thing I would add onto it. The greatest return on 
investment to the American taxpayer in the military for a 
transitioning military individual is if we can retain them into 
the Reserve Component. We don't have to train them; we can take 
advantage of the time they spent on Active Duty.
    So it certainly behooves us to maximize and create an 
environment that allows that reservist to thrive, thrive with 
their families, thrive with their civilian employers. And the 
way I would answer that question is predictability. Create a 
predictable environment with funding that we don't have a 
sustained period of long continuing resolutions, and that that 
predictability allows the reservist, with confidence, that they 
know that they can plan; there is going to be funding and 
funding available for the training to get ready to meet those 
commitments.
    Ms. Granger. Anyone else?
    You are welcome to respond.
    General McMillian. Ma'am, as you know, the Marine Corps is 
a force in readiness. We have to be ready to fight tonight. The 
Commandant depends very much on his Reserve Component to be 
ready on a moment's notice.
    The biggest thing that we do is express that out to our 
Marines and their families at every opportunity, to be prepared 
mentally, to be prepared physically, to know their MOS, to not 
waste 1 minute of their training time. We have 38 training days 
with them a year in order to prepare them to go downrange into 
combat. They have to be ready to fight tonight.
    We have a lot of history or examples throughout our history 
of having to get out the door very quickly, inside of 30 days, 
45 days, and directly into combat. Their families know that; 
they are prepared for it. They are leaning forward. We ask them 
to reach out to their employers to make sure that they are 
aware of the commitment that they have to the United States 
Marine Corps and to the United States for the defense of this 
Nation.
    General Miller. And for the Air Force Reserve, our response 
time is 72 hours. So, for those longer term deployments, at the 
Air Force, we have done an amazing job over the last 26 years 
of getting that battle rhythm of reservists deploying 
downrange. And we will give them 180 days' notice to 270 days' 
notice, and that is good. But every reservist knows they are on 
a 72-hour hook, and our systems support that. Our wing 
commanders support that. The Yellow Ribbon Program supports 
that, and we are structured to support that.
    Ms. Granger. Thank you.
    Mr. Womack.

                           STATE OF READINESS

    Mr. Womack. Thank you, Madam Chairwoman.
    And thanks to the distinguished panel that is gathered in 
front of us. Because of the short timeframe, I will go to one 
question. Before I do, I want to take just a moment of personal 
privilege in welcoming the great admiral over here, Mr. 
McCollum, who before he took this particular job was working at 
a small five-and-dime in northwest Arkansas that I represent 
and the proud parent I might also add of a young son who is 
making his rounds in the Arkansas General Assembly and doing 
remarkable work, and we are really, really proud of him.
    I wanted to ask the panel if they would just take a moment 
and tell us what their top one or two issues are right now. And 
I will take out of those answers funding, because we know 
funding is the answer to a whole lot of problems that everybody 
has. So we will just leave that off to the side. I don't know 
if it is OPTEMPO. I don't know if it is modernization. I don't 
know if it is medical fitness. But in the Reserves, you have 
got a different set of issues that affect you. And so just go 
from Army down the line and give me the top two. What should 
this committee understand to be your top couple of issues?
    General Luckey. So thank you for the question. Very simply, 
two things: one, being able to generate the formations that I 
need to generate in the timelines required to support the 
warfighter, primarily focusing on two different theaters of 
operation, so the Pacific and Europe, and being able to 
generate, as I said in my opening remarks, capabilities on the 
orders of 10,000, 15,000 soldiers in less than 45 days up to 
33,000 soldiers in about 90 days. So the units, if you will, 
incorporate those capabilities, and the soldiers in those units 
have to be at a very high degree of state of readiness.
    So my challenge, first of all, is to be able to identify 
those requirements, make sure that each one of those formations 
has the training, the equipment, the modernization, and the, if 
you will, mission command architecture to operate in a 
completely interoperable efficacious fashion with Active 
Component formations very quickly.
    Inside that, I would say the number two thing is 
deployability of the individual soldiers, making sure that I am 
affording every soldier the opportunity to get everything that 
they need done so that they are completely in a deployable 
status at the time that somebody needs them to go do a job. So 
that is a persistent ongoing challenge for us, but we are 
getting after it.
    Admiral McCollum. Congressman, thank you for the question. 
So you won't allow us to use the word ``budget,'' but may I 
just use the word what the budget does for us. It creates 
wholeness. Creating wholeness creates the ability to generate 
readiness. And at its core, the U.S. Navy is an integrated 
force and the Navy Reserve, as a component of that, relies on 
the help of Congress to give us the ability to be whole, to fix 
our, what I would say, divots are in our readiness accounts, 
our maintenance accounts. And by doing that, the second thing 
it does then is it then generates readiness to deploy when and 
where the American public chooses us to go.
    General McMillian. Congressman, thank you for the question. 
I will tell you what keeps me awake at night is readiness of 
the force, the Reserve Forces, to fight tonight and be able to 
get out the door and seamlessly augment and reinforce the 
Active Component in a fistfight.
    The things that we need to do is investment in our future, 
modernization of our equipment, and then the maintenance of our 
legacy equipment, those two things and, specifically, 
transition of the KC-130T and the AH-1Z attack helicopter for 
the Marine Corps Reserves.
    General Miller. The two things I think that are most 
important for the Air Force Reserve are the critical skills 
manning, particularly our pilot shortage and our cyber 
professionals. On the cyber side, industry is just pulling 
them. We can attract them, and we can train them, but we don't 
keep them that long. So your Reserve and Guard are the capacity 
that can keep them in uniform, which is great.
    The other piece is weapon system sustainment and making 
sure that is--that is vital to our readiness.
    Mr. Womack. Thanks for the extra time.
    Ms. Granger. Mr. Ruppersberger.

                         CYBER PROTECTION TEAMS

    Mr. Ruppersberger. First, General, thank you for meeting 
with me yesterday.
    I want to get into cyber. When we met yesterday, you 
mentioned you were on track to provide 10 cyber protection 
teams for the Army Reserve. Those soldiers who are in cyber-
related positions require specific skills, as we know. What 
challenges could you face with attempting to fill these cyber 
positions?

                      MODERNIZATION OF READY FORCE

    And let me ask you another readiness question. Then I will 
stop. The National Guard Reserve equipment account we know is 
critical to Army Reserve Force readiness. Can you explain how 
this account and the funds in it will be used to enhance the 
modernization of your ready force and what concerns you have 
with equipment currently on hand and modernization levels in 
the Army Reserve?
    General Luckey. So, sir, if I may answer the second 
question first, very briefly.
    So, in the main, the money that has been given to us by the 
committee--and, again, thank you for that--basically along the 
lines I articulated here earlier this morning. So it is about 
mobility. So some of this is platforms, if you will. A 
significant portion of the investment portfolio is going to go 
against mission command systems. As I think I have explained to 
some members before, one of my concerns is making sure that 
every one of my platforms is completely interlocked, if you 
will, from a network perspective, in terms of communications, 
architecture, and Blue Force Tracker, to make sure that all of 
my formations are completely interoperable from a 
communications command-and-control perspective. So the priority 
is really focusing on lethality, mobility, and that net of C2, 
command and control, structure.
    Circling back to the issue about the cyber specifically, as 
I think I have mentioned before, from a build perspective, we 
are in a very good place. So you are correct, Congressman. So 
10 cyber protection teams over time building out, we are on a 
good glide path for that. In fact, what I would say is--and I 
touched on it a little bit in my opening remarks--part of what 
we are doing in America's Army Reserve is looking at those 
places in America where there is rapidly evolving, if you will, 
digital capabilities, technologies--so cyber, artificial 
intelligence, all sorts of, if you will, exploding capabilities 
in the private sector--making sure that the Army Reserve is 
posturing force structure to be able to retain and in some 
cases actually assess those capabilities into the Army Reserve, 
to make that a much more integrated part, if you will, of the 
Army's linkage, the warfighter's linkage, Department of 
Defense's linkage to the emerging private sectors.
    I think I mentioned to you I have gone out to see private 
industry in many locations. We are investing capabilities and 
we are moving folks, if you will, or billets, opportunities to 
create structure into those rapidly developing parts of 
commercial America. So I think we are in a very good place.
    Mr. Ruppersberger. Anybody else?
    General McMillian. Yes, sir, I will just dive in on that. 
We are building out in the Marine Corps Reserves two cyber 
protection teams from our marines who have gotten out, gotten 
into the civilian work sector, learned that skill set, and now 
finding out that we are trying to stand up two teams, one on 
the West Coast, one on the East Coast: one at the 1st Marine 
Expeditionary Force in San Diego; the other one at the 2nd 
Marine Expeditionary Force at Camp Lejeune.
    What drives these Marines to come back into the Reserves to 
join cyber protection teams is that they are closer to the 
fight. They want to be with those tactical deploying units that 
have the potential to go downrange and do work wherever the 
country may need them. So they are excited about getting their 
boots dirty and deploying downrange with tactical units. Thank 
you.
    Mr. Ruppersberger. I yield back.
    Ms. Granger. Mr. Carter.

              READINESS AND RETENTION OF SKILLED PERSONNEL

    Mr. Carter. Thank you, Madam Chairman.
    I am going to address this question to the whole panel. 
General Luckey and I had a conversation yesterday.
    Thank you for coming by. I really appreciate that 
conversation.
    But as citizen lawyers and members of the Armed Forces 
Reserve, people are often called upon to face the challenge in 
the workforce, because people miss work due to their 
deployments. Please provide the subcommittee with your 
assessments of how these challenges affect not only readiness 
but retention of highly skilled personnel and what resources or 
assistance can we provide that will help you sustain your level 
of readiness and retention.
    General Luckey. So let me just take that first, if I may, 
very quickly.
    I will tell you the biggest thing that this committee could 
do to continue to support America's Army Reserve in this regard 
is to, if you will, be the influencers that can help me 
influence other influencers in America. As I have discussed 
with members of this committee before in a more informal 
context, part of our challenge is making sure we continue to 
message, as I said in my opening remarks, to the employers of 
America that they are strategic partners in the national 
security of the United States of America. And by allowing them, 
if you will, and encouraging them to understand how 
fundamentally important their support is to make sure that our 
soldiers--I would say sailors, airmen, and marines--all have an 
opportunity to be shared, if you will, between those employers 
and these teams is absolutely critical to us being able to 
continue, if you will, to take some pressure off our soldiers 
to be able to do both.
    So I would just--I really don't think this is about money 
so much. Fundamentally, it is about messaging and making sure 
our employers really understand how vital their support 
continues to be.
    Admiral McCollum. And, sir, just to complement General 
Luckey's words is the idea of partnerships and the idea of 
leveraging those relationships that these, in our case, sailors 
and airmen and marines, that they have, not only with their 
employers, but with friends of the military, and understanding 
those connection points and whatever constituency gathering, 
whatever activity that is in place, where we understand the 
heart and soul of what generates the capability of America's 
military power, which is our people, and all those programs 
that support how we take care of our people, whether it is when 
they get back home in the repatriation programs or how we 
support them when they are forward in giving the readiness, 
finding the readiness to be ready, to distract them from any 
problems they may have otherwise.
    General McMillian. Much the same answer, sir. Thank you for 
the question.
    Again, we are at 95 percent manning across the board, 
highest I have ever seen it, healthiest I have ever seen it, 
morale, leadership, esprit de corps off the top of the charts. 
Reserve marines want to be here and serve and go downrange and 
do good work for our country. The key to that is the public 
support for their employers. I think their employers are proud 
to have marines in their organizations. But a pat on the back 
goes a long way, and so the public support, as General Luckey 
and Admiral McCollum have touched upon, is huge for us and 
helps out with our retention and the serving.
    General Miller. Yes. For the Air Force Reserve, as I 
stated, the 72-hour response time is the tether that we are all 
on. So, with that, we have a great relationship at every wing 
level across all our 36 wings with the employees who are part 
of Guard and Reserve. So it is that expectation management 
between the reservist and the employer that we bring together 
around the table so there is no misunderstanding.
    A perfect example of that would be the airline pilot. 
General Goldfein last week got us together around the table 
with 70 airline executives from the majors to the regionals. 
And we sat around the table and said--we keep tugging on both--
either--you know, we have the uniform arm, and they have the 
airline arm of these pilots, and we are pulling them. We are 
pulling them apart, basically.
    So we had to sit around the table and basically come to an 
agreement of, how we are going to use this one asset, this 
national asset that has now become a crisis for this country? 
So that is the perfect example of how we work together with 
industry. And we are beginning steps to do that to work our way 
through this.
    Mr. Carter. Well, I, for one, if you can get the 
information by congressional district of the employers that 
employ members of any of the Reserve Components--I am going to 
make the same request of the National Guard--our office will 
personally send them a letter commending them for their service 
to their country. So, if you can get me that information, I 
will put my people to work to do that.
    [The information follows:]
                     Employers That Employ Members

                      witness: lengyel, joseph l.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. The National Guard Bureau does not have a method of 
tracking or collecting comprehensive employer data for all 54 states 
and territories. However, Service members nominated several employers 
of the National Guard from Texas' 31st Congressional District for the 
2017 Secretary of Defense Employer Support Freedom Award through the 
Employer Support of the Guard and Reserve (ESRG) program. The nominees 
include: (a) ARCIL Inc. (Round Rock) (b) Sprint (Killeen) (c) Wilsonart 
International (Temple) (d) Real Green Pest & Lawn (Round Rock)
                       witness: mccollum, luke m.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Naval Operational Support Center (NOSC) Austin, TX supports 
250 Navy Reservists and 9 Navy Reserve units. Many of these service 
members live and/or work in Texas' 31st congressional district. The 
following is a list of major employers of NOSC Austin Reservists.

------------------------------------------------------------------------
        Company              Mailing Address         City, State, Zip
------------------------------------------------------------------------
Ash Chiropractic         3688 Williams Dr, Ste 5  Georgetown, TX 78628
Georgetown ISD           1313 Williams Dr         Georgetown, TX 78628
Discount Tire            2720 E Whitestone Blvd   Cedar Park, TX 78613
City of Round Rock       301 E Main St            Round Rock, TX 78664
Firestone                100 E. Old Settlers      Round Rock, TX 78664
                          Blvd
Mattress One             1208 N. IH35 Suite 900   Round Rock, TX 78664
Dell                     2401 Greenlawn Blvd      Round Rock, TX 78664
                          Bldg 7
Baylor Scott and White   2401 S 31st St           Temple, TX 76508
Johnson Controls         1908 Kramer Ln Ste 100   Round Rock, TX 78664
Pacesetter K9 LLC        555 County Road 200      Liberty Hill, TX 78260
Dell Inc                 7215 Alacia Dr           Leander, TX 78641
DFPS                     503 Priest Dr            Killeen, TX 76549
Dell Inc                 1 Dell Way               Round Rock, TX 78664
TEK Systems/Emerson      1100 Louis Henna Blvd    Round Rock, TX 78681
Baylor Scott & White     2401 S 31st St           Temple, TX 76508
Amplify                  202 Walton Way Ste 200   Cedar Park, TX 78613
------------------------------------------------------------------------

                       witness: mcmillian, rex c.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Information and data collection concerning employers in 47 
states, the District of Columbia, and the commonwealth of Puerto Rico 
that employ Marine Corps reservists is not easily attained or readily 
available. We are currently reviewing options to satisfactorily respond 
to this question.
                       witness: miller, maryanne
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. The Air Force Reserve does not track employers that employ 
Service members of any Reserve Components by congressional district. 
However, Employer Support for the Guard and Reserves (ESGR) provided a 
listing of employers nominated by Service members for the FY 2017 
Secretary of Defense Employer Support Freedom Award via the attached 
listing. These employers in Texas have earned praise from their Service 
member employees for their support of our reserve component military 
members. Other interested members can obtain similar data.
                      witness: luckey, charles d.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Congressman Carter, we appreciate your support and 
willingness to contact employers in your district and while the USAR 
works closely with many employers in communities across the nation, we 
do not track employer information for each member of the Army Reserve. 
With that in mind, we believe providing a partial list would 
potentially be damaging to your overall goal of recognizing all 
employers who provide employment support to America's Army Reserve 
Soldiers.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Employer Support of the Guard and Reserve (ESGR) recognizes 
outstanding employers on a regular basis through its progressive awards 
program. Starting with the Patriot Award all the way up to the 
Secretary of Defense Employer Support Freedom Award, ESGR works to 
build positive employment environments for Reserve Component members 
and veterans. In Fiscal Year 2016, ESGR presented 10,627 Patriot Awards 
to supervisors nominated by their Reserve Component employees and 
received 3,064 nominations for the Freedom Award. The Freedom Award is 
the highest honor given by the U.S. government to employers for their 
support of employees who serve in the Reserve Components. Started in 
1996, the Freedom Award has been presented to a total of only 250 
employers (small, large, and public) who represent the best of the best 
in employer support of Reserve Component service.
    This year, the following 15 employers were recognized at a Pentagon 
ceremony for the annual Secretary of Defense Employer Support Freedom 
Award:
          1. Accordia Urgent Healthcare & Family Practice of Vidalia, 
        Georgia. Nominator's branch: Air Force Reserve
          2. Boston Scientific Corporation of Marlborough, 
        Massachusetts. Nominator's branch: Air National Guard
          3. Cargill, Incorporated of Wayzata, Minnesota. Nominator's 
        branch: Army National Guard
          4. Comcast NBCUniversal of Philadelphia, Pennsylvania. 
        Nominator's branch: Air National Guard
          5. CSI Aviation, Incorporated of Albuquerque, New Mexico. 
        Nominator's branch: Army National Guard
          6. Hensel Phelps Construction Company of Greely, Colorado. 
        Nominator's branch: Army Reserve
          7. Howard County Fire & Rescue of Columbia, Maryland. 
        Nominator's branch: Coast Guard Reserve
          8. Indianapolis Fire Department of Indianapolis, Indiana. 
        Nominator's branch: Air Force Reserve
          9. Johnson & Johnson of New Brunswick, New Jersey. 
        Nominator's branch: Air National Guard
          10. Mesa Natural Gas Solutions of Casper, Wyoming. 
        Nominator's branch: Army National Guard
          11. Office of the District Attorney, 18th Judicial District 
        of Centennial, Colorado. Nominator's branch: Marine Corps 
        Reserve
          12. Renown Health of Reno, Nevada. Nominator's branch: Air 
        National Guard
          13. Salt River Project of Tempe, Arizona. Nominator's branch: 
        Army National Guard
          14. Andeavor (formerly Tesoro) of San Antonio, Texas. 
        Nominator's branch: Army Reserve
          15. Zapata, Incorporated of Charlotte, North Carolina. 
        Nominator's branch: Air National Guard
                       witness: mccollum, luke m.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Naval Operational Support Center (NOSC) Austin, TX supports 
250 Navy Reservists and 9 Navy Reserve units. Many of these service 
members live and/or work in Texas' 31st congressional district. The 
following is a list of major employers of NOSC Austin Reservists.

------------------------------------------------------------------------
        Company              Mailing Address         City, State, Zip
------------------------------------------------------------------------
Ash Chiropractic         3688 Williams Dr, Ste 5  Georgetown, TX 78628
Georgetown ISD           1313 Williams Dr         Georgetown, TX 78628
Discount Tire            2720 E Whitestone Blvd   Cedar Park, TX 78613
City of Round Rock       301 E Main St            Round Rock, TX 78664
Firestone                100 E. Old Settlers      Round Rock, TX 78664
                          Blvd
Mattress One             1208 N. IH35 Suite 900   Round Rock, TX 78664
Dell                     2401 Greenlawn Blvd      Round Rock, TX 78664
                          Bldg 7
Baylor Scott and White   2401 S 31st St           Temple, TX 76508
Johnson Controls         1908 Kramer Ln Ste 100   Round Rock, TX 78664
Pacesetter K9 LLC        555 County Road 200      Liberty, Hill, TX
                                                   78260
Dell Inc                 7215 Alacia Dr           Leander, TX 78641
DFPS                     503 Priest Dr            Killeen, TX 76549
Dell Inc                 1 Dell Way               Round Rock, TX 78664
TEK Systems/Emerson      1100 Louis Henna Blvd    Round Rock, TX 78681
Baylor Scott & White     2401 S 31st St           Temple, TX 76508
Amplify                  202 Walton Way Ste 200   Cedar Park, TX 78613
------------------------------------------------------------------------

                       witness: mcmillian, rex c.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Information and data collection concerning employers in 47 
states, the District of Columbia, and the commonwealth of Puerto Rico 
that employ Marine Corps reservists is not easily attained or readily 
available. We are currently reviewing options to satisfactorily respond 
to this question.
                       witness: miller, maryanne
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. The Air Force Reserve does not track employers that employ 
Service members of any Reserve Components by congressional district. 
However, Employer Support for the Guard and Reserves (ESGR) provided a 
listing of employers nominated by Service members for the FY 2017 
Secretary of Defense Employer Support Freedom Award via the attached 
listing. These employers in Texas have earned praise from their Service 
member employees for their support of our reserve component military 
members. Other interested members can obtain similar data.
                      witness: luckey, charles d.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Congressman Carter, we appreciate your support and 
willingness to contact employers in your district and while the USAR 
works closely with many employers in communities across the nation, we 
do not track employer information for each member of the Army Reserve. 
With that in mind, we believe providing a partial list would 
potentially be damaging to your overall goal of recognizing all 
employers who provide employment support to America's Army Reserve 
Soldiers.
    Question. Can you get the information by congressional district of 
the employers that employ members of any of the Reserve Components--I 
am going to make the same request of the National Guard--our office 
will personally send them a letter commending them for their service to 
their country?
    Answer. Employer Support of the Guard and Reserve (ESGR) recognizes 
outstanding employers on a regular basis through its progressive awards 
program. Starting with the Patriot Award all the way up to the 
Secretary of Defense Employer Support Freedom Award, ESGR works to 
build positive employment environments for Reserve Component members 
and veterans. In Fiscal Year 2016, ESGR presented 10,627 Patriot Awards 
to supervisors nominated by their Reserve Component employees and 
received 3,064 nominations for the Freedom Award. The Freedom Award is 
the highest honor given by the U.S. government to employers for their 
support of employees who serve in the Reserve Components. Started in 
1996, the Freedom Award has been presented to a total of only 250 
employers (small, large, and public) who represent the best of the best 
in employer support of Reserve Component service.
    This year, the following 15 employers were recognized at a Pentagon 
ceremony for the annual Secretary of Defense Employer Support Freedom 
Award:

          1. Accordia Urgent Healthcare & Family Practice of Vidalia, 
        Georgia. Nominator's branch: Air Force Reserve
          2. Boston Scientific Corporation of Marlborough, 
        Massachusetts. Nominator's branch: Air National Guard
          3. Cargill, Incorporated of Wayzata, Minnesota. Nominator's 
        branch: Army National Guard
          4. Comcast NBCUniversal of Philadelphia, Pennsylvania. 
        Nominator's branch: Air National Guard
          5. CSI Aviation, Incorporated of Albuquerque, New Mexico. 
        Nominator's branch: Army National Guard
          6. Hensel Phelps Construction Company of Greely, Colorado. 
        Nominator's branch: Army Reserve
          7. Howard County Fire & Rescue of Columbia, Maryland. 
        Nominator's branch: Coast Guard Reserve
          8. Indianapolis Fire Department of Indianapolis, Indiana. 
        Nominator's branch: Air Force Reserve
          9. Johnson & Johnson of New Brunswick, New Jersey. 
        Nominator's branch: Air National Guard
          10. Mesa Natural Gas Solutions of Casper, Wyoming. 
        Nominator's branch: Army National Guard
          11. Office of the District Attorney, 18th Judicial District 
        of Centennial, Colorado. Nominator's branch: Marine Corps 
        Reserve
          12. Renown Health of Reno, Nevada. Nominator's branch: Air 
        National Guard
          13. Salt River Project of Tempe, Arizona. Nominator's branch: 
        Army National Guard
          14. Andeavor (formerly Tesoro) of San Antonio, Texas. 
        Nominator's branch: Army Reserve
          15. Zapata, Incorporated of Charlotte, North Carolina. 
        Nominator's branch: Air National Guard

    General Luckey. I appreciate that, sir.
    Ms. Granger. I can say the same thing. Thank you.
    When you are talking about messaging, if there is--I have a 
Reserve base, as you mentioned, thank you, in my district--but 
some way to make sure that we are telling communities how 
important it is to encourage this with employers. Any ideas, 
any places where they are doing it really well, if you would 
pass it on to all of us, then we will encourage that, because 
that partnership is just vital. Thank you.
    Mr. Cuellar.

                     Remarks of Congressman Cuellar

    Mr. Cuellar. Thank you, Madam Chair.
    I don't have any questions except to say thank you for what 
you all do. We really, really appreciate it. We want to be 
supportive in any way.
    I do associate myself to the questions, to the comments 
also. I would like to get followup on that. Thank you.
    Thank you, Madam Chair.
    Ms. Granger. Mrs. Roby.

                    PROFESSIONAL MILITARY EDUCATION

    Mrs. Roby. Thank you very much.
    Thank you all for being here, and a very heartfelt thank 
you to all of your families for their service and sacrifice as 
well.
    With all the professional military education conducted at 
Maxwell Air Force Base, I am well aware of the emphasis that 
the services place on PME, and rightly so. The investments in 
education and career development are critical to the 
development of our next generation of military leaders.
    That being said, I am very concerned about possible 
disparities between Reserve and Active Duty servicemembers with 
regard to pay and benefits as it relates to PME. While a 
soldier on Active Duty receives full pay and credit toward 
retirement while attending PME courses, a reservist is often 
balancing, obviously, a civilian career and completing these 
courses by correspondence. Not only is the reservist not paid, 
in many cases, the reservist gets no credit toward their 
retirement.
    And so what needs to happen to fix this disparity, 
particularly as it relates toward retirement credit, and how 
quickly can we make this happen? And I will be quiet and let 
you answer. Thank you very much.
    General Luckey. So let me jump on that first, if I may, 
Congresswoman.
    So I will just tell you, as a soldier who went to the Army 
War College and, to your point, spent the better part of 2 
years doing it by sort of--some of it was virtual; some of it 
was paper; some of it was--but it ruined--I won't say it 
ruined. It consumed weekends for the Luckey family for a couple 
years. And then we had the summer sessions where I would go to 
Carlisle for 2 weeks.
    I will just tell you that I was completely compensated for 
the time that I spent at Carlisle by the Army, and I received a 
master's degree from the Army War College as part of the 
program. Candidly, while I got retirement points for, if you 
will, the coursework that I accomplished, I am not going to sit 
here and tell you that necessarily in some cases I felt that it 
was--I mean, some of the work was very difficult, frankly.
    But I will just tell you, on behalf of the Army, on behalf 
of America's Army Reserve, I don't think that there is a 
compensation issue or a credit issue as it pertains to 
retirement as it pertains to the Professional Military 
Education program of the Army.
    What I will tell you is it is a challenge. My guess is it 
is true for all the services. It is a challenge for Reserve 
soldiers to balance all the requirements of their lives. But 
the reality is I have fantastic soldiers who have support of 
their families and, by and large, support of their employers. 
We talked earlier. I didn't touch on this data point, but I 
think it is relevant. The authorized end strength of the United 
States Army Reserve, you know, is going back to 199,000, and 
right now, I am at 198,000 soldiers.
    So I guess what I would say is this is not a pressing 
concern for me. So I respect your question and I appreciate it, 
but this is not a pressing concern for America's Army Reserve.
    Admiral McCollum. Thank you, ma'am, for that question.
    I would say, for the Navy Reserve, it is very similar to 
what General Luckey just said. The Navy Reserve sailors are 
motivated, dedicated, and they are awesomely inspiring, and 
they do have this complexity of the family and civilian jobs. 
So it is a little bit different to master from just having one 
focus of their employment.
    Where the conversations generally go regarding AC/RC ends 
up in the benefits area. In the case, we do have an authority 
right now, the 12304 bravo, which is basically an authority to 
let a reservist deploy. So the benefits don't currently match. 
And I know that work is underway to address that. So that is 
where I hear more of the work and the questions.
    General McMillian. Great question, ma'am. Thank you for the 
question. The Commandant of the Marine Corps is focused on 
building a fifth-generation Marine Corps, highly technical, 
highly advanced. I need to build a fifth-generation Reserve 
part of that to augment and reinforce. Along with that comes 
education. But I am book-ended by readiness. I have 38 training 
days to train our marines ready to go downrange, as you have 
heard me talk about, to be ready to go to combat.
    So I need to take full advantage--and this is my point--
with online training and getting the pay and the benefits 
between drills, between those 28 days that I don't have them 
during the month, to bring them up to speed educationally. So 
we are working towards that, and we have great support in the 
Marine Corps.
    General Miller. Within the Air Force and the Air Force 
Reserve, we are moving more toward the virtual. And, with that, 
you know, our folks just achieve greatness. Many of them, if 
not all of them, have master's degrees on the officer side. On 
the enlisted side, those numbers are going up. So this young 
group coming in just achieve and overachieve, and they are not 
really concerned about getting compensated for that. They just 
do it. And the same for the Professional Military Education. It 
is just a requirement and an expectation that we have had, and 
we just do it.
    Mrs. Roby. Thank you all.
    I yield back.
    Ms. Granger. Mr. Ryan.

            ANTITERRORISM AND FORCE PROTECTION REQUIREMENTS

    Mr. Ryan. Thank you, Madam Chair.
    I have a question for General Miller, a couple I will try 
to squeeze in, and, hopefully, you can get to them. And I will 
make the committee aware that you are a graduate of a small 
unknown university in Columbus, Ohio, called the Ohio State 
University. And we are grateful for your service. So thank you 
very much.
    Two quick questions: One, last year, our committee 
identified in the report that many Reserve facilities do not 
meet antiterrorism and force protection requirements, and that 
these deficiencies result in traffic, congestion in surrounding 
roads. And these congested access points, as we saw recently in 
the U.K. with the terrorist attack, can be a major issue.
    The response from the Air Force Deputy Assistant Secretary 
of Budget last year stated the requirements would be met in 
2022, which, in my estimation, is way too long to wait for 
those kinds of security measures.
    So can you comment on that?

                                C-130JS

    And the other question is with regard to the C-130Js and, 
specifically, if we have enough with regard to specialty 
missions. I am concerned that those areas and those planes and 
the training necessary to deal with the specialty missions, 
that we are not where we need to be with that.
    General Miller. Regarding the security measures, thank you 
all for the additional appropriation in 2017 for FSRM. We 
brought in $65 million. You appropriated $65 million for 
additions. I just looked at the list. None of those include 
gates, the security around the installation. So I will go back 
and see. We do a facilities assessment every year at every 
base. So I will do a quick review and see where we are lacking 
in that and get back with you on that specifically.
    Regarding the C-130Js, the last recapitalization for the 
Air Force Reserve for Js was in 2007 at Keesler, and we 
recapitalized 20, partly for the weather mission there and then 
the operational mission there at Keesler. That is the last C-
130J that the Air Force Reserve received, and there is none 
programmed in the POM for us. And that is a decision with the 
Air Force just due to limited funding; that is where we are on 
that program.
    The AMP 1 and AMP 2 on our H model fleet is critical to the 
longevity of that mission set.
    If there were funding that were set aside for the Js for 
the Air Force Reserve, then I would actually put that in the 
special missions at Youngstown and the firefighting unit at 
Peterson. That is where those J models would go, if 
recapitalized, and there would be 60 needed for that.
    But right now, it is not in the program, and there is just 
no room in the program, given where we need to go for the 
future fight.
    Mr. Ryan. Thank you.
    Ms. Granger. Mr. Visclosky.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Madam Chair.
    I don't have a question, but in response to my colleague's 
opening remarks, Mr. Ryan, I would point out that, while Ohio 
State is an incredible athletic institution--the decor of my 
Washington office is patterned after your colors--in the 
National Fencing Championship round, it was Notre Dame-1, Ohio 
State-2.
    Thank you, ma'am.
    Ms. Granger. Thanks for your time, your attention to the 
committee's concerns. Please feel free at any time to remind us 
or talk to us more so we can serve you the very best because we 
respect what you do.
    This concludes today's hearing. The subcommittee stands 
adjourned.
    [Questions submitted by Mr. Aderholt and the answers 
thereto follow:]

          High Mobility Multipurpose Wheeled Vehicles (HMMWVs)

    Question. The Alabama National Guard has about 1,330 High Mobility 
Multipurpose Wheeled Vehicles (HMMWV). Almost 60% of them are over 13 
years old. To say the least, the HMMWV Modernization Program has been 
very successful and has brought 124 much needed new vehicles to the 
Alabama National Guard and over 2,200 nationwide. Does your FY 2018 
Budget include funding to continue this program?
    Answer. Yes, the FY18 President's Budget included a requirement for 
$53M to continue modernizing HMMWVs. With Congress' support during the 
last four years, the ARNG has modernized over 2,788 Up-Armored HMMWVs 
and HMMWV Ambulances with the most modern operational capabilities and 
Soldier safety upgrades. The ARNG plans to maintain its readiness 
through the synchronization of all Light Tactical Wheeled Vehicle 
modernization and recapitalization efforts in accordance with the 
Army's Light Tactical Vehicle Modernization Strategy. The ARNG HMMWV 
modernization improvements is the direct result of year-to-year 
Congressional Line-Items. To date this funding has been used to 
accelerate ARNG LTV modernization efforts which has greatly enhanced 
unit readiness for dual use and contingency operations.

                    Dual-Status Military Technicians

    Question. The FY 2016 National Defense Authorization Act directed 
DoD to convert 20% of administrative, clerical, finance, and office 
service dual-status military technicians, and all non-dual status 
technicians to Title 5 federal civilian employees on 1 January 2016, to 
include Title 32 technicians. To date, our committee has included 
language in appropriations bills to state that no funds would be used 
to support this effort. Is this conversion something that you support? 
What impact would a 20% conversion of technicians to Title 5 federal 
civilians have on the National Guard Bureau? Also, is there a 
conversion percentage that you would consider acceptable for your 
organization?
    Answer. As the Chief National Guard Bureau I have an inherent Title 
10 responsibility to execute the law as it is written. That said, as 
previously discussed in my own testimony I favor a smaller conversion 
number than what is currently called for and would support 
congressional efforts to reduce the required percentage. A 20% 
conversion will have a negative impact. As I stated in previous 
testimony the smaller the conversion number the better when it comes to 
readiness of the National Guard. I believe, as I have testified that 
there is some number that can be converted with minimal impact to 
readiness; I don't believe that number is 20 percent.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Ms. Roby and answers thereto follow:]

                 Professional Military Education (PME)

                      witness: lengyel, joseph l.
    Question. In light of the publication of Department of Defense 
Instruction 1215.17 in 2013 as well as the increasing use of virtual 
training for Professional Military Education (PME), does your service 
provide retirement credit for Reservists completing PME? If not, what 
steps would be required to provide credit to all reservists who 
completed PME since the publication of his DODI?
    Answer. Title 10 United States Code, Sec. 12732(a)(2) does not 
permit the awarding of retirement credit for Reserve Component Service 
members who complete training via distributed electronic methods. This 
is an issue the Department is examining as part of its review of 
Reserve Component duty status reform.

    [Clerk's note.--End of questions submitted by Ms. Roby. 
Questions submitted by Mr. Graves and answers thereto follow:]

                   Dual Status Technicians Conversion

    Question. It is my understanding that National Guard Bureau has 
provided information to Congress regarding dual status technician 
positions identified for conversion per the NDAA requirement. Is this 
accurate? Were the Adjutants General or the Governors consulted when 
identifying the positions for conversion?
    Answer. (1) It is my understanding that National Guard Bureau has 
provided information to Congress regarding dual status technician 
positions identified for conversion per the NDAA requirement. Is this 
accurate? Answer. Yes, to both the HASC and SASC at different times and 
at their requests. (2) Were the Adjutants General or the Governors 
consulted when identifying the positions for conversion? Answer. Yes to 
both entities. The Adjutants General and National Governor's Council 
were and continue to be heavily involved in the process. The Adjutant 
General's provided their best military advice in the Report to Congress 
directed by NDAA 2016.

    [Clerk's note.--End of questions submitted by Mr. Graves. 
Questions submitted by Mr. Visclosky and answers thereto 
follow:]

                   Tactical Wheeled Vehicle Strategy

    Question. The Army intends to maintain a mixed fleet of 104,099 
tactical wheeled vehicles, including 50,000 HMMWVs and 49,099 JLTVs. At 
one point the Army planned to continue operating 100,000 HMMWVs, but 
that strategy has shifted to maintain a nearly even mix of HMMWVs and 
JLTVs.--Over the past several fiscal years, this Committee has added 
significant additional funding to modernize the HMMWV fleets of the 
Guard and reserve components.--Given that the HMMWV will remain half of 
Army's light tactical wheeled vehicle fleet beyond 2040, can you share 
the plan to maintain and modernize the readiness of the National Guard 
and Reserve HMMWVs? Do you feel that Army leadership is committed to 
funding this plan?--Please explain the Army's intentions for the nearly 
26,000 HMMWVs that are supposedly no longer required? Was there any 
discussion of repurposing these vehicles for the National Guard dual-
purpose mission?
    Answer. Congressional support has enabled the Army National Guard 
(ARNG) to purchase 1,509 HMMWV Ambulances and modernize 1,279 Up-
Armored HMMWVs since 2013. As such, the ARNG will replace our entire 
HMMWV Ambulance fleet by 2019. The Army's Light Tactical Wheeled 
Vehicle modernization and recapitalization efforts include the National 
Guard and Reserve. The ARNG supports the Army's HMMWV Modernization 
Strategy of improving all HMMWVs by recapitalizing existing assets. The 
Army's HMMWV Modernization Strategy incorporates JLTV deliveries, Up-
Armor HMMWV modernization and Un-Armored HMMWV modernization, roles and 
missions. The Army has fully supported the ARNG's Light Tactical 
Vehicle modernization strategy with funding. The ARNG's Light Tactical 
Vehicle modernization strategy is aligned with the Army's overall 
strategy and also meets the ARNG objectives and requirements for dual-
use Light Tactical Vehicles. The ARNG is assisting the Army in 
developing a plan for HMMWVs which fall outside the JLTV and Up-Armored 
HMMWV requirements. Although not finalized, ARNG Light Tactical Vehicle 
dual-use requirements are included in the way-ahead strategy.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Ms. Kaptur and answers 
thereto follow:]

                       State Partnership Program

    Question. With Russia's increasing aggression, how do you plan to 
enhance the State Partnership Program? What more can the State 
Partnership Program in Ukraine and Hungary do to enhance the area of 
civil works/transportation infrastructure in those countries?
    Answer. The State Partnership Program began in Europe at the close 
of the Cold War with the purpose of establishing enduring relationships 
to reassure our allies, deter aggression, and help our partners provide 
more effectively for their own security. Currently, the program has 
partnerships with 12 former Soviet Bloc nations. The State Partnership 
Program is and will remain an important tool for Combatant Commanders 
advancing America's national security interests in Europe and around 
the globe. In addition to obtaining necessary funding through the 
Program Objective Memorandum (POM) process to execute a full slate of 
partnership activities in FY18, the National Guard will continue 
seeking innovative ways to leverage the unique skills of the Guard's 
Citizen-Soldiers and-Airmen as well as the strong relationships that 
Guard members have built over the years to meet emerging security 
challenges. The Commander, U.S. European Command, the lead U.S. 
Department of Defense command in both Ukraine and Hungary, will 
determine the projects undertaken by the State Partnership Program in 
those countries.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]

                                           Thursday, June 15, 2017.

             FY 2018 DEPARTMENT OF DEFENSE BUDGET OVERVIEW

                               WITNESSES

HON. JAMES N. MATTIS, SECRETARY OF DEFENSE
GENERAL JOSEPH F. DUNFORD, USMC, CHAIRMAN, JOINT CHIEFS OF STAFF
DAVID NORQUIST, UNDER SECRETARY OF DEFENSE, COMPTROLLER

                 Opening Statement of Chairman Granger

    Ms. Granger. The subcommittee will come to order.
    Today, we will hear testimony on the fiscal year 2018 
budget request for the Department of Defense.
    As the incoming chair of the Defense Subcommittee, I said 
that the defense bill would be based on the needs of our 
military and the best military advice from our leaders in 
uniform. Unfortunately, after extensive conversations with our 
military leaders, I am concerned that the fiscal year 2018 
defense budget request is not enough to address the shortfalls 
and damage caused by years of underfunding. The budget caps 
have enlarged that problem and must be repealed.
    For many years, military leaders have said they would get 
the mission done no matter the level of funding they received. 
That is no longer possible, and it is our job to make sure our 
military has what it needs to face the many threats to our 
Nation.
    All Federal dollars are not the same. During a time when we 
face threats from Russia, China, North Korea, ISIS and other 
terrorist groups, we must prioritize our defense funding first. 
Our adversaries are rapidly advancing their tactics and their 
capabilities. The fiscal year 2018 appropriations bill must 
ensure our capabilities remain more advanced and more lethal 
than our adversaries. The last thing we want to give our 
enemies is a fair fight.
    General Dunford, in 2012, your predecessor, General 
Dempsey, testified that we were living in the most dangerous 
era of his lifetime. That was true when he made the statement, 
and the world is so much more dangerous today.
    Unfortunately, I am concerned that the fiscal year budget 
request doesn't go far enough. Our senior military leaders tell 
us this is the minimal level needed to stop the deterioration 
of our military readiness.
    As you had said, Secretary Mattis, it will take years of 
increased funding to get us to where we need to be, and the 
budget request should be viewed as the first step for what is 
truly needed to rebuild our national defense.
    This fiscal year 2018 budget process is especially 
complicated, and we have a big job in front of us and little 
time to complete it. The world isn't standing still, and the 
threats of today and tomorrow are not waiting on our budget 
cycle. It is my hope we can find a bipartisan common ground to 
give our military the robust support that our service chiefs 
and combatant commanders tell us they desperately need. This is 
where our witnesses come in to help us clarify what we need to 
do.
    Before I introduce them, I would like to recognize our 
ranking member, Mr. Visclosky, for any opening remarks he would 
like to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. The only thing I would say, Madam Chair, is 
thank you for holding the hearing and, gentlemen, for your 
service, for your testimony today, and I would commend the 
Secretary of Defense for his very good judgment in bringing 
aboard Mr. Norquist as Comptroller. Despite the fact that he 
graduated from the University of Michigan, I think he is 
eminently qualified for the position given his 6 years of 
experience as a member of our subcommittee staff, and I am very 
serious about that.
    Good luck to you, David.
    Mr. Norquist. Thank you, sir.
    Ms. Granger. I call on Chairman Frelinghuysen.

               Opening Remarks of Chairman Frelinghuysen

    Mr. Frelinghuysen. Thank you.
    I am going to go through my remarks because I think it is 
important to say a few things, but, first of all, I want to 
join on all the members and Chairwoman Granger in thanking you 
all for being here, especially those brothers in arms that have 
sat together at this table on a variety of earlier occasions.
    Today's hearing is an important part of the oversight 
duties of this committee. After all, the power of the purse 
lies in this building. It is the constitutional duty of 
Congress to make spending decisions on behalf of the people we 
represent at home.
    Secretary Mattis, we gather here this morning to review the 
budget of the Department of Defense, the posture of our Armed 
Forces, and to determine how this committee can help our 
soldiers, sailors, airmen, marines meet the many threats and 
challenges this very dangerous world has produced, because when 
it comes to the men and women in uniform, their missions are 
our missions, and we want to hear your clear priorities for 
making them more successful and safe.
    What is our strategy in Syria? What level of success are we 
having in Iraq and Afghanistan? Even as we have a policy to 
accelerate and to annihilate ISIS, we also recognize that 
threats are growing across the globe from Russia, China, Iran, 
North Korea, transnational jihadists, hackers, and 
cyberterrorists. Your needs are great, but the current 
resources available to you are not adequate.
    We share your opposition to the BCA, the Budget Control 
Act. We will work to lift its restrictions, but this hearing is 
all about an opportunity for you to tell us exactly what you 
need in the short term and long term.
    Mr. Secretary, I have questions also about the devolution 
of warfighting command authority from our Commander in Chief to 
subordinates both civilian and military. While we never want 
the President and the National Security Council to be involved 
in the minute details of operational decisions, we do have 
questions about how to strike a proper balance.
    Secretary Mattis, I hear the constant drumbeat of concern 
from field officers and enlisted personnel about the rules of 
engagement during visits to the Middle East, which all of us 
feel are important, and even from the perspective of visiting 
Bethesda and Walter Reed Hospital. Previously, they were too 
restrictive; now, I am hearing they are confusing.
    In another important area, I think I speak on behalf of all 
of my colleagues when I say we endorse the marriage of hard and 
soft power, military capability and diplomacy to ensure our 
national security. As we prepare the defense appropriations 
bill under Congresswoman Granger's leadership and a State, 
foreign operations bill, we will ask you to weigh in.
    Finally, the general accounting office recently identified 
five key challenges that significantly affect your Department's 
ability to accomplish its mission. These include: top of the 
list, rebuild readiness; secondly, mitigate threats to 
cyberspace and expand cyber capabilities; thirdly, control the 
escalating costs of certain weapons systems and, yes, of 
course, strategically managing your human capital; and, lastly, 
achieving greater efficiencies in defense business operations.
    We do not need a special report to tell us that we have a 
readiness problem--I am sure you will do that in your 
statements--or that the Department of Defense has acquisition 
challenges, but we do look forward to hearing your strategy to 
address these issues and their recommendations.
    And, with that, Madam Chairman, I thank you for the time, 
and I thank the panel for being here with us again. Thank you.
    Ms. Granger. Ranking Member Lowey.

                     Opening Remarks of Mrs. Lowey

    Mrs. Lowey. Thank you, Madam Chair.
    And I would like to thank Chairwoman Granger, Ranking 
Member Visclosky for holding this hearing.
    And I welcome sincerely Secretary Mattis and General 
Dunford and Under Secretary--your title now is Under Secretary 
of Defense--David Norquist. I know many of us sleep better at 
night in this very difficult world knowing that you are there 
making decisions. Thank you for appearing before us today.
    We do live in such a dangerous world in which the threats 
emanate from every corner of the globe, including North Korea's 
belligerence; ISIL's increasingly common attacks in the Middle 
East and Europe; Boko Haram and Al Shabaab in Africa; Iran's 
destabilizing activities in the Middle East and state sponsor 
of terrorism; cyber attacks on U.S. interests at home and 
overseas; continued Russian aggression in the Ukraine, to name 
just a few.
    The Department of Defense's task to track the quickly 
changing global security landscape and ensure the defense of 
our Nation and our allies is both exceedingly challenging and 
costly.
    Secretary Mattis, your fiscal year 2018 budget requests 
$564.7 billion in the base budget and $63.9 billion in overseas 
contingency operations funding. The base budget request is $52 
billion above DOD's share of the fiscal year 2018 budget cap in 
current law. The President's corresponding proposal to cut 
nondefense discretionary funds to pay for it would outright 
cripple important investments needed here at home.
    While I am very pleased that your budget focuses on 
readiness and strengthening our military, I have serious 
concerns about how this dynamic world would impact nondefense 
discretionary funding, which is equally important and 
contributes to our national security.
    Quite simply, the President's budget request forsakes 
critical nondefense programs, many of which support our men and 
women in uniform, contribute to national security, and even 
enable our ability to maintain ready and able Armed Forces.
    For example, Major General Jeffrey Snow, the Commanding 
General of the United States Army Recruiting Command notes that 
only 3 in 10 recruits can meet the requirements to join the 
Army. That is an extraordinary statistic. The two things Major 
General Snow recommended are, and I quote, ``something as 
simple as what our kids are fed in schools,'' end quote, and 
the importance of not doing away with physical education 
programs. And yet this administration would roll back 
guidelines for healthy school meals and proposes to cut $400 
million from education and academic support initiatives, 
including physical education.
    Even retired General Stanley McChrystal has raised 
concerns, stating that public broadcasting, which this budget 
proposes to eliminate, makes us, quote, ``smarter, stronger, 
and, yes, safer.''
    General Mattis, you have said, and I quote, ``If you don't 
fund the State Department fully, then I need to buy more 
ammunition,'' yet the increases you request come at the expense 
of the 32-percent reduction in the international affairs 
budget, which would put American lives in danger, a fact 
underscored in a recent letter by 120--120--three- and four-
star generals, and would abdicate our leadership in the world.
    This administration is heading down a dangerous path by 
proposing increases in defense spending, which I certainly 
support, while falling short of our obligations for education, 
healthcare, transportation, support for law enforcement, and 
first responders and more.
    Congress must reject President Trump's misguided budget 
request and instead pass appropriation bills that support 
national security and American families alike.
    And I just want to say in closing: I have been on this 
committee a long time, and I am proud to be on this committee 
because we have always worked constructively in a bipartisan 
way.
    So I am looking forward to this discussion. I look forward 
to your comments. And I do hope we can approach this budget and 
all the other essential parts of the budget sincerely and be 
successful in creating an appropriate balance.
    Thank you so much for appearing before us today.
    Ms. Granger. Chairman Emeritus Rogers.
    Mr. Rogers. Thank you, Chairman, I will forego.
    Ms. Granger. Thank you.
    And I will do the same.
    Again, allow me to introduce our witnesses. Secretary of 
Defense Jim Mattis comes to the civilian leadership of the 
Department after a long and illustrious career in the Marine 
Corps in which he served in several senior command positions, 
including combat commands in Afghanistan and Iraq, before 
retiring with the rank of general in 2013.
    General Joseph Dunford is the Chairman of the Joint Chiefs 
of Staff and is making his second appearance before us. Like 
Secretary Mattis, General Dunford is a Marine with a long and 
distinguished career and served as Commandant of the Marine 
Corps prior to becoming Chairman.
    Appearing with Secretary Mattis and General Dunford is 
David Norquist, who recently was sworn in as the new 
Comptroller of the Department of Defense.
    Mr. Norquist, thank you for being here today, also.
    Secretary Mattis we will begin with your opening statement, 
followed by General Dunford. Please summarize your statements 
so that we are able to get to our questions as quickly as 
possible.

                     Statement of Secretary Mattis

    Secretary Mattis. Well, thank you, Chairwoman Granger, 
Ranking Member Visclosky, and members of the committee. I 
appreciate this opportunity to testify in support of the 
President's budget request for fiscal year 2018.
    And, Madam Chairman, I request that the committee accept my 
written statement for the record.
    I am joined today by Chairman Dunford and the Comptroller 
so that, hopefully, if there are detailed questions, we can 
actually answer them all right here in front of you today. I 
would like to give an opening statement, chairwoman, because I 
think I can address some of the issues that have been brought 
up already, and it should take only a few minutes.
    But this budget request does hold me accountable to the men 
and women of the Department of Defense. Every day, as you know, 
more than 2 million servicemembers, nearly a million civilians, 
do their duty, and in doing so, they honor previous generations 
of veterans and civil servants who have sacrificed for our 
country, and it is my privilege to be back among them.
    We in the Department are keenly aware of the sacrifices 
made by the American people to fund our military. Many times in 
the past, we have had as a country to look reality in the eye 
and meet challenges with the help of congressional leadership 
building the most capable warfighting force in the world.
    There is no room for complacency in the Department of 
Defense, and we have no God-given right to victory on the 
battlefield. Each generation of Americans, from the Halls of 
Congress to the battlefield, earns victory through commitment 
and sacrifice. And, yet, for 4 years, the Department has been 
subjected to or threatened by automatic across-the-board cuts 
as a result of sequester, a mechanism meant to be so injurious 
to the military, it would never go into effect. But it did go 
into effect, and as forecast by then-Secretary of Defense 
Panetta the damage has been severe.
    In addition, during 9 of the last 10 years, Congress has 
enacted separate continuing resolutions to fund the Department 
of Defense, thus inhibiting our readiness and adaptation to new 
challenges. We need bipartisan support for this request, as 
noted by the chairwoman. In the past, by failing to pass a 
budget on time or to eliminate the threat of sequestration, 
Congress sidelined itself from its active constitutional 
oversight role.
    Continuing resolutions coupled with sequestrations blocked 
new programs, prevented service growth, stalled industry's 
initiatives, and placed troops at greater risk. Despite the 
tremendous efforts of this committee, Congress as a whole has 
met the present challenge with lassitude, not leadership.
    I retired from military service 3 months after 
sequestration took effect. Four years later, I have returned to 
the Department. I am shocked by what I have seen about our 
readiness to fight. While nothing can compare to the heartache 
caused by the loss of our troops during these wars, no enemy in 
the field has done more to harm the combat readiness of our 
military than sequestration. We have only sustained our ability 
to meet America's commitments for our security because our 
troops have stoically shouldered a much greater burden, but our 
troops' stoic commitment cannot reduce the growing risk.
    It took us years to get into this situation, as the 
Chairwoman noted. It will require years of stable budgets and 
increased funding to get us out of it. I urge members of this 
committee and Congress to achieve these goals:
    First, fully fund our request, which requires an increase 
to the defense budget caps.
    Second, pass a fiscal year 2018 budget in a timely manner 
to avoid yet another harmful continuing resolution.
    And, third, eliminate the threat of future sequestration 
cuts to provide a stable budgetary planning horizon.
    Stable budgets and increased funding are necessary because 
of four external factors that are impacting the Department at 
this time.
    The first force acting on us that we must recognize is 16 
years of war. When Congress approved the all-volunteer force in 
1973, our country never envisioned sending our military to war 
for more than a decade without pause or conscription. America's 
long war has placed a heavy burden on men and women in uniform 
and their families.
    And here I will note a few points on Afghanistan that were 
brought up during the opening remarks by the committee, 
recognizing there that our military posture is part of a larger 
regional context in South Asia. Our primary national interest 
and the international interest in Afghanistan is ensuring it 
does not become an ungoverned space from which attacks can 
again be launched against the United States, other nations, or 
the Afghan people. In this regard, our forces are conducting 
partnered counterterrorism operations, and we are supporting 
the NATO-led mission so, in the future, the Afghan people can 
defend themselves.
    This week, President Trump delegated to me the authority to 
manage troop numbers in Afghanistan. The delegation of this 
authority, consistent with the authority President Trump 
granted me 2 months ago for Iraq and Syria, does not at this 
time change the troop numbers for Afghanistan. Together in the 
interagency process with Secretary Tillerson's foreign policy 
guiding us as he implements the President's direction, we will 
define the way ahead, and I will set the U.S. military 
commitment consistent with the Commander in Chief's strategic 
direction and his foreign policy, as dictated by Secretary of 
State Tillerson. This ensures our Department can facilitate our 
missions and nimbly align the commitment of troops to the 
situation on the ground.
    Our overall mission in Afghanistan remains the same: to 
train, advise, and assist the Afghan forces so they can 
safeguard the Afghan people and terrorists find no haven in 
Afghanistan for attacking us or others. The revised Afghanistan 
strategy with a new approach will be presented to the President 
for his approval in the coming weeks.
    The second concurrent force acting on our Department is the 
worsening global security situation that was mentioned by all 
members of the committee in their opening remarks. And here we 
must look reality in the eye. Russia and China are seeking a 
veto authority over the economic, diplomatic, and security 
decisions of nations on their periphery. North Korea's reckless 
rhetoric and provocative actions continue, despite United 
Nations' censure and sanctions, while Iran remains the largest 
long-term challenge to Mideast stability. All the while, 
terrorist groups murder the innocent and threaten peace in many 
regions while targeting us.
    The third force that we have to deal with is adversaries 
actively contesting America's capabilities. For decades, we 
enjoyed uncontested or dominant superiority in every operating 
domain or realm. We could generally deploy our forces when we 
wanted, assemble them where we wanted, and employ them, operate 
them as we wanted. Every operating domain today, on the other 
hand, from outer space to air, sea, undersea, land, and 
cyberspace is contested.
    The fourth concurrent force that we must deal with is rapid 
technological change. Among the other forces noted thus far, 
technological change is one that necessitates new investment, 
innovative approaches, and new program starts that have been 
denied us by law when we have been forced to operate under 
continuing resolutions.
    Each of these four forces--16 years of war, the worsening 
security environment, contested operations in multiple domains, 
and the rapid pace of technological change--requires stable 
budgets and increased funding to provide for the protection of 
our citizens and for the survival of our freedoms.
    I reiterate that security and solvency are my watchwords as 
Secretary of Defense. The fundamental responsibility of our 
government is to defend the American people, providing for our 
security, and we cannot defend America and help others if our 
Nation is not both strong and solvent.
    So we in the Department of Defense owe it to the American 
public and the Congress to ensure we spend each dollar wisely. 
President Trump has nominated for Senate approval specific 
individuals who will bring proven skills to discipline our 
Department's fiscal processes and ensure that we do so.
    The first step in restoring readiness is underway thanks to 
Congress' willingness to support the administration's request 
for an additional $21 billion in resources for fiscal year 2017 
to address vital warfighting shortfalls. Your support put more 
aircraft in the air, more ships at sea, and more troops to 
training in the field.
    However, we all recognize it will take a number of years of 
higher funding delivered on time to restore readiness, to 
strengthen the military, and President Trump has requested $639 
billion top line for the fiscal year 2018 budget.
    There are five priorities here. The first is to improve 
warfighter readiness, and that was begun in 2017, filling in 
the tradeoffs made during 16 years of war, 9 years of 
continuing resolutions, and Budget Control Act caps.
    The second priority is increasing capacity and lethality, 
as noted by the chairwoman, while preparing for future 
investment, driven then by the results of the defense strategy 
that we are working on now. Our fiscal year 2018 budget request 
ensures the Nation's current nuclear deterrent will be 
sustained and supports continuation of its much-needed 
modernization process.
    The third priority is reforming how the Department does 
business. I am devoted to gaining full value from every dollar, 
and we have begun implementation of a range of reform 
initiatives directed by the 2017 National Defense Authorization 
Act, and we are on track to enter into a full agencywide 
financial statement audit, as required by statute.
    I urge Congress to support the Department's request for 
authority to conduct a 2021 Base Realignment and Closure 
process. I recognize the careful deliberation that members must 
exercise in considering it, but BRAC has been one of the most 
successful and significant efficiency programs we have. We have 
forecast that a properly focused base closure effort could 
generate $2 billion or more annually, and over a 5-year period, 
that savings would be enough to buy 300 Apache attack 
helicopters or 120 Super Hornets.
    The fourth priority in the fiscal year 2018 budget is 
keeping faith with servicemembers and their families, since 
talented people remain our most valuable asset. But we must 
balance these requirements with those of investing for other 
readiness equipment modernization efforts to ensure that our 
military is the most capable warfighting force in the world and 
that we bring our folks home alive. Investment in military 
compensation is essential.
    Our fifth priority is support for overseas contingency 
operations. The 2018 budget requests $64.6 billion focusing on 
operations in locations you are well aware of. ISIS and other 
terrorist organizations represent a clear and present danger, 
and I am encouraged, members of this committee, by the 
willingness of our allies and partners to help share the burden 
that we carry.
    Moving forward, the 2019 budget will be informed by the 
National Defense Strategy. I will then have the analytical 
rigor that I can recommend hard choices as we shape the program 
for the next 5 years. The Department will work with President 
Trump, the Congress, and this committee in particular, to 
ensure future budget requests are sustainable and provide the 
Commander in Chief with viable military options that support 
our security.
    In summation, I need the BCA caps lifted and a budget, not 
a continuing resolution, passed on time and elimination of 
future sequestration cuts so we can provide a stable and 
adequate way ahead. For those who are concerned that we are not 
asking for sufficient dollars, please consider the following: 
For 2017, we asked for $30 billion. The Congress provided $21 
billion as a supplemental. Second, this fiscal year, we have 
requested the amounts I have noted already. This is a 5-percent 
growth over what national defense was funded for in 2017. This 
request is admittedly $52 billion above the Budget Control Act 
defense caps. We have underway at this time a National Security 
Strategy that will give me the analytical rigor to come back to 
you for the fiscal year 2019 to 2023 budget request when we 
want to build up our military to confront the situation that 
the chairman and I have laid out in our written statements.
    I am keenly aware that we have the support of this 
committee, and we have over many years, but I ask for your help 
to inform your fellow Members of Congress about the reality 
facing our military and the need for Congress as a whole to 
pass a defense budget on time.
    Thank you for your strong support over many years. I pledge 
to collaborate with you.
    And, ladies and gentlemen, Chairman Dunford can give some 
military aspects of this that might give more depth to some of 
the things I have just stated.
    [The written statement of Secretary Mattis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you, Mr. Secretary.
    General Dunford.

                      Statement of General Dunford

    General Dunford. Chairwoman Granger, Ranking Member 
Visclosky, distinguished members of the committee, it is an 
honor to join Secretary Mattis and Under Secretary Norquist in 
appearing before you today.
    I am honored to represent you men and women in uniform, and 
it is because of them I can state up front with confidence that 
we have the most capable U.S. military in the world. However, 
the competitive advantage that our military has long enjoyed is 
eroding, and a number of factors have contributed to that 
erosion, and we have discussed those in previous hearings.
    One is an extraordinarily high level of operational tempo 
since 9/11, which has accelerated the wear and tear of our 
weapons and equipment. Meanwhile, budget instability and Budget 
Control Act have forced the Department to operate with far 
fewer resources than necessary to meet the current strategy of 
record. As a consequence, we have prioritized near-term 
readiness at the expense of replacing aged equipment and 
capability development.
    We also maintain a force that consumes readiness as fast as 
we build it, and we lack sufficient capacity to meet current 
operational requirements while rebuilding and maintaining what 
when we describe as full-spectrum readiness. Of course, we are 
talking there of being able to respond to both Russia on one 
end and violent extremism on the other end and all the 
challenges that may fall between. The Secretary and the service 
chiefs have addressed that dynamic in their testimonies, and I 
fully concur with their assessments, but beyond current 
readiness, we are confronted with another significant challenge 
that I assess today to be near term. While we have been 
primarily focused on the threat of violent extremism, our 
adversaries and our potential adversaries have developed 
advanced capabilities and operational approaches. And these are 
specifically designed to limit our ability to project power, 
which we view as our source of strength of the U.S. military. 
They recognize that our ability to project power is, in fact, 
necessary to defend the homeland, advance our interests and 
meet our alliance commitments.
    And as Secretary Mattis mentioned, Russia, China and Iran 
field a wide range of cyberspace, aviation, maritime, and land 
capabilities specifically designed to limit our ability to 
deploy the force, employ the force, and sustain the force in 
combat. Russia and China have also modernized a nuclear arsenal 
while North Korea has been on a relentless path to field a 
nuclear-armed ICBM that can reach the United States.
    In just a few years, if we don't change the trajectory we 
are going to lose our qualitative and quantitative competitive 
advantage, and the consequences will be profound. It is going 
to affect our ability to deter a nuclear war, a conventional 
war, and our ability to respond if deterrence fails.
    Alternatively, we can maintain our competitive advantage 
with sustained, sufficient, and predictable funding. To that 
end, the fiscal year 2018 budget request is an essential step, 
and it builds on the fiscal year 2017 supplemental request, as 
the Secretary mentioned. However, this request alone is not 
going to fully restore our readiness or arrest the erosion of 
our competitive advantage. Doing that is going to require 
sustained investment beyond fiscal year 2018.
    As the Secretary mentioned, this took us several years to 
get into this situation we are in right now, and we assess it 
will take many years to get out of this situation. Specific 
recommendation for 2019 and beyond will be informed by the 
Secretary's forthcoming defense strategy, but we know right now 
that continued growth in the base budget of at least 3 percent 
above inflation is necessary just to maintain the relative 
competitive advantage that we have today. That is not to build 
a force that we need tomorrow, but simply to maintain the force 
that we have today.
    As we ask for your support, we recognize the responsibility 
to maintain the trust of the American taxpayer, and we take 
this responsibility seriously and will continue to eliminate 
redundancies and achieve efficiencies where possible.
    Thank you again for the opportunity to appear before you 
this morning, and, Chairwoman, more importantly, thank you for 
all you and the committee do to make sure that, as you said, 
our young men and women never find themselves in a fair fight.
    And, with that, I am prepared to take your questions.
    [The written statement of General Dunford follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Granger. Thank you very much.
    We will now proceed to questions observing our usual 5-
minute rule, and watch your red light. I am going to forego my 
questions until the end, but just in response to your opening 
statements, we request that you reach out to Members that are 
not on this committee or the authorizing committee and make 
sure that they understand how very important this is and what 
your plan is that says we will rebuild to this at this time and 
then continue for years.
    And the question and answers, we have several members who 
are in either committee, subcommittee hearings that are hearing 
right now. So I am going to go to Ms. McCollum first because I 
know you have to leave. Mr. Calvert will be second.

                        Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Madam Chair. And Mr. Calvert and I 
will someday repay the kindness that this committee as shared 
with us.
    First, I want to thank you all for being here today and 
your service to our Nation. I have two questions I am going to 
submit for the record, but one I am going to just mention what 
it is because I am very concerned about what appears to be--
well, not appears to be--it is a growing problem with pilots 
across our services reporting symptoms of hypoxia and oxygen 
deprivation. And I have had some briefings on it, but I want to 
learn how more this committee can be helpful on that, and then 
another question for the record on the transgender policy and 
the way that is unfolding.
    But I want to state however, Mr. Secretary, I find this 
budget to be completely out of balance with the needs of the 
American people. We do--we do need a strong national defense, 
but we also must ensure that the needs of the American people 
here at home are taken care of. The proposed increase for 
defense will come at the expense of domestic investments for 
all Americans, including our men and women in uniform, their 
families, our veterans, and these are services that they all 
depend on: lifesaving medical research, support for our first 
responders, educational opportunities for future generations, 
safe roads and bridges. So this is about making smart choices.
    The Pentagon is going to have to be tougher on cutting 
waste and controlling spending, and I was pleased to hear in 
your remarks that you are on top of doing just that. And I 
couldn't agree with you more that we need to participate with 
the armed services in doing a BRAC. We need to be doing that. 
So you have my full support and count on me to work with you 
with that.

                        STRATEGY FOR AFGHANISTAN

    But there is an example of how continued investment after 
15 years in Afghanistan has left us in a stalemate. Just let me 
lay out some statistics here: 2,000 Americans have lost their 
lives. Over 20,000 have been wounded. Last year alone--last 
year alone--5,000 Afghanistan troops were killed in action, and 
the President of Afghanistan said that there is over 11,000 
foreign fighters right now operating in country. Corruption 
continues to run rampant in Afghanistan. Afghanistan remains 
foremost a NARCO state, and the cost of our involvement, the 
U.S. involvement, is $700 billion. That is a staggering amount 
to spend on a war you said yourself at the time we are not 
winning, and that is from The Washington Post article on June 
13th.
    So, Mr. Secretary, now that President Trump has fully 
delegated all the authority for troop levels on to you, will 
you be sending more troops to Afghanistan in the calendar year? 
What do you consider success? And will U.S. troops be fighting 
in Afghanistan 15 years from now?
    Thank you.
    Secretary Mattis. Congresswoman, he has not delegated all 
authority to me. He maintains strategic oversight. He is an 
actively engaged and a very hard questioner about what the 
strategy is. He has delegated the details of forces that will 
be allocated to support what he approves finally as the 
strategy, but I assure you this is not a carte blanche for me 
to come up with numbers that are going into this in 
interagency, foreign policy-led effort.
    As far as what it is that we would be doing in order to 
bring this to a better conclusion, we have got to recognize 
that we tried to leave the Afghan forces before they were fully 
mature without the sufficient air support that would allow them 
to hold the high ground, to put it in military terms. So we are 
going to have to look at a more regional strategy, one that 
takes into account Afghanistan as part of South Asia, not look 
at it in isolation. It is going to have to be one that marries 
itself to reality and the current level of support that we 
could expect out of the leadership in the Afghan forces so that 
we don't add to their responsibility without preparing them for 
success, and if that means we have to keep advisors with them a 
little longer, then 9/11 taught us the cost of not paying 
attention to this problem. And we will do so.
    For right now, we also have to work hard on the 
countercorruption effort there in order to make this government 
responsive to the needs of its people, and in that regard, that 
is why the State Department is an equal partner with me as we 
put this strategy together. We are not looking at a purely 
military strategy, and it has got to be one that leads to a 
reconciliation. All wars come to an end. Our job is to end it 
as quickly as possible without losing the very mission that we 
recognized through several administrations was worth putting 
those young Americans on the line for.
    Ms. Granger. Thank you.
    Mr. Calvert.
    Mr. Calvert. Thank you, Madam Chairwoman.

                           BUDGET CONTROL ACT

    Good morning, Secretary Mattis and General Dunford, Mr. 
Norquist. Thank you for appearing before our committee. Thank 
you for your service to our Nation. Most of us, if not all of 
us, agree and understand that the base on defense must go up 
and maybe more than the $50 billion that you are asking for.
    However, I am going to have a bipartisan moment here--maybe 
the sobering couple of days that we have had here--but the 
funding on military cannot be obtained on the back of 
nondefense discretionary spending. I think all of us here in 
this room understand that. It is not going to work. We need a 
budget agreement. We need the administration, we need the 
Senate, the House to come to a workable number that we can 
agree to get rid of the sequestration and the Budget Control 
Act and come up with realistic numbers both on the 
discretionary side and the nondiscretionary side. And we need 
to talk about the entire budget, not just discretionary 
spending.
    So I hope in the coming days that we take this seriously, 
and that is not just the House and the Senate. That does 
include the administration. So I think we all need to be 
working together on that.

                           CIVILIAN WORKFORCE

    One issue, though, that we can do within the Department of 
Defense--and you, Mr. Secretary, mentioned reforms--is 
something I know I have been harping on, and some of my friends 
up here have heard this a number of times, but from 2001 to 
2014, the Active-Duty military has shrunk by 4 percent while 
the number of civilian defense employees has grown by 15 
percent. A recent study uncovered by The Washington Post found 
that there is approximately $125 billion in bureaucratic waste 
at the DOD.
    Now I know many of my colleagues and the service chiefs 
pointed out the importance of our civilian workforce, 
especially our maintenance people and civilians who work at the 
depots. I have got to point that out here. But this report 
found excess capacity in the bureaucratic overhead, desk jobs, 
held by civilians and certainly contractors.
    Secretary Mattis, I would like to give you both the mandate 
and the authority to conduct a reduction in force that would 
place more emphasis on performance and, as you mentioned, the 
word ``lethality.'' We want to keep the best and the brightest 
of our civilian workforce while realizing billions in savings 
that could be redirected back into the Department for 
readiness, procurement, and end strength. Can you share your 
thoughts on the size of the civilian workforce within the DOD, 
and what is the overarching plan to match capability with 
requirements? Thank you.
    Secretary Mattis. Congressman Calvert, we are on track 
right now to reduce our headquarters by 30 percent. That is 
where you find much of the specific jobs that you have 
highlighted here. I would add that I have met twice now with 
the authors of the report that found the $125 billion in waste, 
as they pointed out. I do not agree with everything in the 
report. I have got real concerns about logistics. I know it 
doesn't look sexy, but I would tell you that the strength of 
our forces in deploying around the world is heavily dependent 
on those logistics elements and just-in-time civilian practices 
may not work well on a battlefield where the enemy is trying to 
disrupt your timelines in terms of undercutting our warfighting 
capability.
    But that does not take away in my mind that I need to look 
carefully at each one of the wastes that they identified and 
address it. The best way to do this, I believe, is to get the 
right people into the Pentagon, and I am drawing people from 
industry, including those who saved programs, big programs that 
were in big problems, for industry, aircraft programs. This 
way, they come in with a background of how to very analytically 
weigh the quantitative and nonquantitative factors so that we 
can have a grounding, I would say, a grounding in what the 
fundamentals are that permit us to revolutionize our business 
practices.
    I have three priorities in the Department: Strengthen our 
military; strengthen our alliances so we are not carrying the 
full burden for our security; and to reform the business 
practices. And I will get these people in. They are being 
confirmed as we speak. It is ongoing. And once I have them 
there, I am going to fully empower them along the lines you are 
talking about.
    Mr. Calvert. Thank you. Thank you.
    Ms. Granger. Mrs. Lowey.

                    INTERNATIONAL DEVELOPMENT BUDGET

    Mrs. Lowey. Thank you, Madam Chair.
    Secretary Mattis, during testimony before the Senate Armed 
Services Committee in 2013, Senator Wicker asked you if you had 
observed that the international development budget is helpful 
to us in providing national defense for our country. You 
responded, and I quote, ``If you don't fund the State 
Department full then I need to buy more ammunition ultimately. 
So I think it is a cost-benefit ratio. The more that we put 
into the State Department's diplomacy, hopefully the less we 
have to put into a military budget as we deal with the outcome 
of an apparent American withdrawal from the international 
scene,'' end quote.
    As the ranking member of both the full House Appropriations 
Committee and the State and Foreign Operations Subcommittee, I 
frankly am extremely concerned that the fiscal year 2018 budget 
requests drastic increases in defense spending at the expense 
of nondefense discretionary priorities, including foreign aid 
and international development programs.
    Mr. Secretary, do you stand by your statements about the 
importance of the foreign aid budget, and how will these 
drastic cuts to diplomacy programs impact future DOD 
expenditures?
    Secretary Mattis. Congresswoman, I believe America has two 
fundamental powers: the power of intimidation, and that is 
represented here before the committee today, America's awesome 
determination to defend ourselves; and the power of 
inspiration, which is heavily conveyed overseas by our 
Department of State. Well, they are the lead on it.
    I have not reviewed--just getting ready for these hearings 
consumed my time to understand budgets that are rather 
extensive. I have not reviewed where the cuts come to Secretary 
of State Tillerson's budget. So I do not want to speak offhand 
without having done my homework.
    But I would tell you that, as I read about those cuts, I 
called Secretary of State Tillerson. I meet with him weekly. We 
talk several times a day, and we agreed to put two of our top-
level subordinates together. We are going to look at the 
priorities for where we need to engage in the world. This 
committee also gives me development funds, and we have married 
the two. We will set the priorities together so that we get the 
best possible use of the dollars allocated to each of the 
Departments working in concert. So that is my effort to 
reinforce on that and keep us together, and I am confident this 
is also what President Trump expects us to do. So that is my 
best response to you.
    I have not reviewed their budget in any detail, ma'am. So I 
just can't speak to where the cuts are coming.
    Mrs. Lowey. Well, thank you very much.
    Madam Chair, my timer is not on.
    Ms. Granger. Out of respect, Mrs. Lowey, we don't put a 
timer on you.
    Mrs. Lowey. Oh, you are so kind. You know, Chairwoman 
Granger and I have worked together a long time, and there 
really is outstanding mutual respect.
    Well, then I will just take another minute.
    Ms. Granger. Okay.

                             CYBER SECURITY

    Mrs. Lowey. Because there is another issue that I am 
passionately concerned about, and that is cyber security. I am 
so concerned about the growing cyber threats against the United 
States' interests and assets both at home and overseas. If you 
could share with us the primary risk faced by the Department of 
Defense in the cybersecurity realm. How does the budget request 
support offense of cyber operations? And along with its 
elevation to a full unified command, as specified in the fiscal 
year 2017 NDAA, would Cyber Command benefit from ending the 
dual-hat relationship with NSA? And what steps is the 
Department taking to attract and retain these skilled 
personnel? And I have been so concerned about, once an 
individual comes to your Department and has gone through 
extensive training, we hope that we will be able to keep them 
because this is such a challenge I am aware of from the private 
sector. So thank you.
    Secretary Mattis. Just quickly, ma'am, I could not agree 
more about the growing threat. If we had been here 10 years 
ago, I would have yawned and said: I don't see the big problem.
    Right now, it is at $8 billion this year specifically 
targeted, and actually, there is a lot more going into this, 
because we are not counting in all the recruiting dollars on--
this is just targeted on the cyber capability. I would tell you 
that growing from basically $3 billion to $8 billion in 5 years 
shows the priority we are placing on it.
    As far as the Cyber Command-NSA split, we intend to make 
this a split that actually gains more unity of effort from a 
broader constituency, too, from other elements that are also 
engaged in the countercyber threat.
    And, lastly, I just say that the attracting and keeping key 
people, the educated, trained people will be very challenging. 
We recognize it because they can be offered so much more money 
on the open market than they can be offered in government 
service. We will have to fight it probably with bonuses but 
also with a call to their patriotism, which at times is the 
most compelling, and we keep a lot of young people around based 
on the fact that we need them to defend the country. But it is 
going to be a challenge, and I did not hear one word you said 
on this issue that I take issue with. I agree with you 100 
percent. It is a priority effort.
    Mrs. Lowey. Thank you.
    And, unfortunately, I have to go to another hearing, too. 
So thank you, Madam Chair.
    And I know we rest better at night knowing that you are in 
charge of the policy. Thank you.
    Ms. Granger. Chairman Rogers.

                      STATE AND FOREIGN OPERATIONS

    Mr. Rogers. Amen to that last remark. We are assured with 
you in charge.
    Let me quickly and briefly take up the matter that Mr. 
Calvert mentioned and also Mrs. Lowey on the funding for the 
Department of State. We had Secretary Tillerson here yesterday, 
and he agreed with the same description of your relationship 
that you have mentioned here today, and that is great.
    But the proposed budget for State and foreign operations 
has rather draconian cuts. For example, economic assistance to 
Egypt is cut by a third; Ukraine by half; Pakistan by a third; 
Iraq by 14 percent; Afghanistan by 9 percent; and the like. 
That is economic assistance, not to mention the military each 
side. Those are rather severe, would you not agree?
    Secretary Mattis. I agree, sir.
    Mr. Rogers. Yes. What impact would those kinds of cuts have 
on your capability to do what you need to do in these various 
countries?
    Secretary Mattis. Well, in terms of a direct military 
impact, if I am kept funded, then, obviously, I can keep the 
military--the purely military--effort ongoing, and that 
includes the support for protection of our embassies, which is 
a constant priority for us.
    But I think that I would have to look--again, I am not 
trying to get out of answering the question, Congressman, but I 
would have to look in detail about what is the capability that 
they are losing, what is it, and then we would have to do an 
analysis of what that does.
    The concern I would have is sometimes these issues do not 
relate easily to a quantitative analysis, that there is 
nonquantitative aspects to our relationship with the world that 
are more difficult to come up with. They are easier to see, 
frankly, in the rearview mirror. That is when you see what has 
happened. But I just don't want to say something right now, 
sir, that I can't back up with some kind of homework that I 
have done already so I can give you some authoritative answers.
    Mr. Rogers. When you have time to reflect on that, we would 
like to hear from you.
    Secretary Mattis. Okay, sir.

                            BUDGETARY NUMBER

    Mr. Rogers. I have been dealing with these CRs and 
omnibuses now for many years. And we are headed straight into 
that rabbit patch again very quickly. I don't recollect a time 
later in the season that we have gone as far as we have this 
time. Here it is almost July 4th, and we are nowhere near 
coming up with a budgetary number that we can sit down and 
appropriate to on Appropriations Committee.
    So I want to encourage you to talk with the White House 
people, especially OMB, and see if we can negotiate a number 
that we can appropriate to here on this subcommittee and the 
other 11. Otherwise, we are headed straight into a CR, with all 
that contains, or an omnibus, where we don't get what we need 
to get in defense.
    So that is the dilemma that we are in, but it also is the 
dilemma that you are in. We need desperately a number that both 
sides have agreed to, and I am here to tell you that I think 
that is possible, but it does take some elbow work, and it 
takes some grease work, and it takes some effort.
    But on this subcommittee, we understand completely your 
need for help, and we are there to give it to you. But our 
hands are tied until we get that number that we can all work 
under. So let me encourage you to work your magic with the 
budgeteers at the OMB and other places.
    We appreciate your service, all of you. Thank you so much 
for dedicating your lives to our country. And we feel safe with 
you in the positions you are in.
    I yield.
    Ms. Granger. Mr. Visclosky.

                         NUCLEAR POSTURE REVIEW

    Mr. Visclosky. Thank you very much.
    I would just point out to the panel that my understanding 
is the deadline for the Department to have auditable results is 
the end of fiscal year 2017, which is fast approaching. I 
understand from the Under Secretary that that goal will 
absolutely be met, and I am counting on him.
    What I would suggest, Mr. Secretary, is, if we can follow 
up with your office, as you know, I have an intense interest on 
the Nuclear Posture Review, the modernization program, and I 
appreciate your very thoughtful conversation in February. Too 
often I think people have an instinctive response that we need 
a triad forever. You suggested that you want to take a very 
serious look as to what it should be going forward.
    I think when people think about the nuclear posture, they 
also think about nonproliferation, many of the programs being 
at the Department of Energy, but the third element, from my 
perspective, are those nonnuclear events or weapons that 
potentially trigger a nuclear event. Our country, others are 
working on hypersonic weapons. So we have unstable regimes that 
what will trigger their nuclear response, absent a nuclear 
attack of our own?
    And I would appreciate sitting down with whoever you think 
is appropriate from the Department so that I have a clearer 
understanding and perhaps the chair and others on the 
subcommittee, how the Department works through preventing that 
from happening to the best of our Nation's ability, where it is 
not toe to toe, somebody launches first, but there is some 
event, there is that new weapons system that is just kinetic, 
nonnuclear, that triggers that nuclear event. I think it is a 
very serious issue, and I would like to have that conversation.
    Secretary Mattis. I will find the right people to bring up, 
sir. I understand the nature of your question, though, and I 
would just say that I had not put those in my thinking into the 
Nuclear Posture Review. So let me reconsider the guidance I 
have given them. We are working, obviously, the triad: should 
it be there, which weapon system should constitute each leg, 
and the nonproliferation. I need to look at this myself. After 
I get my head wrapped around it right, I will assign some 
people to come up and brief you and get your thoughts on this.
    Mr. Visclosky. I appreciate it, because I do think you have 
been very thoughtful on this.
    Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Cole.

                       NATIONAL SECURITY STRATEGY

    Mr. Cole. Thank you, Madam Chairman.
    Mr. Secretary and General Dunford, and Mr. Norquist, it is 
good to have all three of you here. I really thank you for your 
service. And, quite frankly, it speaks well of the President 
that you all were nominated in your respective positions and 
got such strong bipartisan support when the Senate considered 
you. So I appreciate that.
    Second, I couldn't help but laugh, Mr. Secretary, when I 
read your now famous remark about your sleep habits. And I 
thought, well, all of us sleep a lot better right now if you 
happen to be an American thanks to you. So we are very grateful 
for that.
    I want to echo a little bit of what has been said up here 
several times, because I don't think it can be said often 
enough. When we look at the approps process, and I focus a lot 
on that, at the end of the day, there are only one or two 
outcomes this year. We are either going to have a continuing 
resolution or we are going to have a negotiated bipartisan 
agreement. And as you have made crystal clear, the latter is 
much preferable to the former. And so I really want to 
emphasize that where my colleagues are concerned and, quite 
frankly, associate myself with some of my Democratic 
colleagues' remarks: If we don't get to a good number in the 
nondefense area, we will inevitably end up doing something that 
nobody on either side of the aisle wants to do, and that is 
present you with the kind of dilemma that you have outlined in 
front of you.
    I think, at the end of this day, this committee will give 
you at least what you ask and probably more. But, again, if we 
don't get the process right, none of that will matter. You 
know, they can authorize everything all day long. Until we 
actually get the numbers where we can appropriate, things don't 
happen.
    I do have a question. I know you are in the last part of 
really working on the National Security Strategy, and we look 
forward with a great deal of anticipation to looking at that. 
But I am curious if you believe--and this may be a little out 
of your lane. If you don't want to comment on it, that is 
perfectly fine with me. But some of us up here have been 
concerned for a long time about the lack of a new Authorization 
for Use of Force. We are really operating off things that go 
back to 2001, 2002, 2003. We are fighting a different enemy in 
a different place than we envisioned at that time.
    Would it be helpful for Congress to explicitly have this 
sort of debate and come to these sorts of conclusions, 
obviously, with the guidance from the administration, input 
from the administration and experts, or is that just a waste of 
time?
    Secretary Mattis. Sir, I don't believe it is a waste of 
time at all. The Chairman and I have talked at length about 
this in our private conversations, and the Congress making a 
statement like that would hearten our own troops. It would 
reassure our allies around the world. It would put America out 
front in terms of a united--or the consensus of the Congress 
that this is where you think we have to be committed.
    I believe it is much preferable to leaving it to be argued 
about in bits and pieces over specific issues or troop strength 
or something like this. And the Chairman, I could have him 
comment, too, but he believes it sends a real statement, sir.
    Mr. Cole. Mr. Chairman.
    General Dunford. Congressman, that is exactly the 
conversation we had. I think it would send a loud and 
unmistakable message to our young men and women that are 
deployed that the people at home in the form of the Congress 
support what they are doing. And it is a consensus about what 
they are doing, and what they are doing is important.
    Mr. Cole. Well, thank you very much for that because I feel 
exactly the same way. I think it is a constitutional issue as 
well. And I think it means a lot when people of your stature 
tell us that it matters to the men and women that we have put 
in harm's way to do difficult things for us.
    So, Madam Chairman, I would hope, while we all work hard, 
and I know we will, on getting the appropriate resources so 
that we have at least the administration's request and perhaps 
some more, that we also push our respective leadership on both 
sides of the aisle to stop avoiding a debate that needs to 
happen.
    You know, I have actually worked with my friend, Mr. 
McGovern from Massachusetts, we probably don't see eye to eye 
on the issue, but we certainly see eye to eye on the importance 
of a resolution and a congressional statement. So I think that 
is part of our job ahead of us, too. It is not just to give you 
the resources, which we certainly need to do, but to make sure 
that you have got the clear lines of authority and the 
unequivocal support of the American people as you go about 
carrying out the mission we have asked you to do.
    I am not going to take the rest of my time. I yield back. 
Thank you.
    Ms. Granger. I certainly agree with you Mr. Cole.
    Mr. Ryan.

                         U.S. ROLE IN THE WORLD

    Mr. Ryan. Thank you, Madam Chair. I appreciate it.
    I want to make a couple of points, and then have a question 
with regard to North Korea. One is we just got back from a 
trip: We were in Bahrain. We were in Norway. We were in 
Germany. We were in Spain. And as a guy from Youngstown, Ohio, 
it always inspires me to see the footprint of the young men and 
women who are under your command, that they take their 
responsibilities so very seriously. They are so well trained.
    The point I want to make is that I don't think we do a good 
enough job of letting the American people know how important 
our role in the world is. When you are in the Persian Gulf, 
when you are in the Middle East, when you are in Europe, you 
are thinking about what we are doing in Eastern Europe with 
NATO, the American people just don't quite understand, I think, 
the prominence and the responsibilities that we carry. And part 
of that is losing the World War II generation, the people that 
were engaged in war and all the rest. So all of us--just to 
make a point because I think all of us need to think about, as 
we are having these discussions, how we communicate that to the 
average citizen that is in Gary, Indiana, or Youngstown, Ohio, 
how important it is for us to be engaged in the world, and you 
are on the front lines of that. So I wanted to make that point.

                              NORTH KOREA

    Secondly, I would love for either Secretary Mattis or 
General Dunford to talk to us about North Korea generally. But, 
in particular, what does it look like should we have to make a 
decision in the next 12 to 18 months, if you look at the 
trajectory of where North Korea is going? We have got to come 
to some determination here about what we are going to do, and 
whether or not we are okay with them potentially getting the 
capabilities to be able to launch some attack, not just in U.S. 
interests, but potentially strike the United States.
    I think it would be instructive for the American people to 
know, kind of not giving away state secrets or getting 
classified, but just what that would look like if there is a 
back and forth between, whether it is the United States or an 
ally that we have in the region, and North Korea, what happens 
in South Korea, what happens in Seoul, what happens to Japan? 
Because we hear a lot: Well, just bomb them; just take it out, 
take out their capabilities.
    Can you just illustrate for us what that engagement looks 
like?
    Secretary Mattis. I can, Congressman Ryan. I would suggest 
that we will win. It will be a war more serious in terms of 
human suffering than anything we have seen since 1953. It will 
involve the massive shelling of an ally's capital, which is one 
of the most densely packed cities on Earth. It would be a war 
that fundamentally we don't want. And we would have our allies 
and us; we would win at great cost.
    This is why in one of the most--the highest priority 
efforts that President Trump has directed, he has brought--
invited the President of China to Mar-a-Lago. There were only 
two issues brought up in Mar-a-Lago, and this was one of them. 
It was that high a priority.
    Secretary Tillerson has this as a priority. We are working 
through China to ensure that China understands that North Korea 
is today a strategic burden for them; it is not a strategic 
asset. And China has actually responded in some ways 
positively. You saw them vote last week for additional 
sanctions on North Korea, for example. And I think that we are 
exhausting all possible diplomatic efforts in this regard.
    Next week, Secretary Tillerson and I will meet with our 
opposite members from Beijing who are flying here to Washington 
over several issues, but this one will loom large. So it would 
be a serious--it would be a catastrophic war, especially for 
innocent people in some of our allied countries, to include 
Japan most likely, but it is also one that we are doing 
everything possible not to have happen and resolve this through 
diplomatic means.

                         ADDITIVE MANUFACTURING

    Mr. Ryan. I appreciate that. Thank you.
    Just, lastly, one point. When we were in Kuwait a few weeks 
back, we went to this small little tent where they had 3D 
printers, and the Marine Corps was printing parts for different 
things that they needed. I want to engage the Department in the 
future to make sure that you have the resources that you need. 
This could be a tremendous capability. But one of the aspects 
is they almost need like a depot for how to get these parts, 
get the kind of design, a design depot, to be able to download 
these parts in places like Kuwait to really, I think, save us a 
lot of money, Madam Chair. And I know we are putting money into 
one of President Obama's initiatives for manufacturing 
innovation institutes, one of which is additive manufacturing, 
a great capability where you don't have to order a thousand 
parts of this, that or the other; you can actually print one in 
the field. And this is a way for us to merge modern technology, 
to give the warfighter the capabilities that they need. So I 
just wanted to give you the heads-up. We are going to continue 
to work on that and I think save the taxpayer a heck of a lot 
of money in the process. Thank you so much.
    Ms. Granger. Mrs. Roby.

                 STRATEGIC DECISIONS AND DEFENSE BUDGET

    Mrs. Roby. Thank you all for being here today. We have 
learned a lot, and we appreciate your service to our country 
and that of your families. So, please, pass that along as well.
    Secretary Mattis, throughout much of your military career, 
it was the National Security Strategy of our country to have 
the ability to fight and win two major conflicts 
simultaneously. And over time, that strategy has changed to a 
strategy of being able to win one significant conflict in one 
theater while having the ability to hold in another until 
additional resources could be brought to the fight.
    Accordingly, Congress has appropriated the necessary 
resources for force structure, procurement, and research and 
development to reach those strategic objectives. Today, with 
the rising threats all over the world, many of which we have 
already discussed here today, I am concerned that, should a 
conflict break out in one region, that our adversaries in other 
regions may use that as an opportunity to take aggressive 
military action.
    At the end of the day, with the President's budget we are 
discussing today, how capable will we be to simultaneously 
fight two major conflicts should that become necessary?
    Secretary Mattis. Implementing this budget, Congresswoman, 
will enable us to be better prepared for this. That is not to 
say strategic decisions wouldn't have to be made once engaged. 
And we do assume, however, that--we agree with your thesis 
that, in the event we are doing something in one place, the 
potential for somebody to take advantage of it is a given. So 
we are completely aligned with you on that.
    You can see us right now engaged in Afghanistan, not in a 
heavy way. The Afghan Army is carrying the bulk of the 
fighting, but it is still a significant draw on us. You see us 
engaged in the Middle East in the same way. And we are doing an 
awful lot of this by, with, and through allies, but your 
question go to the heart of, what if we have to do most of it? 
And this budget is designed to better prepare us, but it is 
going to take years to recover from all the damage, ma'am.
    Mrs. Roby. Thank you.
    General Dunford. Congresswoman, I would just add, as 
directed last year, we did a simultaneity drill in the 
Department so we could understand what really it would take to 
do two MCOs. We certainly wouldn't want to have that 
conversation in this venue. But we would be happy to share the 
details of that with you. We have done the analytic work 
necessary to really be able to talk about the capabilities and 
capacity implications of being able to fight in two places at 
once. And that will very much inform the Secretary's strategy 
review that is ongoing right now. We will bring that work into 
the Secretary's strategy review.

                      ARMY AVIATION AND READINESS

    Mrs. Roby. Well, I would like that. I think we could 
probably all benefit from having that information in front of 
us.
    Turning to readiness, specifically Army aviation. Of 
course, our military doesn't go many places without Army 
aviators. And my concern is that those aviation assets are 
being stretched pretty thin. Given the global high demand for 
Army aviation capabilities, I am interested in your thoughts as 
it relates to increasing readiness.
    It is my understanding that we have a shortage of pilots. I 
know we are short on Apache helicopters, and programs like the 
Light Utility Helicopter look to be underfunded. So what are 
your thoughts on increasing Army aviation readiness?
    Secretary Mattis. Since near the end of World War II, we 
have dominated the skies overhead, almost to the point that we 
could start taking it for granted, which would be a disaster if 
we did that. It takes a lot of commitment, sacrifice over many 
years. There is, for Army aviation alone, over $3 billion in 
investment. This is building more Black Hawks, Apaches, 
Chinooks, that sort of thing.
    The Chief of Staff of the Air Force and the Chief of Naval 
Operations, Commandant of the Marine Corps are all working with 
private industry now because we are not creating enough pilots 
in this environment right now to serve either the commercial or 
security interests, service interests. So we are going to have 
to deal with this as a national level problem. And, you know, 
we have responded to this sort of thing in the past. We have to 
dust off the old thinking and find some new ideas in there. But 
we are working it right now. We just had the meeting with 
industry here last month with, again, General Goldfein, our 
Chief of Staff of the Air Force, leading it, but all the 
service chiefs are engaged.
    Mrs. Roby. Okay. Thank you.
    I yield back.
    Ms. Granger. Thank you.
    Ms. Kaptur.
    Mr. Ruppersberger. I think I was next.
    Ms. Granger. Oh. Mr. Ruppersberger. Pardon me.

                             SEQUESTRATION

    Mr. Ruppersberger. Thank you very much. First, Secretary 
Mattis, or General Mattis, whatever, I respect you and worked 
with you as a General, General Dunford and also Mr. Norquist. 
You know, you have gotten a lot of accolades, and you deserve 
it because of who you are and you earned the position. We all 
talk about sleeping at night, but these are serious times for 
our country.
    I want to quote you, because I am going to make more of a 
statement, I think, to this committee and to our leadership on 
the committee. You have said that Congress has failed to show 
leadership when it comes to funding the Pentagon, and I agree 
with you on that comment. For years now, since sequestration 
has passed, we have had four-stars coming in and telling us how 
it makes it weaker and weaker. And, yet, we really have not 
done what we need to do to repeal it, both Democrats and 
Republicans.
    Times have changed since sequestration was passed; the 
world has gotten a lot more dangerous, as you have testified. 
By the way, when you are one of the last ones to ask questions, 
you know, a lot of these issues, North Korea and all, have come 
up. So I am going to maybe make a statement within my time.
    And I want to say this to our committee: A lot of us have 
worked together for years, and I respect each and every one of 
you on the Republican and Democratic side. But there comes a 
time when we have to do something, and that is this issue of 
sequestration. As dangerous as we are and when every single 
Army, Navy, Air Force, Marine talks about sequestration, and, 
yet, we have not repealed this at these very, very dangerous 
times. And I think we have to show some action. I think we 
can't be concerned about Republican or Democrat or whether we 
are going to break the Hastert rule. I mean, all of these 
things are just political, and yet we have an obligation on 
this committee, Defense Appropriations, to give you the 
resources. And if sequestration is still there because of 
idealistic political reasons, whatever that is, or we are not 
going to give this up if we don't get something else, that is 
wrong.
    So I am asking our leadership and each and every one of us 
on this committee to really sit down and work a strategy, 
Republican and Democratic strategy. Now, we are very upset 
about what happened yesterday. Maybe that is going to be an 
impetus for us to do something, because we haven't done it, and 
it is about time we do it.
    And my question was going to be, and you have already 
repeated it: Do you agree with what I said that we need to 
repeal sequestration?
    Secretary Mattis. I do. And I agree it is nonpartisan. 
Secretary Panetta was my boss a few years ago, and he was in a 
Democrat administration. He was a Democrat. And I don't see 
this as a partisan issue. This is an American issue.
    Mr. Ruppersberger. Whether it is the Speaker or the leader, 
whatever that is, let's pull together this committee. We know 
each other, and we trust each other. I have respect for every 
single member on this committee, and I know we all feel this 
way. Let's just get it done. I am an Under Armour guy because 
of Baltimore, but there is the Nike phrase, ``Just Do It.'' And 
I think it is about time we really just sit down and take care 
of that strategy.

                              NORTH KOREA

    The other issue I have--and we have talked North Korea, and 
I don't want you to repeat yourself--one thing that hasn't come 
up. I found the subject matter that hasn't come up, and that is 
the issue of hypersonic missiles. We know that Russia and China 
have developed hypersonic missiles, which are so fast that they 
could put, in my opinion, our ships, our aircraft carriers, all 
at risk. And I am not sure where the Navy is at that point, and 
if it is classified, I don't want to get into it. But I think 
this is something that has to be focused on and very quickly.

                             CYBER SECURITY

    You know, we talked about cyber. We are dealing with those 
issues and all the things that need to be done. But when our 
aircraft carriers, which are so awesome--look at how many 
people we have, look at how we use them, and yet they could be 
at risk. And I want to make sure that we look at the funding 
and the focus, and that you can report back to this committee 
where we are on our defense and hypersonic missiles.
    Secretary Mattis. Will do, Congressman. And coming into the 
job, I have been briefed by holdovers from the last 
administration and new people coming in now, and your view of 
the hypersonic threat, the need for defenses, but also to 
ensure we have hypersonic technology at cutting edge is agreed 
upon. There is no pushback on it that I found. We have got to 
move out--we will come back to you showing----
    Mr. Ruppersberger. Most people don't know about the issue, 
but I would like this, at least personally for me, but I think 
the committee, too, wants to hear about hypersonic. 
    Thank you, I yield back.
    Ms. Granger. Thank you. Mr. Carter.

                            COMBAT VEHICLES

    Mr. Carter. Thank you, Madam Chairman.
    And thank all three of you for being here. You are very 
important to the future of our Nation and we appreciate the 
good work that you do. And I would like to associate myself 
with everyone who has discussed the challenges we have trying 
to put together what we need to do without a number that we 
need to work with. And anyway you could help us get that fixed 
is a great idea.
    My world is all about the guys on the ground. I represent 
Fort Hood. I have got kind of a combination question I would 
like to ask. First and foremost, Secretary Mattis, they are 
obviously investing very heavily in upgrading many of the 
combat vehicles. While these upgrades certainly represent 
increased speed, lethality, and protection, they cannot be 
characterized as significant leaps forward in capability. As 
you are aware, our competitors' combat vehicles are approaching 
parity with the Army. It seems readily apparent that we should 
prioritize investing heavily to speed up the development of the 
next generation of combat vehicles, yet funding levels for this 
effort has not increased over the last several years.

                        NATIONAL TRAINING CENTER

    Can you share with the committee your sense of our ground 
combat vehicles and what additional resources you need from 
this committee to adequately close the capability gap? And I 
will include with that that I would like to hear an assessment 
of where we are--of what are the training changes we have to 
make at the National Training Center to go to high-end 
warfighting versus the warfighting we have been engaged in for 
16 years almost.
    So where are we on readiness of our troops, training, and 
the vehicles that we are sending them to war in? And I would 
love to hear from both of you.
    Secretary Mattis. Yes, sir. And we probably owe you a more 
detailed explanation of the program to get us where we need to 
go, because we are not there today is the bottom line. This is 
somewhat a result of the funding issues and the distraction of 
war and the combination of those factors. But we have programs 
we have put together. The Joint Lightweight Tactical Vehicle is 
being fielded now to the first Army and Marine units. It is a 
joint program to get full economies of scale to spend the money 
wisely. But it is a much broader issue, as you know, with 
different types of vehicles, from armored vehicles to transport 
vehicles, and the various levels--types of vehicles that we 
need to get.
    In terms of the training challenges, I will hit that and 
then turn the two questions to The Chairman. There, what we 
have to do is adapt to the changing character of war, and Army 
battalions in the field are now going to have assets that an 
Army battalion didn't have 10 years ago, for example, 
surveillance assets, drones. We also have an enemy drone 
problem, where we don't have the right defenses. Every Army 
battalion headquartered out there is probably going to come 
under cyber attack. That didn't happen 10, 20 years ago.
    So these new domains, these new technologies highlight the 
need to avoid a continuing resolution. As you know, under a 
continuing resolution, I can do zero about new starts to 
address the changing character of war. Let me turn over to the 
Chairman.
    General Dunford. Congressman, you bring up a really 
important point, and I alluded to it in my opening statement, 
and that is, I think it is fair to say that the majority of our 
investment--and if you look at the Army's investment in 2017, 
even in the supplemental--it was all to maintain the current 
capability we have. So we made marginal improvements in the 
capability protection system of the current tanks, for example, 
but we don't necessarily have as much money in modernizing our 
armored capability as we would want to have.
    And that really is, as the Secretary lays it out, I mean 
2018 hits readiness, to include for vehicles. And what we 
really need to start thinking about, 2019 and beyond, is 
tomorrow. And we have, for the last 7 or 8 years, one of the 
most significant challenges of the budget situation, we have 
discussed here today is we are always dealing with the current 
challenges, always dealing with today's readiness, always 
trying to get today's equipment up to speed.
    And now we are at the point where there is actually a 
distinction without a difference between procurement and 
current readiness because, in many cases, either units don't 
have the full complement of the vehicles they have or we are 
starting to field vehicles that don't have a competitive 
advantage or the competitive advantage, as you suggest, is 
reducing. So I think as we look to 2019 and beyond, you know 
modernizing our ground combat vehicles is something that 
probably hasn't moved at a pace satisfactory to us.
    With regard to training, though, what General Milley has 
identified as now a requirement, I think your word, 
Congressman, is all of his brigades will go through the 
National Training Center. That is exactly to address the 
dynamic that you spoke about to make sure that we are not only 
prepared for the current deployments in dealing with violent 
extremism, but we are full-spectrum ready and that the Army 
units at Fort Hood, the mechanized units at Fort Hood actually 
can conduct the full range of mission-essential tasks that 
those units have been assigned. And he won't certify those 
brigades as being ready unless they actually have done an NTC 
rotation. And in this budget in 2018, in the readiness piece, 
we are addressing increased numbers of NTC rotations to enhance 
the readiness problem you talked about.
    So I think we have a good-news story on maintenance and 
readiness. I think we have a good-news story on training. And I 
think the challenge that remains before us to address next year 
and years after is going to be the modernization challenge 
because I'm not satisfied that we are actually doing all we can 
to build the Army of tomorrow.
    Mr. Carter. Thank you. From what little I have been able to 
figure out, I agree with that assessment and I am worried about 
it and concerned about it. And I want to make sure we all know 
that, when the smoke clears, it takes a man with a gun to stop 
a man with a gun. In fact, we learned that yesterday.
    So I wish you well. And I will be raising this issue 
constantly. Thank you.
    I yield back.
    Ms. Granger. Ms. Kaptur.

                            INDUSTRIAL BASE

    Ms. Kaptur. Thank you.
    Gentlemen, you give great example to the young generation 
of this country. I thank you for your patriotic service. I am 
going to read some questions that I will be submitting to the 
record, and then I will ask each of you two questions that I 
would like you to verbally respond to. I don't expect you to 
answer the first issues I am going to talk about.
    First of all, I have deep concerns about our industrial 
base issues, and your testimony does reference that to some 
extent. I would just like to state the importance of dual 
sourcing of certain technologies, such as small gas turbine 
engines. I have concern about that.
    Number two, stresses on our U.S. steel industry due to the 
severe dumping by China, South Korea and Russia.
    And, thirdly, real threats to our single-source domestic 
beryllium capability. I have a letter, actually, on that, Mr. 
Secretary, that I will give you.
    But thank you for mentioning the defense industrial base. 
Thanks for being aware of it and, in view of a lot of things 
that have happened with the global economy, why we need to pay 
attention to it.
    Number two, I place a very high priority on U.S. energy 
independence. We are about 90 percent of the way there. I 
appreciate what DOD has been doing, particularly Navy and 
Marine Corps, with significant leadership, both in installation 
and operational energy efficiency, to move us toward 
independence. And I will ask you, for the record, to summarize 
the Department's role in achieving DOD energy independence but 
also in terms of some of your technological investments, how 
you are helping America reach that broader goal of energy 
independence.
    My two questions are: General Dunford, three-quarters of a 
century after World War II, could you summarize for the 
American people, particularly the younger generation, the 
nature of the Russian threat and why the European Reassurance 
Initiative is so vital to liberty and affirmation of our 
Article 5 commitment.
    Secretary Mattis, the question I wish to ask you is: I 
really particularly gravitated to a sentence in your testimony 
having to do with the stresses on our troops and the prolonged 
wars in which we are involved. And I can't seem to put my 
finger on the sentence on that, but it was right at the 
beginning. Oh, here: ``Our country never envisioned sending our 
military to war for more than a decade without pause or 
conscription.'' The American people ought to reread that 
sentence.

                            HEALTH BENEFITS

    But my question really is, Mr. Secretary, the GAO released 
a study on May 16, reporting that of the 91,764 servicemembers 
who were separated for misconduct between 2011 and 2015, had 
later been diagnosed with PTSD or TBI, associated with that 
misconduct, GAO found many, many of them, at least 23 percent, 
were made ineligible for health benefits from the VA. I would 
like to just express to you that I have spent a long time 
trying to get DOD to discharge to care. I have failed in that, 
though it is getting a little bit better. And I would ask you 
if you could help us to review the separation policies of the 
U.S. military in all the branches to assure that servicemembers 
who need care will receive it. I will also place on the record 
from a 10-year study we have been conducting with the Ohio 
Guard and Case Western Reserve University and University of 
Michigan and University of Toledo, over 3,000 DNA samples from 
separated servicemembers who voluntarily offered their DNA.
    One of the most shocking findings of what we have been 
investigating has been that the most significant predictor of a 
servicemember contracting PTSD is not military service but 
violence experienced by that individual prior to military 
service which the military service complicates. That is a 
really important finding and one that should be paid attention 
to on enlistment. And I just thought I would place it on the 
record.
    So, General Dunford, if you could kindly respond on the 
Russia question and, Secretary Mattis, on the ability of your 
Department to discharge to care.
    General Dunford. Congressman, first, thanks.
    And on the Russia question, interesting, we rewrote our 
National Military Strategy last year, and we took some time to 
say, what is the source of strength of the United States? And 
not a surprise to the committee, we went back and we said: 
Since World War II, the strategic source of strength to the 
United States is the network of allies and partners that we 
have built up since World War II. In other words, the friends 
that we have that we can call upon for a wide range of common 
challenges is what is critical.
    What Russia really is going about doing each and every day 
is undermining the credibility of our alliance commitment to 
NATO and our ability to respond to NATO. That is what they are 
doing. That is the most insidious thing that Russia is doing. 
So why is it important that we have the European Reassurance 
Initiative?
    First of all, we had an expression in the past that virtual 
presence is actual absence. It has to be a physical 
manifestation of our commitment, and the European Reassurance 
Initiative, which this year is $4.8 billion, gives us three 
brigade combat teams on a continuous basis in Europe. It gives 
us additional preposition equipment.
    Most importantly, what it does is it assures our allies 
that we actually are committed, and it deters Russia because 
they know we have the ability to respond, and they also know 
that we are committed, which is the linkage between the 
European Reassurance Initiative and the challenge that we face 
from Russia.
    But in addition to what they do to undermine the 
credibility of our alliances, of course, Russia possesses the 
nuclear weapons in the thousands that can destroy our Nation. 
They also have significant cyber capabilities, and they have 
been using those on a routine basis against our networks, and 
we have seen that. So there is a full range of challenges. And 
I would just say that, in terms of capability as well as 
behavior, if you look at what Russia has done since the Crimea 
in the Ukraine and testing Georgia a few years ago, both their 
behavior and their capabilities would tell me that, of all the 
nations in the world that could pose an existential threat to 
our Nation and that could undermine the credibility of our 
alliances and the international order that we have had and 
enjoyed since World War II, it would be Russia.
    Ms. Granger. Before we go further in this--Ms. Kaptur, you 
used the entire 5 minutes for your question, and we have a hard 
stop at 11:50. So I am going to ask those on our panel today to 
answer that in writing or some meeting of Ms. Kaptur, because 
we have others that are waiting. Thank you.
    Mr. Aderholt.

                              NORTH KOREA

    Mr. Aderholt. Thank you.
    Secretary Mattis, Chairman Dunford, Under Secretary 
Norquist, welcome, glad to have you here today. And we 
appreciate your service to our Nation and know that you will 
pass along that gratitude to the men and women who will work 
throughout the Department of Defense.
    I want to follow up on a question that my colleague, Mr. 
Ryan, had asked. If you go back to Operation Iraqi Freedom, the 
first 3 days from March 19, 20, and 21 of 2003, 1,700 sorties 
were launched, including 504 cruise missile strikes.
    We all appreciate the candor that a war with North Korea 
would pose a severe threat to Seoul and, of course, to a lot of 
most South Korea. However, the concern is that this may be 
interpreted by North Korea to mean that we are going to allow 
them to continue to build weapons that are capable of dropping 
nuclear bombs here on the U.S. territory. If North Korea fails 
to curb the program and the President were to decide to strike, 
my question is, are we assembling the resources that we need to 
cripple the North Korean military in the first 72 hours?
    Secretary Mattis. Our intent, if we had an indicator and 
warning of war, would be to assemble those resources, sir.
    Mr. Aderholt. What do you need in order to do that to 
prevent just mass civilian casualties?
    Secretary Mattis. The best thing, sir, would be to have 
such a strong military and diplomatic front, including 
international, that we force Korea to divest of its nuclear 
program, a policy that both the United States and China share, 
by the way, of a denuclearized peninsula. So that is the most 
important thing, is to make certain we don't get to that point.
    Mr. Aderholt. But you have--currently, do you have the 
capabilities to assemble the resources that you would need to 
cripple North Korea within that first 72 hours?
    Secretary Mattis. Sir, due to the nature of the threat, the 
dug-in nature of the artillery and missile--or our rocket 
positions within range of Seoul, there is probably an awful lot 
of damage that is going to be done no matter how much 
capability we bring to the theater.

                      CYBER ATTACKS ON POWER GRIDS

    Mr. Aderholt. Okay. A report was released recently that 
highlighted the potential for adversaries to conduct cyber 
attacks on power grids. The article referenced the attack on 
Ukraine's power grid back in December of 2016. I know this may 
be classified, but is this area of cybersecurity an area that 
you are looking at?
    Secretary Mattis. It is an active, very active, area of 
security we are looking at, sir, in conjunction with Homeland 
Security--Department of Homeland Security and the Department of 
Energy and the FBI. And it is active. It is ongoing. We keep a 
very close eye on it, including this week.
    Mr. Aderholt. Chairman Dunford, do you have any comments on 
either one of those issues?
    General Dunford. The only thing I would say, Congressman, 
is just go through the priorities and talk about what we do 
with regard to those challenges to our power grid and so forth. 
The number one priority we have in the Department is to defend 
our own DOD information technology network, and then we work in 
collaboration with the private and public sector to make sure 
that we share when there is a vulnerability and the solutions 
to those vulnerabilities.
    Then we play the away game, if you will, and prepare to 
deal with those threats that are outside the continental United 
States. So, when the Secretary spoke about the collaboration 
with the FBI and Homeland Security and so forth, the actual 
protection of the power grid in the United States is not 
something that we are responsible for but something we support.
    Again, when the United States CYBERCOM identifies 
vulnerabilities or solutions to address those vulnerabilities, 
there is a collaboration that takes place. But what we really 
focus on is our own network and then making sure we have cyber 
capabilities to take the fight to the enemy.
    Mr. Aderholt. Thank you.
    Ms. Granger. Thank you.
    Mr. Cuellar.

                 REGIONAL STRATEGY AND AERIAL RESOURCES

    Mr. Cuellar. Thank you, Madam Chairman.
    I also want to say thank you to all three of you for your 
service. I also join my colleagues that we need to get to a 
number in a bipartisan way, because we have to find that 
balance between the defense and the nondefense spending, and I 
hope we can do this. Otherwise, if we going to CR, I think it 
is not good for anybody.
    I have two questions. Earlier you all had discussed the 
importance of a regional strategy and aerial resources to the 
maintaining of the high ground on the operations of 
Afghanistan.
    General Dunford, I know that, in February, you were in 
Azerbaijan meeting with your counterpart of this year, and I 
think we know it is a--Azerbaijan is an ally. I think we know 
the role that they played during the Afghanistan conflict 
there. Would you all give us--would you give me your thoughts 
on elevating maybe the facility that you have there in 
Azerbaijan or maybe some other stable regional ally there, 
because we know that the Middle East is complicated, and 
sometimes our ally provides complicated situations to us. That 
is question number one.

                   READINESS OF FLIGHT TRAINING UNITS

    Number two, in light of the discussion of readiness, can 
you also discuss the importance of maintenance in supporting 
force readiness? Specifically, the readiness of flight training 
units have suffered in Texas because of an incomplete approach 
to the engine maintenance, and how does your proposed budget 
attempt to fix this deficiency?
    General Dunford. Sure, Congressman, let me start with 
Azerbaijan. As you mentioned, I was there back in February and 
had the privilege of meeting with their leadership, to include 
the President, and to thank him for the support they provided 
in what we call a northern distribution network. We were able 
to reinforce and resupply our forces in Afghanistan as a result 
of the access that Azerbaijan provided to us.
    And I don't assess today that we need to increase that 
access. But we appreciate maintaining that access because it 
has been critical in allowing us to have global reach. And 
certainly our United States Transportation Command has a very 
close partnership with Azerbaijan, and they are very 
appreciative of the access and the support that we have. And we 
would like to maintain that relationship.
    With regard to readiness, you will see in the Secretary's 
budget a significant emphasis overall on readiness, a subset of 
which is the maintenance issue. But, Congressman, I would like 
to highlight for you an important point. Back in 2013, when we 
went through sequestration, we laid off a lot of engineers and 
a lot of artisans and a lot of people that are very critical to 
maintaining our aircraft. They are critical to the triage of 
aircraft and identifying what repairs need to be done and 
making sure in a very systematic way we get the right aircraft 
in the depot at the right time to turn it around with an 
acceptable timeline.
    We have not recovered from 2013, and many of the people 
that were laid off as a result of sequestration in 2013 never 
came back. So the challenge that we have with aviation 
maintenance--and it is across all the services--the challenge 
that we have in aviation maintenance can only be fixed--this is 
another argument for all of us collectively for having 
sustainable budgets, because we need to have sustainable 
budgets to recruit and retain a high-quality workforce. And 
when we talked about civilian workforce earlier, we are very 
reliant, as you know, in our depots, for a quality civilian 
force and the right people to work on our aircraft. And 
predictable budgets and a stable workforce are going to be 
critical for us to get out of this maintenance trough.
    In many cases, what you see is units that actually aren't 
able to man or unable to field the requisite number of aircraft 
for that particular unit, for--we call it Primary Aircraft 
Authorized. In some cases, they rate 12; they only have 6. They 
rate 20, and they only have 10. So the budget does address the 
maintenance issue. We are trying to recover from, really, what 
has happened over the last 3 to 4 years and appreciate your 
support and focus on that issue.
    Mr. Cuellar. Thank you.
    I yield back the balance of my time.
    Ms. Granger. Thank you.
    Mr. Womack.

                         CONTINUING RESOLUTION

    Mr. Womack. Thank you. I just got a couple of questions or 
give you an opportunity to expound just a little bit. As my 
friend Tom Cole said earlier in his testimony, we are rapidly 
moving to one of two outcomes in the fiscal year 2018 budget 
process and appropriations process. We are either going to have 
a bipartisan omnibus package of some type or we are going to 
end up with a CR. CR is disastrous.
    I want to give both of you an opportunity to--at the risk 
of sounding like I am piling on the sequester--give us a real 
idea of what this means if we are headed toward a potential 
continuing resolution with significant limitations on how we 
can fund the emerging needs that have been emerging now for a 
while at the Pentagon.
    Secretary Mattis. Thank you, Congressman.
    Just for an example, we cannot do the new starts. So why is 
that so critical today? Because the changing character of war, 
which this committee has articulated repeatedly this morning--
cyber warfare, space issues, I can go on, counterdrone 
capability--we cannot start that. We cannot start new starts 
under the continuing resolution.
    We also block service growth. For example, we cannot enlist 
people in the United States Army, and they need more soldiers; 
we all recognize that. The world has changed. But if we don't 
know how we are going to pay them a year from now, the only way 
we could respond if we didn't have the money next year, if we 
brought more troops in, for example, if a CR comes into effect, 
is we have to take the money from operations and maintenance. 
Now the troops, you are paying them using the money that should 
have been fixing their gear.
    I think, too, just look at--what business would say, ``We 
are going to do short-term contracts, repeated contracts now 
that we are going to have to put a lot of time into''--you know 
how extensive government contracts are to prevent any fraud, 
waste or abuse--``and we are now going to do the same contract 
for a 3-month period or for a 6-month period''? We get nothing 
more out of it. We simply pay. We double, triple, quadruple the 
administrative costs that deliver no combat capability 
whatsoever. In other words, it did not only cost us adaptation; 
it actually reduces the result, the effect we can get from the 
dollars you give us. It goes into administrative air; it 
doesn't go into combat capability on the ground.

                             SEQUESTRATION

    Mr. Womack. And it goes on and on and on, this impact of 
the sequester, and so what--and I am on the Budget Committee 
with other members of the Appropriations Committee. So what is 
the right number for 2018? That seems to be where we are hung 
out to dry right now in terms of getting a budget agreement out 
of the Budget Committee and onto the floor of the House.
    We certainly know it is not the sequester number, which I 
believe is 549 on the base. Is it 603? Is it 640 that HASC 
wants? Is it somewhere in between? Where is that number, so 
that people like me can have an informed idea of what is 
possible out of committee?
    Secretary Mattis. Sir, I am going to give you a number: $52 
billion over the BCA defense cap. It is $574 billion in our 
base budget. It is $65 billion in our OCO. But there is also, 
if you were to go above that, I think our priorities are right 
in everything that we have given you, but I have reviewed the 
service secretaries unfunded priorities list, and I agree with 
the priorities they give if we go beyond the base budget 
numbers I have given you. In other words, that too is an area 
where the Congress can exercise its oversight and its purse 
strings, frankly.
    But, right now, the President's budget, which I am 
defending and I believe is the right step to fix, to reverse--
start reversing the damage and get us on the right track as we 
get a strategy right, is 574 in the base, 65 in the OCO, and 
there is about $33 billion in the service unfunded priorities 
lists, sir.
    Mr. Womack. How impactful is sequester on your planners at 
the Pentagon, particularly for the FYDP, because when you do 
your FYDP, you have to look at what current law is, correct?
    Secretary Mattis. We do, sir. We have placeholders as we 
look further out because we all know that we cannot defend this 
country unless we withdraw from many of our commitments that we 
have learned over the years we need to protect our people and 
our interests. So, right now, it is paralyzing.
    Mr. Womack. One final thought before my time is up. Impact 
on the defense industrial base is also something we don't spend 
a lot of time talking about.
    Secretary Mattis. Sir, the industrial base cannot be 
expanded to bring us when we know we need more munitions, for 
example, if they don't know 3 months from now or 9 months from 
now that they are going to still get a contract for it. In 
other words, they can't do something that would put the company 
out of business just on a bet. And so you are highlighting all 
of our concerns, I will just tell you, sir.
    Mr. Womack. Yeah, before I yield back, I just want to say 
we have to fix the issue or else we are going to be right back 
where we were, and that is with a yearlong CR, and that would 
just be a disaster.
    I yield back.
    Ms. Granger. Let me clarify one thing.
    Mr. Womack, on the numbers that you gave, you also included 
military construction in that, right? So it is not just our 
bill; it is the MILCON?
    Secretary Mattis. Yes, ma'am. It is. It is in there, the 
MILCON.

                  Closing Remarks of Chairman Granger

    Ms. Granger. Okay. Thank you. Thank you. That finishes the 
question.
    I want you to just go away with understanding how much 
confidence we have in you. You have experience. You are in a 
position, and so we are--we have great confidence in what you 
say and what you stand for, but we also have great concerns 
about readiness. Are we ready--how much damage those cuts have 
done to us.
    We have a concern that we share with you, and that is a 
continuing resolution, and it is just deadly. It is a horrible 
situation. And we can't get to what you need with a continuing 
resolution. So any way you can reach out. You have such 
presence. People respect you. They look to you for the answers. 
They have to understand that. If you will reach out to those 
that are on the committees in both the House and the Senate 
that are on the committees, the four committees that make these 
decisions, it would make the possibilities much better.
    That concludes today's meeting. Thank you very much.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

                       Hypersonic Weapons Systems

    Question. I have long been a supporter of offensive, hypersonic 
weapons systems. However, our efforts have remained at the research 
level rather than a true program. Our Combatant Commanders have 
expressed a need for this capability against enemy air defenses, and 
General Milley before this subcommittee also confirmed the need for 
this weapon. I don't believe the current budget justification documents 
create the program we need; I believe the range in the 2013 JROC 
document is too limited. A land-based system which launches from U.S. 
territory is needed. Could you please provide a budget outline which 
would support a limited, early operational capability as soon as 
possible, and would you consult with General Milley and the Army SMDC 
to see what that timeline could be?
    Answer. The Joint Staff supports hypersonic weapon system 
development and the Joint Requirements Oversight Council (JROC) 
recently revalidated the requirements for a Prompt Global Strike 
capability. The Joint Staff will continue to work with and support the 
Services to provide a limited or early operational capability within 
the FYDP, to include exploring basing options for new and existing 
systems.

                           Transgender Troops

    Question. I understand that the Army and Marine Corps have asked 
for up to a 2-year delay on implementation of the policies regarding 
transgender troops and the Transgender Training sessions required for 
all officers, non-commissioned officers, and civilians. While I 
understand concerns for fairness and related matter, I believe these 
policies may have been unnecessarily rushed by the previous 
Administration. Readiness must be your top priority. On a related 
matter, I also urge you to block any consideration of gender transition 
therapy requests by detainees at Guantanamo. I don't believe that this 
is a justifiable use of our taxpayer funds. Are you willing to strongly 
consider such a delay?
    Answer. The Marine Corps supports the Department of Defense Policy 
regarding Transgender Marines and associated training.

                          Space Launch System

    Question. A. Let's assume that the NASA fully covers the 
development costs of the Space Launch System, or SLS. In the event that 
other launch vehicles are behind schedule or have gone up dramatically 
in cost, does the SLS present an opportunity for the Department of 
Defense to launch some of our large national security payloads? B. If 
NASA creates a production model which allows SLS to be sold on a lower 
cost basis, are you willing to look at SLS as an occasional launch 
vehicle for national security payloads?
    Answer. The Department of Defense (DoD) does not have any current 
requirement for this large payload space lift capability. For the most 
common payload separation orbits, all variants of the SLS provide 
significantly (at least three times, and upwards of nine times) more 
capability than operationally required to meet current DoD 
requirements. Additionally, public law and National Space Policy 
dictate that the DoD must procure launch services from the commercial 
marketplace when practicable. The DoD does not have any current 
requirements that cannot be met with current launch services provided 
by commercial sources.

                                Space X

    Question. A. What are the terms of the lawsuit settlement between 
the Department of Defense and SpaceX? (SpaceX sued the Air Force over 
an alleged lack of opportunity to compete). B. Were a specific number 
of sole-source launches provided to SpaceX as part of the settlement?
    Answer. The terms of the lawsuit settlement between the Department 
of Defense and SpaceX cannot be released due to the confidentiality 
order of the United States Court of Federal Claims, No. 14-354 C, filed 
January 23, 2015.

                           Frigate Production

    Question. I believe the distributed lethality concept is more 
important than ever in locations which involve littoral waters, and 
that a hybrid ship order would provide stability to the shipyards and 
an opportunity to test new systems and components prior to full-blown 
Frigate production. Please provide your view on that possibility, and 
the likely budget needed.
    Answer. To allow adequate time to define Frigate (FFG(X)) 
requirements, thoroughly evaluate design alternatives and mature the 
design, the Presidents Budget (PB) 2018 submission defers the first 
year of FFG(X) procurement to Fiscal Year (FY) 2020 with additional 
Littoral Combat Ships (LCS) being procured in FY 2018 and FY 2019. This 
approach keeps both LCS shipyards viable ahead of the pending FFG(X) 
competition, allowing the Navy to leverage past and current investments 
in our shipyard workforce and infrastructure. The Navy is already 
pursuing opportunities to forward fit and back fit some FFG(X) 
capabilities onto LCS to further increase the lethality and 
survivability of those platforms. Increased magazine protection and 
shock hardening of auxiliaries along with the addition of a lightweight 
tow, and space and weight for the Over-The-Horizon Weapon System (OTH-
WS) are separately priced options in the Request for Proposal for the 
three FY 2017 LCS. As the Navy is currently in negotiations for the 
three FY 2017 LCS, details regarding the cost of those options cannot 
be provided in accordance with federal regulations. The Navy is also in 
source selection for OTH-WS which will provide added offensive 
capabilities to the LCS. The PB 2018 submission includes $8.4M to 
initiate ship engineering work to include design configuration and 
installation planning for the LCS platforms. The submission also 
identifies OTH-WS procurement ($42.3M) and in-service fleet support 
funding ($15.9M) through the Future Years Defense Plan (FYDP) for the 
weapon system.

                   FY 2019 to FY 2023 Funding Levels

    Question. Secretary Mattis, you mentioned a Defense Strategy to 
determine Defense funding levels for FY 2019 to FY 2023. Do you have a 
timeframe on when those numbers will be available? Your report on those 
estimates will be important to this body if we consider repealing or 
lifting BCA Caps.
    Answer. The National Defense Strategy is ongoing and will direct 
resourcing requirements for the FY 2019-2023 Future Years Defense 
Program. Funding levels and resourcing decisions will be worked closely 
with the Office of Management and Budget in preparation for the FY 2019 
President's Budget Submission to Congress in February 2018.

                    European Reassurance Initiative

    Question. Your FY 2018 budget request contains a 40 percent 
increase in funding for the European Reassurance Initiative. Does this 
funding pay for equipment, weapons, and systems software for our allied 
partners? If so, is there funding allocated for maintaining and 
servicing those items?
    Answer. The vast majority of the Department's FY 2018 European 
Reassurance Initiative request focused on increasing U.S. readiness and 
responsiveness through increased presence, expanded exercises, and 
prepositioning of wartime equipment and stocks. The United States 
prefers to use other programs and authorities, such as Foreign Military 
Sales and Foreign Military Financing, to provide Allies and partners 
with equipment, weapons, and systems software. This year, Congress 
added ERI funding to increase Ukraine's ability to defend its sovereign 
territory. ERI support to Ukraine will include assistance with command 
and control capabilities; counter-battery radars; training, equipping, 
and employment of forces; comprehensive logistics; and advisory 
efforts.

                            European Allies

    Question. I think that the European Reassurance Initiative is 
critically important to deter potential Russian aggression. There was a 
unit from the California National Guard here recently and they 
discussed some of the challenges in training their Ukrainian 
counterparts. These challenges ranged from the Ukrainian forces not 
having a formalized enlistment and training program, to not having the 
proper systems to account for personnel and to pay their Soldiers. So, 
I am interested in how the Department of Defense is assessing the 
capabilities of our European allies as we continue to rotate units into 
the European theater. Is there a one to two-page product on each of the 
allied partner forces that you can provide that gives us a snapshot of 
their capabilities, strengths, weaknesses, their overall level of 
readiness?
    Answer. The Department, both unilaterally and in conjunction with 
Allies, continuously assesses the capabilities, strengths, weaknesses, 
and overall readiness of our Allies. These assessments are often 
voluminous and contain classified information. The Department does not 
produce one- or two page unclassified summaries of these assessments, 
however my staff would be happy to provide a classified briefing on 
these matters at your convenience.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                         Overpressure Injuries

    Question. A. How concerned are your service chiefs about 
overpressure injuries and what actions are you taking to mitigate 
exposure to your personnel in the field and training environments? B. 
Who in your organization is responsible for this occupational hazard? 
C. It took roughly 40 years of personalized radiation measurement to 
fully understand the effects of exposure. Measurement was the necessary 
first step to understanding dose response. Is this a similar situation? 
Why not deploy blast overpressure surveillance to at least begin to 
capture the data? D. DARPA has recommended expanding the fielding of 
the gauge because it ``ensures timely evaluation and treatment of 
TBI.'' How many of our men and women are using the gauges in the field 
or in training? Do high-risk units have access to the devices? How many 
devices have been purchased and where are they today?
    Answer. A. How concerned are your service chiefs about overpressure 
injuries and what actions are you taking to mitigate exposure to your 
personnel in the field and training environments? Air Force leadership 
is concerned about the health and safety of all our Airmen and strives 
to institute appropriate engineering, administrative, or personal 
protective equipment controls where the evidence supports their 
effectiveness in preventing workplace injury and illness, regardless of 
the type of exposure encountered. B. Who in your organization is 
responsible for this occupational hazard? The Air Force Medical 
Service's Aerospace Medicine community is responsible for the medical 
aspects of the occupational health and safety program. They identify 
and measure workplace hazards and conduct associated medical 
surveillance of at-risk service members. Numerous medical and line 
responsibilities are enumerated within DoD Instruction 6490.11, DoD 
Policy Guidance for Management of mild Traumatic Brain Injury/
Concussion in the Deployed Setting. Given the current science regarding 
overpressure, the only workplace exposures of this type which can be 
reliably monitored are noise exposures as part of our long-established 
hearing conservation program. C. It took roughly 40 years of 
personalized radiation measurement to fully understand the effects of 
exposure. Measurement was the necessary first step to understanding 
dose response. Is this a similar situation? Why not deploy blast 
overpressure surveillance to at least begin to capture the data? The 
current surveillance science regarding overpressure continues to 
evolve. However, other than that which is hearing related, surveillance 
mechanisms are insufficiently reliable to protect against the effects 
of blast exposures. The key performance element of any such monitoring 
device or test is its positive predictive value, the ability to 
associate exposures with outcomes in a reliable, predictable manner. 
Blast gauges are environmental sensors and have proven particularly 
deficient in this regard when tested in the field, particularly in 
their ability to correlate blast exposure with Traumatic Brain Injury. 
D. DARPA has recommended expanding the fielding of the gauge because it 
``ensures timely evaluation and treatment of TBI.'' How many of our men 
and women are using the gauges in the field or in training? Do high-
risk units have access to the devices? How many devices have been 
purchased and where are they today? Following unsuccessful field 
testing in the US Central Command theater of operations with various 
army units, there are no deployed units currently using these devices. 
The Air Force was not part of that study and currently fields no such 
devices on our deployed Airmen based upon the lack of evidence 
regarding their surveillance value based upon those earlier field 
studies. As the science and technology matures we will re-assess the 
fielding of these devices for our at-risk Airmen.
    Answer. Navy Medicine is dedicated to our mission of optimizing 
Sailors' and Marines' readiness, health, and keeping them on the job. 
Navy Medicine is actively engaged in research performed in partnership 
with other Department of Defense (DoD) entities. In addition, we are 
partnering with nongovernmental academic institutions and assessing 
clinical application of evolving scientific information to develop best 
practices and policy as part of Navy Medical Department TBI programing. 
Inquiries regarding acquisition and fielding of specific blast exposure 
sensors and other related technology is out of Navy Medicine's scope. 
A. How concerned are your service chiefs about overpressure injuries 
and what actions are you taking to mitigate exposure to your personnel 
in the field and training environments? Navy and Marine Corps are aware 
of and acutely concerned with the risk of overpressure injuries in both 
training and field environments. Many of the acute risks of exposure to 
blast overpressure are known. While acute exposure standards do exist 
for overpressure injury protection for single events, a standard for 
repetitive exposure has not been established. As an emerging science, 
dose effect exposure impact and injury pattern research is active but 
insufficient at present for driving policy to mitigate exposure 
effects. Monitoring systems and threshold determination for multiple 
blast overpressure events to accumulate data in a manner similar to 
cumulative radiation dosimetry is under development as part of an 
effort funded by Military Operational Medicine Research Program. B. Who 
in your organization is responsible for this occupational hazard? 
Leaders at all levels are responsible for the health and safety of 
Sailors and Marines. Navy Medicine is invested in research to 
understand risks associated with overpressure exposure, as well as 
methods to identify and treat possible consequences of overexposure. It 
should be noted that overpressure exposure is currently considered an 
emerging occupational hazard, without current nationally recognized 
established exposure limits or standards, and is still in the research 
realm. The Naval Medical Research Center (NMRC) is part of a multi-
institutional effort to develop exposure standards to repetitive low 
intensity blast overpressure events. This effort involves research on 
the assessment of blast effects in DoD operational units (e.g., 
Breachers, Artillery) and the use of animal models to develop an 
exposure standard algorithm. The effort is funded under the Defense 
Health Program. NMRC's collaborative effort is focused on the 
development of an exposure algorithm. The data from this effort will be 
shared with DoD operational planners to develop occupational standards 
and surveillance procedures. Navy Medicine is responsible for the 
medical readiness of Sailors and Marines, and as such, is actively 
engaged with the TBI community of interest, including ongoing 
collaborations with DoD, the other Services, Defense and Veterans Brain 
Injury Center (DVBIC), National Intrepid Center of Excellence (NICoE), 
and numerous private research institutions. The collaborations keep 
Navy Medicine at the cutting edge of science to ensure policies and 
practices are current with regard to informing policy to reduce 
exposure to injury, establish appropriate screening and surveillance 
practices, and to guide interventions to mitigate effects of injuries. 
As has been stated, this is an area of emerging science, and thus, 
policies and practices are dynamic, with efforts to continually capture 
data to advance efficacy of mitigation strategies. C. It took roughly 
40 years of personalized radiation measurement to fully understand the 
effects of exposure. Measurement was the necessary first step to 
understanding dose response. Is this a similar situation? Why not 
deploy blast overpressure surveillance to at least begin to capture the 
data? Accurate measurement of overpressure exposure is critical in 
protecting Sailors and Marines, and in understanding potential health 
consequences of exposure. There are several challenges associated with 
this, including understanding how different devices measure 
overpressure, how differences in measurement relate to actual 
physiological and brain exposure, and then what different levels of 
exposure mean for risk to brain integrity, as well as clinical 
consequences. Advances have been made in all of these areas. Despite 
this progress, the current state of science is inconclusive with regard 
to exposure to sub-concussive events and subsequent injury or symptoms, 
and there is a need for continued partnerships to advance the science. 
Efforts to accurately measure and understand overpressure exposure have 
shifted from wide-scale deployment which had limited utility for 
understanding effects and development of subsequent policy. In order to 
better understand overpressure phenomenon, current use of overpressure 
measurement is in focused, rigorously studied settings. This allows for 
capture and analysis of data in a systematic way which is contributing 
to ongoing advancement of understanding of exposure and subsequent 
policy and practice changes. Navy and Marine Corps are proactively 
involved in collaborative research including measurement of 
overpressure exposure in institutional review board controlled trials 
which will allow for systematic collection and analysis of data in 
specific environments and applications, which is necessary to answer 
the questions above. NMRC is aware of several efforts within the DoD 
medical research and development community to develop and refine blast 
sensor technology. The Office of Naval Research (ONR) is conducting the 
Blast Load Assessment Sense and Test (BLAST) program which is 
developing technologies that quantify the physiological effects of 
blast loads on personnel in the field. The objective is to address 
military-specific blast overpressure induced injury as well as blunt 
force injury. D. DARPA has recommended expanding the fielding of the 
gauge because it ``ensures timely evaluation and treatment of TBI.'' 
How many of our men and women are using the gauges in the field or in 
training? Do high-risk units have access to the devices? How many 
devices have been purchased and where are they today? Navy Medicine 
doesn't manage distribution of blast sensor devices and is not in a 
position to respond to questions of distribution. However, it should be 
noted that there is, as of yet, no definitive evidence linking 
repetitive overpressure exposure to traumatic brain injury. The state 
of science is emerging, and Navy Medicine stands at the forefront of 
research to understand these relationships, and to adjust policy and 
practices as indicated to protect Sailors and Marines.
    Answer. A. The Service Chiefs are very concerned about the 
potential for blast overpressure (BOP) injuries and enforce established 
occupational health standards and safety procedures to protect 
personnel who use weapon systems in field and training environments. In 
parallel, the DoD and the Army have implemented policies to maximize 
the identification and screening for Service members exposed to BOP. 
Medical information collected as a result of policy is leveraged for 
immediate healthcare delivery, while exposure data is shared through 
Service or department-wide efforts to maximize understanding of BOP. B. 
DoD-level policies task operational commanders to oversee the safety of 
training events, and enforce policies and procedures that provide 
maximal surveillance, mitigation, and treatment of BOP-related 
injuries. The Army serves as the Executive Agent for coordinating all 
DoD blast injury research which bridges medical and operational 
commands. U.S. Army Medical Command (USA MEDCOM) has the lead on 
occupational health compliance, clinical care for injuries, and 
development of medical research on occupational hazards related to BOP. 
C. It is unclear at this time if direct parallels can be drawn between 
personalized radiation measurement and blast overpressure surveillance. 
The Army previously deployed a large-scale blast overpressure 
surveillance program during OEF deployments, which did not produce 
actionable information. The Army has since moved to a focused approach, 
involving research level data collection and surveillance from 
environmental sensors in training. This effort aims to: (1) optimize 
sensor technologies for surveillance in training environments, (2) 
understand the health effects of single and repetitive exposure to BOP, 
(3) establish evidence-based injury thresholds, and (4) provide 
immediate feedback to Leaders on BOP profiles in training. D. In 2012, 
the Army procured approximately 108,000 gauges for use in Operation 
Enduring Freedom (OEF). The data from this effort did not provide 
actionable information or insights into the impact of single or 
cumulative BOP. The Army's effort to understand low-level BOP shifted 
to a more tailored approach in the training environment. Within the 
current Army effort (Environmental Sensors in Training (ESiT)), there 
are 1600 gauges in use on select training ranges: artillery, breacher, 
mortar, grenade, engineers, and shoulder fired weapons. These gauges 
are drawn from both existing inventory and purchase of newer designs. 
The gauges are available to ``high-risk units'' as commercial off the 
shelf (COTS) devices.

                      Blast Overpressure Exposure

    Question. Scientific studies have linked repetitive blast 
overpressure exposure to structural changes in the brain, increased 
risk of PTSD, and age related neurological diseases. A. Why has this 
research not resulted in blast overpressure surveillance programs that 
provide actionable exposure data to protect and preserve our 
warfighters, particularly considering the signature injuries from Iraq 
and Afghanistan have been TBI and PTSD. B. Given the significant 
scientific evidence linking blast overpressure exposure and brain 
injury, how do you explain the hesitation to monitor to fully document 
exposures and take steps to reduce those exposures?
    Answer. The state of science and knowledge associated with 
overpressure exposure and subsequent health risks is ongoing and 
advancing. As technology and knowledge increase, awareness of potential 
risks become known, and policies and practices are adjusted 
accordingly. Overpressure detection capabilities are in use and have 
undergone successive iterations as knowledge has increased, with 
ongoing active research to further improve our ability to protect 
Sailors and Marines. While there is some emerging indication of a 
relationship between repetitive overpressure exposure and subsequent 
health risks, this is also an evolving state of science, and specific 
correlations are still unknown. As Navy Medicine actively supports 
ongoing research to better understand overpressure exposure, we 
continue to implement and advance evidence based practice to increase 
detection and treatment to maximize health and readiness of Sailors and 
Marines. A. Where standards exist, current DoD policy is designed to 
protect Sailors and Marines from known overpressure risks. However, 
advances in science in this area have shown that previously established 
standards may be inadequate, and as of yet, more refined national 
standards do not exist. The Navy continues to be engaged in 
collaborative research to improve capability to accurately measure 
overpressure, as well as increase knowledge related to effects of sub-
concussive overpressure effects. Even in advance of publication in peer 
reviewed publications, DoD proactively acts on emerging data, often 
developing policies and practices to protect Sailors and Marines. There 
are active and robust efforts to translate knowledge from research into 
actionable equipment, practices, and interventions both on the field 
and in the medical realm. B. As knowledge of exposure dose and 
cumulative effects evolves, policy and practice is evolving to protect 
Sailors and Marines from unnecessary exposure, and to evaluate and 
mitigate effects. As science emerges, policy adapts. Navy Medicine is 
currently working with leaders in the Naval Special Warfare unit in 
Southern California to develop a protocol for routine periodic 
assessment and monitoring that is not triggered by a specific event. 
This is a step forward in practice. Historically, screenings were 
triggered by ``potentially concussive events''' and did not take into 
account single or repetitive exposure to ``sub-concussive'' events. The 
effects of individual sub-concussive events may be minor and not 
identified by the Sailor, and may not even be identified with 
traditional screening tools. However, the effects of repeated exposures 
may be cumulative, and because an individual event may not trigger a 
screening protocol, establishing routine reassessment is expected to 
enable identification of cumulative effects which will allow for 
earlier intervention and mitigation. As mentioned above, ongoing 
research efforts with our partners will improve ability to accurately 
monitor exposure, as well as possible medical consequences of exposure, 
which will increase ability to mitigate effects and enhance readiness.
    Answer. A. The DoD has surveillance programs to protect our 
warfighters from exposure to BOP which are based on prior research 
efforts and the current scientific understanding. In accordance with 
occupational health standards, the BOP programs are managed within the 
DoD Auditory community and coordinated with the TBI community as 
appropriate. The link between low-threshold repetitive blast 
overpressure (BOP) exposure to ``structural changes in the brain, 
increased risk of PTSD, and age related neurological diseases,'' is 
currently debated in the medical and scientific communities (internal 
and external to the DoD) and remains a topic of research rather than 
settled science. B. The link between low-threshold repetitive blast 
overpressure (BOP) exposure to ``structural changes in the brain, 
increased risk of PTSD, and age related neurological diseases,'' is 
currently debated in the medical and scientific communities (internal 
and external to the DoD) and remains a topic of research rather than 
settled science. The DoD has taken actions to improve our understanding 
of BOP through the analysis of retrospective and prospective human 
exposure data from the training and operational environment while 
simultaneously implementing policies to monitor, protect, screen, 
diagnose, document and treat not just diagnosed TBls, but also 
potentially concussive events. Through event-driven screening for 
exposures, and early medical evaluation and documentation, the Army is 
the lead for the DoD and is maximizing the identification and treatment 
of Service members with injuries.

               Exposures in Training With Weapons Systems

    Question. DoD research studies have shown exposures in training 
with weapon systems that are routinely above currently established safe 
overpressure exposure limits. Monitoring revealed these exposures, and 
can help to identify and reduce repetitive exposures in the future. A. 
Why have the services failed to institute formal overpressure 
monitoring programs in areas where existing safety standards are 
routinely violated? B. Repetitive blast overpressure exposure and mild 
TBI impact unit readiness. Given the hidden nature of brain injury and 
the overlap of mild TBI symptoms with those commonly experienced by 
servicemembers (headache, sleep disturbance, etc), isn't monitoring 
essential to maintaining unit readiness? C. Marine Corps System Command 
has invested over $1 million in a Phase I and Phase II SBlR to develop 
a blast overpressure measurement system which was delivered in 
September 2016. Is this technology being used to monitor exposures for 
at risk personnel? If no, why not?
    Answer. A. The DoD uses a combination of environmental monitoring, 
in select higher risk training environments, with connections to active 
medical research protocols. The output of these efforts are improving 
environmental sensor capabilities and honing our understanding of BOP 
and the potential short-term or long-term clinical outcomes. The Army 
protects personnel by assessing health risks associated with the use of 
weapon systems prior to rollout and by implementing evidence based 
safety standards that are enforced by operational commanders. The Army 
no longer uses universal monitoring of blast overpressures (BOP) 
exposures in combat because this program did not produce actionable 
information. However, the Army does employ a targeted monitoring effort 
to protect personnel. B. The DoD maintains readiness through policy, 
education, and standardized clinical care to produce an educated force 
trained and prepared to recognize potential for risk and provide early 
recognition, treatment and tracking of concussive injuries to protect 
Service member health. The DoD is also funding research efforts with 
the goal of validating exposure thresholds. C. Since the development of 
the blast gauge, the Army, USSOCOM, DARPA and the USMC have all 
purchased and used blast gauges in varying capacities. The Army's 
Environmental Sensors in Training (ESiT) program is primarily using the 
earlier generation 6 gauges. However, the DoD through Walter Reed Army 
Institute of Research is actively working to assess and improve the 
gauges including the generation 7.
    Answer. The state of science and knowledge associated with 
overpressure exposure and subsequent health risks is ongoing and 
advancing. As technology and knowledge increase, awareness of potential 
risks become known, and policies and practices are adjusted 
accordingly. Overpressure detection capabilities are in use and have 
undergone successive iterations as knowledge has increased, with 
ongoing active research to further improve our ability to protect 
Sailors and Marines. While there is some emerging indication of a 
relationship between repetitive overpressure exposure and subsequent 
health risks, this is also an evolving state of science, and specific 
correlations are still unknown. As Navy Medicine actively supports 
ongoing research to better understand overpressure exposure, we 
continue to implement and advance evidence based practice to increase 
detection and treatment to maximize health and readiness of Sailors and 
Marines. A. Where standards exist, current DoD policy is designed to 
protect Sailors and Marines from known overpressure risks. However, 
advances in science in this area have shown that previously established 
standards may be inadequate, and as of yet, more refined national 
standards do not exist. The Navy continues to be engaged in 
collaborative research to improve capability to accurately measure 
overpressure, as well as increase knowledge related to effects of sub-
concussive overpressure effects. Even in advance of publication in peer 
reviewed publications, DoD proactively acts on emerging data, often 
developing policies and practices to protect Sailors and Marines. There 
are active and robust efforts to translate knowledge from research into 
actionable equipment, practices, and interventions both on the field 
and in the medical realm. B. As knowledge of exposure dose and 
cumulative effects evolves, policy and practice is evolving to protect 
Sailors and Marines from unnecessary exposure, and to evaluate and 
mitigate effects. As science emerges, policy adapts. Navy Medicine is 
currently working with leaders in the Naval Special Warfare unit in 
Southern California to develop a protocol for routine periodic 
assessment and monitoring that is not triggered by a specific event. 
This is a step forward in practice. Historically, screenings were 
triggered by ``potentially concussive events'' and did not take into 
account single or repetitive exposure to ``sub-concussive'' events. The 
effects of individual sub-concussive events may be minor and not 
identified by the Sailor, and may not even be identified with 
traditional screening tools. However, the effects of repeated exposures 
may be cumulative, and because an individual event may not trigger a 
screening protocol, establishing routine reassessment is expected to 
enable identification of cumulative effects which will allow for 
earlier intervention and mitigation. As mentioned above, ongoing 
research efforts with our partners will improve ability to accurately 
monitor exposure, as well as possible medical consequences of exposure, 
which will increase ability to mitigate effects and enhance readiness. 
C. Yes, the GEN 7 B3 sensor developed to measure blast overpressure in 
the Phase I and Phase II SMIR is currently being used by researchers 
for monitoring personnel exposures to blast. Current users include 
Naval Research Laboratory Walter Reed Army Institute of Research, 
Office of Naval Research and Special Operations Command. We are 
currently working with our Training and Education Command and Walter 
Reed to get the system sensors approved for use at the Weapons Training 
Schools. Anticipated deployment is late FY18.
    Answer. The state of science and knowledge associated with 
overpressure exposure and subsequent health risks is ongoing and 
advancing. As technology and knowledge increase, awareness of potential 
risks become known, and policies and practices are adjusted 
accordingly. Overpressure detection capabilities are in use and have 
undergone successive iterations as knowledge has increased, with 
ongoing active research to further improve our ability to protect 
Sailors and Marines. While there is some emerging indication of a 
relationship between repetitive overpressure exposure and subsequent 
health risks, this is also an evolving state of science, and specific 
correlations are still unknown. As Navy Medicine actively supports 
ongoing research to better understand overpressure exposure, we 
continue to implement and advance evidence based practice to increase 
detection and treatment to maximize health and readiness of Sailors and 
Marines. A. Why have the services failed to institute formal 
overpressure monitoring programs in areas where existing safety 
standards are routinely violated? Where standards exist, current DoD 
policy is designed to protect Sailors and Marines from known 
overpressure risks. However, advances in science in this area have 
shown that previously established standards may be inadequate, and as 
of yet, more refined national standards do not exist. The Navy 
continues to be engaged in collaborative research to improve capability 
to accurately measure overpressure, as well as increase knowledge 
related to effects of sub-concussive overpressure effects. Even in 
advance of publication in peer reviewed publications, DoD proactively 
acts on emerging data, often developing policies and practices to 
protect Sailors and Marines. There are active and robust efforts to 
translate knowledge from research into actionable equipment, practices, 
and interventions both on the field and in the medical realm. B. 
Repetitive blast overpressure exposure and mild TBI impact unit 
readiness. Given the hidden nature of brain injury and the overlap of 
mild TBI symptons with those commonly experienced by service members 
(headache, sleep disturbance, etc), isn't monitoring essential to 
maintaining unit readiness? As knowledge of exposure dose and 
cumulative effects evolves, policy and practice is evolving to protect 
Sailors and Marines from unnecessary exposure, and to evaluate and 
mitigate effects. As science emerges, policy adapts. Navy Medicine is 
currently working with leaders in the Naval Special Warfare unit in 
Southern California to develop aprotocol for routine periodic 
assessment and monitoring that is not triggered by a specific event. 
This is a step forward in practice. Historically, screenings were 
triggered by ``potentially concussive events'' and did not take into 
account single or repetitive exposure to ``sub-concussive'' events. The 
effects of individual sub-concussive events may be minor and not 
identified by the Sailor, and may not even be identified with 
traditional screening tools. However, the effects of repeated exposures 
may be cumulative, and because an individual event may not trigger a 
screening protocol, establishing routine reassessment is expected to 
enable identification of cumulative effects which will allow for 
earlier intervention and mitigation. As mentioned above, ongoing 
research efforts with our partners will improve ability to accurately 
monitor exposure, as well as possible medical consequences of exposure, 
which will increase ability to mitigate effects and enhance readiness. 
C. Marine Corps System Command has invested over $1 million in a Phase 
I and Phase II SBIR to develop a blast overpressure measurement system 
which was delivered in September 2016. Is this technology being used to 
monitor exposures for at risk personnel? If no, why not? Defer to 
Marine Corps Systems Command.
    Answer. A. Why have the services failed to institute formal 
overpressure monitoring programs in areas where existing safety 
standards are routinely violated? While operational guidelines exist 
for safe distancing from acute blast sources, we are not aware of 
existing overpressure standards from the Occupational Health and Safety 
Administration, the American Conference of Governmental Industrial 
Hygienists, the American National Standards Institute, or other 
recognized certifying standards organization, that characterize and 
establish exposure limits for repetitive or sustained blast exposures. 
B. Repetitive blast overpressure exposure and mild TBI impact unit 
readiness. Given the hidden nature of brain injury and the overlap of 
mild T81 symptoms with those commonly experienced by servicemembers 
(headache, sleep disturbance, etc), isn't monitoring essential to 
maintaining unit readiness? The current surveillance science regarding 
overpressure continues to evolve, but is currently not sufficiently 
reliable to protect against the effects of such exposures. The key 
performance element of any such monitoring device or test is its 
positive predictive value, the ability to associate exposures with 
outcomes in a reliable, predictable manner. The devices which are 
environmental sensors, have proven particularly deficient in this 
regard when tested in the field, particularly in their ability to 
correlate blast events to Traumatic Brain Injury. Until such time as 
better sensors are available, we will continue to maintain readiness 
through policy, education, and standardized clinical care to provide 
early recognition, treatment, and tracking of all concussive injuries. 
C. Marine Corps System Command has invested over $1 million in a Phase 
I and Phase 11 SBIR to develop a blast overpressure measurement system 
which was delivered in September 2016. Is this technology being used to 
monitor exposures for at risk personnel? If no, why not? The Air Force 
has not procured any elements of the system for use within the Air 
Force. Though this is a Generation 7 gauge, its extremely low detection 
threshold results in high sensing variability, thus limiting its 
effectiveness as a reliable surveillance device.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Ms. Roby and the answers 
thereto follow:]

                          Sea Hawk Helicopter

    Question. As you both know, the Sea Hawk Helicopter is the 
workhorse of the Navy as we have sustained a very high OPTEMPO for many 
years. The current Seahawk fleet of 555 aircraft is based on a five 
year old Force Structure Assessment that was updated in December 2016 
from 308 to 355 ships. If this plan is carried out, the Navy will need 
a corresponding increase in helicopters. Meanwhile the Service Life 
Extension program will ultimately take roughly 50 aircraft out of 
service each year. Procuring additional aircraft now will help address 
these needs as well as prevent a key production line from going cold. 
What are the Navy's plans for procurement of the Seahawk in the coming 
years?
    Answer. The Department is committed to building the capability and 
capacity in our Fleet, and Seahawk helicopters play a vital role in 
accomplishing these goals. The Navy operates nearly 600 MH-60 
helicopters around the world, and intends to modernize and sustain MH-
60 inventory via planned Service Life Extension Program and/or Mid-Life 
Upgrade initiatives. These programs will ensure the capabilities of 
these aircraft remain relevant well into the future. Although the 
current fleet of Seahawks is fulfilling our needs, we need to consider 
airframe delivery schedules relative to future ship delivery timelines 
before committing to purchasing additional Seahawks. The decision to 
procure or recapitalize the current MH-60 in the face of increasing 
threats will be considered alongside all of our warfighting priorities. 
Thank you for your continued support of the Navy and in particular, 
Naval Aviation.

                                Stryker

    Question. 203 Members of Congress and 10 Members of this 
Subcommittee wrote a letter to the Army earlier this year urging 
funding both for Stryker lethality and survivability upgrades. I was 
surprised to see no funding for either modernization programs in the 
President's FY18 Budget request. Given that we know that Strykers are 
critical to the 21st Century Army, what would the Army choose such a 
path? What is the impact on the industrial base?
    Answer. Although the Army has not specifically requested funding 
for Stryker lethality and survivability upgrades, the Army requested 
$97.6 million for Stryker modifications in Fiscal Year 2018 (FY18). 
This funding will support procurement of Stryker Training Aids; 
Devices; Simulators and Simulations (TADSS); Stryker Lethality 
hardware; fielding support (wholesale parts); and various Stryker 
fleet-wide modifications including addressing Command, Control, 
Communication,, Computers, Intelligence, Surveillance, and 
Reconnaissance (C41SR) obsolescence. The Army will field the 2nd 
Cavalry Regiment's 30 millimeter Strykers in 4th Quarter FY18 but has 
yet to determine the solution for the entire fleet. The Army is 
solidifying requirements for improving the lethality of the remaining 
eight Stryker Brigade Combat Teams and is scheduled to present options 
in October of this year to the Chief of Staff of the Army to determine 
lethality and survivability options moving forward. These options all 
include near-term lethality upgrades to the Stryker fleet. Although the 
Army's fourth Double V Hull (DVH) Stryker brigade is on the Chief of 
Staff of the Army's FY18 Unfunded Requirements List, the Army continues 
to modernize the DVH fleet. The DVH vehicles that have been procured 
beyond the current three DVH Brigades come equipped with the latest 
upgrades that include engine, suspension, and electrical network. These 
Strykers will go into the current DVH brigades to allow older DVH 
vehicles opportunity for these upgrades. The Army is aware of a 
potential impacts to the Stryker industrial base, and has developed 
options to mitigate any production gap between completion of DVH 
production and upgrades to current DVH Strykers.

                               Munitions

    Question. I am concerned about our stockpiles of key munitions like 
the Hellfire. What else can we do to ensure that our munitions 
stockpiles are at a sufficient level? I also noticed that funding for 
THAAD looked a bit light. I would think that we would be ramping that 
up with the increasing ballistic threats from Iran and North Korea.
    Answer. The Army continues to place emphasis on ensuring critical 
munitions are being produced, stockpiled and positioned appropriately 
to support world-wide contingencies. For example, the HELLFIRE missile 
is currently being produced at its maximum rate of 6,000 missiles per 
year.
    Additionally, a $77M investment in the HELLFIRE production line in 
FY17 will increase capacity from 6,000 missiles in FY16 to 11,000 
missiles in FY19. The Army will see results from this investment but 
deliveries of HELLFIRE missiles take place approximately 24 months 
after they are put on contract. The Army is a user of the THAAD system, 
but procurement for THAAD interceptors is programmed by the Missile 
Defense Agency using Defense Wide Funds. The FY18 budget request 
procures 34 THAAD interceptors out of a potential maximum production 
capacity of 96.

                                  LCS

    Question. A. Could you please provide an update on the transition 
from the Littoral Combat Ship to the Frigate? B. What are the 
priorities for the development of the Frigate and how will it improve 
upon the current Littoral Combat Ship? C. Is the Navy still planning to 
down-select between the two current vendors in FY19 or has that been 
pushed to FY20? Given the vulnerability of the shipbuilding industrial 
base, what would be the benefits of keeping the contract split between 
the two vendors?
    Answer. A. The 2016 Force Structure Assessment (FSA) validated the 
requirement for 52 Small Surface Combatants. To date, nine LCS have 
been commissioned into the Fleet and 19 are under contract (LCS 27 & 28 
were awarded in June 2017), with 11 of these 19 LCS in various stages 
of construction. A total of 30 LCS are planned to be procured. FY19 LCS 
quantities are under review and will be provided with the FY19 budget 
submission, following completion of the Defense Strategy Review. The 
Navy recognizes the critical nature of maintaining the shipbuilding 
industrial base while transitioning from LCS to Frigate and will weigh 
this factor in the FY19 budget submission. For FFG(X), the Navy will 
consider multiple proposed designs for a lethal, multi-mission ship 
capable of integrated strike group operations and operating 
independently in contested environments while incorporating Navy 
standard combat system elements. The Navy is evaluating capability and 
cost trade space associated with FFG(X) requirements through a Request 
for Information from industry. Additionally, a competitive industry 
environment will contribute to maturing multiple designs during the 
Conceptual Design phase with an anticipated FY20 contract award for 
Detail Design and Construction. B. FFG(X) priorities for development 
include improved lethality and survivability beyond that of LCS and the 
previous Frigate baseline. The FFG(X) will include improved radar, 
combat systems, launchers, weapons, and electronic warfare, and add 
capability in the electromagnetic maneuver warfare area that LCS does 
not currently possess. These improvements will make the FFG(X) a blue-
water capable, multi-mission ship capable of operating in contested 
environments with robust self-defense. LCS was designed to be a 
focused-mission ship with limited self-defense. FFG(X) will have the 
ability to protect itself and potentially others with improved air 
defense capability and shock-hardened systems for decreased 
vulnerability.The FFG(X) will be capable of simultaneous multi-mission 
execution in Surface Warfare (SLJW), Anti-Submarine Warfare (ASW), 
Electromagnetic Maneuver Warfare (EMW), and unmanned intelligence, 
surveillance, and reconnaissance. It will implement Navy standard 
combat system elements to achieve commonality, decreasing development 
risk while ensuring required capability, lowering life cycle costs, and 
streamlining sparing, training, and maintenance requirements. These 
improvements over LCS will enable FFG(X) to support Distributed 
Maritime Operations by extending the Fleet tactical grid with improved 
EMW, Electronic Warfare (EW), unmanned, and Command, Control, 
Communications, Computer, and Information (C4I) systems and provide 
relief for large surface combatants to conduct missions for which they 
are uniquely qualified. FFG(X) requirements will be refined and 
finalized based on industry feedback on the feasibility of meeting the 
desired performance levels and accommodating common Navy standard 
systems in the various ship designs in a cost effective manner. C. The 
Navy does not plan to down-select between the two current LCS 
shipbuilders, but instead will hold a full and open competition for the 
FFG(X) utilizing existing designs. The Navy is evaluating trade space 
associated with FFG(X) requirements through a Request for Information 
from industry that maximizes capability at the appropriate cost. 
Additionally, a competitive industry environment will contribute to 
maturing multiple designs during the Conceptual Design phase with an 
anticipated FY20 contract award for Detail Design and Construction.

                        Army Fixed Wing Aircraft

    Question. Can you please provide your thoughts on cost savings that 
can be achieved through the Army's replacement of the C12?
    Answer. The Army is in the process of replacing the legacy C-12 
fleet with a commercially available aircraft and expects to award a 
procurement contract in 3QFY18. With an estimated savings of 
approximately $100M in operation and sustainment costs over the life of 
the aircraft. These savings estimates are based on costs of similar, 
currently available, commercial aircraft.

                                 Cyber

    Question. With so much happening in the Cyber domain, I was hopeful 
That you could share your vision regarding DOD's increasing role in 
this fight and what additional resources may be required. How can we 
recruit and retain the type of cyber warriors we need for this fight?
    Answer. In addition to defending DoD's network, data, and weapons 
platforms, our cyberspace operations provide commanders with options 
across all domains to apply combined arms maneuver, create dilemmas for 
the enemy, complicate adversaries' strategic calculus, and ultimately 
gain the advantage on the battlefield for the Joint Force to win. The 
Army continues to grow its specialized fields and recruit much needed 
cyber skills, recently accessing 30 officers into the established Cyber 
branch. Both the Army's Cadet Command (USACC) and the US Military 
Academy (USMA) have been mentoring cadets to consider degrees in 
Science, Technology, Engineering and Mathematics (STEM) fields for the 
last several years. As a result, the STEM degree average rose to 26% of 
FY17 new lieutenants commissioned through ROTC, from 15.5% in FY12. 
USMA conducts STEM outreach for diverse youth as part of its recruiting 
strategy, and its Cyber Research Center and Cyber Center of Excellence 
prepares cadets in the acquisition, use, management, and protection of 
information. The Army is also executing a direct commissioning pilot 
program into cyber specialties to uniquely skilled and experienced 
individuals who meet program requirements. On the enlisted side, many 
of our highest level enlistment and reenlistment incentives are 
dedicated to cyber and other information technology fields. The Army 
also offers a variety of compensation incentives to recruit quality 
civilian talent into the cyber workforce, including up to 25% of the 
annual rate of basic pay for newly appointed employees, a higher pay 
rate through the Superior Qualifications and Special Needs Pay-Setting 
Authority, and up to $60,000 to repay student loans for a highly 
qualified employee. The Army retention program retains sufficient 
numbers of retention-eligible Soldiers consistent with fluctuating end 
strength requirements. The Army developed Special Duty (SD) and 
Assignment Incentive Pay (AlP) incentives to focus on Soldiers serving 
in critical cyber work roles, which complement the professional 
development and training benefits that also enhance the ability to 
recruit and retain quality personnel. The Army offers its civilian 
cyber workforce similar opportunities for career growth and formal 
training, as well as retention and relocation incentives to retain high 
performing employees.

    [Clerk's note.--End of questions submitted by Ms. Roby. 
Questions submitted by Ms. McCollum and the answers thereto 
follow:]

                       Fighter Oxygen Deprivation

    Question. Gentlemen, I want to ask you about what appears to be a 
growing problem in which pilots across our services are reporting 
symptoms of hypoxia and oxygen deprivation. In the past few months, 
Senior Navy officials have reported a rising rate of psychological 
episodes experienced by F-18 pilots during flights. The Navy also 
halted the entire fleet of T-45 trainer jets because of pilots' 
breathing concerns. And then just last week the Air Force temporarily 
stopped flying F-35 fighter jets at Luke Air Force Base due to a number 
of incidents where pilots were reporting symptoms of hypoxia. It seems 
like we have a serious problem that is not unique to one fleet and 
extends across the services. Safety of flight is non-negotiable, and 
the increasing number of pilots suffering from oxygen deprivation is 
simply unacceptable. Gentlemen, how concerned are you about these 
reports and what is being done right now to ensure that our pilots are 
operating in a safe environment?
    Answer. The DOD and the Services are extremely concerned about 
aircrew safety related to hypoxia and oxygen deprivation. This is the 
number one safety issue, with the utmost priority to fix. All available 
assets (e.g. laboratories, specialists and test facilities across DOD 
and Industry) and expertise (e.g., NASA, Industry and Academia) are 
being utilized to assess, isolate and correct root cause(s). As the 
scientific and engineering investigations work toward determining the 
root causes, the Services are concentrating on four major pillars of 
action: to alert, monitor, protect and prevent hypoxia and oxygen 
deprivation. Although aircraft oxygen systems vary in complexity, there 
are two major potential contributors to hypoxia and oxygen deprivation 
that are common: the oxygen system not providing sufficient oxygen to 
the aircrew and cockpit pressure fluctuations. There are multiple 
technical paths being pursued, to include aircraft system hardware re-
designs and component improvements; maintenance and support process 
implementation and modification; interim operational limitations and 
modified flight procedures; aircrew and aircraft sensor integration; 
aircrew flight gear modifications; and aircrew awareness and training--
to name a few. The department has deemed this a resources unconstrained 
approach and will continue to receive maximum attention and 
prioritization until the risks of hypoxia and oxygen deprivation are 
resolved.

                         DoD Transgender Policy

    Question. Mr. Secretary, we are approaching the July 1st deadline 
for the Defense Department to implement the policy that lifted the ban 
on transgender personnel from serving in the military. Is the Pentagon 
considering delaying this decision and if this is the case, was this a 
decision that was made internally at the Pentagon or was this direction 
that came from the White House?
    Answer. STATEMENT OF THE SECRETARY OF DEFENSE ON MILITARY SERVICE 
BY TRANSGENDER INDIVIDUALS: The Department of Defense has received the 
Presidential Memorandum, dated August 25, 2017, entitled ``Military 
Service by Transgender Individuals.'' The Department will carry out the 
President's policy direction, in consultation with the Department of 
Homeland Security. As directed, we will develop a study and 
implementation plan, which will contain the steps that will promote 
military readiness, lethality, and unit cohesion, with due regard for 
budgetary constraints and consistent with applicable law. The soon 
arriving senior civilian leadership of DoD will play an important role 
in this effort. The implementation plan will address accessions of 
transgender individuals and transgender individuals currently serving 
in the United States military. Our focus must always be on what is best 
for the military's combat effectiveness leading to victory on the 
battlefield. To that end, I will establish a panel of experts serving 
within the Departments of Defense and Homeland Security to provide 
advice and recommendations on the implementation of the President's 
direction. Panel members will bring mature experience, most notably in 
combat and deployed operations, and seasoned judgment to this task. The 
panel will assemble and thoroughly analyze all pertinent data, 
quantifiable and non-quantifiable. Further information on the panel 
will be forthcoming. Once the panel reports its recommendations and 
following my consultation with the Secretary of Homeland Security, I 
will provide my advice to the President concerning implementation of 
his policy direction. In the interim, current policy with respect to 
currently serving members will remain in place. I expect to issue 
interim guidance to the force concerning the President's direction, 
including any necessary interim adjustments to procedures, to ensure 
the continued combat readiness of the force until our final policy on 
this subject is issued.

    [Clerk's note.--End of questions submitted by Ms. McCollum. 
Questions submitted by Mr. Ryan and the answers thereto 
follow:]

                                  F-35

    Question. A. For such an expensive aircraft, I'm concerned about 
our pilots having to self-limit their flying in this way. How long do 
we anticipate having this issue with the F-35? Are we concerned about 
adversaries exploiting this weakness by adjusting their tactics against 
the F-35? B. Do you anticipate further slippage in the F-35 schedule?
    Answer. A. The restriction on the weapons bay doors was removed in 
March 2016 as a result of further analysis, test, and requalification 
of the limiting component, which was the Remote Input/Output unit 
within the weapons bay. With this restriction lifted there are no 
concerns related to adversary exploitation. B. Since the flight 
restriction related to excessive weapons bay temperature was lifted in 
March 2016, the F-35 program does not anticipate any related schedule 
slippages. In a broader context, the F-35 program continues to make 
steady progress toward the completion of its System Development and 
Demonstration (SDD) phase and delivery of full Block 3F capability. 
Following the 2011 re-baseline, the program of record estimate for the 
end of developmental flight test was October 31, 2017. Since the time 
of this re-baseline, the F-35 Joint Program Office has recognized a 3 
to 4 month risk associated with this date, putting the end of SDD 
flight test in early CY 2018. The program is tracking to completion of 
SDD flight test in that timeframe. Delivery of full Block 3F capability 
remains on track as well; current estimates for delivery of full Block 
3F capability by variant are shown in the table below.

                    FULL BLOCK 3F CAPABILITY DELIVERY
------------------------------------------------------------------------
    2011 Post Nunn-McCurdy APB Dates             Current Estimate
------------------------------------------------------------------------
Objective: August 2017.................  F-35A: October 2017 (w/o AIM-
                                          9X).
                                         November 2017 (w/AIM-9X).
                                         F-35B: November 2017 (1.3
                                          Mach).
                                         May 2018 (1.6 Mach).
Threshold: February 2018...............  F-35C: January 2018 (1.3 Mach).
                                         February 2018 (1.6 Mach).
------------------------------------------------------------------------

    The delivery of full capability for all 3 variants falls within the 
2011 Acquisition Program Baseline dates with the exception of the B-
model envelope between 1.3 and 1.6 Mach. This is due to the fact that 
only one B-model test aircraft (BF-3) has been properly instrumented 
for the testing needed to reach 1.6 Mach.

                           Weaponized Drones

    Question. Do you have adequate funding and authorizations to deal 
with emerging threats, such as weaponized drones? How can Congress 
support you better?
    Answer. The Department has adequate authorities to respond to 
emerging threats, such as weaponized drones, in zones of active 
conflict overseas. For instance, Rapid Acquisition Authority (RAA) 
provided under section 806 (c) of Public Law 107-314, enables the 
Secretary or Deputy Secretary to waive certain laws, and, with certain 
limitations, permit the use of any funds available to the Secretary, in 
order to respond quickly to Urgent Operational Needs and to expedite 
delivery of capabilities to the warfighter. DoD authorities to counter 
potential (weaponized) drone threats in the homeland are constrained by 
provisions of Federal law. Congress--in the FY2017 NDAA--established 
section 130i of title 10, U.S. Code, which authorized the Secretary to 
mitigate threats posed by drones to the safety or security of 
facilities and assets related to three DoD mission areas, including 
nuclear deterrence, missile defense, and the national security space. 
DoD is seeking a modest expansion of this authority in the FY2018 NDAA 
to, in part, incrementally expand the covered missions detailed in the 
authority. The Department will continue to plan for and resource 
capabilities to counter weaponized small unmanned aircraft consistent 
with the risks these threats pose and their overall priority in future 
President's Budget requests.

                         Additive Manufacturing

    Question. A. How are we empowering our servicemembers to use 
additive manufacturing? Are you receiving sufficient funding? B. Is 
there work to include contractual requirements for the manufacturing 
base to provide MILSPECS for additive manufacturing parts when they 
cease carrying existing product lines?
    Answer. For several years the DoD Manufacturing Technology 
programs, under the collaborative umbrella of the Joint Defense 
Manufacturing Technology Panel, have been working to enhance standards 
for technical data packages (TDPs). A TDP is ``a technical description 
of an item adequate for supporting an acquisition strategy, production, 
engineering, and logistics support. The description defines the 
required design configuration and procedures to ensure adequacy of item 
performance. It consists of all applicable technical data such as 
drawings, associated lists, specifications, standards, performance 
requirements, quality assurance (QA) provisions, and packaging 
details.'' Citation needed. Although TDPs are applicable to all types 
of manufacturing (not just additive manufacturing), their widespread 
use would greatly enhance DoD's ability to make parts after the 
original manufacturer has ceased production. Regardless of whether 
parts are made additively or otherwise, each acquisition program office 
is responsible for deciding whether to include delivery of TDPs as part 
of the contract deliverables. While providing TDPs benefits DoD by 
providing information needed to make the parts indefinitely, industry's 
concerns include: (1) TDPs are often considered proprietary, and 
manufacturers may only agree to document and deliver the data at a 
significant expense to the DOD; (2) the packaging and delivery of TDPs 
may require special handling which adds further expense; and (3) there 
is a wide variance in the capabilities of the acquiring organizations 
to validate and store TDPs. Through the DoD-wide AM Business Model 
Wargame working group, the Department is working with industry to 
address the concerns with acquisition contract language related to 
technical data. The various efforts in this area hope to address both 
concerns of industry and the needs of the Department.

                         Translators and Visas

    Question. A. Can you comment on the impact of our translators to 
the safety of our military forces? B. Can you discuss how strengthening 
our ties with allied citizens in these regions and honoring our 
commitment to our translators preserves the safety of our forces? C. Do 
you recommend that we continue to authorize and appropriate Special 
Immigrant Visas?
    Answer. Translators provide a valuable service to our military 
forces serving overseas, particularly in areas of active combat. I 
agree that our translators should be well compensated for their service 
in order to promote continued support amongst our partners. The 
authorization and appropriation of Special Immigrant Visas however, 
needs to be weighed in the larger context of visa authorizations as 
determined by the State Department.

                               INF Treaty

    Question. A. From your perspective as the senior military advisor 
are Russian treaty violations a risk to US Forces and commitments? Are 
we unduly constrained by treaties which only our nation is complying 
with, such as the INF Treaty? B. Do you find our defense unduly 
constrained by the INF Treaty given that we appear to be the only 
nation in compliance with this agreement? C. One additional area the 
General Dunford acknowledges as a risk to our strategic advantage are 
mounting global ballistic missile threats. I am aware that growth in 
missile defense capabilities for the United States have been paused 
while the administration conducts a Ballistic Missile Defense Review. 
Do you have an anticipated timeline for completion of the BMDR?
    Answer. Currently, we are able to satisfy our military requirements 
while remaining in compliance with the INF Treaty. However, any treaty 
violation that could allow Russia to unlawfully gain a military 
capability advantage poses a potential threat to U.S. forces. With 
respect to the INF Treaty, I believe the status quo, in which the 
United States remains in compliance with the Treaty and the Russians 
are in violation of it, is untenable. The INF Treaty is in our national 
security interest if all parties comply with their Treaty obligations. 
We will continue to engage Russia--directly and together with our 
allies--to urge Russia to return to full and verifiable compliance with 
its Treaty obligations, but our patience is not unlimited. Regarding 
missile defense, our goal is to complete the Ballistic Missile Defense 
Review in the October timeframe. However, I would like to assure you 
that our development of missile defense capabilities is not on hold 
during this process. The approximately $8 billion fiscal year 2018 
budget request for the Missile Defense Agency (MDA) missile defense 
programs includes funding for completing construction of the Aegis 
Ashore site in Poland, continuing development of the redesigned kill 
vehicle, developing a long-range discriminating radar, beginning work 
on a new radar in Hawaii, and continuing funding for advanced 
discrimination sensor technology and space-based kill assessment 
programs. We also remain on track to complete the deployment of 8 more 
interceptors in Alaska by the end of this year, bringing the total to 
44, and we are moving forward with efforts to bolster our defenses 
against advanced cruise missiles.

                            Industrial Base

    Question. A. Is reliance on non-American-made products a risk to 
our national security? B. Could your share where you feel the 
Department will find its biggest challenges in the industrial base? 
What can Congress do to help you build up these lost industries? Is the 
solution more funding or more time?
    Answer. The Department understands there may be security concerns 
in some key technology and production areas that support maintaining 
our technical dominance. These security concerns might be associated 
with critical technology areas such as microelectronics, robotics, 
artificial intelligence, and virtual reality, or security-of-supply 
concerns resulting from foreign dependency on products from adversarial 
nations. However, reliance on non-American made products is necessary 
to take advantage of the cost and technology benefits offered by access 
to global suppliers and many of our non-American made products are 
provided by trusted allies. The Department continues to identify and 
address risks related to supply-chain disruption, counterfeit parts, 
sabotage, and theft of critical American defense technology. Our job is 
to create a balance that allows us to benefit from global markets 
without putting at risk our national security. The biggest industrial 
base challenge the Department is facing is to sustain a healthy and 
resilient industrial base. DoD is concerned about the viability of 
critical elements of the supply chain at the lower-tiers for defense-
unique markets and heavily commercial markets where DoD has very 
limited participation. On July 21, the President signed an Executive 
Order requesting the Department, in coordination with Commerce, Labor, 
Energy, and Homeland Security, to provide a report assessing the 
products and materials essential to national security and the 
resiliency of the manufacturing and defense industrial base and supply 
chains to support national security needs. In the next months, we will 
be working with multiple government agencies and industry to do the 
required assessment and provide recommendations to mitigate identified 
issues. The solutions to mitigate industrial base risks involve both 
adequate funding and time to implement them. The Department thanks you 
for your continuous support to the programs and authorities that allow 
us to sustain an innovative and healthy defense industrial base. 
Programs like the Manufacturing Institutes, the Industrial Base 
Analysis and Sustainment Funds, Defense Production Act Title Ill, and 
ManTech are helping us to work with industry to identify and reduce 
supply-chain risks. We ask you to continue supporting sufficient and 
timely investments to sustain the industrial base.

                            AAFES and NEXCOM

    Question. A. What is the status of healthy, convenient food options 
for our servicemembers? Are you getting the support necessary from 
AAFES and NEXCOM to provide healthy choices for our servicemembers? B. 
What can we do to encourage a healthy style of eating that will support 
our servicemembers career and fitness needs? For example, would it help 
if every base has a Nutrition Coordinator to help unify the efforts of 
dining facilities and convenience food outlets elsewhere on base?
    Answer. A. Healthy, convenient food options continue to expand Army 
wide. Building on the success of the DoD Healthy Base Initiative, the 
Healthy Army Communities (HAC) program commenced as a coordinated Army-
wide program to improve the health and wellness of the total Army 
community, including active duty, reservists, families, civilians and 
retirees. The program focuses on changing the environment to make the 
healthy choice easier while helping individuals change their behavior 
towards healthier lifestyles. This includes the reshaping of Army 
garrison communities to be healthier places to live, learn, eat, work, 
play and shop. AAFES is a very committed partner with HAC and has 
already begun identifying brand transition opportunities and contract 
timelines to consider brands with healthier offerings. AAFES also 
provides for healthier options through the ``Be Fit'' program of vetted 
healthy nutritional criteria that's highlighted in the Express 
locations with Healthy Only item end caps and new refrigerated island 
coolers featuring healthy only grab and go products. The program is 
more than just food, but also aligns with active wear and fitness 
equipment to promote overall health and wellness. Additionally, AAFES 
is actively participating in the development and implementation of the 
Military Nutritional Environment Assessment Tool (m-NEAT 2.0) and 
working with the DoD Food and Nutrition Subcommittee. B. We believe HAC 
and the newly launched Army Holistic Health and Fitness Initiative are 
the most effective way ahead to promote healthy eating, increased 
physical activity, improved sleep and the reduction of tobacco products 
in the total Army community. Stakeholders are in the process of 
coordinating and developing action plans with short and long-term 
initiatives. These plans will be used as a foundation for implementing 
both short and long-term improvements. In FY18, ten Army Installations 
will conduct Innovation Demonstrations that will highlight and measure 
many of the efforts and initiatives developed to encourage and promote 
health and wellness to the total community. These demonstrations will 
take full advantage of the many programs and support structures already 
in place to support the community and will increase education and 
awareness.
    Answer. A. Healthy food options are generally available to Sailors 
who, depending on their messing status, have a variety of choices for 
where they obtain their food. For the approximately 70% of Sailors who 
live off-base and receive a basic allowance for subsistence (and those 
who live on base but are authorized to mess separately) food options 
include the base or ships galley, the commissary, civilian grocery 
stores, NEXCOM mini-markets, and both on-base and off-base restaurants. 
Sailors provided subsistence in kind are entitled to take all of their 
meals at the galley, which always provides healthy options, but are 
free to use their income to purchase food at commercial establishments 
if they desire. NEXCOM supports healthy eating across the spectrum of 
food sales. The food and merchandising experts, with the guidance of 
the staff dietician, work to ensure a balance of eating options at each 
installation. As part of NEXCOM's ``A Better You Program,'' exercise 
and healthy lifestyle products and information are promoted, and 
healthy eating is addressed through: 1. Food Service--NEXCOM provides 
name-brand food service as a complement to government dining facilities 
(where available) and home eating. Food service contracts include a 
clause requiring food partners to post nutritional information on their 
food offerings. The Subway chain represents approximately 20% of 
NEXCOM's fast food portfolio and is widely recognized as an industry 
leading healthy brand, and each restaurant is encouraged to provide 
healthy menu options. As new or existing spaces become available, new 
partners that promote healthier eating are pursued. 2. Retail--NEXCOM 
has extended a Fresh Food Initiative to 87 locations such as minimarts 
and micromarkets, across CONUS and OCONUS. These locations feature a 
full assortment of grab-and-go healthy options such as whole and cut 
fruits, gourmet wraps, salads, sandwiches, vegetables and yogurt. B. 
Providing for the optimal nutritional fitness and well-being of Service 
members, without unreasonably infringing on their personal liberties, 
is a priority for the Navy. Optimized nutrition is a significant 
component of preventive health strategies with potentially significant 
pay back in maintaining mission readiness, long-term health, and well-
being while reducing personnel losses, subsequent accessions and 
training, and direct health treatment costs. Sailor's food choices are 
affected by taste, price, convenience, and nutritional literacy. The 
Navy has several programs to improve nutritional literacy, including 
``Go For Green'' food labeling in the galleys and the Navy Operational 
Fitness and Fueling Series (NOFFS). However, while Sailors are 
generally aware of the healthy food choice, they often choose less 
nutritious options because of taste, price or convenience. The proposed 
example of a Nutrition Coordinator on every base is likely to have a 
low return on investment because of the challenge posed by complex mix 
of appropriated, non-appropriated and off-base food options and the 
vastly different business imperatives they face.
    Answer. A. Marine Corps Manpower and Reserve Affairs' (M&RA) 
Business & Support Services Division (MR) encompasses the Marine Corps 
Exchange (MCX), Marine Marts, Vending, Tactical Field Exchanges and MWR 
Food Operations (clubs, food courts, snack bars, and restaurants). 
These are valued non-appropriated fund (NAF) entities that provide 
critical financial support to a myriad of MWR, and Family Readiness 
programs. These venues provide a variety of items geared towards the 
promotion of an active healthy lifestyle. Our MCX has increased the 
number of healthy grab-and-go offerings at Marine Marts, highlighting 
``Better for You'' products including beverages, fresh fruits, yogurts, 
smoothies, boiled eggs, snack foods, sandwiches, salads, as well as, 
creatively packaged lunch kits designed as portion-controlled 
convenience offerings. Similarly, Marine Corps NAF food courts, snack 
bars and restaurants feature several healthier concepts such as 
Wheatfields, LifeJuice, Panera Bread, Chopz and Jamba Juice. 
Additionally, many Marine Corps clubs offer reduced portion sizes, 
expanded salad bars, and alternative sides such as fruit or steamed 
vegetables. B. The Marine Corps actively participates in several DoD-
led programs to develop new ways to promote healthy lifestyles for 
Marines and their families, including: DoD's Total Force Fitness 
initiative, which is a framework for building and maintaining health, 
readiness and performance; Operation Live Well, a DoD wellness 
campaign, aimed to make healthy living an easy choice for service 
members, retirees, civilians and their families; and DoD's Nutrition 
Committee. We have also partnered with Cornell University, the National 
Association of Convenience Stores, and Pepsi & Coca-Cola to test new 
ways of promoting healthy consumption choices. A mandated education 
component by credentialed nutritional educators would assist in 
demystifying purported ``healthy'' items. Transforming available food 
options on the installations by nutritionally educated Marines who 
choose to spend their food dollars on healthy options, rather than on 
less healthy options.

    [Clerk's note.--End of questions submitted by Mr. Ryan. 
Questions submitted by Ms. Kaptur and the answers thereto 
follow:]

                   Domestic Small Gas Turbine Engines

    Question. What steps are the DoD taking to preserve a dual domestic 
source for procurement and maintenance of small gas turbine engines 
(the type used to power Harpoon and F-107 missiles)?
    Answer. Small gas turbine engines power the U.S. Navy Harpoon, 
Standoff Land-Attack Missile-Expanded Response (SLAM-ER) and Tomahawk 
weapons. The Harpoon and SLAM-ER are powered by J402 engines, which 
Teledyne Technologies manufactures. Tomahawks are powered by F107 and 
F415 engines manufactured by Williams International. Both Teledyne 
Technologies and Williams International are domestic companies. 
Currently, these weapons are in production for the U.S. Navy or foreign 
military sales. Additionally, there are maintenance activities for 
sustainment that include tasks performed by these engine companies. 
Looking to the future, Williams International, Teledyne Technologies, 
and Florida Turbine Technologies (also a domestic company) are 
individually partnered with the Department of Defense under the 
Versatile Affordable Advanced Turbine Engine (VAATE) Consortium. This 
consortium aligns technology investments with projected requirements of 
future programs. The domestic industrial base for small gas turbines is 
assessed as healthy. This position is supported by participation of two 
domestic engine companies in production and maintenance activities of 
current weapon systems along with membership/involvement of three 
domestic sources in technology advancement of small gas turbines. This 
level of participation and interest is providing an innovative 
environment that includes competitive pressure.

                          U.S. Steel Industry

    Question. What are the DoD's concerns as related to our national 
security due to the stresses on our U.S. Steel Industry caused by 
severe dumping by China, South Korea and Russia?
    Answer. The Department's concerns related to our national security 
resulting from stresses caused by excess foreign production capacity on 
the U.S. Steel Industry are generally associated with potential adverse 
impacts and negative effects on the viability of U.S. steel producers. 
DoD needs a healthy U.S. steel industry, but military uses of steel 
represent approximately three percent of U.S. steel demand. Therefore, 
the Department believes that DoD programs will be able to acquire the 
steel necessary to meet national defense requirements.

                               Beryllium

    Question. What is the DoD doing to preserve our single source of 
domestic Beryllium?
    Answer. In 2005, the Department of Defense (DoD) executed and 
successfully completed a 9-year beryllium domestic-production, 
capacity-development project. The project's purpose was to establish 
and preserve an assured supply of beryllium for U.S. defense 
requirements. The Department is undertaking a refreshed industrial base 
assessment of beryllium. The purposes of this assessment are to 
identify any new unmet U.S. defense requirements for beryllium, and if 
so, the potential need for further industrial base investment by the 
Department in related areas. We expect to complete this assessment 
during 2018.

                             Russian Threat

    Question. Please summarize the nature of the Russian threat.
    Answer. Russia presents the greatest array of military challenges 
and remains the only potential existential threat to the United States. 
They continue to invest in a full-range of capabilities designed to 
limit our ability to project power into Europe and meet our alliance 
commitments to NATO. These capabilities include long-range conventional 
strike, cyber, space, electronic warfare, ground force and undersea 
capabilities. Russia is also modernizing all elements of its nuclear 
triad. These modernization efforts must also be viewed in the context 
of their activities in the Ukraine, Crimea, and Syria. Russia's 
operations, capability development, and asymmetric doctrinal and 
strategic approaches are designed to counter NATO and U.S. power 
projection capability, and undermine the credibility of the NATO 
alliance.

                               Article 5

    Question. Please state for the record, why are the European 
Reassurance Initiative and affirmation of our Article 5 commitment so 
critical to democracy?
    Answer. The North Atlantic Treaty is founded on the principles of 
democracy, individual liberty, and the rule of law. The Treaty reflects 
the commitment of all NATO Allies to safeguard the freedom, common 
heritage and civilization of their people, to promote stability and 
well-being in the North Atlantic area, and to unite their efforts for 
the preservation of peace and security and for collective defense. 
Article 5 is the foundation on which this commitment is based, and has 
ensured the security of the Euro-Atlantic area since 1949. The U.S. 
commitment to Article 5 not only reassures our NATO Allies that the 
U.S. will take action, in the event of an armed attack against one of 
more of them, to restore and maintain the security of the North 
Atlantic area; but it also serves to deter any potential aggressor from 
conducting an armed attack against any NATO nation, knowing the U.S. 
will respond, in accordance with Article 5. The 2014 Russian occupation 
and annexation of Crimea, and subsequent Russian backed and led 
fighting in the Donbass, has shown Russia's willingness to use force to 
achieve its objectives, and disregard for the sovereignty of 
independent nations. These Russian actions have led to concern and 
uncertainty in many of the democratic nations of Europe. The European 
Reassurance Initiative is a tangible demonstration of our commitment to 
democracy in Europe, reassures our democratic allies that we are 
committed to their sovereignty, and shows Russia that their efforts to 
undermine democracy in Europe will not be tolerated, and will be met 
with force if needed.

    [Clerk's note.--End of questions submitted by Ms. Kaptur.]

    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
